<html>
<title> - AN OVERVIEW OF THE FEDERAL R&D BUDGET FOR FISCAL YEAR 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                       AN OVERVIEW OF THE FEDERAL
                    R&D BUDGET FOR FISCAL YEAR 2006

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2005

                               __________

                            Serial No. 109-4

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-563                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                           February 16, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    22
    Written Statement............................................    23

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    24
    Written Statement............................................    25

Prepared Statement by Representative Vernon J. Ehlers, Member, 
  Committee on Science, U.S. House of Representatives............    26

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    28

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    29

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    30

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    30

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    31

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    31

                               Witnesses:

Dr. John H. Marburger, III, President's Science Adviser; 
  Director, Office of Science and Technology Policy
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    44

Dr. Samuel W. Bodman, Secretary of Energy, U.S. Department of 
  Energy
    Oral Statement...............................................    44
    Written Statement............................................    47
    Biography....................................................    48

Dr. Arden L. Bement, Jr., Director, National Science Foundation
    Oral Statement...............................................    48
    Written Statement............................................    50
    Biography....................................................    54

Mr. Theodore W. Kassinger, Deputy Secretary, U.S. Department of 
  Commerce
    Oral Statement...............................................    55
    Written Statement............................................    57
    Biography....................................................    66

Dr. Charles E. McQueary, Under Secretary for Science and 
  Technology, Department of Homeland Security
    Oral Statement...............................................    66
    Written Statement............................................    68
    Biography....................................................   116

Discussion.......................................................   116

             Appendix 1: Answers to Post-Hearing Questions

Dr. John H. Marburger, III, President's Science Adviser; 
  Director, Office of Science and Technology Policy..............   146

Dr. Samuel W. Bodman, Secretary of Energy, U.S. Department of 
  Energy.........................................................   154

Dr. Arden L. Bement, Jr., Director, National Science Foundation..   167

Mr. Theodore W. Kassinger, Deputy Secretary, U.S. Department of 
  Commerce.......................................................   168

Dr. Charles E. McQueary, Under Secretary for Science and 
  Technology, Department of Homeland Security....................   172

             Appendix 2: Additional Material for the Record

Insert for the Record from Dr. Samuel W. Bodman in response to 
  Representative Jerry F. Costello...............................   186

 
       AN OVERVIEW OF THE FEDERAL R&D BUDGET FOR FISCAL YEAR 2006

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       An Overview of the Federal

                    R&D Budget for Fiscal Year 2006

                      wednesday, february 16, 2005
                          11:00 a.m.-1:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, February 16, 2005, the House Science Committee will 
hold a hearing to consider President Bush's fiscal year 2006 (FY06) 
budget request for research and development (R&D). Five Administration 
witnesses will review the proposed budget in the context of the 
President's overall priorities in science and technology. The Science 
Committee will hold a separate hearing on February 17th to examine the 
budget request for the National Aeronautics and Space Administration 
(NASA).

2. Witnesses

Dr. John H. Marburger, III is Director of the Office of Science and 
Technology Policy (OSTP), the White House science office. Prior to 
joining OSTP, Dr. Marburger served as President of the State University 
of New York at Stony Brook and as Director of the Brookhaven National 
Laboratory.

Dr. Samuel W. Bodman is Secretary of the Department of Energy (DOE). 
Prior to joining DOE, Secretary Bodman served as Deputy Secretary of 
the Treasury and, before that, Deputy Secretary of the Department of 
Commerce (DOC). He also has served in executive positions in several 
publicly owned corporations, and as a professor of chemical engineering 
at the Massachusetts Institute of Technology.

Dr. Arden Bement is the Director of the National Science Foundation 
(NSF). Prior to his appointment as NSF Director, Dr. Bement was 
Director of the National Institute of Standards and Technology (NIST) 
and before that he was Professor and head of the School of Nuclear 
Engineering at Purdue University.

Mr. Theodore W. Kassinger is the Deputy Secretary of the Department of 
Commerce. Previously, Mr. Kassinger served as the General Counsel of 
the Department.

Dr. Charles E. McQueary is the Under Secretary for Science and 
Technology (S&T) at the Department of Homeland Security (DHS). Prior to 
joining the Department, Dr. McQueary served as President of General 
Dynamics Advanced Technology Systems, and as President and Vice 
President of business units for AT&T, Lucent Technologies, and as a 
Director for AT&T Bell Laboratories.

3. Background

Overall Budget
    On February 7, 2005, President Bush delivered his FY06 federal 
budget to Congress. Overall discretionary spending is increased by 2.1 
percent--roughly equivalent to projected inflation. Consistent with 
budgets of recent years, discretionary account increases are focused 
heavily on Department of Defense (DOD) and Department of Homeland 
Security (DHS) activities, which grow by just under five and seven 
percent, respectively. Non-defense, non-homeland security discretionary 
spending is reduced by nearly one percent.

Research and Development (R&D) Budget
    The President's R&D budget proposes to spend $132.3 billion, an 
increase of $733 million, or one percent, over FY05.\1\ The largest 
increases for R&D go to the National Aeronautics and Space 
Administration (NASA, $537 million, or 4.8 percent), DOD ($417 million, 
or 0.06 percent), and DHS ($282 million, or 23.8 percent). All other 
agencies collectively receive an average decrease of 1.0 percent. The 
one percent R&D growth reflects increases in development ($1.2 billion, 
or two percent).\2\ Applied research ($3 million, or 0.0 percent) and 
basic research (^$320 million, or ^1.2 percent) are flat and slightly 
lower, respectively.
---------------------------------------------------------------------------
    \1\ A complete federal R&D spending table is provided at the end of 
the charter in Appendix II.
    \2\ Defense development is by far the largest factor in the overall 
R&D increase, accounting for $1.4 billion in added spending.
---------------------------------------------------------------------------
Science and Technology Budget
    The Federal Science and Technology (FS&T) budget is a way of 
presenting the budget that was recommended by the National Academy of 
Sciences; it focuses on spending for actual research by excluding areas 
such as defense development, testing, and evaluation. In the FY06 
budget, funding for FS&T declines by 1.4 percent, to $60.8 billion. The 
FS&T budgets of DOC and DOE are particularly affected, receiving 14 
percent and five percent cuts, respectively.

Administration Highlights and Perspective
    Consistent with the President's overall budget priorities, the 
request for R&D focuses on homeland security and defense spending while 
limiting the growth in overall spending. The Administration argues that 
science, technology, and innovation are given relative priority in the 
budget, noting that non-defense budget authority declines by 0.26 
percent, while non-defense R&D budget authority is increased by 0.74 
percent.
    The Administration also emphasizes several ways of looking at the 
R&D budget that go beyond year-to-year proposals. For example, the 
budget notes that in FY06, 13.6 percent of total discretionary outlays 
will go to R&D, the highest share since 1968 and the heyday of the 
Apollo program. The budget also compares the request level for many 
agencies and programs to FY01, underscoring the fact that overall R&D 
has increased 45 percent since 2001 (an annualized rate of 7.7 
percent), and funding for NSF and NASA have increased by 25 and 19 
percent, respectively, since FY01.
    Critics counter that figures based on R&D do not give a clear 
picture of what has been happening to research because the category is 
so weighted toward development. They also point out that even in the 
research category some agencies have done far better than others. DOD 
alone accounts for almost 70 percent of R&D increases over the last 
five years, and the National Institutes of Health (NIH) and DHS account 
for almost 75 percent of the remaining civilian R&D increases. During 
that same period, trends at other agencies range from modest increases 
(DOE: 10 percent, and that includes defense development programs) to 
modest cuts (DOC: -4 percent; EPA: -5 percent). Critics also note that 
the figures that start in FY01 are based on final appropriations, which 
reflect Congressional as well as Administration actions. Similarly, 
critics note that the figures that start with FY01 include 
Congressional earmarks, which for other purposes (see below), the 
Administration backs out of its baseline spending figures.
    For a number of science agencies (perhaps most notably the National 
Oceanic and Atmospheric Administration, or NOAA), the Administration 
argues that it is proposing significant programmatic increases even 
though the total proposed for FY06 is below that for FY05. That is 
because the FY05 number includes numerous Congressional earmarks for 
specific grants. The Administration argues that the earmarks should be 
removed from the FY05 baseline to get a truer picture of what is being 
proposed. The budget document reflects the Administration's continued 
and growing concern over Congressional earmarks within R&D accounts. 
The budget cites a study by the American Association for the 
Advancement of Science that calculated that earmarks for R&D at 
academic institutions increased by nine percent from 2004 to 2005, and 
now total over $2.1 billion--up from $296 million only ten years ago. 
The Chronicle of Higher Education has estimated that R&D earmarks now 
account for eight percent of all federal funding to colleges and 
universities.
    The Administration also emphasizes that evaluations of agency and 
program management are considered in determining proposed budgets. 
Agencies are evaluated by the Executive Branch Management Scorecard, 
which rates agencies with green, yellow, and red lights in areas such 
as financial management, e-government, and human capital management. 
Agencies under the Science Committee's jurisdiction scored very well on 
these evaluations. Of the 26 agencies evaluated, DOE, NASA, and NSF 
were three of only seven to receive three or more green lights.

4. Primary Issues

    Here are some key questions raised by the FY06 budget request along 
with relevant background:

Overall Funding Levels and Balance
    Regardless of how science fares in the proposed FY06 budget in 
comparison with other program areas, the figures are unarguably quite 
tight and are projected to remain so for several years. What would the 
impact of such austerity be on the research agenda, on U.S. leadership 
in science and technology, on the production of future scientists and 
engineers? The budget also would do little to increase the relative 
strength of research in the physical sciences, which have fallen far 
behind the biological sciences as a percentage of the federal research 
budget. Increasing the relative strength of the physical sciences has 
been a priority of the scientific community (including the President's 
Council of Advisors on Science and Technology, or PCAST) and of the 
Congress, as reflected in several Science Committee bills that have 
been signed into law in the past four years, including the NSF 
Authorization Act of 2002, the 21st Century Nanotechnology Research and 
Development Act, and the Cyber Security Research and Development Act. 
All of those laws authorize significantly more for the physical 
sciences than has been provided in appropriations or in the FY06 
request.

Basic Research at the Department of Energy
    The debate over the relative strength of the physical sciences 
often focuses on funding for the Department of Energy (DOE) Office of 
Science, which is a major source of funding for the physical sciences. 
Congress last year provided an increase of almost four percent for the 
Office--the first significant growth in many years--but the FY06 budget 
would reduce funding for the Office by almost four percent (or by about 
two percent if earmarks are removed from the FY05 baseline). The impact 
on grants to individual researchers would be far larger, perhaps as 
great as a 10 percent cut, because so much of the Office's budget is 
spent on the costs of large user facilities run by the National 
Laboratories. How high a priority should research at the Office of 
Science be in the President's budget? The Office of Science has not 
fared well in budget requests compared to the National Science 
Foundation, which is in many ways a ``sister agency'' that focuses on 
basic research.

Applied Energy Research
    Funding for applied research in the FY06 budget is focused on a few 
long-range initiatives, such as the President's hydrogen initiative. 
Excluding the hydrogen/FreedomCAR activities, energy efficiency and 
renewable energy R&D for FY06 would be cut by 11 percent, to $687 
million. Does the budget appropriately balance funding for technologies 
that could be deployed in the nearer-term with research on long-run 
advances like hydrogen? The budget also proposes the elimination of 
DOE's oil and gas R&D, which have been rated as ``ineffective'' by the 
Office of Management and Budget. Is the elimination of these programs 
warranted?

NSF Education Funding
    The FY06 budget request cuts the Education and Human Resources 
(EHR) account at NSF by 12 percent (and by 22 percent below the FY04 
level of $938 million). NSF has indicated that the reductions in 
elementary, secondary and undergraduate education are part of a 
conscious policy to significantly pare its role in program 
implementation, allowing these to migrate to the U.S. Department of 
Education. Should NSF continue to play a significant role in science 
and math education at all levels of schooling?

Technology Programs at the National Institute of Standards and 
        Technology (NIST)
    While the internal laboratories at NIST are slated to receive a 12 
percent increase in the FY06 budget proposal, the President proposes to 
eliminate the Advanced Technology Program (ATP) and to halve the budget 
for the Manufacturing Extension Partnership program (MEP). Both 
programs were created by Congress in 1988. ATP, long a source of 
controversy, provides grants to companies for pre-competitive research. 
MEP runs centers, partly funded by states, throughout the country to 
help smaller manufacturers take advantage of the latest technology. 
Last year, the budget proposed to eliminate MEP, but the Administration 
later retreated from the proposal. Should ATP and/or MEP be eliminated? 
How high a priority are they compared to other activities at NIST?

5. Interagency Research Activities

    The Administration has not proposed any new interagency R&D 
initiatives for FY06.

National Nanotechnology Initiative (NNI): NNI, interagency program that 
coordinates federal support for nanoscale R&D, continues to be a high 
priority of both the Administration and the Science Committee. Between 
FY01 and FY05, spending on federal nanotechnology R&D more than 
doubled, rising from $464 million in FY01 to $1.1 billion in FY05. The 
FY06 budget requests an estimated $1.05 billion for the program in 
FY06, a decrease of $27 million, or 2.5 percent, from the estimated 
FY05 level.\3\ Requested funding for the five agencies\4\ authorized in 
the 21st Century Nanotechnology Research and Development Act (P.L. 108-
153) is $666 million, which remains well below the $890 million 
authorized for these agencies for FY06 in the Act.
---------------------------------------------------------------------------
    \3\ The budget estimates agency funding levels for the National 
Nanotechnology R&D Program activities, but the data are not entirely 
consistent from year to year. This is in part because discrepancies 
arise due to the fact that some nanotechnology research is difficult to 
identify or classify.
    \4\ The five agencies authorized by the Act are: NSF, DOE, NASA, 
EPA, and NIST. The total funding authorized by the Act for these 
agencies is $3.7 billion over four years.

Networking and Information Technology R&D (NITRD): NITRD is described 
as a ``collaborative effort of many federal agencies [and] the Nation's 
principal source of long-term, fundamental information technology (IT) 
R&D, including advanced technologies in high-end computing systems and 
software, high-speed networking, software assurance and reliability, 
human-computer interaction, and information management.'' For the 
fourth straight year, the budget request does not include an increase 
for NITRD. This year, the request is $2.2 billion, a 4.5 percent 
decrease below the estimated FY05 level. A significant part of this 
decrease is due to a reduction in funding at NASA, which is redirecting 
funds from a number of programs to better support the President's 
vision for space exploration. Within NITRD, the work on High End 
Computing R&D is down six percent, due in part to a drop in funding in 
---------------------------------------------------------------------------
this area at DOE Office of Science.

Cyber Security R&D: Proposed funding for cyber security R&D programs 
remains flat. At NSF, the budget requests $67.5 million for cyber 
security R&D (up two percent), but proposes cutting funding for cyber 
security-focused education programs (down 27 percent to $12 million). 
At NIST, the request is $19 million for cyber security R&D (the same 
level as in FY05). All of these proposed funding levels are 
significantly below the levels authorized in the Cyber Security 
Research and Development Act (P.L. 107-305).\5\ Within the DHS Science 
and Technology (S&T) Directorate, the FY06 budget requests $16.7 
million for cyber security R&D, down seven percent from the FY05 
level.\6\
---------------------------------------------------------------------------
    \5\ For FY06, NSF cyber security programs are authorized at $134 
million and NIST cyber security programs are authorized at $77 million.
    \6\ DHS also supports operational cyber security programs, such as 
national alerts about existing computer and network vulnerabilities. 
Located in the National Cyber Security Division of the Information 
Analysis and Infrastructure Protection Directorate, operational cyber 
security receives roughly $73 million (a $6 million increase) in FY06.

Climate Change Research: The FY06 budget requests $1.9 billion for the 
interagency Climate Change Science Program (CCSP), about the same level 
as enacted in FY05. There is a $100 million (eight percent) decrease in 
NASA's contribution to CCSP, offset primarily by a $57 million (46 
percent) increase in NOAA and a $15 million (21 percent) increase in 
USDA's contributions to the program. The request for CCSP includes $183 
million for the interagency Climate Change Research Initiative (CCRI), 
a 17 percent decrease above the FY05 enacted level. It is unclear why 
CCRI was reduced when these activities have been a high priority for 
the Administration in past years. CCRI is intended to target critical 
---------------------------------------------------------------------------
scientific uncertainties and deliver results in three to five years.

The National Earthquake Hazard Reduction Program (NEHRP): NEHRP is an 
interagency effort aimed at reducing earthquake hazards through 
activities such as seismic and engineering research, earthquake 
monitoring, and code development and adoption. It includes NIST, NSF, 
the U.S. Geological Survey (USGS), and the Federal Emergency Management 
Agency (FEMA). The complete NEHRP budget for FY06 has not yet been 
provided to the Committee. However, the NSF request is $53.98 million, 
roughly flat compared to FY05, and USGS receives $51.34 million, up 
from $46.89 million in FY05. Included in the USGS NEHRP budget is $8.2 
million for the Advanced National Seismic System (ANSS). In FY05, NIST 
and FEMA were funded at $1.8 and $20.5 million, respectively. The 
Committee remains concerned that NIST NEHRP funding will not be 
sufficient to carry out its new responsibilities as the lead agency for 
NEHRP.

6. Agency R&D Highlights

Department of Energy (DOE)

    The FY06 request for civilian R&D at DOE of $5.4 billion represents 
a decrease of five percent from FY05 enacted levels. The 
Administration's top funding priorities for energy science programs are 
hydrogen R&D, operating funds for scientific user facilities, and 
fusion research.

Office of Science
    The budget proposes cutting funds for the Office of Science by $137 
million (-4 percent), to $3.46 billion. The budget request indicates a 
higher priority for operating funds for scientific user facilities. The 
request includes double digit funding for the operations of new 
facilities such as the Spallation Neutron Source (+$74 million) at Oak 
Ridge National Laboratory and four new Nanoscale Science Research 
Centers (+$43 million), and a 10 percent cut for funding for research 
grants.
    The budget proposes to cancel plans for the physics facility at the 
Fermi National Laboratory known as BTev. BTev was one of 20 facilities 
included in the Office of Science 20-year facilities plan released last 
year. A DOE scientific advisory panel recommended that if the project 
was not initiated by 2008, it should be canceled in favor of other 
pending large facilities proposals. The budget request no funds for 
construction of the Rare Isotope Accelerator (RIA), a nuclear physics 
facility accorded relatively high priority in the 20-year facilities 
plan. The budget requests $4 million for RIA-related R&D in FY06. (A 
site for RIA has not been selected; Argonne National Laboratory and 
Michigan State University are the finalists.)
    The request for fusion R&D is up $17 million overall, (+6 percent, 
to $291 million) with funding for ITER (an international partnership to 
build a large-scale fusion reactor) up $51 million (+113 percent to $56 
million), although site negotiations have been stalled for more than a 
year as France and Japan compete to host the project. The large 
increase for ITER could result in reduced funding for basic fusion 
research and curtailed operating time on existing fusion facilities in 
the U.S.
    In other program changes, the budget proposes a $126 million 
reduction in funding for Biological and Environmental Sciences (^22 
percent to $456 million) with proposed cuts targeted primarily in the 
Medical Applications and Measurement area that hosts numerous 
Congressional earmarks. The budget also proposes a $25 million 
reduction for Advanced Scientific Computing (^11 percent to $207 
million). On the other hand, the budget proposes a $20 million increase 
(+28 percent to $87 million) for Genomics.

Applied Energy Programs
    The FY06 budget proposes reduced funding for energy efficiency and 
renewable energy (EERE) R&D programs while increasing funds for 
hydrogen R&D. Overall funding for EERE R&D activities is cut $54 
million (^5 percent to $975 million) but, if the hydrogen/FreedomCAR 
activities are excluded, energy efficiency and renewable energy R&D is 
cut by 11 percent ($79 million), to $687 million, from the FY05 enacted 
level of $766 million.
    In specific EERE programs, significant cuts were requested for 
Building Technologies (^12 percent , ^$8 million to $58 million), 
Industrial Technologies (^25 percent, ^$18 million to $57 million), and 
the Biomass program (^18 percent, ^$16 million, to $72 million).
    In fossil energy, overall funding is cut $80 million (^14 percent 
to $491 million). DOE proposes to eliminate oil and gas technology 
research, allocating $10 million to each program for orderly 
termination of ongoing activities. Both these programs were scored 
``Ineffective'' by OMB for the last two years. The stationary fuel cell 
program (Distributed Generation), is cut by $12 million (^16 percent to 
$65 million). In coal programs, there is an overall increase of $13 
million (+4.9 percent to $286 million), with shifts in programmatic 
emphasis. Carbon Sequestration gets a requested increase of $22 million 
(+48 percent to $67 million) while the coal-based fuels program is cut 
$10 million (^31 percent to $22 million) and Advanced Research is cut 
$10 million (^28 percent to $31 million). FutureGen, the proposed $1 
billion dollar project to build a zero-emissions coal plant, is funded 
at $18 million, the same as last year's appropriation.
    In the nuclear area, funding for civilian activities in Nuclear 
Energy is up $15 million, (+4 percent to $389 million). In the research 
and development programs, Nuclear Power 2010 is up $6 million (+13 
percent to $56 million), Generation IV is up $5 million (+13 percent to 
$45 million) and Nuclear Hydrogen up $11 million (+124 percent to $20 
million). The Nuclear Energy Plant Optimization program and the Nuclear 
Energy Research Initiative are not funded.
    The Office of Electric Transmission and Distribution and Energy 
Assurance receives a $25 million decrease (^20 percent to $96 million), 
with the majority of the cut (^$20 million) coming from R&D programs.
Issues/Questions Raised by the FY06 Request for DOE

Hydrogen R&D: The budget requests a significant increase for R&D for 
hydrogen as a fuel for transportation, while reducing funds for energy 
efficiency and renewable energy R&D. In addition to questions raised at 
the front of this charter, the focus on hydrogen raises an additional 
question. Hydrogen must be produced from other energy sources, so if 
renewable energy research is not well supported, it may not be possible 
to produce hydrogen in the quantities necessary for transportation 
without relying on imported energy.

Facilities vs. Research Grants: Traditionally DOE has maintained a 
balance between research grants and laboratory activities. Since DOE is 
the leading source of civilian physical sciences research funding, as 
well as a large portion of other civilian basic research, the reduction 
of grants to enable user facilities to continue to operate raises a 
fundamental question about the role of the Office of Science. Should 
the Department focus on providing the large-scale equipment and 
facilities that scientists need and leave the funding of individual 
experiments to others (whether inside or outside government), or should 
the department strive to have a mix of both research grants and 
facilities accessible to users?

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Science Foundation (NSF)

    The National Science Foundation is the primary source of federal 
funding for non-medical basic research conducted at colleges and 
universities and serves as a catalyst for science, technology, 
engineering, and mathematics education reform at all levels.
    The FY06 budget request for NSF is $5.61 billion, an increase of 
2.4 percent, or $132 million over the FY05 level. However, because NSF 
received a 3.1 percent ($180 million) cut in FY05, the overall request 
level for FY06 is approximately one percent below the FY04 level. Also, 
the budget requests overstates the increase in NSF's actual buying 
power because it includes $48 million for NSF to begin paying for Coast 
Guard activities in Antarctica that had previously been paid for by the 
Coast Guard.
    For the second year in a row, the largest percentage increases in 
the budget proposal are for personnel, administrative initiatives, and 
construction of major research facilities. Specifically, the Research 
and Related Activities (RRA) account, which funds most NSF research 
programs, receives a 2.7 percent increase (including the Coast Guard 
funds).\7\ The Education and Human Resources (EHR) Directorate, as 
mentioned earlier, receives a 12 percent cut.
---------------------------------------------------------------------------
    \7\ The transfer was proposed in an attempt to address ongoing 
disagreements between NSF and the Coast Guard regarding the proper cost 
to the Coast Guard of conducting ice-breaking activities. NSF faces 
both short- and long-term questions regarding ice-breaking operations. 
In the short-term, it remains unclear whether $48 million is a 
sufficient amount to pay for the activities. In the long-term, Congress 
and the Administration must consider how best to replace the current 
ice-breaking ships, which are aging rapidly.
---------------------------------------------------------------------------
    NSF continues to receive high marks from the Office of Management 
and Budget for the quality of its management and the excellence of its 
programs. Building on its performance in the FY05 budget, NSF was one 
of only seven agencies awarded three green lights on the Executive 
Branch Management Scorecard. In addition, eight NSF programs were 
examined using the Program Assessment Rating Tool (PART) \8\. All eight 
programs received ratings of ``Effective'' (the highest rating). NSF 
was the only agency in the Federal Government to receive the highest 
rating on every program that was ``PART-ed.''
---------------------------------------------------------------------------
    \8\ PART is described by the budget as a tool ``developed to assess 
and improve program performance so that the Federal Government can 
achieve better results. A PART review helps identify a program's 
strengths and weaknesses to inform funding and management decisions 
aimed at making the program more effective.''
---------------------------------------------------------------------------
Issues/Questions Raised by the FY05 Request for NSF

Education and Human Resource Directorate (EHR): Of the seven budget 
categories within the Education and Human Resources Directorate, four 
receive major budget cuts ranging from 12 to 43 percent (Table 2): Math 
and Science Partnerships (MSP), Elementary, Secondary, and Informal 
Education (ESIE), Undergraduate Education (DUE), and Research, 
Evaluation, and Communication (REC). Most programs within these 
accounts are planning reductions in the number of new awards in 2006, 
and two--MSP and REC--will not make any new awards.
    The Department of Education also runs an MSP program. (Both were 
created by Congress as part of the No Child Left Behind initiative). 
The Education Department program receives a proposed FY06 increase of 
$91 million to $269 million, but it is significantly different from its 
NSF counterpart. The Department of Education's program awards funds to 
states on a formula basis and focuses primarily on high-level 
mathematics while NSF's program provides competitive, merit-reviewed 
grants to universities and school districts to improve math and science 
proficiency for students of all grades.
    Investments in graduate education and in human resource 
development, or activities to broaden participation in STEM fields, 
fare better. In graduate education, the request of $155 million will 
enable NSF to maintain its current stipend of $30,000 for top graduate 
students and further broaden participation in these programs. In human 
resource development, the funding request of $118.4 million will 
provide ongoing support for programs and activities that expand 
opportunities for traditionally under-served populations.

Major Research Equipment and Facilities Construction (MREFC): The FY06 
budget request proposes $250 million for this account, $76 million (44 
percent) above the FY05 level for this account, which funds large user 
facilities. (NSF provides funding to private entities, usually 
university consortia, to run the facilities.) The FY06 budget provides 
money for no new starts despite a backlog of projects. Five major 
facilities have been completed in the past two years. Each completed 
facility, such as the new research station at the South Pole, requires 
support for research as well as operations and maintenance funding once 
it comes on line. Those funds come out of NSF's research budget. 
Consequently, as MREFC projects begin operations, increasing budget 
pressure is placed on core research activities. NSF faces a difficult 
and growing challenge in balancing these two needs.

Grant Proposal Success Rate: Even as the total funding for NSF has 
increased significantly over the past six years (up 40 percent), the 
percentage of funded proposals has declined from 33 percent in FY00 to 
an estimated 20 percent in FY05. For FY06, NSF has set a goal of 
halting the decline in the success rate while maintaining grant size 
and duration. Given this constraint, and the relatively flat budget 
requested, NSF will try to reduce the number of proposals it receives, 
in part by reducing the number of solicitations the agency issues.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Homeland Security R&D

Homeland Security R&D at the Department of Homeland Security (DHS)
    The vast majority of R&D at DHS is funded by the Science and 
Technology (S&T) directorate. Proposed funding for S&T is $1.37 
billion, an increase of $253 million (23 percent) above the FY05 
enacted level. Approximately half of this increase is not for new 
research, but reflects the proposed transfer into the S&T directorate 
of existing science programs that are now run by other parts of DHS, 
particularly by the Transportation Security Administration. The Science 
Committee has encouraged this consolidation. Even after this transfer 
is taken into account, the funding for DHS S&T still increases by $126 
million (11 percent).
    One major new initiative within DHS S&T is the formation of a 
Domestic Nuclear Detection Office (DNDO) ($227 million, of which $124 
million is new funding). The DNDO will be located at DHS, but will 
include representatives from other agencies, such as DOE and DOD. The 
Office will be responsible for R&D related to detection of nuclear and 
radiological materials, but will also coordinate the acquisition and 
deployment of a national domestic nuclear detection system and the 
establishment of protocols and training for users of detection 
equipment. Other new initiatives in DHS S&T include a new program on 
detection of certain chemical agents and initial work on a national 
bio- and agro-defense facility.
    S&T Directorate funding is split among various technical portfolio 
areas, such as biological countermeasures, standards, critical 
infrastructure protection, and support of conventional DHS missions 
(such as the Secret Service); a complete list of portfolios and their 
funding is provided in Table 3. Most of the portfolio areas, other than 
those directly involved in the initiatives described above, remain flat 
or decrease slightly.

Homeland Security R&D at Other Agencies
    Approximately $2.8 billion is proposed for homeland security R&D 
programs in departments and agencies outside of DHS (Table 10). The 
bulk of this funding, $1.8 billion (up 3.2 percent from FY05), is for 
bio-defense programs at NIH, such as basic research on infectious 
microbial agents, applied research on diagnostics, vaccines, and 
therapies, and construction of bio-safety facilities. The remaining 
funds (approximately $1.1 billion) go to a number of other agencies, 
such as: EPA, for research on detection of chemical and biological 
agents in the water supply; NSF, for research related to critical 
infrastructure protection and microbial genomics; the U.S. Department 
of Agriculture (USDA), for research on animal disease diagnostics and 
vaccines; DOD for detection systems, protective gear, and vaccines for 
biological and chemical agents; and DOE's National Nuclear Security 
Administration for research on detection and attribution of 
radiological and nuclear materials.
    In addition to individual agency programs, a number of cooperative 
efforts between DHS and other agencies exist: NSF and DHS jointly fund 
a cyber security testbed; DHS provides funding to NIST for standards 
work in a number of areas, such as standards for radiation detectors; 
and EPA and DHS co-fund a university center on microbial risk 
assessment.

Issues/Questions Raised by the FY06 Request for DHS

Balance of DHS S&T Programs: Most of the work of the Directorate is 
heavily weighted toward development. Relatively little goes to fund 
longer-term, more basic research. As a result, relatively little of the 
funding is available to universities, although DHS S&T does fund 
several university centers. Whether this shorter-range focus is optimal 
for U.S. long-term security has been a matter of debate.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


National Institute of Standards and Technology (NIST)

NIST's Laboratory Programs
    The FY06 budget requests $426 million for a wide range of research 
conducted at NIST laboratories in Gaithersburg, Maryland, and Boulder, 
Colorado. The request is $47 million (12 percent) above the FY05 
enacted level of $378 million, and is slightly above the FY05 request. 
NIST's budget was severely cut in FY04, leading to early retirements 
and disruption of NIST's program activities. The FY05 appropriation 
restored enough funding to maintain current programs and personnel.
    The Administration's request for FY06 includes $40 million for 
initiatives in three broad thematic areas: Advances in Manufacturing 
($20 million), Measurements and Standards for Homeland Security ($3 
million), and New Measurement Horizons for the U.S. Economy and Science 
($17 million).
    The Advances in Manufacturing initiative is intended to strengthen 
U.S. efforts to commercialize nanotechnology, to improve software to 
better coordinate the activities of all the suppliers involved in 
manufacturing a particular product, and to improve U.S. competitiveness 
by making sure that technical standards abroad do not disadvantage U.S. 
products. Measurements and Standards for Homeland Security will fund a 
permanent research program at NIST in biometrics (the use of equipment 
to identify people by such biological means as fingerprints, iris 
patterns, etc.), and the development of better standards for equipment 
for firefighters and other first responders. New Measurement Horizons 
for the U.S. Economy and Science will increase NIST research in such 
areas as biotechnology and quantum computing--fields in which the U.S. 
needs to establish and sustain a leadership role if it is to be 
competitive.

Issues/Questions Raised by the FY06 Request for NIST

National Nanomanufacturing and Nanometrology Facility (N3F): To open 
its new manufacturing laboratory to nanotechnology users outside the 
government, NIST needs specialized equipment, and a dedicated budget to 
maintain the facilities. Although the FY06 budget requests the 
maintenance funding, the request for equipment is much less than the 
$25 million requested (but not appropriated) for FY05. As a result, the 
N3F may not be sufficiently equipped to support the goals of the 
National Nanotechnology Initiative.

Impact of Proposed Elimination of the Advanced Technology Program 
(ATP): The FY06 budget request proposes to eliminate ATP, but provides 
no funds for the orderly shut down of the program, including the costs 
to reassign or eliminate 228 positions. These costs could be as high as 
$20 million. Moreover, ATP is expected to fund an estimated $13 million 
worth of R&D conducted at the NIST laboratories in FY05. Therefore, the 
proposal to end ATP could result in one-time costs to NIST of up to $33 
million, eating up much of the proposed increase for the NIST 
laboratories.

Impact of Scaling Back the Manufacturing Extension Partnership (MEP) 
Program: The FY06 request for MEP is $46.8 million, which represents 
about a 60 percent cut from the FY05 enacted level of $109 million. At 
this level, it is unclear how the MEP program would function as a 
national network.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


National Oceanic and Atmospheric Administration (NOAA)

    The FY06 budget requests $3.6 billion for NOAA, a decrease of $300 
million (eight percent) compared to the FY05 enacted level of $3.9 
billion. However, NOAA's FY05 budget includes approximately $430 
million worth of Congressionally mandated projects. If these earmarks 
are removed from the FY05 baseline, then the President's budget could 
be construed as proposing an additional $200 million (six percent 
increase) for NOAA in FY06.

National Weather Service
    The FY06 budget requests $839 million for the National Weather 
Service (NWS), an increase of $56 million (seven percent). The request 
includes $8.7 million to expand and modernize technology capabilities 
at the NWS, including upgrades to the NOAA Weather Radio All-Hazards 
warning network, a new drought forecasting initiative, and upgrades to 
the supercomputers used in weather forecasting.

Tsunami Warning and Detection System
    The FY06 budget request includes $9.5 million for NOAA to expand 
the U.S. Tsunami Warning Network, an issue considered by the Committee 
during a hearing on January 26, 2005. This request, combined with $14.5 
million in supplemental funds in FY05, will allow NOAA to procure and 
deploy tsunami detection buoys in a system designed to provide 
continuous tsunami warning capability for both the Pacific and Atlantic 

coasts of the United States and in the Caribbean.
Satellite Acquisition
    The FY06 budget requests $964 million for satellite programs at 
NOAA. This request is a $57 million (six percent) increase over the 
FY05 enacted level of $907 million. The increase is for procurement, 
acquisition, and construction of the next generation of weather 
satellites, and is in line with the long-term budget plans for these 
satellite systems. NOAA's polar-weather satellites are vital for three 
to seven day weather forecasts, tracking of severe weather such as 
hurricanes, and for climate observations. The next-generation of polar 
satellites is currently under development, with the first launch 
planned for 2010.

Issues/Questions Raised by the FY06 Request for NOAA

Weather Satellite Cost Increases: In September 2004, the Government 
Accountability Office (GAO) completed a report for the Committee on the 
costs and risks associated with NOAA's next-generation polar satellite 
program. The current projection for the cost of the next generation 
polar satellite system has risen from $6.5 billion to $8.1 billion and 
GAO estimates it is likely to rise by another $500 million before the 
system is complete. The Committee recently learned that availability 
one of the key sensors on the new polar satellite will be delayed by 16 
months due to technical difficulties in developing the sensor. Cost 
overruns in satellite programs could force NOAA to take resources away 
from other important core missions at the agency.

Tsunami Warning Network: While the FY06 budget (along with the FY05 
supplemental appropriations request) funds the purchase of new tsunami 
detection buoys, funding in the out-years for the operation and 
maintenance of the proposed tsunami warning system is uncertain. Each 
buoy costs approximately $500,000 to purchase and deploy and has a 
design life of less than two years, so NOAA's estimated $350,000 for 
annual operation and maintenance seems inadequate. Also, funding is 
uncertain for tsunami education and outreach programs, which witnesses 
told the Committee are as important as tsunami detection in preventing 
deaths.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

7. Witnesses Questions

    Witnesses have been asked to:

        1.  Review the R&D budget request in the context of the 
        Administration's overall priorities in science and technology.

        2.  Describe the mechanisms that the Administration uses to 
        determine priorities across scientific disciplines.

        3.  Describe the mechanisms the Administration uses to 
        coordinate its scientific research and technical development 
        activities with other federal agencies.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        
    Chairman Boehlert. Okay. The hearing will come to order.
    I want to welcome everyone here to what might be seen as 
the official opening of budget season for the House Science 
Committee. I am pleased to say that we will be hearing this 
morning from most of the top science officials in the Federal 
Government.
    I am especially gratified to welcome Secretary Bodman here 
this morning. His presence here signals the new cooperative 
science-oriented leadership he will be bringing to the 
Department of Energy. I know that we will have the same 
productive relationship with Sam Bodman at DOE that we did when 
he was Deputy Secretary of Commerce, and I am pleased to have 
him back in this committee's orbit. Mr. Secretary, welcome 
back.
    But while I am delighted to have so much talent arrayed 
before us this morning, one would hardly describe the tone of 
this morning's hearing as festive. The budget proposal before 
us raises serious questions about our nation's direction in the 
coming years.
    While the President's budget proposal for research and 
development can legitimately be seen as a glass half full or a 
glass half empty, no one could describe it as a glass that is 
filled enough to satisfy the Nation's thirst for scientific 
advancement.
    Let me elaborate.
    The budget is a glass half full in that R&D, as a whole, 
has fared better, and basic research has fared no worse than 
non-defense domestic discretionary spending as a whole. In 
other words, it would be unfair to describe the attitude behind 
this budget as in any way ``anti-science.'' We are living 
through a period of stringent austerity, and the science budget 
reflects that rather than any hostility toward science.
    There are also some grace notes in the otherwise dirge-like 
tone of the budget. The National Science Foundation gets one of 
the largest increases in the budget, although not enough to 
keep pace with inflation, especially after the Coast Guard 
transfer is subtracted. And the internal laboratories of the 
National Institute of Standards and Technology, a top priority 
of this committee, would receive a 12 percent increase.
    But this budget is also a glass half empty. Key science 
agencies, most notably, perhaps, DOE's Office of Science, would 
see their budgets cut. NSF education programs would be cut by 
12 percent, about as misguided a policy as one could imagine. I 
should say Congress tried going down this foolhardy path with 
regard to NSF in the early 1980s and quickly and wisely 
reversed course.
    And perhaps most disturbingly of all, the outlook for the 
out-years seems to be more of the same.
    Now, I don't doubt that science growth will have to be 
restrained in this budget environment. We might have to 
eliminate some programs, such as the oil and gas research 
programs the Administration has targeted.
    But I think we have to think long and hard about whether it 
is in the long-term interest of the United States to have a 
multi-year period of real dollar cuts in spending on research 
and development. And we have to think more clearly about what 
our priorities are in a period of restrained growth, a topic I 
will be returning to at tomorrow's hearing on NASA's budget.
    With so much at stake, I am eager to turn to our witnesses, 
although they may no longer feel so eager themselves. I 
understand that each of them has devoted large portions of 
their careers, very distinguished careers, I might add, to 
creating a healthy, effective, federal science establishment. 
It is our job to help them get more ``wallet'' to go with their 
``will,'' to hearken back to a phrase from President Bush.
    Let me end on a more positive note. For us to review the 
budget effectively, we need the maximum amount of information 
from the Administration. In the past, one of our frustrations 
has been getting accurate numbers for what was being spent on 
the interagency high performance computing program, another of 
this committee's priorities. Dr. Marburger and Josh Bolten and 
I had a flurry of correspondence on this last year.
    I am pleased to say that this year those numbers arrived 
here on time, as required by law. And I want to thank Dr. 
Marburger and his staff and the staff at OMB and the relevant 
agencies for working cooperatively with us on this. It will 
make all our jobs easier, and it reflects the great working 
relationship we have, even as we may disagree on some budget 
decisions. So, please communicate my thanks to all involved on 
this.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here to what might be seen as the 
official opening of budget season for the House Science Committee. I am 
pleased to say that we will be hearing this morning from most of the 
top science officials in the Federal Government.
    I am especially gratified to welcome Secretary Bodman here this 
morning. His presence here signals the new cooperative, science-
oriented leadership he will be bringing to the Department of Energy 
(DOE). I know that we will have the same productive relationship with 
Sam Bodman at DOE that we did when he was Deputy Secretary of Commerce, 
and I'm pleased to have him back in this committee's orbit.
    But while I am delighted to have so much talent arrayed before us 
this morning, one would hardly describe the tone of this morning's 
hearing as ``festive.'' The budget proposal before us raises serious 
questions about our nation's direction in the coming years.
    While the President's budget proposal for R&D (research and 
development) can legitimately be seen either as a glass half full or a 
glass half empty, no one could describe it as a glass that is filled 
enough to satisfy the Nation's thirst for scientific advancement.
    Let me elaborate.
    The budget is a glass half full in that R&D as a whole has fared 
better, and basic research has fared no worse, than non-defense 
domestic discretionary spending as a whole. In other words, it would be 
unfair to describe the attitude behind this budget as in any way 
``anti-science.'' We are living through a period of stringent 
austerity, and the science budget reflects that rather than any 
hostility toward science.
    There are also some grace notes in the otherwise dirge-like tone of 
the budget. The National Science Foundation (NSF) gets one of the 
largest increases in the budget, although not enough to keep pace with 
inflation, especially after the Coast Guard transfer is subtracted. And 
the internal laboratories of the National Institute of Standards and 
Technology (NIST), a top priority for this committee, would receive a 
12 percent increase.
    But this budget is also a glass half empty. Key science agencies, 
most notably perhaps DOE's Office of Science, would see their budgets 
cut. NSF education programs would be cut by 12 percent--about as 
misguided a policy as one could imagine. I should say Congress tried 
going down this foolhardy path with regard to NSF in the early 1980s 
and quickly reversed course.
    And perhaps most disturbingly of all, the outlook for the out-years 
seems to be more of the same.
    Now, I don't doubt that science growth will have to be restrained 
in this budget environment. We might have to eliminate some programs, 
such as the oil and gas research programs the Administration has 
targeted.
    But I think we have to think long and hard about whether it is in 
the long-term interest of the United States to have a multi-year period 
of real dollar cuts in spending on R&D. And we also have to think more 
clearly about what our priorities are in a period of restrained 
growth--a topic I'll be returning to at tomorrow's hearing on NASA's 
budget.
    With so much at stake, I'm eager to turn to our witnesses--although 
they may no longer feel so eager themselves. I understand that each of 
them has devoted large portions of their careers to creating a healthy, 
effective federal science establishment. It's our job to help them get 
more ``wallet'' to go with their ``will''--to hearken back to a phrase 
from the first President Bush.
    Let me just end on a more positive note. For us to review the 
budget effectively, we need the maximum amount of information from the 
Administration. In the past, one of our frustrations has been getting 
accurate numbers for what was being spent on the interagency high 
performance computing program, another of this committee's priorities. 
Dr. Marburger and Josh Bolten and I had a flurry of correspondence on 
this last year.
    I'm pleased to say that this year those numbers arrived here on 
time, as required by law. So I want to thank Dr. Marburger and his 
staff and the staff at OMB and the relevant agencies for working 
cooperatively with us on this. It will make all our jobs easier, and it 
reflects the great working relationship we have, even as we may 
disagree on some budget decisions. So, please communicate my thanks to 
all involved with that.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman. I want to join you in 
welcoming this very distinguished panel. And also, as usual, I 
could just say amen to my Chairman's opening statements on most 
occasions. And I want to say amen again. This is a very 
distinguished panel, and I know all of you have spent a career 
and a lifetime trying to make our country more advanced in the 
sciences, and we thank you for that.
    And Mr. Chairman, I agree with you as to your analysis of 
the budget. And I also agree that the science budget today 
could have been worse. But that doesn't mean that we just take 
what we get and passively make lemonade out of lemons. We can 
not ignore the cumulative damage this is going to do to our 
nation's future.
    This is my second year as Ranking Member, and I come to you 
today even more distressed about the lack of foresight shown in 
putting together this R&D budget than I was last year.
    I am particularly concerned that reports have claimed that 
Dr. Marburger called this a ``pretty good year'' for research 
funding. How can this be a ``pretty good year'' when the 
federal science and technology budget decreased by $877 
million?
    How can this Administration contend that a 12.4 percent cut 
to K-12 science and math education is a ``pretty good year,'' 
or a six percent decrease in NASA's aeronautics, $320 million 
less to basic research and an 8.2 percent cut to NOAA research 
even after the tsunami disaster that we just witnessed? That 
doesn't sound to me like a ``pretty good year.''
    I wish that was the end of the list, but it is only the 
beginning. NSF is over $5 billion behind the authorized level 
that this Administration signed into law. The Department of 
Energy research was slashed 4.1 percent for their Office of 
Science, cut three percent for high-energy physics research, 
and cut 8.4 percent for nuclear physics.
    And I want to remind everyone that research in nuclear, 
high-energy, and condensed matter physics is not just some 
random academic exercise. Research in these areas has led to 
many remarkable innovations, including PET scans, MRIs, nuclear 
medicine, and cancer research.
    The Manufacturing Extension Program, probably the most 
effective federal program in providing immediate help to U.S. 
manufacturers, is again slashed severely. The Advanced 
Technology Program is again eliminated, and technology transfer 
programs at NASA and DOE are cut. It makes no sense to cut job 
creation programs when U.S. manufacturing is losing tens of 
thousands of jobs to overseas competition.
    This was not a ``pretty good year,'' not under any 
circumstances.
    The current approach of this Administration is 
shortsighted. It ignores the vital role that research performed 
today plays in our quality of life and our world position 
tomorrow. We can and we must do better to secure our nation's 
future prosperity. And we must redefine the discussion. We need 
to consider science and technology research as an investment.
    I have said it before, and I will say it again today, 
maintaining a lead in science and technology is a flat-out 
race. If we stop running at the top speed we can manage, we 
will lose. Even in the current fiscal crisis, this budget is 
not the top speed we can manage for science and technology 
investment. Lack of investment in innovation now will come to 
roost later, or as my father used to say, we are eating our 
seed corn.
    We all understand the need for reasonable cuts and budget 
realignments, but we must do so with an eye towards our 
country's future. I will work with my colleagues on both sides 
of the aisle to try to realign the Administration's spending 
priorities to better meet our science and technology needs and 
to guard our future fiscal prosperity.
    Thank you, and I yield back. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Thank you Mr. Chairman. I join you in welcoming our distinguished 
panel to this morning's hearing. And I agree with you, Mr. Chairman, 
that the science budget before us today could have been worse--but that 
doesn't mean we just take what we get and passively make lemonade out 
of lemons. We cannot ignore the cumulative damage this is doing to our 
future.
    This is my second year as Ranking Member and I come to you today 
even more distressed about the lack of foresight that this 
Administration has shown in putting together this R&D budget than I was 
last year.
    I'm particularly concerned that reports claim Dr. Marburger called 
this a ``pretty good year'' for research funding. How can this be 
called a ``pretty good year'' when the Federal Science and Technology 
budget decreased by $877 million dollars?
    How can this Administration contend that a 12.4 percent cut to K-12 
Science and Math Education is a ``pretty good year;'' a six percent 
decrease in NASA aeronautics; $320 million dollars less to basic 
research and a 8.2 percent cut to NOAA research--even after the tsunami 
disaster the world just witnessed? That doesn't sound like a ``pretty 
good year'' to me.
    I wish that was the end of the list, but it is only the beginning. 
NSF is over $5 billions dollars behind the authorization level that 
this Administration signed into law.
    Department of Energy research was slashed 4.1 percent for their 
Office of Science, cut three percent for high-energy physics research, 
and 8.4 percent cuts for nuclear physics.
    I want to remind everyone that research in nuclear, high energy and 
condensed matter physics is not just some random academic exercise. 
Research in these areas has led to many remarkable innovations 
including PET scans, MRIs, nuclear medicines and cancer therapies.
    The Manufacturing Extension Program--probably the most effective 
federal program in providing immediate help to U.S. manufacturers--is--
AGAIN--slashed severely. The Advanced Technology Program is--AGAIN--
eliminated. It makes no sense to cut job creation programs when U.S. 
manufacturing is losing tens of thousands of jobs to overseas 
competition.
    This was not a pretty good year--not under any circumstances.
    The current approach of this Administration is short sighted--it 
ignores the vital role that research performed today plays in our 
quality of life and world position tomorrow. We can and we must do 
better to secure our nation's future prosperity. We must redefine the 
discussion. We need to consider science and technology research as an 
investment--not spending.
    I've said it before and I will say it again now--Maintaining a lead 
in science and technology is a flat out race. If we stop running at the 
top speed we can manage, we will lose. Even in the current fiscal 
crisis, this budget is not the top speed we can manage for science and 
technology investment. Lack of investment in innovation and invention 
now will come home to roost later.
    We all understand the need for reasonable cuts and budget 
realignments, but we must do so with an eye towards our country's 
future. I will work with my colleagues on both sides of the aisle to 
try to realign this Administration's spending priorities to better meet 
our science and technology needs and guard our future fiscal 
prosperity.
    Thank you.

    Chairman Boehlert. Thank you, Mr. Gordon, I think.
    You have presented much that I find myself in agreement 
with, but most of the presentation was the half empty side of 
the glass, and I tried to concentrate on the half-full side of 
the glass.
    The bottom line is this: whether you are a Democrat or a 
Republican, Chairman or a Ranking Member, we are committed to 
the proposition that wise investments in science pay handsome 
dividends for our future. And I know the panelists before us 
share that view. I also know the panelists before us and their 
departments have to go through a process. And we do not 
consider the science enterprise in isolation. It is in 
conjunction with all of the other many demands on the budget, 
particularly during this very difficult time.
    But I think it is fair to say there is widespread agreement 
on this on a bipartisan basis that, if anything, we need more 
investment in science, not because it is under our 
jurisdiction, although that is important to us, not because we 
have an appreciation for these programs, which we do, but 
because we know it represents a sound investment in our 
nation's future, and we also know that it is a very competitive 
world out there, and others are racing when sometimes it 
appears that, in certain areas, we are strolling along. We need 
to engage in that race, because I want to be first. We are 
first now, and I want to retain that premier position.

    [The prepared statement by Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Chairman Boehlert, I am pleased that we are here today to discuss 
one of our most pressing of national issues, the Federal Government's 
investment in science and technology.
    Science and technology are critical to our economic prosperity and 
national security. Economists have attributed much of our nation's 
improvement in productivity in recent years to the results of research 
and development. Productivity improvement and technological 
breakthroughs spurred the longest period of economic expansion in our 
nation's history, and they hold the key for stimulating our economy now 
as well as protecting our nation through application of such 
advancements.
    I understand that the FY 2006 budget request represents the 
Administration's priorities of space exploration and national defense. 
I am pleased to see that the Department of Homeland Security's science 
and technology budget is enhanced by more than 10 percent, as well as 
the Administration's substantial commitment to the exploration program 
at NASA.
    I would like to address three parts of the budget request in 
particular; the Department of Energy's Office of Science, the National 
Science Foundation, and the National Institute for Standards and 
Technology.
    The Department of Energy's Office of Science funds 40 percent of 
our nation's physical science research. Research in these areas has led 
to many new economic and medical advancements including, among others, 
new energy sources, the Internet, cell phones and laser surgery. To 
maintain our economic, technical, and military preeminence, the Federal 
Government must continue to support research in these areas. The FY 
2006 budget request for the Office of Science is $3.46 billion--a 
decrease of almost four percent from the FY 2005 enacted level. I was 
disappointed to learn that the plans for the new Rare Isotope 
Accelerator (RIA) as well as the BTev physics facility at the Fermi 
National Laboratory have been postponed indefinitely, in light of the 
lack of funding for these projects. RIA is tied for number three 
priority for large facilities ranked by the Department, and is 
essential for our country to maintain leadership in nuclear science 
research.
    I'd also like to specifically address the FY 2006 budget request 
for the National Science Foundation, which is tasked with promoting the 
progress of science; advancing the national health, prosperity, and 
welfare; and securing the national defense. The NSF FY 2006 budget 
request of $5.6 billion is a 2.4 percent increase over FY 2005 
appropriations; however, it is $2.9 billion below the authorized 
funding level necessary to complete the commitment Congress made to 
double NSF funding in 2002. I continue to support this doubling 
commitment, and I regret that in this austere budget environment it may 
not be immediately possible to fulfill this obligation.
    NSF is the only federal agency dedicated solely to supporting basic 
scientific research. NSF funding accounts for one-fifth of all federal 
support for basic research and 40 percent of physical science research 
at academic institutions. Nearly 90 percent of these awards are made 
through a competitive, merit-review process that ensures that excellent 
and innovative research is being supported. Furthermore, NSF 
consistently receives the highest rating from OMB for the efficiency 
and excellence of its programs.
    NSF is also the primary federal supporter of science and math 
education; it underwrites the development of the next generation of 
scientists and engineers. I am particularly concerned about the trend 
of the current budget request that reduces the Education and Human 
Resources budget at the Foundation by more than $104 million, or 12 
percent. This dramatic decrease is unparalleled in other parts of the 
federal science and technology portfolio. Decreasing awards in 
education, or eliminating any new awards entirely, seems very 
shortsighted when we are currently facing the challenge of adequately 
preparing our students to enter science and technology fields. I have 
worked very hard to maintain the Math and Science Partnership program 
at NSF, where grants are awarded on a peer-reviewed basis that 
complements the strengths of a research-based organization. The FY 2006 
request for the Math and Science Partnerships of $60 million will only 
allow continued funding for the programs that were started in previous 
years, eliminating the future of an incredibly important program to 
determine how our students learn the subjects of math and science.
    Though research grant funding is relatively stable in the FY 2006 
budget request, the grant proposal success rate at NSF continues to 
decline as the number of applications rises. The decrease from 33 
percent of funded proposals in FY 2000 to an estimated 20 percent in FY 
2005 contributes to my concern about what type of effect this may have 
on innovative, young researchers struggling to maintain their careers 
in such a competitive environment. As a larger percentage of worthy 
work is not funded, I believe that such an environment will adversely 
affect those considering entering science and technology fields. 
Maintaining a higher success rate through reducing the number of 
solicitations or other similar means is a disservice to our national 
needs and sends the wrong message to those exploring the edge of 
science and technology innovation.
    On a more positive note, I am pleased that the President is 
requesting $426 million, or a 12 percent increase, for the National 
Institute of Standards and Technology (NIST) laboratories. NIST has a 
proven track record in research and development on standards and 
measurement techniques that help U.S. industries become more globally 
competitive and retain leadership in cutting-edge technologies. I am 
particularly pleased that the request includes $19 million in funding 
for an Advanced Manufacturing research initiative. This initiative is 
aimed at speeding the development of industrial applications of 
nanotechnology and streamlining manufacturing standards. It will help 
small and medium-sized manufacturers and has goals very similar to the 
Manufacturing Technology Competitiveness Act which I passed through the 
House last Congress.
    However, I am very concerned about a different manufacturing 
program at NIST. The President's FY 2006 budget request cuts the 
Manufacturing Extension Partnership (MEP) program by over 50 percent to 
$46.8 million. I have worked very hard over the years to help my 
colleagues in Congress understand that MEP is vital to retaining 
American competitiveness and American jobs, and I believe they 
appreciate the value of this program. Yet each budget cycle the 
Administration proposes to significantly cut this program, which the 
Department of Commerce itself recognized as a valuable program in a 
2004 report on manufacturing. Diminishing funding for MEP will 
devastate small and medium-sized manufacturers and in the long run 
severely hurt our competitive edge in the manufacturing sector.
    I am supportive of the President's FY 2006 budget request of $3.5 
billion for the National Oceanic and Atmospheric Administration (NOAA). 
While this represents a nearly $300 million (or eight percent) decrease 
from the FY 2005 enacted level, the reduction is from the elimination 
of congressionally directed projects.
    In summary, I cannot emphasize enough that I believe funding for 
science and technology must be a priority in the FY 2006 budget. While 
the overall request for NSF is in the right direction, I am very 
concerned about the cuts to the education programs and I will continue 
to work to highlight the importance of critical programs like the Math 
and Science Partnerships. I am pleased with the Administration's 
request of $426 million for the NIST labs and pledge to work with my 
colleagues to see that request fully funded.

    [The prepared statement by Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the President's FY06 Budget for Research and 
Development. Today's hearing serves as an opportunity for oversight of 
certain departmental programs. As you are aware, a number of trends 
spotted in last year's budget submission are seen again in the FY06 
budget, including reversal of the trend toward parity in defense and 
non-defense R&D, an increase in the National Aeronautics and Space 
Administration, and targeted cuts towards government-industry programs.
    The Department of Energy's Fossil Energy Research and Development 
programs make prudent investments in long-range research and 
development that help protect the environment through higher efficiency 
power generation, advanced technologies and improved compliance and 
stewardship operations. These activities safeguard our domestic energy 
security. This country will continue to rely on traditional fuels for 
the majority of its energy requirements for the foreseeable future, and 
the activities funded through this account ensure that energy 
technologies continue to improve with respect to emissions reductions 
and control and energy efficiency. The Fossil Energy Research and 
Development program impacts my congressional district because the coal 
industry is of great importance to the economy and livelihood of my 
constituents in Southern Illinois. As you may know, this area is rich 
in high-sulfur coal. The shifting of production to low-sulfur coal has 
cost many of my constituents high-paying jobs. Therefore, I am very 
pleased to learn that coal programs received an overall increase of $13 
million in this year's budget. I have been a strong advocate for 
developing technology that focuses on carbon sequestration and am proud 
of the $22 million increase it received in the President's budget. 
However, I would like to see a future increase of advanced research and 
coal-based fuel programs and will work with my Democratic and 
Republican colleagues to accomplish these goals.
    The House report language from last year's Interior appropriations 
bill stated that the Administration's FutureGen program, a zero-
emissions coal plant, needs to be justified in future budgets before it 
can be considered for funding by the Committee. Therefore, I am 
extremely pleased the President's budget again provides $18 million 
dollars for the FutureGen Initiative. I urge the Committee and the 
Appropriators to look favorably on the Administration's and the 
Department of Energy's continued financial backing for FutureGen. The 
Administration has asked Congress to set aside an additional $257 
million to fund the project in 2007 and beyond. I am committed to 
working with the Department of Energy, the Committee, and appropriators 
from both sides of the aisle to secure funding for FutureGen.
    I strongly believe the FutureGen Initiative is a great national 
investment and Illinois stands ready to provide the resources and 
expertise needed to operate this state-of-the-art coal-fired power 
plant. I have led the effort to locate FutureGen in Illinois, including 
a bipartisan effort in the House to secure funding for the project. In 
2003, I hosted a roundtable discussion regarding FutureGen, focusing on 
the tremendous impact it will have on Illinois, along with Governor 
Blagojevich, both U.S. Senators, and U.S. Congressman John Shimkus. Dr. 
C. Lowell Miller, Director of the Office of Coal Fuels and Industrial 
Systems at the Department of Energy, made a presentation on the 
specifics of the project. Recently, the Illinois delegation sent a 
letter to DOE Secretary Bodman, expressing our strong support for 
locating the FutureGen project in Southern Illinois. Implementing the 
coal research program, which includes the clean coal technology program 
and FutureGen, is significant to my state and my district, and I look 
forward to hearing from Secretary Bodman about the status of the 
Initiative and the planned spending in this area.
    Conversely, I am disappointed to see the Advanced Technology 
Program (ATP) was eliminated from the FY06 budget, nor provided any 
funds for the orderly shut down of the program. Again, the 
Manufacturing Extension Program (MEP) was significantly cut in the 
President's budget and at this level it is unclear how the MEP could 
function as a national network. The Illinois Manufacturing Extension 
Center (IMEC) has worked with over 400 small and mid-sized 
manufacturers. These companies reported an average cost savings of 
$179,000 with IMEC's assistance. In all, these manufacturers reported 
more than $490 million in sales, cost savings, and productivity. It is 
difficult to hear that the FY06 budget will leave the MEP Centers 
struggling to survive rather than focusing on what they do best: 
helping businesses increase efficiency and productivity in order to be 
competitive in the global marketplace.
    Fossil fuels, especially coal, are this country's most abundant and 
lowest cost fuels for electric power generation. They are why this 
country enjoys the lowest cost electricity of any industrialized 
country. The prospects for technology advances for coal and other 
fossil fuels are just as promising as those for alternative energy 
sources, such as solar, wind, and geothermal. Therefore, I am 
disappointed that most accounts under Renewable Energy Resources would 
be cut by 11 percent. Non-fossil energy sources are extremely important 
initiatives and I believe we should dedicate more resources toward 
these programs.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement by Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. I greatly appreciate you calling this 
hearing and I am especially grateful that our distinguished witnesses 
have agreed to take time out of their busy schedules to answer our 
questions today.
    The purpose of this hearing is to provide an opportunity to explore 
issues affecting the entire Research and Development (R&D) budget.
    I, like many of colleagues, have a lot to say today about the 
budget we have before us. The budget includes severe cuts to almost 
every major government program and creates a deficit in 2006 that is 
likely to top $400 billion. This budget can be categorized as reckless 
and irresponsible.
    Programs to promote efficiency and renewable energy would be 
reduced to about $1.2 billion or four percent. Double-digit cuts to 
many programs in this category were hidden by a 16 percent increase to 
$260 million for a program to develop hydrogen as an efficient fuel 
source.
    The reductions prompted critics to question the White House's 
energy priorities. In addition, this plan would reduce the Department's 
extensive science and technology programs by about four percent, or 
$3.5 billion, while environmental cleanup activities would be reduced 
by eight percent, to $6.5 billion. What really disturbs me about the 
Department of Energy's budget is that it assumes $2.4 billion revenue 
in oil and gas leasing at the Arctic National Wildlife Refuge, even 
though Congress has never approved a plan opening this land for oil 
exploration.
    The National Science foundation has always been near and dear to my 
heart. While I am pleased to see an increase in funding levels for NSF 
as a whole will receive a two percent increase. However, this increase 
cannot come at the expense of valuable programs to increase 
participation by under-represented groups.
    The President's budget calls for a 12 percent reduction in funding 
for Math and Science education programs (cutting down to $737 million 
from $841 million in fiscal 2005) These are programs that I have long 
supported. This reduction leaves hundreds of thousands of children, the 
majority of which are in public schools, behind. The success of the 
world's most advanced economy depends on a strong and scientifically 
literate workforce composed of all races and both genders.
    NSF's $5.7 billion budget authority is $3 billion short of the 
funding level it was pledged in 2002, when Congress authorized doubling 
its budget by 2007.
    Members of Congress must be fiscally responsible when it comes to 
making decisions about our budget during these trying times. Our 
greatest responsibility is to leave our children a world that is safer, 
more prosperous, and more secure.
    This budget fails that test. It is fiscally irresponsible. It is 
morally irresponsible. And it demonstrates a failure to lead.

    [The prepared statement by Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Chairman Boehlert and Ranking Member Gordon, thank you for holding 
this important hearing today. This is an essential first step in the 
oversight process it is our committee's responsibility to perform. I 
emphasize that this is a first step, however--we must be sure to pay 
close attention to each of the agencies represented here, both to 
celebrate their successes and to make sure they are doing the job we 
expect them to do.
    I am disappointed that the Federal Science and Technology (FS&T) 
Budget for Fiscal Year 2006 declines by 1.4 percent to $60.8 billion, 
and am concerned in particular by the significant decreases in the FS&T 
budgets of the Departments of Commerce and Energy, which decline by 14 
percent and five percent, respectively. In a time when we are concerned 
about U.S. competitiveness in the global marketplace, it is troubling 
that we are decreasing our investment in basic research and 
development.
    There is a troubling theme that runs through the budget requests of 
each of these agencies--broken promises. The Congress and the President 
made promises to increase the budget of NSF and to invest increasing 
amounts in nanotechnology, but these budget requests do not reflect 
those promises. And while the budget delivers on some promises made to 
develop facilities at the DOE national laboratories, by reducing the 
amount of funding for research it ensures that those facilities will 
not be used to their maximum benefit.
    I am also disturbed by the funding cut planned for the 
Manufacturing Extension Program and the complete elimination of the 
Advanced Technology Program. A 60 percent cut for MEP produces a 
situation in which it is unclear how the program can continue to 
function as a national network. At a time when we are losing 
manufacturing jobs to overseas competitors, it is essential that we 
help out our domestic manufacturers as much as we can.
    The zeroing out of the Advanced Technology Program is particularly 
egregious, since the budget request does not even provide the funds 
that will needed to execute the termination of the program, should 
Congress go along with such a proposition. The funds will need to be 
``found'' somewhere else, and the most likely target are the labs of 
the National Institute of Standards and Technology, which could end up 
losing a much needed budget increase to close out ATP.
    There are many questions that must be answered about this budget 
request, and I hope the witnesses will provide us with those answers 
today.

    [The prepared statement by Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning. Thank you, Mr. Chairman and Ranking Member.
    While I appreciate all of our witnesses today, I want to focus on 
the budget priorities for the Department of Energy's Office of Science.
    The Office of Science budget shapes the priorities and direction of 
physical science and energy research in our prestigious national 
laboratories. Laboratories such as the Oak Ridge National Laboratory, 
near my District, are dependent on that budget to survive and build 
upon years of energy research that has resulted in greater energy 
efficiency and cleaner-burning fuels.
    Scientists all over the country use our national laboratories to 
conduct important research that benefits our nation and the world. I 
hope that the Office of Science will re-think parts of its budget plan 
to show greater support for research and facilities at the national 
laboratories.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    [The prepared statement by Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, thank you for hosting this 
hearing and working diligently to encourage this impressive panel to 
sit before us today. Members of the panel, I am pleased that all of you 
have decided to accept the Committee's invitation to appear and I look 
forward to hearing your testimony.
    It is clear the research and development portions of the budget 
have been hit hard by administration cuts. Even the hearing charter 
written by the majority suggests that cuts could significantly impact 
U.S. leadership in science and technology and on the production of 
future scientists and engineers. If our nation's impressive standing in 
science slips, we will risk our national security--we cannot sit idly 
by and let this happen.
    Mr. Kassinger, on a more specific note, I believe that slashing the 
successful Manufacturing Extension Partnership Program (MEP) by an 
egregious 56.5 percent should be reevaluated. I understand the tight 
budgetary constraints that face us in these difficult times, but I 
hesitate to nearly abolish the only program available to aid small 
local manufacturers. The network of extension centers and field offices 
that offer small local manufacturers process improvements, worker 
training, business practices, and information technology applications 
is unavailable elsewhere.
    In my home State of Missouri, our MEP program is called the 
Missouri Enterprise. It has nine field offices, and has created or 
retained 2,449 jobs and $279,320,000 in 2003. The work that Missouri 
Enterprise and all MEPs is significant and I believe worth the expense. 
Please work to preserve this important program.

    [The prepared statement by Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Boehlert, Ranking Member Gordon,

    I want to thank you for organizing this important hearing to 
discuss the federal research and development budget for the 2006 fiscal 
year. Clearly, you have compiled an impressive panel of witnesses from 
some of the top agencies affected by this budget. Let me take a moment 
to recognize Dr. Samuel Bodman and congratulate him on recently being 
unanimously confirmed by the Senate and being sworn in as the 11th 
Secretary of Energy earlier this month. The five panelists here 
represent some of the brightest and hard working minds in America and I 
look forward to working with all of them in the future to improve our 
nation's scientific and technological capabilities.
    Unfortunately, while I wholeheartedly support the work of the 
science community, I do not believe the President's budget for R&D 
meets all the needs of our nation to move forward in this new century. 
This Administration's budget continues the same bad choices that have 
led to huge deficits and mounting debt during the last four years. For 
the third year in a row, the Administration's budget sets a record 
deficit, and offers no real plan to put the budget in balance. In 
addition to the debt it has accumulated, the Bush Administration 
proposes $1.6 trillion in tax cuts and a plan for Social Security 
privatization that can only drive the deficit up. In order to pay for 
small portions of these plans, the Administration plans to cut services 
for veterans, students, small businesses, law enforcement, health, 
urban and rural development, and environmental protection. Sadly, the 
R&D budget is not immune from these cuts and vital programs to improve 
the lives of Americans are left to suffer.
    However, the most troubling aspect of the President's budget is 
that it continually omits costs and provides incomplete data, obscuring 
the full extent of the damage done by its policies. This budget fails 
to factor in the cost of the President's Social Security Privatization 
plan which will cost the American taxpayer $754 billion from 2009-2015. 
The cost to repair the Alternative Minimum Tax will be as high as $774 
billion, none of which is included in the budget. Perhaps the most 
flagrant abuse in the President's budget is that it does not include 
the realistic costs for Iraq and Afghanistan, which based on a CBO 
analysis, will be as much as $384 billion over ten years. Sadly, the 
budget for R&D continues the use of this fuzzy math through the 
selective use of earmarks. When it suits the Administration to count 
earmarks, such as when calculating budget increases from 2001-2005, 
they do so. When it doesn't suit them to count earmarks, such as when 
claiming that one of their budget cuts isn't a real cut when the 
earmarks are left off, they don't. These kinds of misleading budget 
tricks are not only wrong, but they are in fact immoral. This is the 
American taxpayers money we are talking about here and whether we are 
talking about the federal budget as a whole, or just the R&D budget, 
the American people deserve to have a fair and accurate portrayal of 
where there tax dollars are going.
    I am disappointed to find that the President's budget proposal will 
cut the science funding for R&D. The so-called increase in funding is 
actually merely 0.56 percent, which in fact is less than the two 
percent expected rate of inflation. So in real spending power, the 
federal R&D funding would decline. In addition, nearly all of this 
meager increase is targeted for weapons development. If you eliminate 
weapons development from the equation, the federal research investment 
decreases by 1.4 percent in the President's request. Government-wide 
funding for basic research would decrease by 1.2 percent and funding 
for applied research would decrease by $3 million. Furthermore, these 
numbers do not take into account the two percent expected rate of 
inflation; so in its actual application the cuts are steeper than the 
numbers would indicate.
    I am also appalled by the Administration's effort to basically 
destroy the Manufacturing Extension Program (MEP) and the Advanced 
Technology Program (ATP) in the National Institute of Standards and 
Technology (NIST) budget. The MEP is a successful federal/State 
partnership designed to assist small manufacturers retain their 
competitive edge. The Administration's request of $46.8 million is less 
than one-half of what is required to maintain a fully operational 
national network of MEP Centers. MEP helps smaller manufacturers take 
advantage of the latest technology. Similarly, the ATP provides grants 
to companies for pre-competitive research; this program is now being 
completely eliminated from the Bush Administration budget. This is no 
way to help the crisis we face in the great loss of manufacturing jobs 
in this nation. In my State of Texas alone, we have lost 188,000 
manufacturing jobs since the beginning of the Bush Administration. In 
spite of these tremendous job losses, this Administration chooses to 
basically eliminate two successful technology programs and I find that 
kind of fiscal mismanagement to be inexcusable.
    I am also greatly disappointed to find that promises made regarding 
funding for NSF have been broken once again. Three years ago, the 
President signed an authorization bill doubling NSF funding over five 
years. Unfortunately, the requests for NSF since the signing ceremony 
have been lackluster at best, as they would produce a doubling of 
funding in about 25 years. As a result of these deficient funds NSF is 
$5.8 billion behind its target. The balance between the physical 
sciences and health sciences remains highly skewed. In 2002, this 
Administration signed a bill to correct that imbalance but the 
Administration has failed to follow through on that obligation. It's 
sad to think that so many promises made by this Administration are 
broken in this highly flawed budget proposal.
    The fact that this Administration has decided to cut $1.3 million 
for cyber security funding under the Department of Homeland Security is 
appalling to me. Cyber threats to our nation will only continue to grow 
as time goes on and as technologies become available. Cyber security is 
an area where the Federal Government must stay one step ahead of those 
who hope to threaten our nation. Cyber security is so urgent because 
terrorists or other criminals can attack our technological 
infrastructure from thousands of miles away and can be nearly 
untraceable to authorities. The United States should be at the 
forefront of cyber security in the world and that requires an increase 
in funding, not the decrease we see here.
    Despite the great deals of flaws in the President's budget and the 
lack of funding I see for R&D, I remain hopeful. I remain hopeful 
because we still have many tremendous R&D programs that can impact the 
lives of the American people in so many different ways. I look forward 
to seeing our scientific community continue to make advances and 
improve upon our technological infrastructure. So, I look forward to 
hearing from our distinguished panel about how their agencies can 
accomplish these lofty standards.

    Chairman Boehlert. So with that, let me thank all of the 
very distinguished witnesses. Secretary Bodman has been on the 
job two weeks, and he has been testifying for three weeks, so 
how do you figure that one? And Dr. Marburger, we are in 
regular consultation with you, and I thank you so much for the 
fine job you do for the President and the country. And Mr. 
Kassinger, it is good to have you back. And Dr. Bement, you 
know I am an unabashed cheerleader for the agency that you 
represent. And Dr. McQueary, we created your job and the whole 
notion that there should be someone like you in a very 
sensitive position within the Department of Homeland Security. 
And I am so pleased to have you.
    So we have before us, ladies and gentlemen of this 
committee, some of the Nation's finest public servants. They 
are trying to deal with a very difficult budget scenario, and 
if the truth be known, I can guarantee you each of our 
witnesses would come up with a wish list that would contain a 
lot more than they got. But we have got to deal with what is 
requested, and then we will do our level best to assist in 
getting more in the right areas.
    With that, let me introduce the panel: Dr. John Marburger, 
Director of the Office of Science and Technology Policy, 
affectionately known as the Science Advisor to the President; 
Dr. Samuel W. Bodman, the newly-installed Secretary of Energy; 
Dr. Arden Bement, Director, National Science Foundation; Mr. 
Theodore W. Kassinger, Deputy Secretary of Commerce; and Dr. 
Charles E. McQueary, Under Secretary for Science and 
Technology, Department of Homeland Security.
    You know the drill. You are experts. We would ask you to 
try to confine your opening statement to five or six minutes. I 
am not going to be arbitrary. It is too darn important what you 
are talking about, and you are the only panel. But keep in 
mind, the less you speak in your formal presentation, the more 
opportunity we have for a good, healthy exchange. And we both 
might benefit from that.
    With that, Dr. Marburger.

 STATEMENT OF DR. JOHN H. MARBURGER, III, PRESIDENT'S SCIENCE 
   ADVISER; DIRECTOR, OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you, Chairman Boehlert, and Ranking 
Member Gordon, and Members of the Committee. I am pleased to 
appear before you once again to discuss the President's R&D 
budget for fiscal year 2006.
    As you know and have said in your opening remarks, despite 
the exceptional pressure on this budget, it does propose an 
increase in federal R&D funds. The budget maintains a strong 
focus on winning the war against terrorism while moderating the 
growth in overall spending. And this focus is reflected in the 
proposed R&D investments.
    The Administration has made difficult choices, and it has 
maintained the strength in priority areas, such as 
nanotechnology, information technology, the hydrogen 
initiative, and space exploration. Furthermore, while overall 
non-security discretionary spending is reduced by one percent, 
non-security R&D is not correspondingly diminished. The fiscal 
year 2006 proposal preserves the substantial increases made, 
and I might add, with your support, Mr. Chairman, and that of 
your committee, during the first term of this Administration.
    My written testimony does summarize the extraordinary 
growth of R&D funding during the past four years, and it is 
from that plateau of excellence that we view this budget 
proposal.
    This budget requests $132.3 billion for federal R&D, an 
increase of $733 million over the current year's record R&D 
budget. The budget allocates 13.6 percent of total 
discretionary outlays to R&D, the highest level in 37 years. 
Non-defense R&D accounts for 5.6 percent of the total 
discretionary outlays, an amount significantly greater than the 
five percent average over the past three decades.
    In my oral testimony, I will just briefly highlight the 
agency budgets, Mr. Chairman, and describe the priorities that 
shape them. And my colleagues on the panel have much more to 
say about the details for their agencies, as you know, so let 
me simply begin with the Department of Defense.
    The fiscal year 2006 request is more than $70 billion, of 
which $5.5 billion is for DOD basic and applied research. This 
is $900 million less than the fiscal year 2005 enacted level in 
this category, but it is greater than the fiscal year 2005 
enacted level minus Congressional earmarks, which are over a 
billion dollars for this agency, and $250 million more than the 
fiscal year 2005 presidential request.
    And I would like to take this opportunity to express my 
concern briefly that investments in defense R&D are discounted 
by some science budget commentators as somehow less important 
than non-defense science. That is wrong. National security 
related science and technology drive innovation and strengthen 
economic competitiveness in much the same way as technical work 
for other purposes. The technology required for national and 
homeland security is nearly always dual use and benefits 
civilian as well as military products.
    Let me move on to homeland security.
    Science and technology at the Department of Homeland 
Security will increase from $1.2 billion to $1.5 billion, 
including $227 million to fund the creation of an important new 
Domestic Nuclear Defense Office, DNDO.
    At NIH, the fiscal year 2006 request is $28.8 billion for 
biomedical research, a $196 million increase from fiscal year 
2005 enacted.
    In NSF, NSF's budget, as you noted, Mr. Chairman, would 
increase by 2.4 percent to $5.6 billion in fiscal year 2006. 
Investments in this key science agency strengthen U.S. science 
across the board and play an exceptionally important role in 
America's unique system of university-based science and 
engineering research.
    The Department of Energy Office of Science: this budget 
provides $3.5 billion for DOE's Office of Science, a $57 
million reduction after removing $80 million in earmarks. This 
reduction does not imply diminished priority for Office of 
Science operations, but reflects various construction and 
procurement adjustments. Over a five-year period, this 
Administration has invested more than $17 billion in the Office 
of Science basic research at DOE, which is 14 percent greater 
than the previous five-year period in constant dollars.
    NASA: the request for NASA is $16.46 billion, a 2.4 percent 
increase from 2005, reflecting a strong commitment by the 
Administration to the missions of this agency. The fiscal year 
2006 budget request also makes some hard decisions in NASA, 
trading off some products with high technical risks to maintain 
others with high scientific value. And I know you will hear 
more about that in your hearing.
    The Department of Commerce: the 2006 budget provides over 
$1 billion for R&D at the Department of Commerce, including 
$361 million for oceanic and atmospheric research at NOAA, an 
11 percent reduction due mostly to the effect of earmarks and 
an increase of eight percent in NIST's core programs, which 
actually translates to 22 percent after earmarks are excluded.
    In EPA, the 2006 S&T request, science and technology 
request, is $792 million, a two percent increase over fiscal 
year 2005 even before removing $70 million in earmarks.
    The Department of Transportation, and this is the last 
agency I will mention specifically, the fiscal year 2006 budget 
request for highway-related research is $543 million, $23 
million less than 2005 before removing significant earmarks.
    Mr. Chairman, you mentioned interagency initiatives, among 
them the Networking and Information Technology R&D program. 
With President Bush's fiscal year 2006 budget request of $2.2 
billion for this program, the investment in this area over five 
years will total more than $10.4 billion.
    The National Nanotechnology Initiative: the President's 
budget provides for over $1 billion for this multi-agency 
initiative, bringing the total investment under this 
Administration to $4.7 billion.
    Climate change: the fiscal year 2006 budget proposes 
approximately $1.9 billion to fund the Climate Change Science 
Program, which is virtually the same as 2005 despite reductions 
in NASA due to reprioritization of programs. With this request, 
the Administration will have invested more than $9 billion over 
five years to improve our understanding of the global climate 
system.
    The Hydrogen Fuel Initiative receives $260 million, a 16 
percent increase from 2005. The initiative remains on track to 
meet President Bush's five-year, $1.2 billion commitment to 
hydrogen research and development announced in his 2003 State 
of the Union address.
    And finally, in homeland security, the Department of 
Homeland Security Science and Technology Directorate funding 
will increase from $1.1 billion to $1.4 billion. R&D is focused 
on countering chemical, biological, radiological, nuclear, and 
other catastrophic threats. I mention DHS again in this context 
of interagency cooperation, because many agencies contribute to 
our domestic safety.
    Mr. Chairman and Members of the Committee, America's 
science and technology capabilities are the envy of the world. 
I believe the President's fiscal year 2006 budget proposal 
maintains and selectively strengthens these capabilities in 
areas that are important to the Nation's national homeland and 
economic security, and I look forward to responding and 
answering your questions.
    [The prepared statement of Dr. Marburger follows:]

              Prepared Statement of John H. Marburger, III

    Chairman Boehlert, Ranking Minority Member Gordon, and Members of 
the Committee, I am pleased to appear before you once again to discuss 
the President's research and development (R&D) budget. As I have said 
many times before, I greatly appreciate the effective working 
relationship between our office and your committee, which I believe has 
resulted in good outcomes for the Nation's science and technology 
enterprise.
    The budget this year is subject to considerable pressure, as you 
know, and the President is committed to cutting the budget deficit in 
half by 2009. These factors make this year's budget proposal the 
tightest in nearly two decades.
    Despite these pressures, federal R&D funds will increase in the 
President's fiscal year (FY) 2006 budget. The Budget maintains a strong 
focus on winning the war against terrorism, while moderating the growth 
in overall spending, and this focus is reflected in the proposed R&D 
investments. The Administration has also maintained high levels of 
support for priority areas such as nanotechnology, information 
technology, the hydrogen initiative, and space exploration. 
Furthermore, while overall ``non-security'' discretionary spending is 
reduced by one percent, ``non-security'' R&D is not correspondingly 
diminished. The FY06 proposal preserves the substantial increases 
made--with your support--during the first term of this Administration. 
This treatment of R&D is consistent with the President's commitment to 
science and technology and the vital role they play in meeting the 
Nation's goals for national and economic security and the quality of 
life.
    Comparing R&D investments in this Administration with investments 
in other top national priorities demonstrates this commitment: From 
FY01 to this FY06 proposal, federal spending on Department of Homeland 
Security activities will have increased 83 percent; Department of 
Education programs are up 40 percent; and Department of Defense 
spending is up 37 percent. At the same time total federal investment in 
R&D will have increased 45 percent. The percentage increase in R&D has 
been second only to the increase in the Department of Homeland Security 
during President Bush's first five budget years (and I might add, 
during Chairman Boehlert's five years as Chairman of this committee).
    This historic increase in R&D has not been confined to a single 
agency or field of science. It does include a significant investment in 
defense R&D, whose value to the Nation's technical enterprise extends 
well beyond the defense establishment. Defense R&D funds significant 
university and private sector research, supports a large number of 
scientists, engineers and technical experts, and is instrumental in 
training and recruiting the next generation of technical talent for the 
Nation. Non-defense R&D, however, has also benefited from similar large 
increases during the past five years.
    I am emphasizing these historical data to provide a context for 
this year's request. Within a pattern of overall budget constraint, 
funds are provided that we believe are appropriate to maintain and 
refine the large program increases of previous years. Within the 
pattern of detailed agency budgets, priorities have been established 
and choices made that preserve the Nation's investment in the 
critically important assets of science and technology.

THE PRESIDENT'S FY 2006 R&D BUDGET

    The President's FY 2006 Budget requests $132.3 billion in Federal 
Research and Development funds, an increase of $733 million over this 
year's (2005) record R&D budget. The Budget allocates 13.6 percent of 
total discretionary outlays to R&D--the highest level in 37 years. Non-
defense R&D accounts for 5.6 percent of total discretionary outlays, an 
amount significantly greater than the 5.0 percent average over the past 
three decades.
    While non-defense discretionary program budget authority is reduced 
by 0.26 percent in this proposal, non-defense R&D funds are increased 
by 0.74 percent. The category of Basic Research is maintained near its 
historically high level at $26.6 billion in FY 2006, slightly down from 
$26.9 billion in FY 2005.
    Not all programs can or should receive equal priority, and this 
budget reflects priority choices consistent with recommendations from 
numerous expert sources. In particular, this budget is informed by 
recommendations from the President's Council of Advisors on Science and 
Technology (PCAST), and reflects an extensive process of consultation 
among the federal agencies, the Office of Management and Budget (OMB), 
and the Office of Science and Technology Policy (OSTP).
    As in previous years this R&D budget highlights collaborations 
among multiple federal agencies working together on broad themes. I 
will describe some individual agency highlights, followed by the five 
multi-agency R&D priorities highlighted in the President's FY 2006 
Budget: Networking and Information Technology R&D; National 
Nanotechnology Initiative; Climate Change Science Program; Hydrogen 
Fuel Initiative; and Homeland Security R&D.

AGENCY BUDGET HIGHLIGHTS

Department of Defense (DOD):
    DOD's FY 2006 R&D budget is over $70 billion. These funds will help 
to transform our nation's military capabilities to meet future threats 
and to fight the Global War on Terror. They also will improve DOD's 
capabilities against weapons of mass destruction, including new 
laboratory facilities, detection systems, and protective measures 
against advanced biological and chemical weapons. From FY 2006 to FY 
2011, $764 million is budgeted to upgrade infrastructure at the U.S. 
Army Medical Research Institute of Infectious Disease (USAMRIID), a 
critical component of this nation's federal biodefense effort. USAMRIID 
not only works to protect men and women in uniform, it also responds to 
emerging infectious diseases that threaten our nation (i.e., SARS, West 
Nile, Hantavirus and Ebola).
    I want to take this opportunity to express my concern that 
investments in defense R&D are often discounted by science budget 
observers as somehow less important than non-defense science. That is a 
serious misconception. Weapons systems development and other national 
security-related discovery and technology creation drive innovation and 
strengthen economic competitiveness in much the same way as technical 
work for other purposes. The technology required for national and 
homeland security is nearly always ``dual use'' and benefits civilian 
as well as military products.
    Because science, mathematics, and engineering (SME) are vital 
disciplines to our national defense, a formal DOD Science, Mathematics 
and Research for Transformation (SMART) Defense Scholarship Pilot 
Program was established in FY 2005. The purpose is to promote the 
education, recruitment and retention of U.S. citizens in SME studies 
deemed critical to national defense. DOD also uses other scholarship 
and fellowship programs (i.e., the National Defense Science and 
Engineering Graduate (NDSEG) fellowship program) to sponsor graduate 
students. Funding for NDSEG has increased to support 200 new students 
annually by FY 2007.
    A total of $5.5 billion is provided for DOD basic and applied 
research. This is $905 million less than the FY 2005 enacted level in 
this category, but greater than the FY 2005 enacted level minus 
Congressional earmarks (over $1 billion)--and $250 million more than 
the FY 2005 request. This budget request does not continue FY 2005 
earmarks beyond FY 2005, instead increasing programs of priority to 
military leaders. Earmarks are not consistent with using funds most 
efficiently to target military priorities or to support the best 
research for military purposes. The Administration is prepared to work 
with Congress to achieve consistency in Legislative and Executive 
priorities to fund the best scientific research possible to support our 
military forces.

Department of Homeland Security (DHS):
    DHS-wide funding for science and technology (including TSA, Coast 
Guard and Secret Service) will increase from $1.2 billion to $1.5 
billion (FY 2005 to FY 2006). Within that total, DHS Science and 
Technology (S&T) Directorate funding will increase from $1.1 billion to 
$1.4 billion (FY 2005 to FY 2006). R&D is focused on countering 
chemical, biological, radiological, nuclear, and other catastrophic 
threats.
    The President is requesting $227 million in DHS to fund the 
creation of a Domestic Nuclear Defense Office (DNDO) whose 
responsibility will be to develop a comprehensive system to detect and 
mitigate any attempt to import or transport a nuclear explosive device, 
fissile material, or radiological material intended for use within the 
U.S. The DNDO will enhance and coordinate the nuclear detection efforts 
of Federal, State and local governments and the private sector to 
ensure a managed, coordinated response. At the federal level, the DNDO 
will draw representatives from agencies involved with nuclear defense 
research. They will analyze current nuclear defense R&D investments and 
create a prioritized road map of future research that will address 
current gaps and deficiencies. This will allow for the development of a 
coordinated plan, while at the same time ensuring that critical gaps 
are addressed and redundancies avoided, and maintaining the integrity 
of each agency's current unique missions.
    The S&T Directorate is leading the Administration effort to develop 
new countermeasures to protect civilian and commercial aircraft against 
man portable air defense systems (MANPADS). In the 2006 Budget, the 
President has requested $110 million to continue DHS's Counter-MANPADS 
program. This $49 million increase over last year's budget will go to 
funding phase II of the program in which systems developed by BAE 
Systems and Northrup Grumman will undergo rigorous testing and 
evaluation.
    The University Programs Office within the S&T Directorate has 
established three Homeland Security Centers of Excellence (Texas A&M, 
USC, and the University of Minnesota) and has just awarded a grant to 
the University of Maryland to become the fourth Center of Excellence. 
This program will continue to operate and expand to seven Centers with 
a requested FY 2006 budget of $63.6 million, which is 90 percent of the 
current year budget. The fellowship program will continue at the FY 
2005 level.

National Institutes of Health (NIH):
    Following fulfillment of the President's commitment to complete the 
five-year doubling of the agency's budget, the FY 2006 request is $28.8 
billion, a $196 million increase from FY 2005 enacted. The recent 
budget doubling changes the scale of NIH operations and requires new 
management mechanisms to better integrate, coordinate and focus 
research, especially interdisciplinary research, across NIH's 27 
Institutes and Centers (ICs).
    Since 2001, the NIH Budget has increased by $8.2 billion or 40 
percent. NIH is committing $333 million towards Roadmap initiatives, an 
increase of $98 million over the FY 2005 enacted level. The Roadmap is 
a part of the total NIH budget, and is important as a means to optimize 
the effectiveness of the entire research portfolio, focusing on efforts 
that no single or small group of ICs could address. Roadmap initiatives 
will provide the tools to transform the content and process of medical 
research over the next decade.
    Other highlights include $2.9 billion for AIDS research, including 
the highest priority goal of development of an AIDS vaccine, and almost 
$1.8 billion for Biodefense research and development activities. In 
addition, NIH has recently issued an interim final rule changing the 
way employee conflict of interest is regulated. We believe this action 
will greatly increase public confidence in the integrity of the NIH 
intramural research program. NIH also has proposed an NIH Public Access 
Policy, which provides the public with better access to research 
publications resulting from NIH-funded research. This is accomplished 
by establishing a comprehensive, searchable electronic archive of NIH-
funded research publications, providing publicly available access to 
all.

National Science Foundation (NSF):
    Funds are requested to increase the budget for NSF by 2.4 percent 
to $5.6 billion in FY 2006, 26 percent above 2001's $4.4 billion level. 
Similar investments in the past have yielded important scientific 
discoveries, which boost economic growth and enhance Americans' quality 
of life.
    NSF leads two Administration priority research areas that promise 
to strengthen the Nation's economy: the National Nanotechnology 
Initiative (NNI) and the Networking and Information Technology R&D 
program (NITRD). NSF-funded nanotechnology research, proposed at $344 
million in FY 2006, a 1.6 percent increase over 2005 and 129 percent 
since 2001, has advanced our understanding of materials at the 
molecular level and has provided insights into how innovative 
mechanisms and tools can be built atom by atom. This emerging field 
holds promise for a broad range of developing technologies, including 
higher-performance materials, more efficient manufacturing processes, 
higher-capacity computer storage, and microscopic biomedical 
instruments and mechanisms. NSF's investments in NITRD, funded at $803 
million in 2006, a one-percent increase over 2005 and 26 percent since 
2001, support all major areas of basic information technology (IT) 
research. NSF also incorporates IT advances into its scientific and 
engineering applications, supports using computing and networking 
infrastructure for research, and contributes to IT-related education 
for scientists, engineers, and the IT workforce.
    Growing concerns about the vulnerability of computers, networks and 
information systems have prompted increased NSF investments in cyber 
security research, education and training. The FY 2006 Budget provides 
$94 million for these activities.
    Every research discipline in the agency is increased between one to 
3.5 percent, allowing the grant funding rate to be restored to 21 
percent (from 20 percent in 2005). Funding is provided for the five 
Major Research Equipment (MRE) projects already approved (Atacama Large 
Millimeter Array, EarthScope, the IceCube Neutrino Observatory, the 
Rare Symmetry Violating Processes (RSVP) installation, the National 
Ecological Observatory Network (NEON), and the Scientific Ocean 
Drilling Vessel).
    In order to most effectively and efficiently support the Nation's 
polar research activities in Antarctica, funding for three polar 
icebreakers is being transferred from the U.S. Coast Guard to NSF ($48 
million). In the future, this will permit NSF to define the options for 
refurbishment or replacement of two of the ships, as well as 
operational options for the third (Arctic) icebreaker.
    The FY 2006 Budget will continue NSF's efforts to prepare U.S. 
students for the science and engineering workforce, with funds for 
4,600 graduate research fellowships and traineeships. NSF provides 
annual stipends in these programs of $30,000, which is significantly 
higher than the average stipend of $18,000 in 2001.
Department of Energy (DOE):
    The FY 2006 Budget provides $3.5 billion for DOE's Office of 
Science, a $57 million reduction after removing $80 million in 
earmarks. This reduction does not imply diminished priority for Office 
of Science operations, but reflects various construction and 
procurement adjustments. Over a five year period this Administration 
has invested more than $17 billion in Office of Science basic research 
at DOE, 14 percent greater than the previous five-year period in 
constant dollars.
    The Department has a broad program of basic research and operates a 
unique suite of major scientific user facilities in support of its 
missions. The FY 2006 Budget provides funding to complete construction 
and begin operation of the Spallation Neutron Source--to become the 
world's preeminent facility for materials studies--and four new 
nanoscale science research centers. $25 million is included for the 
development of a High-end Computing (HEC) Leadership Class Computer, 
bringing the total three-year investment to $100 million. $83 million 
begins construction of the Linac Coherent Light Source--a revolutionary 
new facility that will open entirely new realms of discovery in the 
chemical, materials, and biological sciences. Basic materials and 
chemistry research in support of the Hydrogen Fuel Initiative is 
enhanced to $33 million and assuming that international partners reach 
a timely site decision, $46 million is available to begin fabrication 
of U.S. contributions to the International Thermonuclear Experimental 
Reactor (ITER). These investments will allow U.S. scientists to remain 
at the forefront of their fields.

National Aeronautics and Space Administration (NASA):
    During the year since the President outlined a bold vision for 
sustained and affordable human and robotic exploration of space, NASA 
has restructured its organization and reprioritized its programs. The 
current human spaceflight programs, Shuttle and International Space 
Station, are focusing research and technology development on enabling 
the vision, while requirements are being established for the next 
generation of space transportation. An exciting array of space science 
missions are being planned that will enhance our understanding of the 
solar system, including interactions between the Earth and the space 
environment, and building observatories that will peer further into the 
cosmos to understand the origin of the universe, its structure, 
evolution and destiny.
    The President's FY 2006 Budget request for NASA is $16.456 billion, 
a 2.4 percent increase from 2005, reflecting a strong commitment by the 
Administration to pursue the exploration vision. The FY 2006 Budget 
request also makes some hard decisions, canceling some projects with 
high technical risk and others whose cost estimates would have led to 
the certain cancellation and delay of several other important programs. 
The budget request maintains NASA's focus on exploration and science 
while strengthening the long-term foundation for continued success.
    The budget requests about $3.2 billion in FY 2006 for new vehicles 
and technologies to enable sustained human and advanced robotic 
exploration far from Earth. NASA has identified the major requirements 
for a Crew Exploration Vehicle that will carry astronauts to the Moon. 
NASA plans to perform risk reduction tests in 2008 and stage its first 
crewed flight by 2014. NASA will also continue pursuing nuclear 
technologies for space applications, optical communications for high 
data rate connectivity to space probes, radiation shielding, and other 
advanced technologies to support the exploration vision. In addition, 
NASA is pursuing innovative means to engage private industry including 
offering space prizes to spur innovation.
    The budget requests approximately $5.5 billion in FY 2006 to 
continue advancing our scientific understanding of the Sun, Earth, and 
planets and to inform decisions regarding appropriate human exploration 
missions. NASA will also build on its legacy of revolutionizing 
astronomy by continuing current operations of space telescopes such as 
Hubble, Chandra, and Spitzer while planning for the next generation of 
spacecraft that will enhance our ability to find planets around other 
stars, peer deep into the history of the universe, and improve our 
understanding of its structure.
    The FY 2006 Budget continues to fund critical investments in Earth 
science satellites, technologies, and research. NASA will continue to 
play a major part in the interagency Climate Change Science Research 
Program, and contribute to the international initiative on the Global 
Earth Observing System of Systems.
    The budget requests approximately $6.4 billion in FY 2006 for 
operating the Space Shuttle and continuing assembly and operations of 
the International Space Station. NASA is examining configurations that 
meet the needs of both the new space exploration vision and our 
international partners using as few Shuttle flights as possible to 
enable Shuttle retirement by 2010, following completion of its role in 
ISS assembly. In concert with the new vision, NASA will refocus U.S. 
Space Station research on activities that prepare human explorers to 
travel beyond low Earth orbit, such as developing countermeasures 
against space radiation and understanding long-term physiological 
effects of reduced gravity.
    As the United States implements the Vision for U.S. Space 
Exploration, the Administration recognizes the value of effective 
cooperation with Russia to further our space exploration goals. At the 
same time, we have to appropriately reflect U.S. nonproliferation 
policy and objectives in our relationship with Russia. The 
Administration is thus interested in seeking a balanced approach that 
continues to protect our nonproliferation goals while advancing 
potential U.S. cooperation with Russia on the Vision for U.S. Space 
Exploration. Such a balanced approach must include the Iran 
Nonproliferation Act of 2000 (INA), which currently complicates 
cooperation with Russia on the International Space Station (ISS), and 
will also have an adverse impact on cooperation with Russia on our 
future space exploration efforts related to human space flight. To that 
end, the Administration looks forward to working with Congress to 
ensure that the Vision for U.S. Space Exploration is able to succeed 
while remaining fully consistent with broader U.S. national security 
and nonproliferation goals.

Department of Commerce:
    The 2006 Budget provides over $1 billion for R&D at the Department 
of Commerce.
    National Institute of Standards and Technology (NIST) ``core'' 
programs receive $485 million, an increase of eight percent over 2005 
(22 percent after earmarks are excluded). The Administration continues 
to insist on the highest priority for NIST lab research because it is 
producing the scientific foundation for new technologies and providing 
essential technical support through its standards activities for 
industrial development and commercialization of new and emerging 
technologies. The FY 2006 request is a 40 percent increase over 2001. 
NIST is proposing a new strategic initiative in 2006, Advances in 
Manufacturing, funded at $19.6 million, and a new NIST business plan is 
being developed to better focus and address high leverage areas of 
advanced manufacturing, nanotechnology, quantum computing, homeland 
security, and biosystems and health.
    The FY 2006 Budget again proposes to terminate the Advanced 
Technology Program (ATP). The Administration believes firmly that other 
NIST research and development programs have profoundly greater impact 
than ATP, and are essential to the continued technical leadership of 
U.S.-based businesses, American workers, and the domestic economy. The 
Budget proposes to fund the Hollings Manufacturing Extension 
Partnership Program at $47 million, a 50-percent reduction from the 
2005 grant level. The Administration's approach will maintain a strong 
national network of centers while focusing funding based on centers' 
performance in providing information and consulting services to small 
manufacturers. The program has also augmented funding through expanding 
partnerships with other agencies and institutions. Given this new 
operating environment, the Administration believes the program has 
evolved to a stage at which less reliance on direct appropriations is 
required.
    For the National Oceanic and Atmospheric Administration (NOAA), the 
FY 2006 Budget provides $361 million for Oceanic and Atmospheric 
Research (OAR), an 11 percent reduction from 2005 enacted, due mostly 
to earmarks. This investment provides for ongoing research on climate, 
weather, air quality, and ocean processes. For NOAA programs that 
support the climate change science program, $181 million is provided, 
and Sea Grants are sustained at the 2005 level of $61 million.
    To improve efficiency, the Budget also streamlines administrative 
layers within the Technology Administration (TA). The Budget reflects 
TA's intent to evaluate its current operating practices and incorporate 
methods to improve the effectiveness of its operations.

Environmental Protection Agency (EPA):
    The FY 2006 EPA S&T request is $792 million, a two percent increase 
over FY 2005, even before removing $70 million in earmarks. This 
investment supports core Agency programs and strengthens the 
application of science to EPA regulatory actions and other programs.
    The Administration is directing $20 million of S&T funding to a new 
pilot program within EPA that the program offices (e.g., Water, Office 
of Solid Waste and Emergency Response, Air) would then use to fund 
applied research in the Office of Research and Development (ORD). This 
is intended to improve the use of ORD (to avoid duplicative program 
efforts), coordination between the program offices and ORD, and 
responsiveness and accountability. This program contributes to the 
overall increase in S&T funding.
    $79 million in new funding will support homeland security projects 
and research at EPA related to water security monitoring and 
surveillance, post-incident building and environmental decontamination, 
and Environmental Laboratory Preparedness and Response.
    The FY 2006 Budget requests approximately $65 million for the 
Science to Achieve Results (STAR) program, which includes a decrease in 
exploratory research grants. Given the overall tightness of EPA's 
budget (-6 percent from 2005 enacted), and the need to fun core 
programmatic needs, STAR grants, which cannot focus on EPA program 
needs, were reduced.

Department of Transportation (DOT):
    The FY 2006 Budget request for highway-related research is $543 
million, $23 million less than 2005, before removing significant 
earmarks. Highway research includes the Federal Highway 
Administration's transportation research and technology contract 
programs, National Highway Traffic Safety Administration research and 
analysis, and Federal Motor Carrier Safety Administration research and 
technology.
    The 2006 request for Federal Aviation Administration (FAA) 
Research, Engineering and Development is $130 million, virtually the 
same as 2005's $131 million. In 2003, Congress created the Next 
Generation Air Transportation System Joint Planning and Development 
Office (JPDO) [Public Law 108-176] to coordinate the goals, priorities, 
and research activities across the Federal Government relative to the 
air transportation system. The JPDO vision was articulated in their 
Integrated Plan released on December 12, 2004 and the research needs 
identified to date are being addressed through prioritization and 
leveraging of existing funds at FAA, NASA, and DOD.

PRIORITY INITIATIVES

    The 2006 budget highlights priority interagency initiatives 
described briefly below. These initiatives are coordinated through the 
National Science and Technology Council (NSTC) for which my office has 
responsibility for day-to-day operations. The Council prepares research 
and development strategies that cross agency boundaries to form a 
consolidated and coordinated investment package.

Networking and Information Technology R&D--With President Bush's FY 
2006 Budget request of $2.2 billion for the Networking and Information 
Technology R&D (NITRD) program, the investment in this area over five 
years will total more than $10.4 billion. Research in networking and 
information technologies underpins advances in virtually every other 
area of science and technology and provides new capacity for economic 
productivity. Through active coordination, NITRD agencies mutually 
leverage resources to make broader advances in networking and 
information technology than any single agency could attain.

        <bullet>  NSF continues to provide the largest share of federal 
        NITRD funding, reflecting the Foundation's broad mission as 
        well as its leadership role in coordinating NITRD activities. 
        The FY 2006 request for NSF is $803 million, an $8 million 
        increase from the 2005 estimate.

        <bullet>  High-end computing continues to be a major focus 
        within the NITRD program. In FY 2004, the interagency High End 
        Computing Revitalization Task Force (HECRTF) produced the 
        Federal Plan for High-End Computing, which describes a roadmap 
        for progress in core technologies for high-end computing, 
        mechanisms for improving access to high-end computing 
        resources, and strategies for improving federal procurement and 
        coordination of high-end systems. The FY 2006 budget reflects 
        the continuation of NITRD activities that are consistent with 
        recommendations described in the Federal Plan, such as 
        investments in new high-end systems by NASA and DOE's Office of 
        Science.

        <bullet>  NASA continues to emphasize high-end computing within 
        its NITRD portfolio through the recently-completed acquisition 
        of the Project Columbia supercomputer, a portion of which NASA 
        plans to make available to other federal users. Following 
        completion of the acquisition of Columbia, NASA's expenditure 
        in high-end computing is normalizing at a lower level.

        <bullet>  DOE's Office of Science has also committed to operate 
        their new Leadership Class Computing facility at the Oak Ridge 
        National Laboratory as a national user facility. DOE's FY 2006 
        request of $25 million for the Leadership facility brings that 
        federal investment to $100 million.

National Nanotechnology Initiative--President Bush's FY 2006 Budget 
provides over $1 billion for the multi-agency National Nanotechnology 
Initiative (NNI), bringing the total NNI investment under this 
Administration to $4.7 billion. This sustained investment will advance 
our understanding of the unique phenomena and processes that occur at 
the nanometer scale and expedite the responsible use of this knowledge 
to achieve advances in medicine, manufacturing, high-performance 
materials, information technology, and energy and environmental 
technologies.

        <bullet>  The largest investments continue to be made by NSF 
        where the FY 2006 NSF request is $344 million, an increase of 
        $6 million over the 2005 estimate.

        <bullet>  DOE contribution to the initiative ramps up 
        dramatically with commencement of operations in four of its 
        five new major Nanoscale Science Research Centers located 
        across the country. The Centers will provide research equipment 
        and infrastructure that will be broadly available to 
        researchers from across the scientific research community. 
        Construction completion keeps total DOE NNI spending flat in FY 
        2006, but a portion of construction roll-off funds are made 
        available for operational support.

        <bullet>  The FY 2006 request of $147 million by HHS includes 
        programs at NIH emphasizing nanotechnology-based biomedical 
        advances occurring at the intersection of biology and the 
        physical sciences, such as the National Cancer Institute's 
        Alliance for Nanotechnology in Cancer, and at the National 
        Institute of Occupational Safety and Health (NIOSH) that 
        address implications and applications of nanotechnology for 
        health and safety in the workplace.

        <bullet>  With the addition of NIOSH, 11 federal agencies 
        currently fund nanotechnology research and development under 
        the NNI, and another 11 participate in coordination. Agencies 
        that have joined the NNI as participants over the past year 
        include the U.S. Patent and Trademark Office and the Consumer 
        Product Safety Commission, indicating the increasing importance 
        of commercialization activities.

Climate Change Research and Development--The FY 2006 Budget continues 
strong support for the Climate Change Science Program (CCSP) and the 
Climate Change Technology Program (CCTP).

        <bullet>  The CCSP budget continues to support the goals 
        outlined in the CCSP Strategic Plan, which was released in July 
        2003. Beginning in FY 2006, CCSP will formally track the 
        expected actions, deliverables, and milestones for each of its 
        programs in order to assess overall performance.

        <bullet>  The FY 2006 Budget proposes approximately $1.9 
        billion to fund CCSP, virtually the same as 2005 despite 
        reductions in NASA (-$102 million) due to re-prioritization of 
        programs. With this request, the Administration will have 
        invested more than $9 billion over five years to improve our 
        understanding of the global climate system.

        <bullet>  The FY 2006 Budget provides approximately $2.9 
        billion for the U.S. Climate Change Technology Program (CCTP), 
        which supports research, development, deployment, and voluntary 
        programs to reduce greenhouse gas emissions via renewable 
        energy, fossil energy and nuclear energy, efficiency 
        improvements, and carbon sequestration.

        <bullet>  In 2005, the CCTP will publish a draft Strategic Plan 
        and solicit comments from the scientific community and the 
        public. The CCTP will also identify within its portfolio a 
        subset of National Climate Change Technology Initiative (NCCTI) 
        priority activities.

Hydrogen Fuel Initiative--The Hydrogen Fuel Initiative (HFI) seeks to 
develop new science and technology to support a major shift toward the 
use of hydrogen as an energy medium, particularly for transportation. 
The FY 2006 Budget for HFI is $260 million, $35 million (16 percent) 
greater than the FY 2005 level. The Initiative remains on track to meet 
President Bush's five-year, $1.2 billion commitment to hydrogen 
research and development announced in his 2003 State of the Union 
address. Some highlights include:

        <bullet>  $20 million, an $11 million (122 percent) increase 
        over FY 2005, will fund the Nuclear Hydrogen Initiative. This 
        initiative will conduct the R&D on enabling technologies, 
        demonstrate nuclear-based hydrogen production technologies, and 
        study potential hydrogen production schemes to support the 
        President's vision for a future Hydrogen economy.

        <bullet>  $33 million for fundamental research within DOE's 
        Office of Science. This research seeks to overcome key 
        technical hurdles in hydrogen production, storage, and 
        conversion, by seeking revolutionary breakthroughs in areas 
        such as non-precious-metal catalysts, high-temperature membrane 
        materials, multifunctional nanoscale structures, biological and 
        photoelectrochemical hydrogen production, and precision 
        manufacturing processes.

        <bullet>  Congressional earmarking is slowing progress on HFI, 
        however, and may jeopardize the ability of the Administration 
        to achieve its goal of a 2015 decision by industry to 
        commercialize fuel cell vehicles and infrastructure. In 2005, 
        DOE's Hydrogen Technology Program, a key component of HFI, 
        received 17 earmarks totaling $37 million, about 40 percent of 
        the program's funding.

Homeland Security--Technology continues to help secure our nation 
against terrorism. Research and development over the past three years 
in detectors against weapons of mass destruction (WMD) threat agents, 
medical countermeasures to improve public health preparedness and to 
protect our nation's food and livestock, and advances in protecting the 
First Responders are moving from laboratory to operational use. The 
President's FY 2006 Budget continues an aggressive investment in 
research, development, and the research infrastructure so as to further 
enhance our nation's security. Priority research areas include:

        <bullet>  $227 million to fund the creation of a Domestic 
        Nuclear Defense Office (DNDO) in DHS, whose responsibility will 
        be to develop a comprehensive system to detect and mitigate any 
        attempt to import or transport a nuclear explosive device, 
        fissile material or radiological material intended for illicit 
        use within the U.S.

        <bullet>  $1.8 billion to the Department of Health and Human 
        Services (HHS) to fund research and development of 
        countermeasures against biological, chemical and radiological 
        threat agents.

        <bullet>  $596 million is allocated for the U.S. Department of 
        Agriculture, HHS and DHS to improve food and agriculture 
        defense. This includes funding for research on exotic and 
        emerging diseases of plants and animals and to prevent and 
        detect food contamination, expanding and improving laboratory 
        facilities, and enhancing disease monitoring, surveillance and 
        vaccine storage.

        <bullet>  $94 million will fund new and ongoing research at EPA 
        related to their role in water security and post-incident 
        decontamination. Systems for monitoring and surveillance of 
        terrorist threat agents in drinking water will be piloted in 
        several U.S. cities. Decontamination capabilities will be 
        strengthened by testing new cleaning methods, systems and 
        antimicrobial products for buildings and outdoor areas and by 
        conducting risk assessment work to support decontamination/
        revision of cleanup guidance goals.

MANAGING THE FEDERAL RESEARCH BUDGET

    Consistent with the President's Management Agenda, the 
Administration is improving the effectiveness of the Federal 
Government's investments in R&D by applying transparent investment 
criteria in analyses that inform recommendations for program funding 
and management. R&D performance assessment must be done carefully to 
avoid negatively impacting scientific productivity. Research often 
leads scientists and engineers down unpredictable pathways with 
unpredictable results. This characteristic of research requires special 
consideration when measuring an R&D program's performance against its 
initial goals.
    Elements of good R&D program management include establishing 
priorities with expected results, specifying criteria that programs or 
projects must meet to be started or continued, setting clear milestones 
for gauging progress, and identifying metrics for assessing results.
    The R&D Investment Criteria accommodate the very wide range of R&D 
activities, from basic research to development and demonstration 
programs, by addressing three fundamental aspects of R&D:

        <bullet>  Relevance--Programs must be able to articulate why 
        they are important, relevant, and appropriate for federal 
        investment;

        <bullet>  Quality--Programs must justify how funds will be 
        allocated to ensure quality; and

        <bullet>  Performance--Programs must be able to monitor and 
        document how well the investments are performing.

    R&D projects and programs relevant to industry are expected to meet 
criteria to determine the appropriateness of the public investment, 
enable comparisons of proposed and demonstrated benefits, and provide 
meaningful decision points for completing or transitioning the activity 
to the private sector.
    OSTP and OMB are continuing to assess the strengths and weaknesses 
of R&D programs across the Federal Government in order to identify and 
apply good R&D management practices throughout the government.

CONCLUSION

    Making choices is difficult even when budgets are generous. But 
tight budgets have the virtue of focusing on priorities and 
strengthening program management. This year's R&D budget proposal 
maintains levels of funding that allow America to maintain its 
leadership position in science and move ahead in selected priority 
areas. It is responsible in its treatment of security-related science 
and technology, and it rewards good planning and management.
    America currently spends one and a half times as much on federally 
funded research and development as Europe does, and three times as much 
as Japan, the next highest investor in R&D. Our scientists collectively 
have the best laboratories in the world, the most extensive 
infrastructure supporting research, the greatest opportunities to 
pursue novel lines of investigation, and the most freedom to turn their 
discoveries into profitable ventures if they are inclined to do so.
    We lead not only in science, but also in translating science to 
economically significant products that enhance the quality of life for 
all people.
    This budget will sustain this leadership and maintain science and 
technology capabilities that are the envy of the world. I would be 
pleased to respond to questions.

                  Biography for John H. Marburger, III
    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D., Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the university and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the Governor's Commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    As a public spirited scientist-administrator, Marburger has served 
local, State and Federal governments in a variety of capacities. He is 
credited with bringing an open, reasoned approach to contentious issues 
where science intersects with the needs and concerns of society. His 
strong leadership of Brookhaven National Laboratory following a series 
of environmental and management crises is widely acknowledged to have 
won back the confidence and support of the community while preserving 
the Laboratory's record of outstanding science.

    Chairman Boehlert. Thank you very much, Doctor.
    Mr. Secretary, you are up.

 STATEMENT OF DR. SAMUEL W. BODMAN, SECRETARY OF ENERGY, U.S. 
                      DEPARTMENT OF ENERGY

    Secretary Bodman. Mr. Chairman, I am very grateful, sir, to 
be here again before this committee and to discuss the 
President's 2006 budget request for science in particular at 
the Department of Energy.
    As you are well aware, I believe very passionately in the 
role that science has played over the last century, really, in 
the economic growth of our country. And I really believe that 
what occurs in this budget will continue that record on into 
the future.
    I appreciate very much what this committee has done to 
advance American science over the years, and I want to thank 
you all for that and let you know that I am very anxious in 
providing leadership for the Department of Energy because of 
the pivotal role that the Department plays in funding science 
and technology throughout our country.
    Scientists working for the Department's National 
Laboratories and in universities funded by the Department of 
Energy over the years have been awarded more than 80 Nobel 
Prizes. And to my knowledge, no one else comes anywhere close 
to being able to make that kind of statement.
    I particularly want to recognize today, in public, the 
extraordinary leadership that Dr. Orbach has provided, who is 
our Director of the Office of Science. I think he is here 
today. I saw him in the room earlier. And he has done just----
    Chairman Boehlert. You know he is here.
    Secretary Bodman. He has done quite an extraordinary job, 
and I wanted to recognize him. He has really brought a sense of 
mission and focus to that job, which is very admirable. The 
truth be known, I am here in his--I pulled rank on him so that 
I could come before this committee again.
    This Department's responsibility for the future of science 
is best illustrated by our stewardship of the Nation's 
scientific infrastructure through our system of world-class 
National Laboratories. In addition to the Office of Science, 
the Department has a robust research and development portfolio 
extending across our programs in fossil energy, in nuclear 
energy, in renewable energy, in energy efficiency, 
environmental management, and in fact, in national security. So 
we cover a broad range.
    The Department is the single largest supporter of research 
in the physical sciences. And as such, we have a special and 
particularly important role in this field of scientific 
endeavor, and it is one that I take very seriously.
    The budget request, as Dr. Marburger just mentioned, for 
the Office of Science, is $3.5 billion, and it will maintain a 
very solid foundation for scientific discovery in our country. 
In light of the emphasis that this budget places on deficit 
control, this level of funding for the Office of Science 
signals a very strong commitment on the part of the 
Administration to invest in the promise of basic research for 
discoveries that leapfrog today's technology.
    The priorities that we have set are very clear. Through the 
2006 budget, we will fully support presidential initiatives in 
fusion and hydrogen. We will continue strong support for other 
Administration priorities, such as nanotechnology and 
information technology. We will complete on time and within 
budget unique scientific facilities that will maintain an 
enhanced research in areas that we believe offer the greatest 
potential for broad advances in future energy technologies. 
These scientific facilities were prioritized in our 20-year 
facilities outlook that was announced and published in November 
of 2003.
    We will continue moving ahead with our FreedomCAR research 
and the President's Hydrogen Fuel Initiative to develop 
hydrogen-fueled vehicles and the infrastructure to support 
them. We are also carrying forward with U.S. participation in 
the International Thermonuclear Experimental Reactor, or ITER 
as it is known, a project that will pursue the potential of 
energy from nuclear fusion.
    One of the biggest science stories of the year 2006 will be 
the start-up of the Spallation Neutron Source at our Oak Ridge 
National Laboratory, which will provide the most intense 
neutron beam in the world for cutting-edge research.
    Our fiscal year 2006 will also bring four of our five 
nanoscale science research centers on line, providing tools 
found nowhere else in the world for exploration at the atomic 
level, offering huge potential for the discovery of entirely 
new ways to build materials.
    We are fully funding construction of the Linac Coherent 
Light Source at the Stanford Linear Accelerator Center, a 
machine that will produce x-rays 10 billion times brighter than 
any existing x-ray source on earth. When it comes on line in 
2009, it essentially will allow stop-action photography of 
atomic motion. Anyone that doubts the seriousness of this kind 
of accomplishment should ask someone in the pharmaceutical 
industry just how they could use a machine that shows the 
chemical bonds that are formed during the course of a chemical 
reaction.
    The Office of Science will also fully fund the National 
Energy Research Scientific Computing Center, a key center for 
capacity supercomputing used by roughly 2,000 researchers every 
year, and a separate open-access leadership class computing 
facility focused on providing the capability to carry out a 
limited number of massive simulations not possible on any other 
civilian supercomputer in the United States.
    The Department will also expand research underpinning 
biotechnology solutions to the world's energy challenges and 
research supporting the President's climate change science 
program.
    Our research programs in high-energy physics continue to 
receive strong support. We have enhanced funding for future 
accelerators, such as the Large Hadron Collider, scheduled to 
begin operation in 2007, and the proposed International Linear 
Collider, which is now in early research and development phase. 
Our nuclear physics program will continue to offer world-class 
facilities for use by thousands of researchers around the 
world.
    While this hearing focuses on civilian science and 
technology programs that are authorized by this committee, I 
want to note the significant contributions to science that also 
occur at the National Nuclear Security Administration's, or 
NNSA's, nuclear weapons laboratories, which are under the 
jurisdiction of the Armed Services Committee. Work at the 
weapons laboratories primarily focuses on stockpile stewardship 
and the Office of Science and the NNSA will work together on a 
number of activities.
    The President's budget request for the Office of Science 
allows us to build on the solid foundation created over the 
last four years, propels us into new areas of scientific 
leadership, and maintains America's leadership in science, 
something that we are very much committed to.
    And I, too, would be happy to take questions at the 
appropriate time.
    Thank you, sir.
    [The prepared statement of Secretary Bodman follows:]

                 Prepared Statement of Samuel W. Bodman

    Chairman Boehlert, Congressman Gordon, Members of the Committee, 
thank you for welcoming me back, this time in my new role as Secretary 
of Energy. I am grateful for the opportunity to discuss the President's 
fiscal year 2006 budget for science at the Department of Energy.
    I come before you this morning with tremendous enthusiasm for the 
Department's mission to maintain and enhance America's leadership in 
science and technology.
    That responsibility is best illustrated by the Department's Office 
of Science stewardship of our nation's scientific infrastructure 
through a system of 10 world-class National Laboratories. In addition 
to the Office of Science, the Department has a robust research-and-
development portfolio extending across our programs in fossil energy, 
nuclear energy, renewable energy, energy efficiency, environmental 
management and national security.
    The Department is the single largest supporter of research in the 
physical sciences, and as such, we have a special and particularly 
important role in this field of scientific endeavor.
    The budget request for the Office of Science of $3.5 billion 
maintains a solid foundation for scientific discovery. In light of the 
emphasis that this Budget places on deficit control, this level of 
funding for the Office of Science signals a strong commitment on the 
part of the Administration to invest in the promise of basic research 
for discoveries that leapfrog today's technology.
    The priorities we have set are clear. Through the 2006 Budget, we 
will fully support Presidential initiatives in fusion and hydrogen, we 
will continue strong support for other Administration priorities such 
as nanotechnology and information technology, we will complete. . .on 
time and within budget. . .unique scientific facilities that will 
maintain and enhance research in areas we believe offer the greatest 
potential for broad advances in future energy technologies. These 
scientific facilities were prioritized in our 20-year facilities 
outlook, announced in November 2003.
    We will continue moving ahead with our FreedomCAR research and the 
President's Hydrogen Fuel Initiative to develop hydrogen-fueled 
vehicles and the infrastructure to support them. We are also carrying 
forward with U.S. participation in the International Thermonuclear 
Experimental Reactor project to pursue the potential of energy from 
nuclear fusion.
    One of the biggest science stories of the year 2006 will be the 
start-up of the Spallation Neutron Source at our Oak Ridge National 
Lab, which will provide the most intense neutron beam in the world for 
cutting-edge research.
    Our FY 2006 budget will also bring four of our five nanoscale 
science research centers on line, providing tools found nowhere else in 
the world for exploration at the atomic level, offering huge potential 
for the discovery of entirely new ways to build materials.
    We are fully funding construction of the Linac Coherent Light 
Source at the Stanford Linear Accelerator Center, a machine that will 
produce x-rays 10 billion times brighter than any existing x-ray source 
on Earth. When it comes on line in 2009, it essentially will allow 
stop-action photography of atomic motion. Just ask the pharmaceutical 
industry what they could do with a machine that shows them how the 
chemical bond forms during a chemical reaction.
    The Office of Science also will fully fund the National Energy 
Research Scientific Computing Center, a key center for capacity 
supercomputing used by roughly 2,000 researchers every year, and a 
separate open-access leadership class computing facility focused on 
providing the capability to carry out a limited number of massive 
simulations not possible on any other civilian supercomputer in the 
U.S.
    The Department will also expand research underpinning biotechnology 
solutions to the world's energy challenges and research supporting the 
President's climate change science program.
    Our research programs in high energy physics continue to receive 
strong support. We have enhanced funding for future accelerators such 
as the Large Hadron Collider, scheduled to begin operation in 2007, and 
the proposed International Linear Collider, which is now in an early 
R&D phase. Our nuclear physics program will continue to offer world-
class facilities for use by thousands of researchers from around the 
world.
    While this hearing focuses on civilian science and technology 
programs that are authorized by this committee, I want to note that 
significant contributions to science also occur at the National Nuclear 
Security Administration's nuclear weapons laboratories, which are under 
the jurisdiction of the Armed Services Committee. Work at the weapons 
laboratories primarily focuses on stockpile stewardship, and the Office 
of Science and the NNSA work together on a number of activities.
    The President's budget request for the Office of Science allows us 
to build on the solid foundation created over the last four years, 
propels us into new areas of scientific leadership, and maintains 
America's leadership in science.
    I would be happy to answer your questions.

                     Biography for Samuel W. Bodman
    Samuel Wright Bodman was sworn in as the 11th Secretary of Energy 
on February 1, 2005 after the United States Senate unanimously 
confirmed him on January 31, 2005. He leads the Department of Energy 
with a budget in excess of $23 billion and over 100,000 federal and 
contractor employees.
    Previously, Secretary Bodman served as Deputy Secretary of the 
Treasury beginning in February 2004. He also served the Bush 
Administration as the Deputy Secretary of the Department of Commerce 
beginning in 2001. A financier and executive by trade, with three 
decades of experience in the private sector, Secretary Bodman was well 
suited manage the day-to-day operations of both of these cabinet 
agencies.
    Born in 1938 in Chicago, he graduated in 1961 with a B.S. in 
chemical engineering from Cornell University. In 1965, he completed his 
ScD at Massachusetts Institute of Technology. For the next six years he 
served as an Associate Professor of Chemical Engineering at MIT and 
began his work in the financial sector as Technical Director of the 
American Research and Development Corporation, a pioneer venture 
capital firm. He and his colleagues provided financial and managerial 
support to scores of new business enterprises located throughout the 
United States.
    From there, Secretary Bodman went to Fidelity Venture Associates, a 
division of the Fidelity Investments. In 1983 he was named President 
and Chief Operating Officer of Fidelity Investments and a Director of 
the Fidelity Group of Mutual Funds. In 1987, he joined Cabot 
Corporation, a Boston-based Fortune 300 company with global business 
activities in specialty chemicals and materials, where he served as 
Chairman, CEO, and a Director. Over the years, he has been a Director 
of many other publicly owned corporations.
    Secretary Bodman has also been active in public service. He is a 
former Director of M.I.T.'s School of Engineering Practice and a former 
member of the M.I.T. Commission on Education. He also served as a 
member of the Executive and Investment Committees at M.I.T., a member 
of the American Academy of Arts & Sciences, and a Trustee of the 
Isabella Stewart Gardner Museum and the New England Aquarium.
    Secretary Bodman is married to M. Diane Bodman. He has three 
children, two stepchildren, and eight grandchildren.

    Chairman Boehlert. Thank you very much, Mr. Secretary.
    Dr. Bement.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Thank you, Mr. Chairman, Ranking Member Gordon, 
and members of the Committee. I am pleased to appear before you 
today to discuss NSF's fiscal year 2006 budget request. And I 
want to thank you, Mr. Chairman, for your unabashed support and 
that of your colleagues for NSF over the years. Thank you.
    NSF's fiscal year 2006 budget request reflects the 
Administration's support for our mission. In light of the tight 
fiscal climate, we believe we have fared relatively well. For 
the coming fiscal year, NSF requests $5.6 billion, an increase 
of $132 million, or 2.4 percent over last year's appropriated 
levels. The total funding for NSF's Research and Related 
Activities [RRA] account in this request increases by $113 
million, nearly three percent, to $4.33 billion.
    Of this amount, $48 million is transferred to NSF from the 
Coast Guard for operation and maintenance expenses related to 
ice breaking in the Antarctic. We are currently working with 
the Coast Guard to explore options for funding icebreaker 
services in support of science within available NSF resources 
for fiscal year 2006.
    Maintaining strong and robust research programs in support 
of individual investigators and small groups of researchers is 
at the core of NSF's mission. In many scientific disciplines, 
NSF is the major source of federal funding to academic 
institutions. One goal in this year's request is to strengthen 
our research support across all areas in our portfolio.
    Research, however, is only part of the NSF equation. Our 
mission includes education as well. In our request, we will 
maintain a total investment of almost $400 million for programs 
with a proven track record of broadening the participation of 
under-represented groups in the science and engineering arena. 
The Louis Stokes Alliances for Minority Participation, the 
Centers for Research Excellence in Science and Technology, the 
Robert Noyce Scholarship program, the STEM Talent Expansion 
Program, and EPSCoR, to name just a few, are protected from 
reductions in this request.
    Overall, the Education and Human Resources Directorate at 
NSF will be funded at $737 million, down 12.4 percent from last 
year. Although we have found it necessary to make cuts in these 
programs, we are also finding ways to leverage other resources 
in support of education. We will, for example, continue to 
encourage the types of partnerships between researchers and 
students in our RRA portfolio that provide hands-on learning 
experiences.
    We are committed to ensuring that future generations gain 
the skills, knowledge, and insight that comes from working at 
the frontier of discovery. We will also maintain our strong 
working relationship with the Department of Education to 
implement best practices in their initiatives supporting math 
and science education.
    While there are no new starts in our Major Research 
Equipment and Facilities Construction account, NSF is 
increasing funding in this account by $76 million for a total 
of $250 million to continue to fund ongoing projects.
    The NSF directly supports roughly 200,000 scientists, 
educators, and students and processes over 40,000 proposals a 
year. Balancing the needs of a growing, increasingly complex 
portfolio with new requirements for security, e-business, 
accountability, and award oversight presents an ongoing 
challenge. In order to meet these management goals, NSF will 
increase funding for activities that advance organizational 
excellence by $46 million to a total of $336 million. This 
increase will allow for the recruitment of 23 additional full-
time employees, enhancement and security of our e-government 
systems, and continuing the implementation of the business 
analysis recommendations that we have been working on during 
the past three years.
    Mr. Chairman, I have touched upon the variety and richness 
of the NSF portfolio, but I have only scratched the surface. 
NSF research and education efforts contribute greatly to the 
Nation's innovation-driven economy and help keep America at the 
forefront of science and engineering. NSF-supported researchers 
produce leading-edge discoveries that serve society and spark 
the public's curiosity and interest. Extraordinary discoveries 
coming from dozens of NSF programs are enriching the entire 
science and engineering enterprise and making education fun, 
exciting, and achievement-oriented.
    With that, I would be glad to answer any questions you may 
have.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Boehlert, Ranking Member Gordon, and Members of the 
Committee, thank you for this opportunity to discuss NSF's FY 2006 
budget Request. It is a pleasure to appear before you today. For over 
fifty years, NSF has been charged with being a strong steward of the 
scientific discovery and innovation that has been crucial to increasing 
America's economic strength, global competitiveness, national security, 
and overall quality of life.
    For many years, the United States economy has depended heavily on 
investments in research and development--and with good reason. 
America's sustained economic prosperity is based on technological 
innovation made possible, in large part, by fundamental science and 
engineering research. Innovation and technology are the engines of the 
American economy, and advances in science and engineering provide the 
fuel.
    Investments in science and technology--both public and private--
have driven economic growth and improved the quality of life in America 
for the last 200 years. They have generated new knowledge and new 
industries, created new jobs, ensured economic and national security, 
reduced pollution and increased energy efficiency, provided better and 
safer transportation, improved medical care, and increased living 
standards for the American people. Innovation and technology have 
become the engines of the American economy, and advances in science and 
engineering provide the fuel.
    Investments in research and development are among the highest-
payback investments a nation can make. Over the past 50 years 
technological innovation has been responsible for as much as half of 
the Nation's growth in productivity.
    Sustaining this innovation requires an understanding of the factors 
that contribute to it. The Council on Competitiveness, a consortium of 
industry, university, and labor leaders, has developed quantitative 
measures of national competitiveness: the number of R&D personnel in 
the available workforce; total R&D investment; the percentage of R&D 
funded by private industry; the percentage of R&D performed by the 
university sector; spending on higher education; the strength of 
intellectual property protection, openness to international 
competition; and per capita gross domestic product. A similar set of 
indicators has been developed by the World Bank Group, and voluminous 
data have been compiled by NSF. The important point underscored by 
these indicators is that, for America to remain a prosperous and secure 
country, it must maintain its technological leadership in the world.
    Perhaps the Council on Competitiveness' 2004 National Innovation 
Initiative report captured it best by simply stating, ``Innovation has 
always been the way people solved the great challenges facing 
society.''
    Often times, the connection between an area of research, or even a 
particular scientific discovery, and an innovation may be far from 
obvious. Fundamental research in physics, mathematics and high-flux 
magnets supported by NSF led to the development of today's Magnetic 
Resonance Imaging (MRI) technology. Today, MRIs are used widely to 
detect cancer and internal tissue damage. Fundamental research on 
extremophiles, or microorganisms living in extreme environments, led to 
the polymerase chain reaction, a procedure paramount to modern 
biotechnology, as well as one that allows us to use DNA for forensic 
evidence. Continuing progress in basic science and engineering research 
promises more discoveries as well as further improvements in living 
standards and economic performance.
    And still, science and engineering is becoming an ever-larger 
portion of our nation's productivity. In the early 1950s, Jacob 
Bronowski wrote, ``The world today is powered by science.'' I would 
take this premise one step farther, ``No science; no economic growth.'' 
Our current level of scientific and technological productivity is what 
keeps us ahead of our global competitors as the playing field continues 
to become more level.
    NSF has helped advance America's basic science and engineering 
enterprise for over fifty years. Despite its small size, NSF has an 
extraordinary impact on scientific and engineering knowledge and 
capacity. While NSF represents only four percent of the total federal 
budget for research and development, it accounts for 50 percent of non-
life science basic research at academic institutions. In fact, NSF is 
the only federal agency that supports all fields of science and 
engineering research and the educational programs that sustain them 
across generations. NSF's programs reach over 2,000 institutions across 
the Nation, and they involve roughly 200,000 researchers, teachers, and 
students.
    NSF specifically targets its investments in fundamental research at 
the frontiers of science and engineering. Here, advances push the 
boundaries of innovation, progress and productivity.
    Compared to other commodities, knowledge generated from basic 
science investments is unique, long lasting and leverages on itself. 
Knowledge can be shared, stored and distributed easily, and it does not 
diminish by use. Incremental advances in knowledge are synergistic over 
time. NSF is proud to have built the foundation for this knowledge base 
through decades of peer-reviewed, merit-based research.

FY 2006 Budget Request

    The Foundation's FY 2006 budget Request reflects the 
Administration's confidence in our continuing with this mission. In 
light of the tight fiscal climate, NSF fared relatively well. For the 
coming fiscal year, NSF requests $5.6 billion, an increase of $132 
million, or 2.4 percent, over last year's appropriated levels.
    At a time when many agencies are looking at budget cuts, an 
increase in our budget underscores the Administration's support of 
NSF's science and engineering programs, and reflects the agency's 
excellent management and program results.
    With the wealth of benefits that investments in science and 
engineering bring to the Nation, perhaps none is more powerful than the 
capability to respond quickly and effectively to challenges of all 
kinds. NSF's programs reach over 2,000 institutions across the Nation, 
and they involve researchers, teachers, and students in all fields of 
science and engineering and at all levels of education. They also keep 
us abreast of scientific advances throughout the world. This breadth of 
activity in and of itself creates a vital national resource, as it 
provides the Nation with a constantly invigorated base of knowledge, 
talent, and technology. For example, in areas ranging from terrorism 
threats to natural disasters, NSF's ongoing support of research in 
areas such as advanced information technologies, sensors, and 
earthquake engineering ensures a broad base of expertise and equipment 
that allows the science and engineering community to respond quickly in 
times of need and in partnership with scientists and engineers from 
other countries.
    Four funding priorities centering this year's request are designed 
to address current national challenges and strengthen NSF's core 
research investments. They include: (1) Strengthening core disciplinary 
research; (2) Providing broadly accessible cyberinfrastructure and 
world-class research facilities; (3) Broadening participation in the 
science and engineering workforce; and (4) Sustaining organizational 
excellence in NSF management practices.
    This year's investments will strengthen the core disciplines that 
empower every step of the process from discovery at the frontier to the 
development of products, processes, and technologies that fuel the 
economy. At the same time, NSF's investments will enable increasing 
connections and cross-fertilization among disciplines.
    NSF's focus on a clear set of priorities will help the Nation meet 
new challenges and take advantage of promising opportunities, while at 
the same time spurring the growth and prosperity needed to secure the 
Nation's long-term fiscal balance. The FY 2006 budget will emphasize 
investments that address established interagency research priorities, 
meet critical needs identified by the science and engineering 
community, and advance the fundamental knowledge that strengthens the 
Nation's base of innovation and progress. NSF will respond to these 
challenges by supporting the best people, ideas, and tools in the 
science and engineering enterprise, and by employing the best practices 
in organizational excellence.

Research and Related Activities Account

    For FY 2006, total funding for NSF's Research and Related 
Activities account increases by $113 million--nearly three percent--to 
$4.33 billion. This increase largely reflects NSF efforts to strengthen 
fundamental research in the core scientific disciplines as well as 
promote emerging areas of research. The FY 2006 portfolio balances 
research in established disciplines with research in emerging areas of 
opportunity and cross-disciplinary projects. The most fertile 
opportunities sometimes lie in novel approaches or a collaborative mix 
of disciplines.
    Maintaining a strong and robust core is critical during such a 
budget climate as certain segments of the academic community rely 
heavily on NSF funding. In many scientific disciplines, NSF is a major 
source of federal funding to academic institutions, including 
mathematics (77 percent), computer sciences (86 percent), the social 
sciences (49 percent), the environmental sciences (50 percent), 
engineering (45 percent) and the physical sciences (39 percent).
    Research, however, is only part of the NSF equation. Training the 
Nation's next generation of scientists and engineers is another key 
component of NSF's mission, and critical for maintaining economic 
prosperity and global competitiveness. Here, we are finding ways to 
leverage our resources. For example, as we strengthen our core 
disciplinary research programs, we will continue to encourage the types 
of partnerships between researchers and students that provide hands-on 
experience while ensuring that future generations gain the skills, 
knowledge and insight that come from working at the frontier of 
discovery.

Providing Broadly Accessible Cyberinfrastructure and World-Class 
                    Research Facilities

    Twenty-first century researchers and the students who will bring 
new skills into the workforce rely on cutting edge tools. In FY 2006, 
NSF is placing a high priority on investments in cyberinfrastructure 
and in unique, widely shared research equipment and facilities.
    An infrastructure of power grids, telephone systems, roads, bridges 
and rail lines buttressed this nation's industrial economy and allowed 
it to prosper. However, cyberinfrastructure--a networked system of 
distributed computer information and communication technology--is the 
lynchpin of today's knowledge based economy. In FY 2006, NSF 
cyberinfrastructure investments total $509 million, an increase of $36 
million (7.6 percent) over the FY 2005 level.
    Modeling, simulation, visualization, data storage and communication 
are rapidly transforming all areas of research and education. NSF 
investments in cyberinfrastructure support a wide mix of projects and 
encourage participation from broad segments of the research community 
that rely on such technology as they tackle increasingly complex 
scientific questions. Thanks to cyberinfrastructure and information 
systems, today's scientific tool kit includes distributed systems of 
hardware, software, databases and expertise that can be accessed in 
person or remotely. In fact, programs such as Teragrid, a multi-year 
effort to create the world's largest distributed infrastructure for 
open scientific research, are specifically designed to transcend 
geographic boundaries and accelerate virtual collaborations.
    NSF is also increasing funding for the Major Research Equipment and 
Facilities Construction by $76 million or 44 percent, in FY 2006 for a 
total of $250 million. There are no new starts, but we will continue to 
fund ongoing projects. Work will proceed on five major facilities that 
will serve a spectrum of the science and engineering community. These 
include world-class astronomy, physics, and geosciences observatories 
identified as the highest priorities for advancing science and 
engineering.

        <bullet>  The Atacama Large Millimeter Array (ALMA), in Chile, 
        is a model of international collaboration. It will be the 
        world's largest, most sensitive radio telescope.

        <bullet>  The EarthScope facility is a multi-purpose array of 
        instruments and observatories that will greatly expand the 
        observational capabilities of the Earth Sciences and permit us 
        to advance our understanding of the structure, evolution and 
        dynamics of the North American continent.

        <bullet>  Ice Cube, the world's first high-energy neutrino 
        observatory will be located under the ice at the South Pole.

        <bullet>  RSVP, the Rare Symmetry Violating Processes Project 
        will enable cutting edge physics experiments to study 
        fundamental properties of nature. Studies will probe questions 
        ranging from the origins of our physical world to the nature of 
        dark matter.

        <bullet>  SODV, the Scientific Ocean Drilling Vessel, is a 
        state-of-the-art ship that will be a cornerstone of a new 
        international scientific ocean drilling program. Ocean core 
        sediment and rock collected by the vessel will help 
        investigators explore the planet's geological history and probe 
        changes in the earth's oceans and climate.

    Additionally, In FY 2006, NSF will assume the responsibility, from 
the U.S. Coast Guard, for funding the costs of icebreakers that support 
scientific research in polar regions; $48 million was transferred for 
those purposes.

Broadening Participation

    To feed our knowledge-based economy, the Nation needs to capitalize 
on all of its available talent to produce a workforce of skilled 
technologists, scientists and engineers. That means developing the 
largely untapped potential of those under-represented in the science 
and engineering workforce--minorities, women and persons with 
disabilities. It also means supporting science education and training 
in all regions of the country--not just at large Universities or in a 
handful of states.
    To achieve these goals, the FY 2006 Request maintains a total 
investment of almost $400 million. Funding will be targeted to programs 
with a proven track record of progress in these areas. Included in this 
is $8 million in additional support from the research directorates that 
will supplement the Education and Human Resources Account to help 
achieve our goal of broadening science and engineering participation. 
Working closely with the directorates offers a dual benefit of 
providing educational opportunities and hands-on research experience to 
prepare students for the 21st century workforce.
    NSF will invest $396.5 million in a range of programs with proven 
track records. Several highly successful programs for broadening 
participation--the Louis Stokes Alliances for Minority Participation, 
the Alliances for Graduate Education and the Professoriate, the Centers 
for Research Excellence in Science and Technology (CREST), Robert Noyce 
Scholarship program, STEM Talent Expansion Program and EPSCoR--just to 
name a few, are secured in this request. Each of these serve as models 
for integrating educational and research resources to improve 
recruitment and retention in science and engineering to all sectors of 
our diverse population.

Sustaining Organizational Excellence in NSF Management Practices

    NSF directly supports over 210,000 scientists, educators and 
students and processes over 40,000 proposals a year. Balancing the 
needs of a growing, increasingly complex portfolio with new 
requirements for e-business practices, security, accountability, and 
award oversight presents a challenge. NSF sets high standards for its 
business practices and strives to create an agile, innovative 
organization through state-of-the-art business conduct and continual 
review. In order to meet these management goals, NSF will be increasing 
funding for activities that advance organizational excellence by $46 
million, to a total of $336 million. In addition to critically needed 
upgrades to our information technology infrastructure, this increase 
will allow for the recruitment of 25 full-time employees--23 for NSF 
and one each for the National Science Board and the Office of the 
Inspector General--which will improve our ability to manage our 
increasingly complex portfolio.
    Expanding our e-government systems and the implementing of our 
ongoing business analysis recommendations are high priorities for FY 
2006.
    Over the past two years, as part of the Administrations Program 
Assessment Rating Tool, NSF has worked with OMB to rate eight of our 
investment categories. All of these areas have received the highest 
rating of Effective. As such, NSF programs fall within the top 15 
percent of 600 government programs evaluated to date.

Crosscutting Activities

    Beyond our budget priorities lie dozens of programs and initiatives 
that cut across NSF directorates and enrich the overall science and 
research enterprise. NSF sets priorities based on a continual dialogue 
and exchange of ideas with the research community, NSF management and 
staff and the National Science Board. Programs are initiated based on 
several criteria: intellectual merit, broader impacts of the research, 
balance across disciplines and synergy with research in other agencies. 
The Committee of Visitors process ensures a continuous evaluation of 
our merit review process and feedback on how NSF programs are 
performing. In FY 2006, NSF will emphasize four crosscutting areas.
    Crosscutting areas of emerging opportunity: Over several years, NSF 
has funded exceptionally promising interdisciplinary efforts aimed at 
advancing our knowledge, addressing national needs, and probing the 
grand challenges of science. The FY 2006 request maintains or increases 
FY 2005 levels of funding for the following priority areas: $84 million 
for Biocomplexity in the Environment, $243 million for Nanoscale 
Science and Engineering, $89 million for the Mathematical Sciences 
Priority Area and $39 million for Human and Social Dynamics.
    International Collaborations: Science and engineering research are 
increasingly global endeavors. International partnerships are critical 
to the United States in maintaining a competitive edge, capitalizing on 
global opportunities, and addressing global problems. The Office of 
International Science and Engineering's recent move to the director's 
office, and the budget request reflects this important trend. The FY 
2006 budget provides $35 million for NSF's Office of International 
Science and Engineering.
    The recent Indian Ocean Tsunami disaster represents the finest in 
international cooperation--and clearly demonstrates an international 
desire to develop scientific methods for natural disaster prediction 
and ways to reduce losses when such catastrophic events do inevitably 
occur. A network of more than 128 sensors--which NSF has a 20-year 
investment in--recorded shock waves from the recent earthquake as they 
traveled around the earth. This network is the primary international 
source of data for earthquake location and tsunami warning and its data 
forged the critical core of the early knowledge of this event. Within 
days of the disaster NSF research teams deployed to the region to 
gather critical data before it was lost to nature and reconstruction. 
Their work will help scientists and engineers better understand the 
warning signs of natural disasters, the design of safer coastal 
structures, the development of early warning and response systems, and 
effective steps for disaster recovery.
    Interagency Initiatives: NSF will continue to play a lead role in 
interagency collaborations to address national needs and take advantage 
of economic growth opportunities. In FY 2006, NSF investments in the 
National Nanotechnology Initiative increase by $6 million over FY 2005 
levels to total $344 million. NSF participation in the Networking 
Information Technology Research and Development initiative will 
increase to $803 million--$8 million over the FY 2005 level. The NSF 
contribution to the Climate Change Science Program decreases slightly 
to $197 million.
    Homeland Security Activities: The FY 2006 Request includes a $2 
million increase for government-wide efforts in homeland security 
research and development. This $344 million investment will strengthen 
NSF's commitment to cyber security by supporting innovations to secure 
today's computer and networking systems, embed cyber security into 
future systems and preparing tomorrow's workforce with state-of-the-art 
security skills.

Conclusion

    Mr. Chairman, I've only touched upon the variety and richness of 
the NSF portfolio. NSF research and education efforts contribute 
greatly to the Nation's innovation economy and help keep America at the 
forefront of science and engineering. At the same time, NSF supported 
researchers produce leading edge discoveries that serve society and 
spark the public's curiosity and interest. Extraordinary discoveries 
coming from dozens of NSF programs and initiatives are enriching the 
entire science and engineering enterprise, and making education fun, 
exciting and achievement-oriented. In fact, just this month, two of the 
most widely-read and e-mailed stories from the national press were the 
discoveries of NSF-supported researchers.
    In one, scientists using new bio-bar-code technology created a 
detection method for a protein implicated in Alzheimer's disease. It's 
the first test designed for use in living patients and holds promise 
for diagnosing Alzheimer's at an early stage. In the second 
development, scientists generated an entirely new classification system 
for the brains of birds based on recent studies showing that birds are 
much closer in cognitive ability to mammals than previously thought. 
The new scheme will affect thousands of scientists, and help merge 
research efforts on both birds and mammal. These two examples, fresh 
off the press, illustrate NSF's motto ``Where Discoveries Begin.''
    Mr. Chairman and Members of the Committee, I hope that this brief 
overview conveys to you the extent of NSF's commitment to advancing 
science and technology in the national interest. I am very aware and 
appreciative of the Committee's long-standing bipartisan support for 
NSF. I look forward to working with you in months ahead, and would be 
happy to respond to any questions that you have.

                   Biography for Arden L. Bement, Jr.
    Arden L. Bement, Jr., became Director of the National Science 
Foundation on November 24, 2004. He had been Acting Director since 
February 22, 2004.
    He joined NSF from the National Institute of Standards and 
Technology, where he had been director since Dec. 7, 2001. Prior to his 
appointment as NIST director, Bement served as the David A. Ross 
Distinguished Professor of Nuclear Engineering and head of the School 
of Nuclear Engineering at Purdue University. He has held appointments 
at Purdue University in the schools of Nuclear Engineering, Materials 
Engineering, and Electrical and Computer Engineering, as well as a 
courtesy appointment in the Krannert School of Management. He was 
director of the Midwest Superconductivity Consortium and the Consortium 
for the Intelligent Management of the Electrical Power Grid.
    Bement served as a member of the U.S. National Science Board from 
1989 to 1995. The board guides NSF activities and also serves as a 
policy advisory body to the President and Congress. As NSF director, 
Bement will now serve as an ex officio member of the NSB.
    He also chaired the Commission for Engineering and Technical 
Studies and the National Materials Advisory Board of the National 
Research Council; was a member of the Space Station Utilization 
Advisory Subcommittee and the Commercialization and Technology Advisory 
Committee for NASA; and consulted for the Department of Energy's 
Argonne National Laboratory and the Idaho National Engineering and 
Environmental Laboratory.
    Bement joined the Purdue faculty in 1992 after a 39-year career in 
industry, government, and academia. These positions included: Vice 
President of Technical Resources and of Science and Technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of Nuclear Materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and Senior Research 
Associate, General Electric Co. (1954-1965).
    He has been a Director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate degree in metallurgical 
engineering from the University of Michigan, an honorary doctorate 
degree in engineering from Cleveland State University, and an honorary 
doctorate degree in science from Case Western Reserve University. He is 
a member of the U.S. National Academy of Engineering.

    Chairman Boehlert. Thank you very much, Doctor.
    Mr. Kassinger.

  STATEMENT OF MR. THEODORE W. KASSINGER, DEPUTY SECRETARY OF 
                            COMMERCE

    Mr. Kassinger. Mr. Chairman, Mr. Gordon, members of the 
Committee, thank you for inviting me to testify today on the 
President's fiscal year 2006 budget request for research and 
development at the Department of Commerce.
    This Committee is a constant and strong voice for the 
science and technology community. We look forward to continuing 
to work with you to ensure that America remains the world 
leader in science and technology.
    The Commerce Department has many diverse responsibilities, 
but collectively our programs constitute one of the Nation's 
great science enterprises. The President's budget request for 
fiscal year 2006 reflects his strong commitment to the 
Department's science and technology programs.
    Those programs continue to demonstrate remarkable 
creativity. For example, NIST scientists recently created a new 
form of matter, called a fermionic condensate, that could help 
unlock the mysteries of superconductivity, a phenomenon with 
the potential to improve energy efficiency. Other scientists 
developed a series of clinical standards that will help make 
diagnosing heart attacks more precise and demonstrated a low-
power, extremely sensitive magnetic sensor about the size of a 
grain of rice.
    NOAA also remains at the forefront of science in the public 
interest. NOAA aircraft covered more than 100,000 nautical 
miles of track lines and deployed over 1,200 drops into storms 
during the busy 2004 hurricane season. NOAA commissioned the 
U.S. Climate Reference Network, which now contains 72 stations 
across the country, to reduce uncertainty of long-term 
temperature and precipitation trends. In this past summer, NOAA 
led hundreds of government and university scientists from 
across the country and western Europe in the largest air 
quality and climate study to date.
    The world-class caliber of the Commerce Department 
scientists and engineers was recognized this past year through 
numerous prestigious publications and awards. For just two 
examples, Susan Solomon, a NOAA atmospheric scientist, was 
awarded the 2004 Blue Planet Prize for her pioneering work in 
identifying the mechanism that produces the Antarctic ozone 
hole and contributions towards the protection of the ozone 
layer. NIST researcher, Deborah Gin, was selected as both the 
Research Leader of the Year by Scientific American Magazine and 
is the winner of the Service to America Medal for Science and 
Environment, a prestigious national award recognizing 
excellence among America's federal public servants.
    The Department's fiscal year 2006 budget request supports 
these researchers and other--and ongoing initiatives while 
seeking further to provide the Nation with a strong foundation 
for a healthy economy, enhanced competitiveness, and an 
improved quality of life for all Americans.
    Mr. Chairman, with that overview, let me summarize the 
highlights of the proposed budget requests, beginning with the 
Technology Administration.
    For fiscal year 2006, the Administration requests $536 
million for TA, including $4.2 million for the Office of the 
Under Secretary and $532 million for NIST. Of the NIST request, 
$420.6 million is for laboratory programs, a 12.6 percent 
increase over the fiscal year 2005 appropriation. These 
programs provide U.S. industry in the science and technology 
community with the measurement capabilities, standards, 
evaluated reference data, and test methods needed to support 
innovation and to improve quality in virtually all technology-
intensive sectors.
    Among other things, the fiscal year 2006 request proposes 
an additional $40 million in funding for three areas that 
target pressing national priorities. These include increases in 
advances in manufacturing with components addressing 
nanomanufacturing, measurements and standards for homeland 
security, and new measurement horizons for the U.S. economy and 
science.
    Turning to NOAA, for fiscal year 2006, the Administration 
request $3.6 billion. These funds will allow NOAA to advance 
our understanding of our marine and atmospheric resources, and 
in so doing, will help sustain this country's economic vitality 
and environmental health. NOAA is leading efforts to better 
understand the complex interactions on our planet through the 
development of the Global Earth Observation System of Systems, 
GEOSS. Our fiscal year 2006 budget request includes increases 
of approximately $95 million to support the requirements of 
GEOSS.
    Included in this effort is $10 million to expand the U.S. 
Tsunami Warning Network. NOAA will deploy 32 new advanced 
technology buoys as part of a fully-operational tsunami warning 
system by mid-2007. The new system will provide the United 
States with nearly 100 percent detection capability for a U.S. 
coastal tsunami, allowing notification to local managers within 
minutes. The new system will also expand monitoring 
capabilities throughout the entire Pacific and Caribbean 
basins, providing tsunami warning for regions bordering half of 
the world's oceans.
    To implement the President's U.S. Ocean Action Plan, the 
Administration's request includes significant resources for 
NOAA's ocean and coastal programs as well as fisheries and 
protected species activities. We request more than $1 billion 
for these ongoing programs, including approximately $60 million 
to address state and regional ecosystem research priorities at 
the National Sea Grant College Program, $23 million in support 
of the NOAA Ocean Exploration Program, $33 million for building 
a new fisheries research vessel, and $25 million for fishery 
stock assessment.
    Mr. Chairman, that completes my statement. Thank you, once 
again, for your continued support. And of course, I would be 
pleased to take any questions.
    [The prepared statement of Mr. Kassinger follows:]

              Prepared Statement of Theodore W. Kassinger

    Mr. Chairman and Members of the Committee, I am pleased to join you 
today as we examine the Administration's budget request for research 
and development at the Department of Commerce and the Department's role 
in reinforcing America's technological leadership. I want to thank the 
Committee, especially Chairman Boehlert, for your continued support and 
leadership on innovation issues, as well as your support for NOAA's 
part in the Administration's tsunami initiative. You have been a 
constant and strong voice for the science and technology community. I 
look forward to continuing our work together with you and the other 
Members of the Committee to ensure that America remains the world 
leader in the science and technology field.

INTRODUCTION

    The Department of Commerce works to create the conditions for 
economic growth and opportunity for all Americans by promoting 
innovation, entrepreneurship, competitiveness, and stewardship. We 
provide tools to help maximize U.S. competitiveness and enable economic 
growth for American industries, workers, and consumers. Of particular 
importance to this committee is the work that Commerce does in 
fostering America's science and technological leadership by conducting 
basic research and experimentation, enhancing technical standards, 
advancing measurement science, and promoting environmental stewardship.
    Maintaining America's technological leadership is important not 
just for our nation's national security, but also to ensure continued 
U.S. economic growth. Science and technology are the pistons that help 
propel the American engine of prosperity. This Administration's 
commitment to science and technology continues to foster the conditions 
for both economic growth and employment opportunity. These investments 
in science and technology provide the catalyst that enables private 
enterprises to provide our nation and our people with good jobs, a 
better quality of life, and inventions that have established our 
national identity.
    The President understands the opportunity science and technology 
provide to enhance the lives of all Americans. The President's focus in 
the area of science and technology is reflected in the Department of 
Commerce R&D portfolio. The Commerce budget maintains substantial R&D 
investments in two of our bureaus, the Technology Administration (TA) 
(which includes the National Institute of Standards and Technology 
(NIST) and the National Technical Information Service) and the National 
Oceanic and Atmospheric Administration (NOAA). The overall FY 2006 
budget request for TA is $536.2 million, a small increase over our FY 
2005 request. However, the request represents an increase of over $47 
million from the FY 2005 enacted amount for NIST's core laboratory 
programs, the NIST programs most effective and necessary in supporting 
the fundamental scientific understanding and technological needs of 
U.S.-based businesses, American workers, and the domestic economy. For 
FY 2006, we will be seeking program increases of $19.6 million for 
advanced manufacturing research, $3.0 million for measurements and 
standards work related to homeland security, $17.2 million for 
measurement infrastructure improvements, and $35.4 million for high 
priority facilities modernization and maintenance needs. For NOAA, we 
are requesting $3.6 billion, an increase of $205 million from our FY 
2005 request. Of the increase, $94.7 million will support requirements 
to build an integrated Earth observing system.
    While the focus of this testimony is on TA/NIST and NOAA, I should 
also note that the United States Patent and Trademark Office (USPTO) 
and the National Telecommunications and Information Administration 
(NTIA) play significant roles in promoting the Department of Commerce's 
technology goals. USPTO ensures that the intellectual property system 
contributes to a strong global economy, encourages investment in 
innovation, and fosters entrepreneurial spirit. NTIA works to spur 
innovation by promoting efficient use of federal radio spectrum and 
encouraging the development and implementation of new and emerging 
telecommunications technologies, helping consumers and creating jobs.
    The Technology Administration and its various components seek to 
maximize technology's contribution to economic growth, high-wage job 
creation, and the social well-being of the United States. TA and NIST 
not only serve as advocates for technological innovation but also 
analyze the factors that affect our competitiveness and develop the 
tools needed to enhance productivity, trade, and, in the end, the 
quality of life for all Americans. In addition, NIST is engaged in 
critical research in high-priority areas of technological innovation 
such as nanotechnology, information technology, biotechnology, and 
manufacturing technology. NIST is also conducting research in response 
to the World Trade Center tragedy and the February 2003 nightclub fire 
in Rhode Island to better prepare facility owners, contractors, 
architects, engineers, emergency responders, and regulatory authorities 
to respond to future disasters.
    The National Oceanic and Atmospheric Administration's mission is to 
understand and predict changes in the Earth's environment, as well as 
to conserve and manage coastal and marine resources to meet our 
nation's economic, social, and environmental needs. The work performed 
at NOAA touches the daily lives of every person in the United States 
and in much of the world. The agency

        <bullet>  provides weather, water, and climate services;

        <bullet>  manages and protects marine resources ecosystems;

        <bullet>  conducts atmospheric, climate, and ecosystems 
        research;

        <bullet>  promotes efficient and environmentally safe commerce 
        and transportation; and

        <bullet>  provides emergency response and vital information in 
        support of homeland security.

    In addition to using science and technology to create jobs and 
improve economic prosperity, the Department is also directing resources 
toward disaster prevention, to better understand and minimize the loss 
of life and property from disasters.
    In January 2005, the Administration announced that the U.S. tsunami 
detection and warning capabilities would be expanded as a contribution 
to the Global Earth Observation System of Systems (GEOSS). NOAA's 
advanced technology will create an expanded tsunami warning system that 
is expected to be fully operational by 2007. These programs will help 
NOAA improve public safety and economic security in the United States 
and throughout the world.
    Currently, NOAA leads the Nation and world in ocean and ecosystem 
science, policy and management. In December 2004, the Administration 
released the ``U.S. Ocean Action Plan,'' a response to the U.S. 
Commission on Ocean Policy's report entitled, ``An Ocean Blueprint for 
the 21st Century.'' Working under the leadership of the Council on 
Environmental Quality, and with several other agencies, NOAA 
substantially assisted in the development of this action plan. NOAA 
will play a key role in implementing many of the ocean policy measures 
that it contains, including supporting the establishment of a 
coordinated ocean governance structure. Consistent with this approach, 
the Administration continues to support Commerce's leadership role in 
oceans policy and activities by promoting passage of a NOAA Organic 
Act. We look forward to discussing this with you further when you 
consider this legislation.
    NOAA's global leadership also extends to monitoring the planet 
through the development of the GEOSS. The GEOSS will provide NOAA and 
others with the tools to better understand our planet through an 
integrated, comprehensive, and sustained Earth observation program.
    NOAA leads the Administration's interagency Climate Change Science 
Program. As needs for water, climate, and air quality information 
increase worldwide, NOAA has been working to improve our understanding 
of climate and helping develop products and services that provide 
useful information for national and regional management decisions. One 
example of this is the National Integrated Drought Information System 
(NIDIS), which provides early drought warning on a regional level.

HIGHLIGHTS OF THE FY 2006 BUDGET REQUEST

Technology Administration Programs
    The mission of the Technology Administration (TA), which includes 
the Under Secretary of Commerce for Technology and two major 
components, the National Institute of Standards and Technology (NIST) 
and the National Technical Information Service (NTIS), is to maximize 
technology's contribution to America's economic growth. In addition, 
the agency seeks to encourage the development of the technological 
infrastructure required to support U.S. industry through the 21st 
Century; to foster the development, diffusion, and adoption of new 
technologies; and to create a business environment conducive to 
innovation.
    The Department requests $4.2 million for the Office of the Under 
Secretary for Technology (TA/US). The Administration proposes to 
streamline the administrative and policy operations of the Technology 
Administration's Office of the Under Secretary. The Office of the Under 
Secretary, in its technology policy leadership role, will continue to 
provide policy guidance to the Secretary of Commerce and the Technology 
Administration's component agencies, serve as an interagency leader on 
key Administration technology initiatives, lead the National Medal of 
Technology Program, participate in the President's National Science and 
Technology Council's Committee on Technology, promote Administration 
policies for innovation and industrial competitiveness within and 
outside government, and provide leadership within the Department as 
chair of the Commerce Coordinating Council for Technology. The Under 
Secretary's office will continue to coordinate the civilian science and 
technology efforts of federal agencies and help to shape federal 
civilian R&D priorities after considering the views of industry. The 
Under Secretary will continue to provide counsel to the Secretary of 
Commerce on all matters affecting innovation, and coordinate with 
counterpart offices in the trade and economic agencies to create 
unified, integrated trade and technology policies.

National Institute of Standards and Technology
    NIST's proposed $532 million budget request for FY 2006 focuses the 
Institute's resources on addressing the critical national priorities 
that can best be served by the Institute's unique cross-disciplinary 
expertise in science and technology. As noted above, the request 
includes a $47 million increase for NIST's core laboratory programs. 
The NIST budget request for FY 2006 also reflects the President's 
concern for focusing intently on other national priorities. While the 
request covers strategic investments in Institute capabilities, it 
still helps meet the President's overall budget goals by reducing 
NIST's budget more than $163 million compared with FY 2005 
appropriations, accomplished by shifting resources from lower-priority 
programs.

Advances in Manufacturing ($19.6 million increase)
    The Department is requesting a $19.6 milllion increase for NIST in 
Advanced Manufacturing research. The growth of the global economy--the 
rapid exchange of goods and technologies--has placed unprecedented 
pressures on the Nation's manufacturing sector. Most observers agree 
that if the United States is to compete successfully, it must be on the 
basis of sustained, superior innovation in all aspects of 
manufacturing. We must lead the pack. Innovation must go further than 
new products and processes, however. The United States must innovate in 
the business of manufacturing, improving efficiencies and continuing 
the productivity increases that have sustained the manufacturing sector 
since the Second World War.

        <bullet>  National Nanomanufacturing and Nanometrology Facility 
        (N<SUP>3</SUP>F) ($10 million). The largest major element of 
        NIST's advanced manufacturing initiative is the development of 
        a national ``user facility'' for nanotechnology research in the 
        AML. The N<SUP>3</SUP>F will give qualified collaborators from 
        industry and government access to the state-of-the-art 
        laboratories of the AML, the existing nanotechnology expertise 
        of the seven NIST laboratories, and mechanisms for partnering 
        on nanotech projects. Together with public and private sector 
        partners, NIST will use the N<SUP>3</SUP>F to investigate the 
        fundamental physics, mechanisms and metrology to manipulate 
        matter atom-by-atom, in order to build perfectly defined 
        nanostructures with predefined electronic, mechanical, and 
        quantum properties. N<SUP>3</SUP>F will offer U.S. industry in 
        a single institution an unmatched measurement infrastructure to 
        compete at the nanoscale.

        <bullet>  Nanomanufacturing research ($4 million). As 
        manufacturing processes and products become ever more 
        sophisticated, the key battlefields of 21st-century 
        manufacturing will depend more and more on excellence in 
        measurement technology. This is true across the board in 
        manufacturing, but nowhere more so than in the rapidly 
        developing field of nanomanufacturing, where it can be 
        necessary to locate, track and manipulate individual molecules 
        and atoms. NIST's nanomanufacturing research effort will 
        concentrate on delivering the critical measurement technology 
        and standards infrastructure across the broad spectrum of 
        science and engineering that is ``nanotechnology,'' including 
        nanodevices (mechanical and electronic), nanomagnetics, 
        nanomanipulation, and nanoscale materials characterization. 
        NIST is uniquely positioned for this work not only because of 
        its long history of expertise in measurement research, but also 
        because of the recent completion of its Advanced Measurement 
        Laboratory (AML), which offers a unique collection of state-of-
        the-art precision measurement labs.

        <bullet>  Manufacturing enterprise integration ($1.6 million). 
        America's large manufacturers are globally distributed 
        enterprises. They rely on a system of small manufacturers, part 
        suppliers, shippers, and raw materials producers organized in 
        extended enterprises called supply chains. Successfully 
        managing production throughout the supply chain is critical to 
        the competitiveness of these extended enterprises. Production 
        costs are no longer the major cost drivers in these global 
        supply chains--the dominant factor is the cost of engineering 
        and business activities. But many small manufacturers not 
        equipped to do business in these sophisticated, distributed 
        enterprises are being left out and are in danger of failure. 
        One independent economic study commissioned by NIST shows that 
        the automotive supply chain alone loses $1 billion annually due 
        to inefficient engineering and business data exchanges. NIST 
        proposes a wide-ranging program to work with U.S. manufacturers 
        to create a ``roadmap'' for the development of open standards 
        for enterprise integration, to develop and test standards and 
        standard conformance tests, and to ensure that they are 
        integrated and consistent with developing international 
        standards.

        <bullet>  Expanding access to global markets through 
        measurements and standards ($4 million). Even with superior 
        technology, American manufacturers can be effectively locked 
        out of profitable foreign markets through artificial barriers 
        of local standards and regulations. Knocking down these 
        barriers--or preventing them from being raised in the first 
        place--is an issue of international standards, harmonization, 
        and measurement compatibility, again, part of NIST's core 
        expertise. Eighty percent of global merchandise trade is 
        influenced by testing and other measurement-related 
        requirements of regulations and standards. U.S. manufacturers 
        need standards and calibrations to be aligned with 
        international standards to give them seamless access to foreign 
        markets. In addition, NIST monitors foreign and international 
        standards efforts for potential impact on U.S. exports. NIST 
        will develop leading-edge measurement capabilities for key 
        technologies and new, more efficient ways to deliver the highly 
        accurate measurements needed by U.S. industry to create and 
        market products based upon new technologies. NIST will continue 
        its efforts to support access to foreign markets through 
        technical leadership and coordination of key trade-related 
        documentary standards activities in specific technology 
        sectors.

Measurements and Standards for Homeland Security ($3 million increase)
    Measurements and standards are increasingly understood to be an 
important component of homeland security, whether in helping to 
mitigate the effects of disasters, both natural and man-made, or in 
helping to ensure the reliability of the new high-tech tools being 
brought to bear in the war on terrorism. NIST will continue to 
coordinate its work closely with the Department of Homeland Security 
and other agencies.

        <bullet>  Improved standards and guidelines for first 
        responders and buildings ($1 million). NIST has long been 
        recognized for its contributions to public safety in building 
        technology--the development of test methods and engineering 
        data to make buildings safer and more resistant to earthquakes 
        and fire, for example--but the increased risk of terrorist 
        attacks since September 11, 2001, has added to natural 
        disasters a new dimension of deadly, human-engineered threats. 
        A private-sector coalition representing the key industry, 
        standards, codes and professional organizations has worked with 
        NIST to establish a comprehensive program to identify and 
        address high priority national needs for building safety. Key 
        areas include increased structural integrity, standards for 
        first-responder equipment, enhanced fire resistance of 
        structures, building operations in emergencies, and improved 
        emergency egress and access. NIST will expand support for this 
        effort, developing the technical basis for needed improvements 
        in practice, standards, and codes for buildings and for 
        guidelines and equipment standards for first responders. The 
        Institute will develop simulation and decision-support tools 
        and technical guidelines, conduct trial designs to demonstrate 
        the effectiveness of technical solutions, and recommend 
        specific proposals for needed changes to codes and standards.

        <bullet>  Biometrics ($1 million). Biometrics--positive 
        identification of individuals based on physical 
        characteristics--is a critical tool in the war on terrorism. As 
        terrorist and criminal databases become larger and larger, it 
        is more and more important that biometric technologies perform 
        accurately and quickly. As this dynamic technology continues to 
        evolve, the field must be constantly reassessed to ensure that 
        the government is using the most accurate biometric recognition 
        technology available for a given application. NIST will build 
        on its existing expertise in biometrics to certify facial 
        recognition technologies to make certain that all requirements 
        for border security are met, build on its testing program for 
        determining the accuracy of new multi-modal biometric systems 
        (those combining two or more biometric techniques), and develop 
        tests and guidelines to ensure that future biometric systems 
        are inter-operable and work efficiently in real-world 
        applications.

New Measurement Horizons for the U.S. Economy and Science ($17.2 
        million increase)
    One of the most serious challenges NIST faces in its mission to 
provide the measurement infrastructure needed by the Nation's 
scientific and industrial communities is the requirement for the 
relatively small Institute to stay not only abreast of but--in many 
cases--ahead of rapidly changing developments across the broad range of 
science and technology.

        <bullet>  Biosystems and health ($7,195,000). The advances in 
        biology and biotechnology in the last few years--both new 
        understanding in fields like genomics and proteomics and new 
        capabilities and technologies such as gene engineering and 
        microarrays--constitute a technological revolution in fields as 
        diverse as material science, agriculture and health care. A 
        lack of measurement tools for ensuring accuracy and reliability 
        looms as a major roadblock that could prevent promising 
        biotechnologies from achieving their potential for mainstream 
        health care applications.
             NIST has a unique, multidisciplinary expertise in 
        measurement science that is essential in a field like 
        biotechnology, which lies at the interface of biology, 
        chemistry, physics and mathematics. The Institute also has a 
        long history of working with the health care industry to 
        provide needed measurement technologies and reference standards 
        ranging from clinical standards for cholesterol and glucose to 
        DNA. Under this initiative, NIST will establish a systems 
        approach to identifying and removing measurement-related 
        barriers to the effective application of biotechnology in 
        health care. The Institute also will further the development of 
        bioinformatics--the computational and information science tools 
        needed to assemble, organize, summarize and analyze the 
        mountains of biological data produced by these new 
        technologies.

        <bullet>  Inter-operability and security for emerging 
        scientific systems ($2 million). Sophisticated scientific 
        information systems are critical to the continued competitive 
        advantage of the United States. The systems that underlie the 
        Nation's research advances in science and engineering--the 
        ``cyberinfrastructure''--are rapidly expanding in all 
        directions. Individual information devices--from radio-
        frequency ID (RFID) tags to ``smart dust'' to micro-electro-
        mechanical systems (MEMS)--are becoming ever smaller, more 
        capable, and more ubiquitous. At the other end of the scale, 
        system complexity--systems of systems of systems--is growing 
        rapidly as well. It is crucial that standards and measurements 
        for reliability, manageability, inter-operability and security 
        be included from the beginning of system design to avoid costly 
        retrofits.
             As part of this initiative, NIST will develop the 
        technical support tools required to maximize the performance of 
        future components, systems and networks, including developing 
        metrics and standards for the performance, conformance and 
        usability of complex, multi-modal, distributed scientific 
        systems to ensure inter-operability. NIST will also develop 
        metrics and techniques for characterizing and assessing 
        emerging self-managing system technologies, and develop 
        mathematical models, measurement techniques and control systems 
        capable of detecting and reacting to emergent behaviors in 
        very-large-scale scientific systems. The initiative also calls 
        for NIST to develop test methods and protocols for detecting 
        and reporting malicious tampering of systems and components.

        <bullet>  Quantum processing--beyond high-end computing ($4 
        million). Quantum information science, which seeks to exploit 
        the peculiar characteristics of quantum mechanics to create 
        information processing systems of almost unimaginable power, is 
        likely to revolutionize science and technology on a scale 
        comparable to the introduction of the laser, the integrated 
        circuit, and the computer. Currently intractable problems, such 
        as the factoring of very large numbers to decipher terrorist 
        communications, potentially could be done in less than a second 
        by a quantum computer. On the other hand, quantum cryptography 
        could provide perfectly secure defense communications.
             NIST is a leader in fundamental research on quantum 
        information systems, having demonstrated laboratory-scale 
        quantum computing and quantum teleportation systems. There is 
        also a need for a significantly broader program to provide the 
        basic measurement tools and standards for quantum computing and 
        communications systems to support U.S. industry's research and 
        development of quantum systems. Quantum computing also will 
        require the development of whole new approaches to processor 
        and memory control, error management, and component 
        interconnections. Under this initiative, NIST will develop a 
        measurement infrastructure and the fundamental technologies 
        needed to build prototype quantum processors that could be 
        scaled up to true quantum computers, and develop metrics for 
        evaluating alternative computing architectures based on quantum 
        processing.

        <bullet>  Building competence for advanced measurements ($4 
        million). Since the late 1970s, a key element of NIST's 
        planning strategy has been the Building Competence for Advanced 
        Measurements Program, a special research effort enabling NIST 
        to explore key developing areas of science and technology and 
        establish a base of technical expertise on which to build 
        future measurement services. The quantum physics research of 
        NIST's two Nobel laureates, the development of new cold neutron 
        instrumentation that ultimately led to the Institute's unique 
        Cold Neutron Research Facility, and NIST's Biotechnology 
        Division with its pathbreaking research in DNA forensics all 
        were fostered originally by Competence Program funding. The 
        Competence Program is an essential tool giving NIST's research 
        program the necessary agility to adapt to fast-moving 
        scientific developments. The proposed initiative will allow 
        NIST to expand and enhance the existing Competence Program.

Facilities Improvement Plan ($32 million increase)
    NIST is engaged in a long-range facility modernization program to 
make badly needed repairs and upgrades to its physical plant. NIST 
maintains about 50 specialized laboratories, offices and support 
buildings at its two major campuses in Gaithersburg, Maryland and 
Boulder, Colorado. Most of the Gaithersburg structures were built in 
the 1960s and the Boulder site is a decade older. The aging of these 
facilities has become a serious impediment to the Institute's mission, 
hampering not only NIST work on the research frontiers of 
biotechnology, nanotechnology, and semiconductor technology, but even 
routine activities such as the calibration of precision pressure gauges 
used to ensure the accuracy of airplane altimeters and other industrial 
pressure systems. NIST developed a long-range Facilities Improvement 
Plan, as well as plans for the thorough renovation of existing 
structures and a maintenance program designed to address long-term 
maintenance needs and reduce an extensive backlog of needed maintenance 
work.
Maintenance for the Advanced Measurement Laboratory ($3.4 million 
        increase)
    Completed at the end of 2003, the NIST Advanced Measurement 
Laboratory (AML) is one of the world's most sophisticated measurement 
and standards laboratories. Specialized AML labs are able to control 
environmental factors such as vibration, temperature, humidity, and 
surface and air cleanliness to the demands of NIST's most advanced 
research in areas. In some labs, for example, temperature can be 
controlled to within one-hundredth of a degree Celsius across the 
entire room.
    Maintaining and operating the AML poses special challenges because 
of the sophisticated and complex mechanical and electrical systems 
needed to maintain the rigorous environmental controls. Thorough and 
uncompromising preventive maintenance is required to keep the AML 
operating as designed and protect the Nation's investment in this 
unique laboratory. If the clean room mechanical systems ever slip from 
their exacting design parameters, for example, it will likely cost over 
$100,000 to decontaminate the clean room and return it to service. This 
initiative covers the needed increase to NIST's research facilities 
budget to maintain the AML.
Baldrige National Quality Program ($5.7 million request)
    NIST also administers the Baldrige National Quality Program (BNQR). 
Created by the Congress in 1987, the BNQP has established a standard 
for performance excellence that helps U.S. businesses and other 
organizations continuously improve their competitiveness and 
productivity through rigorous quality and performance management 
practices.
    Only a relative handful of institutions have won the program's 
centerpiece, the Malcolm Baldrige National Quality Award--since 1988, 
only 62 Baldrige Awards have been presented to 59 organizations. 
Nonetheless, the BNQP has had a pervasive influence on U.S. industry, 
schools and hospitals through the widespread dissemination of Baldrige 
``best practices.'' Many thousands of organizations use the Baldrige 
criteria internally to assess and improve their performance, deliver 
greater value to their customers, and improve overall organizational 
effectiveness. The BNQP has been copied widely by state governments and 
other countries.
    The Baldrige Award originally had categories for manufacturing, 
service, and small business. In 1999, the award was expanded to include 
categories in education and health care. In 2004, the award was 
expanded to include all non-profit organizations, including Federal, 
State and local government organizations.
Hollings Manufacturing Extension Partnership ($46.8 million request)
    Since 1988, the Hollings Manufacturing Extension Partnership (HMEP) 
at NIST has fostered a federal-State-local partnership program to give 
small and medium sized manufacturers a nationwide network of not-for-
profit centers to help them become more competitive and productive. 
HMEP centers serve all 50 States and Puerto Rico, promoting lean 
manufacturing techniques such as zero-defect quality programs, and 
helping even the smallest firms tap into specialists from across the 
country with manufacturing and business expertise in plant operations 
and on manufacturing floors. The FY 2006 budget request will fund the 
program at $46.8 million. At this level, the Administration will 
maintain a national network of centers, while focusing funding based on 
a center's performance and need.

Advanced Technology Program ($0 request)
    Since 1990, the Advanced Technology Program has used cost-shared 
awards to encourage industry investment in high-risk, innovative 
technology R&D that promise broad benefits to the Nation. While the 
program has sponsored successful research projects over the years, this 
budget proposes terminating the program in favor of more appropriate 
and higher-priority needs of government funding. Our budget request 
reflects our belief that the NIST core laboratory programs have a much 
higher priority than the ATP because they support the fundamental 
science and technology needs of U.S. businesses, workers and the U.S. 
economy.

National Oceanic and Atmospheric Administration Programs
    Americans look to NOAA for an incredible variety of services and 
support ranging from the local weather forecast, to a sustainable 
supply of quality seafood, to the safe transport of millions of tons of 
weatherborne cargo. NOAA also helps to keep the coastline safe and 
vibrant, and to maintain detailed research on the climate from the 
frozen arctic to the depths of the oceans. NOAA's Strategic Plan 
highlights focal areas for research under each of the agency's four 
major cross-cutting strategic goals: ecosystems, climate, weather and 
water, and commerce and transportation. NOAA's FY 2006 budget request 
includes several initiatives that are research driven or science based 
which are set out below in the context of NOAA's four major strategic 
goals. I would like to begin by highlighting the Global Earth 
Observation System of Systems (GEOSS), a program that brings together 
elements of all four strategic goals.

Global Earth Observations ($94.7 million increase)
    NOAA's FY 2006 budget includes increases of approximately $94.7 
million to support requirements to build an integrated Earth observing 
system, the GEOSS. Included in these efforts is the $65.6 million 
requested for NOAA's Geostationary and Polar Orbiting Satellites, and 
the $9.5 million to expand the U.S. Tsunami Warning Network. The new 
'system of systems' will ``take the pulse of the planet'' by providing 
critical scientific data needed to address important global economic, 
social and scientific challenges. With this improved knowledge, 
decision-makers around the world will be able to make more informed 
decisions regarding climate, the environment, and a host of other 
economic and social issues that are affected by Earth's systems.

Ecosystems ($74.52 million increase)
    DOC requests an increase of $1.5 million to improve the condition 
of coral reefs through support and implementation of locally driven 
three-year action strategies in order to translate the broad national 
goals proposed by the U.S. Commission on Ocean Policy into action. The 
strategies are roadmaps for collaborative and cooperative action among 
federal, state or territory and nongovernmental partners to address 
specific threats to coral reef ecosystems, including land-based sources 
of pollution, recreational overuse, lack of public awareness, climate 
change, coral bleaching, disease, and issues addressed by fisheries 
management, such as over-fishing.
    DOC requests a net increase of $5.5 million for economic and social 
science research to expand the agency's data collection capabilities. 
This is critically important in the area of fishery management. With 
the funds requested, NOAA expects to 1) complete economic analyses on 
commercial harvesters for 26 Fisheries Management Plans (FMP) by FY 
2006--a 46 percent increase over FY 2005 projections; 2) complete 
profiles on 20 fishing communities--a threefold increase from FY 2005; 
and 3) estimate economic impacts on recreational and commercial 
fisheries that are economically displaced in 20 federal marine managed 
areas--also a threefold increase from FY 2005. DOC also requests $32.5 
million for a fourth Fisheries Survey Vessel (FSV 4) that will deploy 
state-of-the-art acoustic technologies to enhance our ability to 
collect fish stocks data to protect marine mammals.
    DOC requests $61.2 million to sustain the operations of the 
National Sea Grant College Program in FY 2006 to continue development 
of a system of regional networks to organize multi-state responses to 
regional/ecosystem-level problems.
    DOC is also requesting level funding of $22.7 million to sustain 
the operations of the Ocean Exploration Program. This program seeks to 
increase our national understanding of unknown or poorly known ocean 
systems and processes by conducting 25-30 expeditions per year. In FY 
2005, the program will purchase a remotely operated vehicle (ROV) and 
other infrastructure for NOAA's first designated exploration vessel, 
which is scheduled for sea trials in 2007. With this infrastructure in 
place, NOAA will be able to devote funding to support an expanded set 
of expeditions and projects.
    DOC also requests an increase of $2.5 million for the Aquatic 
Invasive Species (AIS) Program. Zebra mussels have cost the Great Lakes 
region $3 billion over the past decade, and they are just one of 
hundreds of invasive species threatening the health of the Great Lakes 
ecosystem.
    DOC requests an increase of $1.6 million for its Marine Aquaculture 
Program. This increase will spur environmentally safe domestic marine 
aquaculture production, and help to offset the current $7 billion 
annual U.S. trade deficit in seafood; will help in rebuilding wild 
fisheries stocks; and will enhance job creation in both the production 
and processing of fishery products, thereby revitalizing communities 
devastated by collapsing fisheries industries.

Climate ($36.8 million increase)
    DOC is requesting additional funds for its climate programs, 
including an $18 million increase to support the President's Climate 
Change Science Plan. This includes the following initiatives:

        <bullet>  an increase of $3.2 million to conduct further 
        research on the Tropical Atmosphere Ocean (TAO) array of buoys 
        and the Pilot Research Moored Array of buoys in the Tropical 
        Atlantic (PIRATA). This funding will expand the TAO array into 
        the Indian Ocean and support the technological development of 
        the next generation of moored buoys.

        <bullet>  $2 million to develop new climate re-analysis 
        datasets that will enable us to explain more adequately the 
        causes of observed climate variability and change. These 
        datasets will substantially reduce current uncertainty about 
        historical climate variations and improve our ability to 
        analyze and detect interannual-to-decadal variability and 
        weather-climate trends for the 20th century.

        <bullet>  an increase of $800,000 for the Regional Integrated 
        Sciences and Assessment (RISA) program. This funding will 
        initiate a multi-year research effort to: (1) refine existing 
        regional integrated research and address new issues of 
        importance to decision-making communities in regions currently 
        served; and (2) link, in an integrated manner, climate research 
        and information to decision-making processes in regions not 
        currently supported by NOAA to ensure NOAA is providing 
        effective climate services across the Nation.

        <bullet>  an increase of $3.5 million to continue building and 
        maintaining a global ocean observing system that will 
        accurately document climate-scale changes in ocean heat, carbon 
        and sea level. This effort will complete 55 percent of the 
        ocean observing system, keeping us on track with our 
        international commitment of completing the ocean climate 
        observing system by 2010.

        <bullet>  an increase of $2.1 million for expanded research 
        efforts in Aerosols, Clouds, and Climate Change: Observations 
        and Predictions. This research effort is part of a multi-year 
        program of observations to quantify how aerosols (airborne fine 
        particles) influence climate change by their interactions with 
        clouds. The observations will be used to test, validate, and 
        improve aerosol-cloud and global climate models so that they 
        more accurately represent aerosol-cloud interactions.

        <bullet>  $7.5 million to support other ongoing climate 
        research programs in Climate Research and Observations, Climate 
        Operations, and Climate Data and Information programs.

Weather and Water ($96.2 million increase)
    In response to the tragedy that struck Southeast Asia on December 
26, 2004, the Administration on January 14, 2005, announced a plan to 
commit an additional $37.5 million over the next two years to tsunami 
research and preparedness capabilities. NOAA's portion of the 
Administration proposal is $24 million over two fiscal years: $14.5 
million in FY 2005 and $9.5 million in FY 2006, which will be used to 
expand the existing six buoy Deep-ocean Assessment and Reporting of 
Tsunamis (DART) system that forms the Pacific Tsunami Warning Network. 
The new funds provide for an additional 32 DART buoys by mid-2007--
seven in the Atlantic Ocean, Caribbean Basin and Gulf of Mexico, and 25 
in the Pacific Ocean. The program will also procure 38 new sea level 
monitoring/tide gauge stations, provide 24/7 warning coverage at the 
Richard H. Hagemeyer Pacific Tsunami Warning Center and the West Coast/
Alaska Tsunami Warning Center, upgrade 20 seismometers used to improve 
tsunami detection, and expand the TsunamiReady program to improve 
community preparedness.
    DOC also requests $4 million to begin developing a nationwide water 
resources forecasting capability that is integrated and leveraged with 
other federal water agency activities, forming the basis of a national 
water information system. This initiative provides the water modeling 
capability to support the U.S. Commission on Ocean Policy mandate for a 
national water quality monitoring and prediction system. Furthermore, 
the initiative enables NOAA to deliver a national database of drought 
analyses and predictions, and generate user friendly Geographic 
Information Systems (GIS) products for monitoring drought. The 
initiative will provide water users the ability to assess water 
availability in real time and make informed decisions to mitigate 
impacts of extreme water events, such as droughts.
    DOC also requests $2.1 million to accelerate nationwide 
implementation of ozone air quality (AQ) forecasting capability from FY 
2009 to FY 2008 and to deliver an initial particulate matter 
forecasting capability by FY 2011. The effect of poor air quality on 
the national economy is estimated at $150 billion/year from health 
effects alone. Accurate air quality forecast guidance, provided in time 
to take action, can realize significant savings. Due to the magnitude 
of this impact, even a 0.5 percent change due to air quality 
forecasting would have a significant effect, saving about $750 million 
a year nationally.

Commerce and Transportation ($35.1 million increase)
    DOC requests a total of $7.5 million to maintain the operations of 
the Joint Hydrographic Center, established in FY 1999 as a partnership 
between NOAA and the University of New Hampshire. The Center's 
activities focus on two major tasks: the creation of a learning center 
that will promote and foster the education of a new generation of 
hydrographers and ocean mapping scientists, and research to develop and 
evaluate a wide range of state-of-the-art hydrographic and ocean 
mapping technologies and applications.
    An increase of $900,000 is requested for the South Carolina 
Geodetic Survey and the California Spatial Reference Center. South 
Carolina's exemplary State program works to establish horizontal and 
vertical geodetic control throughout the State to allow land and land-
related items to be referenced to the national horizontal and vertical 
coordinate system. The Survey's efforts improve land records 
management, engineering, land planning, and economic development. 
NOAA's support of the California Spatial Reference Center has enabled 
the State to develop a plan to establish and maintain an accurate 
state-of-the-art network of GPS control stations necessary to meet the 
demands of government and private businesses for a reliable spatial 
reference system in California. This infrastructure will aid public 
health and safety, assist in the protection and preservation of natural 
resources, and improve the productivity of government and private 
business.
    DOC also requests $2 million to implement the National Vertical 
Datum Transformation tool database, or VDatum. This tool supports 
NOAA's requirement for hydrographic and shoreline data for our nautical 
techniques. VDatum will benefit NOAA's modernization efforts in 
shoreline measurement and hydrographic surveying for navigation safety. 
In addition, the tool will enable sharing of geospatial data sets among 
federal/State/local agencies and academia by translating data between 
disparate reference datums.

CONCLUSION

    This completes my statement. The Department's research and 
development budget includes a number of investments critical to our 
nation. I look forward to working with you and Members of the Committee 
in meeting the challenge of finding the necessary funds at a time when 
the demands on the Federal Budget continue to increase.
    Thank you for the opportunity to appear here today to present the 
Department's R&D budget. I would be pleased to answer any questions you 
may have.

                  Biography for Theodore W. Kassinger
    Theodore W. (Ted) Kassinger serves as Deputy Secretary of the U.S. 
Department of Commerce, a position to which he was nominated by 
President George W. Bush in February 2004 and confirmed by the Senate 
on November 21, 2004. Previously, Mr. Kassinger was nominated and 
confirmed by the U.S. Senate as the General Counsel of the Department. 
He served in that capacity from May 2001 until assuming his current 
position.
    As Deputy Secretary, Mr. Kassinger serves as the Department's Chief 
Operating Officer, with responsibility for the day-to-day management of 
its approximately $6.5 billion budget, 13 operating units, and 38,000 
employees. Among the Department of Commerce's varied missions are 
promoting U.S. exports, administering unfair trade laws, and 
negotiating and enforcing international trade agreements; regulating 
the export of sensitive goods and technologies and promoting 
international cooperation on export control and strategic trade 
matters; serving as effective stewards of the Nation's ocean, coastal, 
and living marine resources while assisting their economic development; 
forecasting the weather and conducting other climate research; 
formulating technology and telecommunications policy and administering 
the federal radio frequency spectrum; conducting the national censuses 
and producing some of the Nation's most important economic data; 
administering the patent and trademark system; developing and applying 
technology, measurements, and standards; and promoting economic growth 
in distressed communities and minority business development. As Deputy 
Secretary, Mr. Kassinger supports Secretary of Commerce Donald L. Evans 
in carrying out these Department responsibilities and other 
Departmental policy and operational objectives.
    Prior to joining the Bush Administration Mr. Kassinger practiced 
law with the multinational law firm, Vinson & Elkins, L.L.P., from 1985 
to 2001. His law practice focused mainly on the fields of international 
trade and business law, and transnational disputes resolution. Earlier 
in his career, Mr. Kassinger served as an attorney for the U.S. Senate 
Committee on Finance, the U.S. Department of State, and the U.S. 
International Trade Commission.
    A native of Atlanta, Georgia, Mr. Kassinger received his B.L.A. 
from the University of Georgia School of Environmental Design (1975) 
and his J.D. from the University of Georgia School of Law (1978). He is 
married to the author, Ruth G. Kassinger. The Kassingers are the 
parents of three daughters.

    Chairman Boehlert. Thank you, sir, very much.
    Dr. McQueary.

   STATEMENT OF DR. CHARLES E. McQUEARY, UNDER SECRETARY FOR 
                     SCIENCE AND TECHNOLOGY

    Dr. McQueary. Thank you, Mr. Chairman, Ranking Member 
Gordon, and distinguished members of the Committee. It is a 
pleasure to be here today to discuss the research and 
development activities of the Department of Homeland Security 
Science and Technology Directorate. And Mr. Chairman, thank 
you, again, for your foresight in recognizing the need to have 
the Science and Technology Directorate to be a part of the 
Homeland Security Department.
    The Nation's advantage in science and technology is key to 
securing the homeland. The most important mission for the 
Science and Technology Directorate is to develop and deploy 
cutting-edge technologies and new capabilities so that the 
dedicated men and women who serve to protect and secure our 
homeland can perform their jobs more effectively and 
efficiently.
    I would like to give you just a quick summary of some of 
the accomplishments that we have achieved since the last time I 
was before you. And I will list those in order.
    We have developed and documented a robust research 
development testing and evaluation process that includes risk-
based planning, and you will see some of the effects of that as 
we have adjusted the recommended funding levels across our 
portfolios. We have continued the daily operation and 
maintenance and deployment of BioWatch, which has been 
exceedingly successful for us so far. We selected four cities 
for the deployment of a new pilot program entitled the Regional 
Technology Integration initiative, which was formerly called 
``Safe Cities.'' We have selected over 100 undergraduate and 
graduate students in the fall of 2004 for grants to assist the 
study of science and technology issues that support the 
homeland security mission. We launched three Homeland Security 
Centers of Excellence to date with contract negotiations taking 
place for the fourth. We issued ten major R&D solicitations to 
industry through the first 20 months of our existence and 
issued more than 200 contracts to do research work on behalf of 
the Department. We stood up the Department's Office of Inter-
operability and Compatibility, and we collaborated--and I think 
this is a key issue--we collaborated and assisted with other 
components of the Department to enhance their abilities to meet 
their missions. And I can tell you, Mr. Chairman, I believe 
that the Department elements recognize the importance of 
science in the missions that they have to accomplish.
    As I mentioned, the Science and Technology RDT&E--the 
Directorate's RDT&E process uses a risk-based approach to 
planning and is oriented towards identifying critical 
capability gaps before attempting to identify or develop 
technology solutions. The process engages the end-user, the 
operational units, throughout the requirements, definition, 
development, testing, and transition, and the process considers 
the product life cycle from the outset, including planning and 
budgeting for production, deployment, operations, and support. 
It is this process which allows us to prioritize both within 
and across fields and our programs are derived from this 
process.
    The Science and Technology Directorate has organized its 
efforts into research and development portfolios that span the 
set of product lines of the Directorate. Four portfolios 
address the development of countermeasures for specific 
terrorist threats: biological countermeasures, chemical 
countermeasures, explosive countermeasures, and radiological 
and nuclear countermeasures.
    We have four portfolios that support the operational units 
of the Department. We have the standards, emerging threats, and 
rapid prototyping portfolios that crosscut all of the terrorist 
threats and enhance the research and development conducted in 
the countermeasures portfolios.
    The Directorate has three portfolios that focus on the 
protection of the Nation's vital infrastructure and those are 
threat and vulnerability, testing and assessment, and critical 
infrastructure protection in cyber security, an area I know 
that is very important to you and to other Members of the 
Committee. The Directorate addresses many other areas as well, 
such as our university and fellowships program. We have a 
Counter-MANPADS program that is seeking to improve technologies 
to protect commercial aircraft from the threat of man-portable 
air defense systems. The Office of Inter-operability and 
Compatibility, which is managed by the S&T group, oversees the 
wide range of public safety inter-operability programs and 
efforts currently spread across homeland security. The proposed 
new Domestic Nuclear Detection Office is being established to 
be a single entity responsible for coordinating and extending 
our national efforts in nuclear and radiological detection.
    At this time, I would like to briefly describe some of our 
2006 plans. In my written testimony, I have included a listing 
of 2004 accomplishments. In many of the things that we have 
done, it goes into far more detail.
    The S&T Directorate has requested an overall fiscal year 
2006 budget of $1.368 billion, which is an increase of $253 
million, or 22.7 percent over the fiscal year 2005 budget. And 
this request includes funding for requirements, review and 
construction planning for the National Bio and Agro Defense 
Facility, the development of a low-volatility agent warning 
system, a radiological and nuclear countermeasures testing and 
evaluation complex, additional development of the Counter-
MANPADS system, and the consolidation of the Department's RDT&E 
units.
    Let me just touch quickly upon the Homeland Security 
Institute, because I think there may be questions about that 
later. The Homeland Security Institute was stood up. It is an 
FFRDC unit in support of the entire Department, not just 
science and technology. An important contribution that they are 
making to us now is to begin to examine the overall system 
architecture for how we will put the various elements of the 
homeland security system together to work as a system rather 
than as a piece parts, where we have in some cases now.
    We continue to be active participants in several ongoing 
interagency working groups, and we may get a chance to talk 
about some of those, but I think what I will do is wrap this up 
now so we can get to the questions and answers, because I know 
that is where we will have a chance to have an open dialogue.
    So Mr. Chairman, Ranking Member Gordon, thank you very much 
for the opportunity to be here.
    [The prepared statement of Dr. McQueary follows:]
               Prepared Statement of Charles E. McQueary

Introduction

    Good morning. Chairman Boehlert, Congressman Gordon, and 
distinguished Members of the Committee. It is a pleasure to be with you 
today to discuss the research and development activities of the 
Department of Homeland Security's (DHS's) Science and Technology (S&T) 
Directorate.
    The Nation's advantage in science and technology is key to securing 
the homeland. The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting-edge technologies and new 
capabilities so that the dedicated men and women who serve to protect 
and secure our homeland can perform their jobs more effectively and 
efficiently--these men and women are my customers.
    When I last reported to you about our activities, we were just over 
one year old as a Department. Since my last report, the Science and 
Technology Directorate has:

         1)  Developed and documented a robust Research, Development, 
        Testing and Evaluation (RDT&E) process that includes risk-based 
        planning for the S&T Directorate's programs and initiatives.

         2)  Continued daily operation, maintenance and deployment of 
        BioWatch, a biological agent detection system, to protect the 
        Nation's major population centers from the threat and 
        ramifications of a bioterrorist attack. BioWatch also provided 
        support during the G8, Democratic National Convention and 
        Republican National Convention.

         3)  Selected four cities for the deployment of a new pilot 
        program entitled the Regional Technology Integration (RTI) 
        initiative (formerly ``Safe Cities''). The selected cities 
        include: Memphis, TN; Anaheim, CA; Cincinnati, OH; and Seattle, 
        WA. RTI provides an integrated urban all-hazards detection and 
        emergency response system.

         4)  Established a dedicated National Bioforensics Center to 
        support ongoing Federal Bureau of Investigation (FBI) and other 
        law enforcement investigations.

         5)  Established the National Visualization and Analytics 
        Center and the Biological Knowledge Center to improve the 
        analysis of information and close knowledge gaps.

         6)  Established a test and evaluation capability for 
        Radiological/Nuclear Countermeasures at the Nevada Test Site.

         7)  Selected over 100 undergraduate and graduate students, in 
        the fall of 2004, for grants to assist in the study of science 
        and technology issues that support the homeland security 
        mission.

         8)  Launched three Homeland Security Centers of Excellence to 
        date with negotiations taking place for a fourth and the 
        solicitation released for the fifth.

         9)  Issued ten major R&D solicitations to industry and 
        academia through the first 20 months and issued more than 200 
        contracts for research work to date.

        10)  Collaborated with and assisted other components of the 
        Department to enhance their abilities to meet their missions 
        and become active contributors in interagency working groups--
        all while staffing this Directorate with some of this country's 
        brightest and most dedicated people.

        11)  Awarded four SAFETY Act designations and certifications, 
        received and responded to 72 full applications and 166 pre-
        applications, and worked to streamline the process.

        12)  Stood up the Department's Office of Inter-operability and 
        Compatibility to address the wide range of public safety inter-
        operability programs and efforts currently spread across 
        Homeland Security.

        13)  RapidCom improved incident-level, inter-operable emergency 
        communications in ten high-threat urban areas by helping to 
        establish command-level inter-operability within an hour or 
        less.

        14)  Completed Phase I of the Counter-MANPADS Program and 
        initiated Phase II which will advance the studies initiated in 
        phase I, build system prototypes and conduct effectiveness 
        testing.

    I continue to be energized by and proud of the scientists, 
engineers, managers, and support staff in the Science and Technology 
Directorate. We have accomplished a great deal in a short amount of 
time and are positioning the Directorate to make continuing 
contributions to the homeland security mission of the Department.
    However, the threats to our homeland remain diverse and daunting. 
We must constantly monitor current and emerging threats and assess our 
vulnerabilities to them, develop new and improved capabilities to 
counter them, and mitigate the effects of terrorist attacks should they 
occur. The Science and Technology Directorate must also enhance the 
conventional missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law 
enforcement needs, and other activities such as maritime search and 
rescue. Basically we assist in making DHS operations science based, 
intelligence informed and technology enabled.

The Science and Technology Directorate's Research, Development, 
                    Testing, and Evaluation Process

    As I just mentioned, one of the Directorate's accomplishments over 
the last year was the development and documentation of a robust 
Research, Development, Testing, and Evaluation (RDT&E) process. The 
goal of the RDT&E process is to provide a clearly defined, repeatable 
method for assessing needs and risk, planning, allocating resources and 
executing programs to produce high-impact, cost-effective and 
critically needed homeland security technology solutions.
    The S&T Directorate's RDT&E process uses a risked-based approach to 
planning and is oriented toward identifying critical capability gaps 
before attempting to identify or develop technology solutions. In 
developing solutions, the process engages the end-user throughout 
requirements definition, development, testing and transition. The 
process considers the product life cycle from the outset, including 
planning and budgeting for production, deployment, operations and 
support. It is this process which allows us to prioritize both within 
and across fields.
    RDT&E consists of four main sub-processes: 1) needs and risk 
assessment, 2) strategic planning, 3) program definition, and 4) 
program execution. The first two sub-processes ensure that the Science 
and Technology Directorate considers user needs, available 
intelligence, big-picture risks, national goals and inputs from other 
external agencies and advisory bodies to establish its annual RDT&E 
program. The second two sub-processes provide a framework for program 
execution using the best available systems engineering and program 
management techniques.

Science and Technology Directorate Organization

    We have four key offices in the Science & Technology Directorate, 
each of which has an important role in implementing the Directorate's 
research, development, testing and evaluation (RDT&E) activities. These 
offices are: Plans, Programs, and Budget (PPB); Office of Research and 
Development (ORD); Homeland Security Advanced Research Projects Agency 
(HSARPA); and Systems Engineering and Development (SED). In addition, 
the S&T Directorate houses the Office of Weapons of Mass Destruction 
Operations and Incident Management to offer scientific advice and 
support to meet operational needs.
    Crosscutting the four key offices, the Science and Technology 
Directorate implements its activities through focused portfolios that 
address biological, chemical, explosives, radiological and nuclear, and 
cyber threats; support the research and development needs of the 
operational units of the Department; support the development of 
standards and inter-operability; develop an enduring R&D capability for 
homeland security; and receive valuable input from private industry and 
academia as well as national and federal laboratories. I will talk 
about the offices first and then about the portfolios.

Office of Plans, Programs, and Budget

    PPB is organized into the portfolios I just mentioned, each of 
which is focused on a particular discipline or activity; taken 
together, these portfolios span the Directorate's mission space. As I 
will cover the portfolios in detail later in this testimony, I will 
limit myself here to a summary explanation. The staff of each portfolio 
is charged with being expert in their particular area; with 
understanding the activities and capabilities extant in federal 
agencies and across the broad research and development community; and 
with developing a strategic plan for their particular portfolio, to 
include near-, mid-, and long-range research and development 
activities. In addition, we have staff that is charged with 
understanding the threat from a technical perspective, with integrating 
the various portfolios into a coherent overall plan, and with 
developing the corresponding budget and monitoring its financial 
execution.
    Finally, PPB is responsible for executing the Directorate's 
implementation responsibilities for the SAFETY (Support Anti-Terrorism 
by Fostering Effective Technologies) Act.

Office of Research and Development

    ORD provides the Nation with an enduring capability in research, 
development, demonstration, testing and evaluation of technologies to 
protect the homeland. ORD builds enduring RDT&E capability through 
stewardship of the homeland security comple--people, places, and 
programs--to anticipate, prevent, respond to and recover from terrorist 
attacks.
    Activities within ORD address the resources that can be brought to 
bear to better secure the homeland through the participation of 
universities, national laboratories, federal laboratories and research 
centers.

Homeland Security Advanced Research Projects Agency

    HSARPA is an external research-funding arm of the Science and 
Technology Directorate. It has at its disposal a full range of 
contracting vehicles and the authority under the Homeland Security Act 
of 2002 to engage businesses, federally funded research and development 
centers, universities, and other government partners in performing its 
mission to gather, generate and develop ideas, concepts and advanced 
technologies to protect the homeland.
    HSARPA's mission is to support basic, applied, and advanced 
homeland security research to promote revolutionary changes in 
technologies that would promote homeland security; advance the 
development, testing and evaluation, and deployment of homeland 
security technologies; and accelerate the prototyping and deployment of 
technologies that would address homeland security vulnerabilities. Its 
customers are State and local first responders and federal agencies 
that are allied with homeland security such as the U.S. Coast Guard, 
U.S. Secret Service, U.S. Citizenship and Immigration Services, Federal 
Emergency Management Agency, and others.
    About 60 percent of the Science and Technology Directorate's 
appropriation in FY 2005 will be executed directly through the private 
sector, with HSARPA managing about 40 percent of that.

Office of Systems Engineering and Development

    SED is tasked with leading the implementation and transition of 
large-scale or pilot systems to the field through a rapid, efficient 
and disciplined approach to project management.
    One of the Science and Technology Directorate's challenges is to 
evaluate a wide spectrum of military and commercial technologies so 
rapid, effective and affordable solutions can be transitioned to the 
Department's customers that include first responders and federal 
agencies. In some cases, military technologies could be candidates for 
commercialization, but rigorous systems engineering processes need to 
be applied to ensure a successful transition. SED's role is to identify 
and then, in a disciplined manner, reduce risks associated with such 
technologies to ready them for deployment to the field. In doing so, 
the office must view each technology through the prism of 
affordability, performance and supportability--all critical to end-
users.
    SED must weigh considerations such as the urgency for a solution, 
consequences of the threat, safety of the product, and life cycle 
support as new products are introduced. Products must be user friendly, 
have a minimum of false alarms, require little or no training and 
consistently provide accurate results. SED will demonstrate and test 
solutions before they are released to the field, and will validate that 
those solutions meet user expectations. SED also operates our 
Countermeasures Test Bed capability, which provides end-user ``in the 
loop'' operational testing and evaluations to the Directorate's 
portfolios.

Office of Weapons of Mass Destruction Operations and Incident 
                    Management

    We created the Office of Weapons of Mass Destruction Operations and 
Incident Management as the Science and Technology Directorate's 
operational arm for DHS support to incident management. Through this 
Office, the Science and Technology Directorate exercises its scientific 
and technical leadership role under the National Response Plan. This 
Office provides rapid scientific and technical expertise and executive 
decision support to the Secretary, DHS response units, interagency 
partners, and the State and local jurisdictions that form the front 
line response to chemical, biological, radiological, nuclear and high-
explosives threats and incidents.

Results From Current Research and Development (R&D) Spending and FY 
                    2006 Plans: Portfolio Details

    The Science and Technology Directorate has organized its efforts 
into research and development portfolios that span the set of product 
lines of the Directorate. Four portfolios address the development of 
countermeasures for specific terrorist threats: Biological 
Countermeasures, Chemical Countermeasures, Explosives Countermeasures, 
and Radiological and Nuclear Countermeasures.
    In addition to the countermeasures portfolios, four portfolios 
support the operational units of the Department: Border and 
Transportation Security (BTS), Emergency Preparedness and Response 
(EPR), United States Coast Guard (USCG) and United States Secret 
Service (USSS) portfolios.
    The Standards, Emerging Threats, and Rapid Prototyping portfolios 
crosscut all terrorist threats and enhance the research and development 
conducted in the countermeasures portfolio.
    The Directorate has three portfolios that focus on the protection 
of the Nation's vital infrastructure: Threat and Vulnerability, Testing 
and Assessment, Critical Infrastructure Protection and Cyber Security.
    The S&T Directorate addresses other areas as well:

        <bullet>  Our University and Fellowship Programs portfolio 
        addresses the need to build an enduring science and technology 
        capability and support United States leadership in science and 
        technology.

        <bullet>  Our Counter-MANPADS program is seeking to improve 
        technologies to protect commercial aircraft from the threat of 
        MAN-Portable Air Defense Systems (MANPADS).

        <bullet>  The Office of Inter-operability and Compatibility 
        (OIC), managed by the Science and Technology Directorate, 
        oversees the wide range of public safety inter-operability 
        programs and efforts currently spread across Homeland Security, 
        including critical inter-operability issues relating to public 
        safety and emergency response, including communications, 
        equipment, training, and other areas as needs are identified.

        <bullet>  The Domestic Nuclear Detection Office (DNDO) is being 
        established to be the single entity responsible for 
        coordinating and extending efforts in nuclear/radiological 
        detection. This office will consolidate functions within the 
        Department of Homeland Security and establish strong linkages 
        across the interagency for the deployment of a national 
        domestic nuclear detection architecture, the conduct of 
        transformational research and development, and the 
        establishment of protocols and training for the end users of 
        equipment developed and deployed through the new office.

    At this time I would like to briefly describe some of our 
accomplishments to date and our FY 2006 plans. As can be seen in the 
following chart, we have an overall FY 2006 budget request of $1.368 
billion, which is an increase of $253.0 million (22.7 percent) over the 
FY 2005 levels. The request includes the construction of the National 
Bio and Agrodefense Facility, the development of a Low-Volatility Agent 
Warning System, a Radiological/Nuclear Countermeasures Testing and 
Evaluation Complex, additional development of Counter-Man-Portable-Air-
Defense Systems (C-MANPADS), and the consolidation of the Department's 
RDT&E activities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Biological Countermeasures

    Biological threats can take many forms and be distributed in many 
ways. Aerosolized anthrax, smallpox, foot and mouth disease, and bulk 
food contamination are among the threats that can have high 
consequences for humans and agriculture. Our Biological Countermeasures 
portfolio uses the Nation's science base to prevent, protect, respond 
to, and recover from bioterrorism events. This portfolio provides the 
science and technology needed to reduce the probability and potential 
consequences of a biological attack on this nation's civilian 
population, its infrastructure, and its agricultural system. Portfolio 
managers and scientists are developing and implementing an integrated 
systems approach with a wide range of activities, including 
vulnerability and risk analyses to identify the need for vaccines, 
therapeutics, and diagnostics; development and implementation of early 
detection and warning systems to characterize an attack and permit 
early prophylaxis and decontamination activities; and development of a 
national bioforensics analysis capability to support attribution of 
biological agent use.
    In FY 2004 and FY 2005, the Biological Countermeasures portfolio:

        <bullet>  Deployed the BioWatch environmental sensor system to 
        protect our nation's cities from the threat and ramifications 
        of a bioterrorist attack. BioWatch activities were 
        significantly increased during the National Code Orange Alert 
        (December 2003-January 2004), with twice daily samplings in the 
        high threat cities, additional collectors for special New 
        Year's events and Bowl Games, and deployment of temporary 
        BioWatch systems to non-BioWatch cities of special concern. 
        BioWatch also provided field and laboratory support to the G8, 
        the Democratic National Convention and the Republican National 
        Convention in Boston and New York.

        <bullet>  Engaged in creating more near real-time monitoring of 
        critical infrastructure facilities such as major transportation 
        hubs. New infrastructure protection efforts include shorter 
        response time biological agent detection capabilities for 
        BioWatch. This pilot is in the process of being deployed in New 
        York City and will join a three-to-five expansion of the number 
        of collectors in that city.

        <bullet>  Initiated the design of the National Biosurveillance 
        Integration System (NBIS) as part of an interagency process. 
        Recently completed in the first quarter of FY 2005, we will 
        work with the Information Analysis and Infrastructure 
        Protection (IAIP) Directorate to implement this system.

        <bullet>  Conducted preliminary analyses, using the reference 
        scenario approach recommended by Homeland Security Presidential 
        Directive (HSPD)-10 for understanding the requirements of an 
        integrated national biodefense architecture, of four baseline 
        reference cases: a large outdoor release of a non-contagious 
        agent (anthrax); a large indoor release of a contagious agent 
        (smallpox); contamination of a bulk food supply; and two highly 
        virulent agricultural attacks, one on livestock (Foot and Mouth 
        Disease) and the other on plants (soy bean rust).

        <bullet>  Established the Biodefense Knowledge Center, an 
        operational hub for enabling collaboration and communication 
        within the homeland security complex. The Biodefense Knowledge 
        Center will meet the operational and planning requirements of 
        government decision-makers and program planners, the 
        intelligence community, law enforcement officers, public health 
        practitioners, and scientists. Specific capabilities offered to 
        these end-users include knowledge services, modeling and 
        simulation, situational awareness and a pathway to accelerate 
        research and development.

    In FY 2006, the Biological Countermeasure portfolio plans to:

        <bullet>  Complete the three high level architectures initiated 
        in FY 2005 (multiple small attacks, an engineered organism, and 
        an intentional spread of a zoonotic disease), identifying key 
        requirements for each major element, a ``report card'' on the 
        current and projected status in that area and performing 
        detailed design tradeoffs for those areas in which DHS has 
        execution responsibility.

        <bullet>  Complete the first formal risk assessment required 
        under HSPD-10 and close many of the key remaining experimental 
        gaps in our knowledge of the classical biological threat 
        agents. Near-, mid-, and long-term plans for dealing with 
        engineered agents will be developed, and R&D on addressing the 
        gaps in responding to modified organisms (e.g., antibiotic 
        resistant) initiated.

        <bullet>  Complete the deployment of Generation 2 BioWatch 
        systems to the top threat cities while continuing to operate 
        and optimize already extant BioWatch systems. Complete test and 
        evaluation of laboratory prototypes of the Generation 3 
        BioWatch detection systems which will be ready for down-
        selection those which will go on to develop fieldable 
        prototypes in FY 2007.

        <bullet>  Continue operation of the interim National 
        Bioforensic Analysis Center. International Organization for 
        Standardization (ISO) certification is expected to have been 
        achieved, giving the analyses conducted additional credibility 
        and authenticity in both the national and international 
        community and courts of law. R&D will continue on the physical 
        and chemical signatures of the ``matrix'' materials associated 
        with biological agents so as to develop methods for 
        understanding tell-tale remnants of enrichment media, culture 
        conditions, metabolites, and dispersion technology.

        <bullet>  Continue operation of the Plum Island Animal Disease 
        Center (PIADC) and essential upgrades to the facility and 
        initiate design of the National Bio and Agrodefense Facility 
        (NBAF). R&D will continue on next generation vaccines and 
        antiviral therapeutics for foot and mouth disease (FMD) and 
        other high priority foreign animal diseases.

        <bullet>  Continue to develop bioassays for FMD and look-alike 
        animal diseases. The initial agricultural forensic capability 
        established in FY 2004 at PIADC will be enhanced and 
        epidemiologic capability added. A High Throughput Diagnostics 
        Demonstration will be initiated to work with regional and State 
        laboratories to demonstrate a capability of analyzing thousands 
        of samples per day in support of response to a suspected case 
        or an outbreak. A FMD table top exercise of DHS Directorates 
        will be initiated, and development of a coupled epidemiological 
        and economic model for FMD will begin. The end-to-end systems 
        study initiated in FY 2004 for Soybean Rust and FMD will be 
        completed, and system studies initiated for highly pathogenic 
        avian influenza.

National Bio-Defense Analysis and Countermeasures Center (NBACC)

    The NBACC, a key component of the National Strategy for Homeland 
Security, addresses the need for scientific research to better 
anticipate, prevent, and mitigate the consequences of biological 
attacks. The need for the NBACC facility is further defined in the 
Presidential Directive Biodefense for the 21st Century, the Nation's 
blueprint for future biodefense programs. The NBACC's mission will 
support two pillars of this blueprint--threat awareness and 
surveillance and detection. The NBACC is made up of two centers, the 
Biological Threat Characterization Center and the National Bioforensic 
Analysis Center to carry out these missions. Specifically, NBACC's 
mission is to:

        <bullet>  Understand current and future biological threats, 
        assess vulnerabilities, and determine potential impacts to 
        guide the research, development, and acquisition of biodefense 
        countermeasures such as detectors, drugs, vaccines and 
        decontamination technologies; and

        <bullet>  Provide a national capability for conducting forensic 
        analysis of evidence from bio-crimes and terrorism to attain a 
        ``biological fingerprint'' to identify perpetrators and 
        determine the origin and method of attack.

    In FY 2004, the Department completed the planning and conceptual 
design of the NBACC facility. Additionally, the Department has been 
working through the National Environmental Policy Act (NEPA) process 
during the year, which culminated in the signing of the Record of 
Decision in January 2005 of the Final Environmental Impact Statement 
(EIS) for the construction project and subsequent operations. It was 
decided to delay the award of any contracts for design and construction 
until further in the EIS process. As the public concerns are analyzed 
and considered it is anticipated that contracts will be awarded in FY 
2005 to initiate design and construction of the NBACC facility.
    In FY 2005, the solicitations of contracts for the design and 
construction of the NBACC facility are expected to be awarded. The 
design of the NBACC facility will commence in March 2005. $35M was 
appropriated to obligate funds for award of the construction contract 
in the fourth quarter of FY 2005. Construction of the facility is 
planned for completion by the fourth quarter of FY 2008.
    In FY 2006, funding was not requested for the construction of the 
NBACC facility.

Chemical Countermeasures

    The National Research Council Report, Making the Nation Safer, 
points out that ``chemicals continue to be the weapon of choice for 
terrorist attacks.'' Until recently, the chemical threat spectrum was 
limited to the threats posed by chemical warfare agents (CWAs) in a 
military context and the threats posed by the accidental or inadvertent 
release of toxic materials in the homeland domain. Now, the chemical 
threat spectrum has expanded to include chemical warfare agents (CWAs), 
toxic industrial chemicals (TICs), non-traditional agents (NTAs) and 
toxins. As with the threat materials themselves, the range of 
potentially attractive targets is large. The potential for chemical 
warfare agents and emerging threat agents constitute a broad range of 
threats that may be applied to virtually any civilian target.
    The Chemical Countermeasures portfolio works to enhance the 
Nation's capability to anticipate, prevent, protect, respond to and 
recover from chemical threat attacks through interagency leadership and 
conduct of innovative research, development, and technology transition. 
The portfolio works through the interagency environment to shape a 
comprehensive strategy for enhancing the Nation's defensive posture and 
to develop bases for enhanced R&D program integration and leverage. The 
R&D activities include prioritization of efforts among the many 
possible chemical threats and targets, and development of new detection 
and forensic technologies and integrated protective systems for high-
value facilities such as airports and subways. These activities are 
informed by end-user input and simulated exercises.
    In FY 2004 and FY 2005, the Chemical Countermeasures portfolio:

        <bullet>  Conducted preliminary activities toward the 
        development of a Chemical Security Analysis Center (CSAC) that 
        will provide threat awareness and assessment. An overall 
        structure, similar to that characterizing the NBACC and its 
        supporting threat characterization, forensics, knowledge 
        management and reachback, is envisioned.

        <bullet>  Initiated system studies around three defining 
        scenarios: indoor chemical agent release, outdoor toxic 
        industrial chemical release, and release of toxin in the water 
        system.

        <bullet>  Initiated three demonstration projects: the Facility 
        Restoration Demonstration Project to develop and demonstrate a 
        capability to rapidly restore a facility that has been 
        contaminated with a classical chemical agent or persistent 
        toxic industrial chemical (TIC); a Water Security Demonstration 
        to identify and characterize technologies with the potential to 
        provide warning of chemical contamination of the water system; 
        and a National Security Special Event (NSSE) Deployable 
        Detection System Demonstration to develop a flexible 
        architecture chemical detection system that can be utilized for 
        the warning and situational awareness of chemical threats in 
        temporary deployments.

        <bullet>  Initiated key development programs targeting leap-
        ahead advancements in detection capabilities. These programs 
        will develop two principal capabilities: a facility monitoring 
        detector and a responder detection tool. In both cases, the 
        detectors will provide detection and discrimination of up to 20 
        different chemical threats, including classical chemical 
        warfare agents (CWAs) and toxic industrial chemicals (TICs) in 
        a single unit across a wide range of concentrations.

    In FY 2006, the Chemical Countermeasure portfolio plans to:

        <bullet>  Reach full operational status at the CSAC where 
        chemical threat databases will be centrally located and 
        accessible.

        <bullet>  Complete technology down-select and draft candidate 
        decontamination protocols in concert with the Environmental 
        Protection Agency (EPA) through the Facility Restoration 
        Technology Demonstration. Transition the Water Security 
        Demonstration to EPA for continuation and conduct technology 
        down-select for the next-generation deployable capability 
        through the NSSE Technology Demonstration.

        <bullet>  Complete the critical design review of technologies 
        for the rapid facility monitor and the first responder tool and 
        conduct a technology down-select supporting prototype selection 
        and build.

        <bullet>  Initiate and demonstrate operational solutions to the 
        challenge of decontaminating non-traditional agents and 
        initiate next-generation decontamination research.

Explosives Countermeasures

    The Explosives Countermeasures portfolio addresses the threat that 
terrorists will use explosives in attacks on buildings, critical 
infrastructure, and the civilian population of the United States. The 
Science and Technology Directorate's Explosives portfolio has been 
closely coordinated with the activities ongoing in the Transportation 
Security Administration to ensure that research and development (R&D) 
activities are complementary, not duplicative; in FY 2006, these 
activities will be consolidated within the S&T Directorate. R&D 
priorities in the Explosives Countermeasures portfolio focus on the 
detection of vehicle bombs and suicide bombers and on providing the 
science and technology needed to significantly increase our ability to 
prevent an explosives attack on buildings, infrastructure or people.
    In FY 2004 and FY 2005, the Explosives Countermeasures portfolio:

        <bullet>  Addressed terrorist attacks against buildings and the 
        general population. The portfolio initiated the development of 
        a prototype explosive detector for vehicle bombs, and 
        accelerated the development of hardened overhead storage bins 
        for passenger aircraft. Additionally, it initiated a survey and 
        evaluation of commercial-off-the-shelf equipment to detect, 
        interdict and mitigate the consequences of suicide bombers and 
        vehicle bombs, and conducted a cost-benefit analysis of 
        approaches to aircraft hardening.

        <bullet>  Funded the demonstration in FY 2005 of the 
        capabilities identified in FY 2004, used to provide the ability 
        to detect, interdict, and mitigate the consequences from 
        suicide bombers, truck, and car bombs approaching high profile 
        targets and densely populated areas.

    In FY 2006, the Explosives Countermeasure portfolio plans to:

        <bullet>  Continue to consolidate explosives management 
        functions as outlined above. Efforts will focus on developing 
        the ability to detect, interdict and mitigate the consequences 
        from suicide bombers, truck and car bombs approaching high 
        profile targets and densely populated areas. Additonally, the 
        portfolio will provide the ability to detect, interdict and 
        mitigate the consequences of explosives and weapons on aircraft 
        transporting (domestic and foreign inbound) passengers and 
        their baggage as well as cargo containers/bays. Specific areas 
        to be pursued are infrastructure protection, suicide bombers/
        leave behind improvised explosive devices, and vehicle bombs.

Radiological and Nuclear Countermeasures

    Potential radiological and nuclear threats range from the 
deliberate dispersal of small amounts of radioactive material to the 
detonation of an improvised or stolen nuclear weapon to an attack on 
our nuclear power industry. Our Radiological and Nuclear 
Countermeasures portfolio provides the science and technology needed to 
reduce both the probability and the potential consequences of a 
radiological or nuclear attack on this nation's civilian population or 
our nuclear power facilities. Many of the on-going activities conducted 
in the Radiological/Nuclear Countermeasures Portfolio are being 
transferred in FY 2006 to the Domestic Nuclear Detection Office (DNDO). 
Those activities are indicated in the next section.
    In FY 2004 and FY 2005, the Radiological/Nuclear Countermeasures 
portfolio:

        <bullet>  Formally assumed management of the Port Authority of 
        New York and New Jersey radiation detection test bed from the 
        Department of Energy in August, 2003. Following the transfer, 
        the portfolio broadened the project scope beyond testing and 
        evaluating individual pieces of technology to a systems 
        approach, including response protocols and operational 
        concepts. This program has been renamed the Countermeasures 
        Test Bed to more accurately reflect that this program supports 
        DHS's enduring operational testing and evaluation needs for all 
        threat countermeasures technology, not just Radiological/
        Nuclear threats.

        <bullet>  Focused detection technology efforts on the detection 
        of shielded special nuclear material (SNM) in cargo containers, 
        based on the detection of both neutrons and delayed high-energy 
        fission product gamma rays, and a portable neutron source, 
        based on a mixed alpha-Be source in a switchable configuration 
        for use in active interrogation; both currently are still in 
        conceptual design and experiment phases.

        <bullet>  Preplanned product improvement efforts in this area 
        were directed towards improvements in two current Customs and 
        Border Protection-deployed radiographic imaging systems. This 
        included software improvements and systems upgrades for local 
        data integration, threat image projection (TIP), and assisted 
        imaging processing (AIP).

        <bullet>  Incident management/recovery efforts include a joint 
        DHS/HSARPA and DOD/DARPA (Department of Defense/Defense 
        Advanced Research Projects Agency) project focusing on 
        radiological and nuclear decontamination, consisting of four 
        main tasks: (1) Radionuclide capture decontamination; (2) Wide 
        area radionuclide decontamination; (3) Verification; and (4) 
        Modeling.

        <bullet>  A major goal of FY 2005 is to establish a test and 
        evaluation capability at the Nevada Test Site (NTS) for testing 
        against SNM, and, as appropriate, to test and evaluate relevant 
        FY 2005 prototype technologies developed in the portfolio's 
        programs.

    In FY 2006, the Radiological/Nuclear Countermeasure portfolio plans 
to:

        <bullet>  Redirect all detection related missions and 
        corresponding funding to the establishment of the Domestic 
        Nuclear Detection Office. The remaining, non-detection research 
        and development will continue to be funded through the 
        Radiological/Nuclear Countermeasures portfolio. The two 
        programmatic thrust areas remaining are Incident Management and 
        Recovery, and Attribution and Forensics on Contaminated 
        Evidence (formerly part of the Systems Analysis and Pilot 
        Deployments programmatic area).

        <bullet>  Complete the laboratory improvements that are 
        necessary to carry out the attribution mission.

        <bullet>  Complete all field studies for the New York City 
        Urban Dispersion Program with a technology transfer following 
        to NYC Office of Emergency Management in late 2006.

Domestic Nuclear Detection Office

    The risk that terrorists will acquire and use a Nuclear/
Radiological device is one of the gravest threats that confronts the 
Nation. Acquiring nuclear weapons and materials is the hardest step for 
terrorists to take, and the easiest for us to stop. By contrast, every 
subsequent step in the process becomes easier for the terrorists, and 
harder for us to stop. Our defensive posture must begin with 
eliminating excess stocks of nuclear material and weapons throughout 
the world, protecting existing stocks from theft or diversion, and 
detecting illicit movement of nuclear/radiological material overseas 
before it reaches our borders. However, recognizing that even the best 
efforts to secure weapons and fissile material may not achieve 100 
percent success, we must supplement these efforts abroad with a 
stronger layer of protection at home.
    We must move swiftly to deploy a well-integrated system of 
detectors for nuclear/radiological materials and improve this system 
over time. While such a system will never be foolproof, it can 
dramatically improve the probability that we could detect illicit 
nuclear or radiological materials being brought covertly into position 
for use by an adversary. The gravity of the risk demands the focused, 
aggressive program envisioned here, with its mutually supportive 
elements of deploying and knitting together current technology so as to 
exact the greatest possible protection for our population while working 
continuously to improve that technology over time.
    Since 9/11, many agencies have expanded their activities and 
operations to help build the domestic layers of the Nation's defense 
against nuclear terrorism. To optimize and advance these efforts, a new 
national-level, jointly staffed Domestic Nuclear Detection Office 
(DNDO) is being created to coordinate and extend the efforts in 
nuclear/radiological detection. This office will consolidate functions 
within DHS and establish strong linkages across the interagency for the 
deployment of a national domestic nuclear detection architecture, the 
conduct of transformational research and development (R&D), and the 
establishment of protocols and training for the end users of equipment 
developed and deployed through the new office. The office will further 
serve as the primary entity to

        <bullet>  Further develop, acquire, and support the deployment 
        of an enhanced domestic system to detect and report on any 
        attempt to import, possess, store, transport, develop, or use 
        an unauthorized nuclear explosive device, fissile material, or 
        radiological material in the United States;

        <bullet>  Enhance and coordinate the nuclear detection efforts 
        of Federal, State, and local governments and the private sector 
        to ensure a managed, coordinated response;

        <bullet>  Jointly establish and coordinate additional protocols 
        and procedures for domestic use to ensure that the detection of 
        unauthorized nuclear explosive devices, fissile material, or 
        radiological material is promptly reported to the Attorney 
        General, the Director of the Federal Bureau of Investigation 
        (FBI), the Secretary of Defense, the Secretary of Homeland 
        Security, the Secretary of Energy, and other appropriate 
        officials or their designees for appropriate action by law 
        enforcement, military, emergency response, or other 
        authorities;

        <bullet>  Jointly develop and coordinate an enhanced global 
        nuclear detection architecture with the following 
        implementation: (i) the DNDO will be responsible for the 
        implementation of the domestic portion of the global 
        architecture, (ii) the Secretary of Defense will retain 
        responsibility for implementation of DOD requirements, and 
        (iii) the Secretaries of Defense, Energy, and State will 
        maintain their respective responsibilities for policy guidance 
        and implementation of the overseas portion of the global 
        architecture, which will be implemented consistent with 
        applicable law and relevant international conditions;

        <bullet>  Conduct, support, coordinate, and encourage an 
        aggressive, expedited, evolutionary, and transformational 
        program of research and development efforts to support the 
        policy;

        <bullet>  Support and enhance the effective sharing and use of 
        appropriate information generated by the intelligence 
        community, law enforcement agencies, counterterrorism 
        community, other government agencies, and foreign governments 
        as well as provide information to these entities; and

        <bullet>  Further enhance and maintain continuous awareness by 
        analyzing information from all DNDO mission-related detection 
        systems.

    Building upon the redirected base funding of $113 million for 
detection related RDT&E in the Radiological/Nuclear Countermeasures 
Portfolio, the FY 2006 request includes an additional $105.0 million to 
support the DNDO's mission and objectives (plus the $9 million 
requested increase for the Radiological/Nuclear Countermeasures Test 
and Evaluation Complex (Rad/NUc CTEC) discussed later in the FY 2006 
Science and Technology Directorate Initiatives section.
    Although the DNDO is principally focused on domestic detection, its 
coordinating work will enhance U.S. efforts overseas through the design 
of a global architecture implemented under current agency 
responsibilities. The new investments will speed the development and 
improvement of equipment and protocols, much of which will be 
applicable overseas.
    Because multiple agencies share the resources or expertise 
necessary for the success of the office, the DNDO will be located 
within the Department of Homeland Security (DHS), but will be jointly 
staffed with representatives from DHS, the Department of Energy (DOE), 
the Department of Defense (DOD), and the Federal Bureau of 
Investigation (FBI), with coordination between the Department of 
Justice (DOJ), the Department of State (DOS), the Intelligence 
Community (IC), and other departments as needed.
    The DNDO mission will be carried out through an organization that 
includes a Director supported by five major offices: Systems 
Engineering and Planning, Systems Development and Acquisition, 
Assessments, Joint Center for Global Connectivity, and Transformational 
Research & Development. These offices would be staffed jointly by 
appropriate agencies.
    In FY 2006, the Domestic Nuclear Detection Office plans to:

        <bullet>  Develop the system architecture, conduct all 
        associated systems engineering, develop technology roadmaps, 
        and develop a strategic plan for the DNDO.

        <bullet>  Define the domestic nuclear detection architecture.

        <bullet>  Conduct research and development in support of the 
        DNDO mission.

        <bullet>  Coordinate with other federal, State, and local R&D 
        organizations.

        <bullet>  Develop concepts for innovative technologies and 
        coordinate with interagency R&D organizations on all advanced 
        detection technologies, development concepts, and programs.

        <bullet>  Develop and provide technical standards and protocols 
        for detection systems, reporting systems, and information 
        sharing systems.

        <bullet>  Design and conduct technical and operational test and 
        evaluation of related detection equipment, technologies, 
        systems, procedures, concepts of operation, and protocols for 
        the domestic nuclear detection system.

        <bullet>  Prepare and maintain the DNDO Test and Evaluation 
        Master Plan.

        <bullet>  Oversee the Radiological and Nuclear Countermeasures 
        Test and Evaluation Complex (Rad/NucCTEC) and use other Rad/Nuc 
        test infrastructure as needed to execute the Office's 
        assessment responsibilities.

        <bullet>  Provide operational support, to include: (1) 
        information collection, coordination, and analysis; (2) 
        coordinated technical reachback; and (3) and the development of 
        standards, protocols, concepts of operations, training, safety 
        and security procedures, and State and local support.

        <bullet>  Identify technology opportunities and execute 
        programs to dramatically improve the domestic nuclear detection 
        system overall and component-wise performance, especially high-
        risk, high-payoff technology investments.

Threat and Vulnerability, Testing and Assessment

    Our Threat and Vulnerability, Testing and Assessment (TVTA) 
portfolio is designed to develop, test, and deliver--in collaboration 
with intelligence, law enforcement, and homeland security community 
agencies--tools and methodologies for assessing terrorist threats and 
understanding terrorism. The TVTA portfolio focuses on the following 
five areas:

        <bullet>  Threat Assessment: Create and establish coherent 
        capabilities for analysis, dissemination, visualization, 
        insight, synthesis, and enhancement of terrorism-related 
        information.

        <bullet>  Data Sharing: Enable tactical and strategic sharing 
        of terrorism-related intelligence, information, and data among 
        all elements of the homeland security community.

        <bullet>  Forecasting: Identify, understand, and forecast 
        terrorist motives, intentions, behaviors, capabilities, 
        processes, and tactics; understand individual and societal 
        resilience to terrorism.

        <bullet>  Scalable Analyses: Enable scalable, integrated 
        simulation and information analyses for threat identification 
        and assessment; develop innovative computational technologies 
        for deployment in next-generation knowledge management and 
        threat assessment tools.

        <bullet>  System Optimization: Create optimized knowledge 
        system designs and architectures that enhance the Nation's 
        countermeasures.

    This portfolio provides the science and technology needed to 
develop methods and tools to test and assess threats and 
vulnerabilities to protect critical infrastructure and enhance 
information exchange; this portfolio also includes a Biometrics 
Program.
    In FY 2004 and FY 2005, the TVTA Countermeasures portfolio:

        <bullet>  Delivered two operational components, the Threat 
        Vulnerability Integration System (TVIS) and the Threat-
        Vulnerability Mapper (TVM), to the Information Analysis and 
        Infrastructure Protection (IAIP) Directorate. The TVM provides 
        counterterrorism analysts with a simple, straightforward way to 
        depict the geographic distribution of threats across the U.S. 
        and to search the underlying databases for information on 
        terrorists and attacks. TVIS integrates high-volume information 
        analysis capabilities with specialized visualization tools that 
        enable analysts to process large amounts of disparate 
        intelligence data.

        <bullet>  Created the knowledge management architecture, known 
        as ADVISE (Analysis, Dissemination, Visualization, Insight, and 
        Semantic Enhancement) to integrate the various information 
        analysis and synthesis, visualization, and knowledge discovery 
        component capabilities. ADVISE will incorporate a comprehensive 
        encyclopedia of chemical, biological, radiological, nuclear and 
        explosive (CBRNE) threat and effects data. Pilot ADVISE systems 
        for the BTS Directorate will be installed in FY 2005. Update 
        the initial TVIS system at the Biodefense Knowledge Center with 
        the enhanced ADVISE capability.

        <bullet>  Created the Interagency Center for Applied Homeland 
        Security Technology (ICAHST) capable of addressing the 
        technical needs of the Department and other members of the 
        Homeland Security community. The center and its interconnected 
        laboratories provides detailed technical information and guides 
        research, strategy, and systems design for the broad range of 
        technologies and techniques necessary to identify, understand, 
        and remediate CBRNE threats.

        <bullet>  Completed an initial set of 120 all-CBRNE capability 
        assessments for 20 terrorist organizations on the five CBRNE 
        plus cyber threat agents. Continued support to the Nuclear 
        Assessment Program (NAP) that judges the credibility of 
        communicated nuclear threats for such clients as the FBI, DOE, 
        and Department of State (DOS). In FY 2005, continue to produce 
        all-CBRNE capability assessments. An additional 20 terrorist 
        groups' capabilities and intentions will be analyzed using 
        information from the intelligence community.

        <bullet>  Continued to implement the capability to analyze 
        terrorist threats and stimulate analytical insight using 
        visualization tools and techniques in FY 2005. The National 
        Visualization and Analytics Center (NVAC), established in FY 
        2004, will produce a national agenda for visual analytics with 
        broad input and support from the government, national 
        laboratories and universities. The four NVAC core functions 
        include research and development, education, technology 
        evaluation and implementation, integration and coordination. 
        Three Regional Visual Analytics Centers (RVACs) will also be 
        established, to implement the visualization agenda on a 
        regional scale. The RVACs will incorporate university research 
        activities as well as commercial and other government visual 
        analytics research into the national lab-oriented work of the 
        NVAC.

        <bullet>  Established an integrated, national capability, 
        called the Institute for Discrete Sciences (IDS), to 
        investigate and develop the specialized computing algorithms 
        and hardware architectures necessary to analyze massive amounts 
        of diverse data from multiple, disparate, distributed data 
        sources, and to model terrorist attacks and simulate 
        consequences on a real-time, high-resolution basis. Like the 
        NVAC, the IDS will have broad interaction and support from the 
        government, national laboratories and universities.

        <bullet>  Completed an engineering design for the Enhanced 
        International Travel Security (EITS) system, initiated in FY 
        2004, which will enable several pilots to be implemented with 
        the United Kingdom, Canada, and Australia. EITS allows the 
        validity of travel documents and the identity of travelers to 
        be determined in real-time at U.S. borders and other points of 
        entry.

        <bullet>  Provided the science and technology needed in the 
        development of biometrics for precise identification of 
        individuals, and develop prototype instrumentation to aid 
        authorized officials in detecting individuals with potentially 
        hostile intent.

        <bullet>  Enabled a comprehensive capability for determining 
        terrorist motivations, based on social, behavioral, and 
        economic factors. Integrate this with techniques for 
        determining terrorist or hostile intent as well as detecting 
        deception.

    In FY 2006, the Threat and Vulnerability, Testing and Assessment 
portfolio plans to:

        <bullet>  Enable the development of analytic resources and 
        technologies to characterize terrorist capabilities, detect 
        their activities, predict their intentions based on 
        infrastructure vulnerabilities, strengthen preventive measures, 
        and increase the ability to respond.

        <bullet>  Provide an enhanced, integrated capability for 
        information synthesis, relying on a foundation of advanced 
        semantic processing and visual analytics and supported by 
        specialized discrete mathematics techniques and technology. 
        This will provide comprehensive knowledge discovery and 
        dissemination capabilities to a diverse set of users--from 
        first responders to intelligence analysts.

        <bullet>  Develop a capability for information extraction, 
        pattern discovery, group detection, and visualization for 
        unstructured text as well as audio and video information to 
        complement the existing capability for structured data.

        <bullet>  Continue expanding the roles of the NVAC and IDS by 
        providing integrated capabilities to multiple DHS components, 
        setting national agendas in visual analytics and discrete 
        sciences, and furthering interagency cooperation.

        <bullet>  Create a National Homeland Security Support System 
        (NH3S) using the ADVISE architecture and providing quantitative 
        risk analysis and decision support capabilities.

        <bullet>  Create a CBRNE threat encyclopedia and integrate with 
        the ADVISE (Analysis, Dissemination, Visualization, Insight, 
        and Semantic Enhancement) system. Create a National Homeland 
        Security Support System (NH3S) using the ADVISE architecture 
        and providing quantitative risk analysis and decision support 
        capabilities.

Standards Program

    Ensuring that standards are created and adopted is critically 
important for homeland security. We need consistent and verifiable 
measures of effectiveness in terms of basic functionality, 
appropriateness and adequacy for the task, inter-operability, 
efficiency, and sustainability. Standards will improve the quality and 
usefulness of homeland security systems and technologies. Our Standards 
Program cuts across all aspects of the S&T Directorate's mission and 
all threats to improve effectiveness, efficiency, and inter-operability 
of the systems and technologies developed.
    Our Standards Program continues to actively engage the federal, 
State, and local first responders to ensure that developed standards 
are effective in detection, prevention, response, management, and 
attribution. This program office also conducts the essential activities 
in order to meet the requirement of the SAFETY (Support Anti-Terrorism 
by Fostering Effective Technologies) Act in developing certification 
standards for technologies related to homeland security.
    In FY 2004 and FY 2005, the Standards Program:

        <bullet>  Composed three management directives to establish DHS 
        policy with regards to the adoption and development of national 
        standards.

        <bullet>  Formed an interagency task force to address the 
        controversy over the effectiveness and use of lateral flow 
        immunoassays for the detection of Bacillus anthracis (anthrax) 
        by emergency responders.

        <bullet>  Evaluated a five step method to pre-screen suspicious 
        white powders through an effort with Edgewood Chemical 
        Biological Center (ECBC) and an additional effort with the 
        National Institute of Standards and Technology (NIST) to look 
        at the effectiveness of biological agent simulants, and the 
        establishment of a program to address both chemical and 
        biological decontamination standards for the first responder 
        community.

        <bullet>  Supported efforts with American Society for Testing 
        and Materials (ASTM) to coordinate the development of a draft 
        standard for hospital preparedness and to develop a multi-
        disciplinary Mission Essential Task List (METL) based on 
        Emergency Responder Guidelines developed by the Office of 
        Domestic Preparedness.

        <bullet>  Within Standards for Personal Protective and 
        Operational equipment, the program supported the development of 
        a number of respiratory standards including three National 
        Institute for Occupation Safety and Health (NIOSH) standards 
        and one National Fire Protection Association (NFPA) standard 
        adopted by DHS in February 2004.

    In FY 2006, the Standards Program plans to:

        <bullet>  Continue to maintain and improve the process by which 
        homeland security standards are developed and promulgated at 
        the federal level. Incorporate the appropriate conformity 
        assessment program development into the standards development 
        process. Maintain and update the homeland security standards 
        database available to the homeland security community.

        <bullet>  Continue to utilize interagency working groups to re-
        evaluate requirements and prioritize needs for CBRNE 
        countermeasures standards. Focus on developing sampling 
        protocols and guidelines and standardized sample triage methods 
        for CBRNE countermeasures. Focus on standards for emerging 
        CBRNE countermeasures technologies including CBRNE point 
        detectors; CBRNE stand off detectors and urban surveillance 
        technologies such as BioWatch, CBRNE facility monitors, and 
        water distribution monitors. Continue programs to address 
        multimodal biometrics, latent fingerprints, rapid biometric 
        evaluations, and biometric image and feature quality. Also 
        explore and evaluate ergonomics, human factors, and usability 
        issues of biometric sensors, software, and systems.

        <bullet>  Continue with the completion of a standard guide for 
        building event dispersion and health assessment preparedness 
        and response planning and the standard guide for conducting 
        emergency preparedness drills and exercises.

        <bullet>  Continue current CBRNE personal protective and 
        operational equipment specifically focusing on completing the 
        suite of respiratory protection equipment standards to include 
        powered air purifying respirators, closed-circuit self 
        contained breathing apparatus, supplied air respirators and 
        combination respirators.

Support to Department of Homeland Security Components

    As I have mentioned, the operational components of the Department 
are my customers.
    To ensure we meet customer needs, the S&T Directorate has 
established the Science and Technology Requirements Council (SRC) to 
bring forward a set of vetted needs from the entire Department. This is 
an Assistant Secretary level committee with representation from across 
DHS that has been chartered to assist in the solicitation, validation, 
and prioritization of all science and technology requirements. This 
council is intended to help the S&T Directorate identify those needs 
most crucial to the DHS mission and to develop the most effective S&T 
program possible using existing resources. As part of their mission, 
the SRC reviews DHS operational requirements and needed capabilities 
that require S&T solutions, and identifies those opportunities that 
have cross-cutting technology solutions. Prioritized Departmental needs 
are then presented to me as a recommendation for consideration, in 
conjunction with all externally derived S&T requirements (e.g., 
statutory, national guidance), for inclusion in the S&T Directorate's 
Planning, Programming, and Budgeting Cycle Guidance.
    The inaugural meeting of the SRC took place September 30, 2004, and 
was attended by representatives from Border and Transportation Security 
(BTS), Emergency Preparedness and Response (EP&R), Information Analysis 
and Infrastructure Protection (IAIP), the Office of Domestic 
Preparedness (ODP), U.S. Citizenship and Immigration Service (CIS), 
U.S. Coast Guard (USCG) and U.S. Secret Service (USSS). Our initial 
meeting resulted in new requirements and a validation of the needs that 
our portfolios had already identified through their interactions with 
the rest of the Department. It further served to bring together the 
many disparate groups from across DHS and facilitated a new dialogue 
that will be necessary to produce a successful S&T RDT&E program. The 
input we received at the September 30, 2004, meeting was used to adjust 
the FY 2006 budget request and is currently being integrated into our 
FY 2007-2011 Planning, Programming and Budgeting cycle.
    I will now address the specific programs being conducted by our 
mission support portfolios.

Support to Border and Transportation Security

    The Science and Technology Directorate supports all elements of BTS 
enforcement and facilitation processes through identifying operational 
requirements, developing mission capabilities-based technological 
needs, and implementing a strategic plan. We are providing systems 
engineering support to various BTS programs including US VISIT and 
Unmanned Aerial Vehicles.
    The Science and Technology Directorate's support to the BTS 
Directorate is accomplished by implementing a capabilities-based 
technology planning process. The capabilities-based approach 
establishes the scope of effort and framework for a technology plan. 
Through a series of user conferences and technology opportunity 
conferences, requirements are developed and prioritized for new and 
improved capabilities. Operational personnel identify capabilities and 
technology personnel identify potential development opportunities. 
Capability gaps and possible technology solutions are proposed, and a 
budget is developed to distinguish between both funded and unfunded 
needs.
    The Science & Technology Directorate, in collaboration with BTS, 
co-chairs the Department's Unmanned Aerial Vehicle (UAV) Working Group. 
This group is currently focused on developing the Border and 
Transportation Security operational requirements for UAVs and related 
technologies, e.g., aerostats, blimps, lighter than air (LTA) ships, 
and fixed and mobile towers. The UAV Working Group has identified the 
following six BTS capability objectives that could benefit from the 
utilization of UAVs:

        <bullet>  surveillance and monitoring

        <bullet>  communications

        <bullet>  apprehension

        <bullet>  targeting

        <bullet>  intelligence

        <bullet>  deterrence

        <bullet>  officer safety

    Based on these high-level requirements, the Science and Technology 
Directorate is developing concepts of operations and assumptions that 
will be used in conducting an Analysis of Alternatives that will 
include UAVs as well as other technologies.

        <bullet>  Over the past two years, the Science & Technology 
        Directorate has sponsored two major evaluations of Unmanned 
        Aerial Vehicle (UAV) technology as part of the Arizona Border 
        Control Initiative.

    In FY 2004 and FY 2005, the Border and Transportation Security R&D 
portfolio:

        <bullet>  Issued a solicitation for an Advanced Container 
        Security Device to develop and field test (within the 
        Directorate's CounterMeasures Test Bed) the next generation of 
        shipping container security devices, building on the current 
        efforts through Operation Safe Commerce as well as current 
        Border and Transportation Security policy efforts to develop 
        and implement performance requirements for container security. 
        The Advanced Container Security Device program is part of a 
        ``Future Smart Container'' initiative encompassing container 
        security, communications, and data systems for the future.

        <bullet>  Supported the BTS Directorate in putting technology 
        in the field to support the Arizona Border Control Initiative. 
        The portfolio demonstrated other technologies such as a long-
        range acoustic device that allows agents to communicate from a 
        safer standoff distance to determine the intent of people.

        <bullet>  Continued development and refinement of BTS 
        technology requirements and planning. Using a capabilities-
        based process, the portfolio's goal was to ensure that federal 
        technology planners understood the capabilities that BTS agents 
        and officers view as essential for mission success and to help 
        planners focus technology development on filling the identified 
        gaps in those capabilities.

        <bullet>  Developed the BTS Technology Vision which include 
        Border Watch, Transportation Watch and Border Net which 
        significantly improves our ability to provide the information 
        necessary to secure our borders. The foundation of the vision 
        is an architecture and a set of technology programs that will 
        gather, process and distribute real-time knowledge of the 
        border and transportation situation and provide decision 
        support tools and labor saving devices for our security forces.

    In FY 2006, the Border and Transportation Security R&D portfolio 
plans to:

        <bullet>  Build on the sensor trade studies and modeling 
        conducted in FY 2005 to develop and test advanced sensor suites 
        including improved visual and non-visual sensors (video, 
        infrared, seismic, acoustic and radar). These sensors may be 
        deployed on the ground, at sea, and in the air. In addition, 
        evaluate data produced by Ports-of-Entry (POE) inspectors, such 
        as traffic and incident information, along with data produced 
        by border inspection systems will be evaluated as part of the 
        surveillance system.

        <bullet>  Build on the design and development effort 
        accomplished in FY 2005 on the next generation of container 
        security and communications systems to detect intrusion, 
        location, contents and tampering. The requirements for this 
        system include recording and reporting location; detection of 
        intrusion and communication of log history, and sensor and 
        inspection data.

        <bullet>  Integrate Transportation Watch capabilities across 
        the transportation domains enabling a Common Operational 
        Picture (COP) across the entire transportation environment. 
        Extensive data sharing, including the ability to discover links 
        in criminal or suspicious activities across domains will be a 
        key requirement to providing an effective Transportation COP.

        <bullet>  Initiate development and integration of smart portals 
        and sensors for detection of explosive threats to shipping. 
        Utilize rapid prototyping processes, focusing initially on 
        passenger and vehicle ferries.

        <bullet>  Define system architecture that fully supports the 
        Border Watch Common Operational Picture with multi-modal access 
        to essential databases, remote communications and intelligence 
        fusion.

Support to Emergency Preparedness and Response

    The S&T Directorate's Emergency Preparedness and Response (EP&R) 
portfolio supports the Department's EP&R Directorate with a mission to 
improve the ability of the Nation to prepare for, respond to, and 
recover from all-hazards emergencies through development and deployment 
of enabling capabilities. Particular emphasis is placed on technology 
integration at all levels of government, detection and monitoring 
systems for chemical, biological, radiological, nuclear and explosive 
(CBRNE) threats, and long-term sustained performance and inter-
operability enhancement of State and local preparedness. The most 
important customers of EP&R technologies are the federal, State and 
local emergency responders and emergency managers who are first into an 
emergency zone and often last to leave. Specific objectives of the 
portfolio are to:

        <bullet>  Identify and develop relevant technology solutions 
        through partnerships with operational end-users;

        <bullet>  Integrate advance all-hazards technology into 
        federal, State, and local emergency response infrastructures; 
        and

        <bullet>  Provide scientific and technology leadership for 
        implementation of HSPD-5 (Management of Domestic Incidents) and 
        HSPD-8 (National Preparedness) efforts.

    In FY 2004 and FY 2005, the Emergency Preparedness and Response R&D 
portfolio:

        <bullet>  Initiated operation of the Interagency Modeling and 
        Atmospheric Assessment Center (IMAAC) and supported the 
        National Exercise Program and special events, such as the 
        Democratic and Republican National Conventions. IMAAC 
        established connectivity to the Department of Homeland Security 
        Operations Center and the FEMA National Emergency Operations 
        Center to provide near real time hazards predictions for 
        airborne releases.

        <bullet>  Selected four urban areas for the pilot of the 
        Regional Technology Integration (RTI) Initiative. These 
        locations provide an opportunity to evaluate geographic and 
        governance diversity as well as variability in threats and 
        vulnerabilities. Initiated an integrated assessment process in 
        collaboration with these communities.

        <bullet>  Focused activities on the identification of 
        simulation based training and education requirements through 
        interaction with the responder community. The portfolio 
        leveraged the work initiated by Office of Domestic Preparedness 
        and the Memorial Institute for the Prevention of Terrorism, the 
        National Institute of Justice and the Department of Defense in 
        identifying needs and gaps as well as existing technology 
        development programs that can be utilized for incident 
        management training

    In FY 2006, the Emergency Preparedness and Response R&D portfolio 
plans to:

        <bullet>  Leverage federal resources to provide dynamic venue 
        for collaborative research, development, testing and evaluation 
        of atmospheric transport and dispersion (ATD) models for 
        hazards predictions. IMAAC will host researchers from 
        throughout the Nation at its facility as well as participate in 
        virtual collaboration both nationally and internationally.

        <bullet>  Complete implementation of technology systems 
        solutions for the first four pilot locations of the RTI 
        initiative; prepare test and evaluation plans and conduct 
        operational readiness exercises to evaluate the overall system 
        performance.

        <bullet>  Develop the system requirements that support 
        national, inter-operable simulation based training and 
        exercise. This capability will focus on large scale, multi-
        jurisdictional incidents and will facilitate the implementation 
        of the National Incident Management System and the National 
        Preparedness Goal.

        <bullet>  Demonstrate several revolutionary and highly 
        innovative materials for emergency personal protective 
        equipment (PPE) applications. Demonstrate prototype material/
        technologies that can that can be made into functional garments 
        and/or integrated personal protective systems will be 
        demonstrated.

        <bullet>  Initiate an Advanced Concept Technology Demonstration 
        of a candidate Unified Incident Command (UIC) architecture that 
        will achieve revolutionary advances in Unified Incident Command 
        and Decision Support and bring analytical tools to bear on 
        real-time information in-flows and out-flows for incident 
        commanders and emergency responders. Advanced capability will 
        be applicable to a variety of response paradigms, including 
        single incidents, multiple simultaneous incidents, long 
        duration response and recovery operations, and large-scale 
        public health events.

Support to United States Coast Guard

    The mission of the United States Coast Guard (USCG) R&D portfolio 
is to develop technology and systems to provide the capability to 
safeguard lives, property and environment from intentional and 
accidental maritime threats and protect maritime mobility through the 
free flow of goods and people while maximizing the recreational use of 
the Nation's waterways.
    The USCG R&D portfolio covers the Homeland Security (HLS) and Non-
HLS missions performed by Coast Guard operational forces. HLS 
priorities include research programs that address a defense in depth, 
or layered approach, to Maritime Domain Awareness, Prevention/
Protection, Response and the management, analysis and distribution of 
information, (e.g., Sea Guardian, Coastal Shield, Port Protector and 
Smart Commander). Similarly, USCG non-HLS mission research needs (e.g., 
Search & Rescue, Maritime Oil Spill Response, Aquatic Nuisance Species, 
Waterways Navigation, etc.) are addressed through programs like Safe 
Voyage, Clean Sweep, ANS Eradicator and Able Navigator. Together these 
programs support the five Strategic Goals of the USCG (Maritime Safety, 
Protection of Natural Resources, Maritime Security, National Defense, 
and Maritime Mobility).
    The USCG portfolio expects in FY 2006 to see the continuation of 
HLS mission research in the following areas:

        <bullet>  Situational Awareness for Maritime Domain Awareness--
        develop automated classification and prediction capability for 
        vessel intent with a port area.

        <bullet>  Compel Compliance--field new capability to 
        communicate and stop at-sea small prop-driven vessels and in 
        port swimmers/divers.

        <bullet>  Boarding Capability--improve space accountability for 
        non-ferrous vessels.

        <bullet>  Personnel Alerting and Contraband Detection and 
        Identification--adapt breakthrough. Technologies in CBRNE 
        countermeasures for the maritime environment.

    For non-HLS mission support, this portfolio will continue to place 
its highest priorities on high-risk, high-reward research and 
development relevant to the Coast Guard's traditional mission set that 
might not otherwise be addressed in order to enhance operational 
components within the Coast Guard. Non-HLS mission support will address 
Coast Guard Strategic Goals (i.e., Maritime Safety, Security and 
Mobility, and Protection of Natural Resources) through RDT&E efforts 
that will provide increased knowledge, capability and performance 
improvements in the following areas:

        <bullet>  Aquatic Nuisance Species Eradication: non-invasive 
        treatment of ballast water;

        <bullet>  Oil Spill Detection & Response: fielding of new 
        technology, equipment and devices to detect subsurface and 
        submerged (heavy) oils from standoff distances;

        <bullet>  Rapid Hazardous Material (HAZMAT) Response 
        Information: evaluate airborne detection capability for heavy 
        oil spills and identify Commercial-off-the-Shelf (COTS) 
        technologies for HAZMAT identification by USCG inspection 
        personnel; and

        <bullet>  Search & Rescue: incorporate environmental/
        meteorological data into CODAR improving current analysis and 
        short-term forecasting for target movement and search area 
        predictions; develop improved Last Known Position estimators in 
        support of USCG Search Area Planners resulting in reduced 
        search areas and increasing survivability of persons lost at 
        sea.

Support to the United States Secret Service

    The mission of the United States Secret Service (USSS) portfolio of 
the S&T Directorate is intended to support the unique USSS mission by 
development and deployment of advanced technologies to enhance 
protective and investigative capabilities. This portfolio is 
coordinated with the United States Secret Service and has established 
its first direct-funded R&D program. The USSS portfolio effort focuses 
upon input from the intelligence community (threat based model) and 
direct operational experience obtained over the last century. As a 
result, this funded technology program is subject to re-evaluation and 
change based upon the perceived threats to the safety of those 
protected by the USSS.
    In 2004, the portfolio addressed four projects/programs. The 
Emerging Threats Program supports the Secret Service's continuing, 
comprehensive assessments of emerging threats and evolving technologies 
that pose a threat to dignitaries and assets protected by USSS 
personnel. The Law Enforcement Virtual-Reality Training Model program 
supports prototyping and deployment of a law enforcement security-
oriented simulation training system for the USSS-specific training and 
modeling. Additionally, this system will enhance the effectiveness of 
emergency responders during actual events. The Critical Structure 
Protective Initiative (CSPI) program will ensure continued research and 
development of network protection systems and procedures designed to 
mitigate exploitation of site-specific ``Very Large Scale Integration'' 
(VLSI) control architectures. The Wireless Tracking Device program 
supports development of a handheld, man-portable wireless tracking 
device for locating operators of wireless communication device(s) in 
difficult radio frequency environments such as an office building or 
event stadium.
    In FY 2006, the U.S. Secret Service Portfolio plans to continue 
development of appropriate escape hood technology, begin the 
development of a mobile platform that will be required to detect, 
exploit, and defend against covert and overt electronic surveillance 
systems, continue (given a successful proof of concept in FY 2005) with 
the development of a ubiquitous mobile computing system that would 
allow secure wireless networked communication between unlike devices 
with high fidelity data transmission; and initiate an Optical & 
Chemical Tagging/Tracking Project under this program. This project's 
objective will be the development of optical and chemical tags that are 
robust and covertly deployable.

Homeland Security University and Fellowship Programs

    In this portfolio we seek to develop a broad research capability 
within the Nation's universities to address scientific and 
technological issues related to homeland security. The portfolio places 
a high priority on developing academic programs and supporting students 
in order to build learning and research environments in key areas of 
Departmental interest.
    In FY 2004, the Homeland Security University Programs established 
three Centers of Excellence:

        <bullet>  The Center for Risk and Economic Analysis of 
        Terrorism Events, at the University of Southern California and 
        its partners will receive $12 million over three years to 
        evaluate the risks, costs and consequences of terrorism and to 
        guide economically viable investments in countermeasures.

        <bullet>  The National Center for Foreign Animal and Zoonotic 
        Disease Defense at Texas A&M and its partners will receive $18 
        million over three years to address potential threats to animal 
        agriculture including Foot and Mouth Disease, Rift Valley 
        fever, Avian influenza and Brucellosis. In addition to working 
        closely with industry and government, they will work with DHS's 
        Plum Island Animal Disease Center.

        <bullet>  The National Center for Food Protection and Defense 
        at the University of Minnesota and its partners will receive 
        $15 million over three years to establish best practices and 
        attract new researchers to manage and respond to food 
        contamination events, both intentional and naturally occurring.

    In FY 2005, DHS announced the selection of the University of 
Maryland (UMD) and its partners as the Center for Behavioral and Social 
Research on Terrorism and Counter-Terrorism. This Center will be funded 
at $12 million for three years following contract award
    During late FY 2005 and early FY 2006, the S&T Directorate expects 
to establish at least three additional Centers of Excellence. Each 
Center is awarded an initial three-year grant whose annual cost we 
account for in our planning.
    As part of the Department's mission to maximize collaboration with 
other federal agencies, University Programs and EPA's Science to 
Achieve Results (STAR) Program have collaborated on the topic of 
microbial risk assessment. The DHS-EPA cooperative Center on Microbial 
Risk Assessment will result in one five-year grant to a university-
based consortium will be jointly funded by both agencies for a total of 
$10 million.
    Last fall, University Programs selected approximately100 students 
for the 2004 class of DHS Scholars and Fellows bringing the total of 
students to about 200. Students from the 2003 and 2004 class 
participated in a DHS orientation for the purpose of learning about DHS 
mission objectives, the critical research needs, and meeting scientists 
from DHS laboratories, Centers of Excellence and DOE national 
laboratories. Students from both classes are attending 93 institutions 
(including Historically Black Colleges and Universities/Minority 
Serving Institutions) in 38 states and the District of Columbia. 
Seventeen of the institutions are located in Experimental Program to 
Stimulate Competitive Research (EPSCoR) states. Besides making 
immediate contributions to homeland security-related R&D, these 
students will be part of the development of a broad research capability 
within the Nation's universities to address scientific and 
technological issues related to homeland security.
    Beginning in FY 2006, the steady state of up to 300 highly talented 
and diverse students will be maintained.

Emerging Threats

    It is truly the threats we do not yet know that are often the most 
terrifying. Our Emerging Threats portfolio addresses the dynamic nature 
of terrorist threats, as science and technology advancements enable new 
agents of harm and new ways to employ them. This portfolio places high 
priority on developing the capability to use innovative, crosscutting, 
out-of-the-box approaches for anticipating and responding to new and 
emerging threats. Successful identification of emerging threats will 
permit capabilities to be developed to thwart these emerging threats 
before they are used.
    Relevant R&D is underway at other agencies and organizations; thus, 
partnerships in this area hold great potential for synergistic focus on 
homeland security. Work is being done and will continue to be pursued 
in partnership with the Departments of Energy, Defense, Justice, and 
Agriculture, the intelligence community, and the National Institutes of 
Health.
    In FY 2004 and 2005, the Emerging Threats portfolio:

        <bullet>  Established informal partnerships with the 
        intelligence community and with the USSS portfolio to leverage 
        ongoing activities in support of over-the-horizon assessment.

        <bullet>  Initiated efforts, in combination with Rapid 
        Prototyping, in both near-term and breakthrough solutions to 
        homeland security issues. Near-term projects are funded out of 
        the Rapid Prototyping Portfolio. Breakthrough projects are 
        funded from the Emerging Threats Portfolio.

        <bullet>  Held a privacy protection workshop in which the 
        technical and policy communities interacted to identify 
        important technical challenges and high impact solution areas. 
        Information from this workshop will form the basis of upcoming 
        programs in this area.

        <bullet>  Analyzed multiple radar technologies and other 
        surveillance strategies to determine which combination of 
        technologies would best support coastal surveillance by the 
        USCG.

        <bullet>  Conducted three sensitive projects, two in 
        collaboration with the USSS and one addressing a critical 
        infrastructure.

        <bullet>  Sponsored studies at the Homeland Security Institute 
        to identify threat and technology trends and develop a 
        framework for analyzing emerging and future threats to homeland 
        security.

    In FY 2006, the Emerging Threats portfolio plans to:

        <bullet>  Sponsor comprehensive assessments to identify and 
        prioritize emerging threats. The outcomes of the assessments 
        lead the strategic programs to integrate multiple disciplines 
        and threat scenarios and comprehensively use intelligence-based 
        information to establish organizational foresight.

        <bullet>  Fund research dedicated to long-term, undefined 
        threats as a means to exercise technology influence in the 
        marketplace and build infrastructure to incentivize non-
        requirements driven, high-risk, high-payoff R&D, thereby 
        promoting technology push and collaboration to solve otherwise 
        intractable problems.

        <bullet>  Complete development of projects initiated in FY 
        2005, and test and evaluate the products from these projects. 
        Develop technologies and systems against emerging threats 
        identified as a result of FY 2005 emerging threats analysis.

Rapid Prototyping

    By accelerating the time needed to develop and commercialize 
relevant technologies, the Science and Technology Directorate will 
ensure that operational end-users will be better able to prevent 
terrorist attacks, reduce the Nation's vulnerability, and minimize the 
damage and assist in recovery if attacks occur. Our Rapid Prototyping 
portfolio advances the Directorate's mission to conduct, stimulate and 
enable RDT&E and timely transition of homeland security capabilities to 
federal, State and local operational end-users.
    In FY 2004 and FY 2005, the Rapid Prototyping portfolio:

        <bullet>  Solicited ideas, concepts and technologies for 50 
        requirement areas of interest to both the Department and other 
        agencies. Initiated efforts to address chemical and biological 
        threats, explosive detection, training technology tools, 
        improvised nuclear device defeat, and investigative and 
        forensic support topics.

        <bullet>  Developed a joint port and coastal surveillance 
        prototype designated HAWKEYE with the United States Coast Guard 
        (USCG) that provides an integrated maritime surveillance system 
        covering Port Everglades, Miami, and Key West, Florida. This 
        first-of-its-kind integrated command center and maritime 
        surveillance facility opened in July 2004.

        <bullet>  Initiated the implementation of the Technology 
        Clearinghouse as required in the Homeland Security Act of 2002. 
        This clearinghouse serves as the central nexus to the public 
        safety and first responder community on: (1) Information 
        services supporting access to, and dissemination of, 
        information regarding innovative technologies serving the DHS 
        mission; (2) Resources designed to support the collaborative 
        needs of teams serving the mission of DHS; and (3) Technology 
        programs and resources themselves, designed to serve the 
        mission of DHS and distributed via a central DHS mechanism.

    In FY 2006, the Rapid Prototyping portfolio plans to:

        <bullet>  Transition mature programs from the development phase 
        to operational testing and evaluation programs and commercial 
        or government entities for deployment. Identify new technology 
        candidates and capabilities to meet the existing and emergent 
        technical requirements of the Department.

        <bullet>  Continue support of the Technology Clearinghouse in 
        FY 2006 and continue to fund projects initiated under the Near 
        Term and Future Technologies solicitation released in FY 2004.

        <bullet>  Complete the development of projects, within the 
        Support to State and Local Responders project, initiated in FY 
        2005, and test and evaluate the products from these projects.

Counter-MANPADS

    The Counter-MANPADS program is focused on demonstrating the 
viability, economic costs, and effectiveness of adapting existing 
military technology to protect commercial aircraft from the threat of 
Man Portable Air Defense Systems (MANPADS). The major thrust of this 
program is to demonstrate and evaluate the possible migration of 
existing technologies to the commercial airline industry, not to 
develop new technologies. The resulting countermeasure systems must 
have minimal impact on air carrier and airport operations, maintenance, 
and support activities. The re-engineering of existing countermeasure 
technologies and components is necessary to meet commercial air carrier 
operation requirements, including protection of critical military 
technology. The program balances cost, schedule, and performance with 
the needs and requirements of the aviation community stakeholders. Upon 
completion of a two-phase analysis, prototype and testing program, DHS 
will provide the Administration and Congress with a recommendation for 
the most viable solution to defend against shoulder-fired missiles.
    To mature the reliability of the underlying military technology to 
commercial standards, validate system effectiveness and suitability in 
an operational environment, and to develop and implement a 
comprehensive approach to technology protection, a follow-on Phase III 
has been planned. Phase III will include delivery and installation of 
pre-production Counter-MANPADS equipment on commercially operated 
aircraft by U.S. cargo carriers similar to those aircraft dedicated to 
meet Civil Reserve Air Fleet (CRAF) requirements. This will integrate a 
limited number of systems on multiple airframes in actual revenue 
service across the different carriers for the purpose of operational 
testing and evaluation, data collection, and the certification of a 
number of different aircraft types. Phase III remains subject to 
approval by the Administration and Congress.
    In FY 2004 and FY 2005, the Counter-MANPADS program:

        <bullet>  Initiated and completed Phase I following a 
        competitive bidding process. DHS awarded Other Transaction (OT) 
        for Prototype Agreements (OTA) to three companies--BAE Systems, 
        Northrop Grumman, and United Airlines--for Phase I of a two-
        year System Development and Demonstration (SD&D) effort. The 
        contractors focused on proving the feasibility of migrating 
        existing DOD technology into the commercial sector and 
        exploring other technology as appropriate. Following 
        Preliminary Design Reviews with all three companies in July 
        2004, the Phase I portion of the twenty-four month SD&D effort 
        concluded and DHS initiated a selection evaluation process to 
        determine which of the three companies would be selected to 
        further mature their preliminary designs, build representative 
        prototypes, install them on aircraft, and conduct formal 
        testing during the Phase II eighteen month effort.

        <bullet>  Involved the stakeholder community beginning in FY 
        2004. In late 2004, the Program Office hosted a Stakeholders' 
        Meeting, attended by representatives of the airlines, the 
        equipment manufacturers, and other affected sectors, including 
        representatives of multiple Federal Government Departments and 
        Agencies.

    In FY 2006, the Counter-MANPADS program plans to:

        <bullet>  Build, deliver, install, and fly pre-production 
        Counter-MANPADS equipment on commercially-operated aircraft by 
        U.S. cargo carriers similar to those aircraft used for the 
        Civil Reserve Air Fleet (CRAF) operations.

        <bullet>  Conduct operational testing and evaluation and data 
        collection on multiple aircraft types to capture operational 
        and maintenance costs as well as technical performance and 
        reliability data in a commercial operational environment.

        <bullet>  Modify Phase II systems to incorporate new design 
        requirements including reliability, technology protection, and 
        emergency ground notification improvements based on test and 
        evaluation results.

        <bullet>  Examine maintaining two contractors in Phase III to 
        foster competition, and to promote manufacturing should a full-
        rate decision be made.

        <bullet>  Conduct an aggressive reliability growth effort to 
        increase system reliability to 3000 hours and reduce recurring 
        support costs.

        <bullet>  During FY 2006, conduct Live-Fire Test and Evaluation 
        assessment.

        <bullet>  Continue on-going dialogues with Original Equipment 
        Manufacturers (OEM) such as Boeing and Airbus and conduct 
        studies to scope the effort required to include provisions for 
        Counter-MANPADS systems on future production aircraft.

        <bullet>  Pursue Federal Aviation Administration certification 
        for additional aircraft types/models/series not addressed in 
        Phase II.

Office of SAFETY Act Implementation

    The mission of the Office of SAFETY Act Implementation (OSAI) is to 
evaluate technologies submitted to it by applicants in accordance with 
the criteria set forth in the Support Anti-terrorism by Fostering 
Effective Technologies Act of 2002 (SAFETY Act) and Interim 
Regulations. As part of the Homeland Security Act of 2002, Public Law 
107-296, Congress enacted the SAFETY Act to provide ``risk management'' 
and ``litigation management'' protections for sellers of qualified 
anti-terrorism technologies. The purpose of the Act is to encourage the 
development and deployment of anti-terrorism technologies (ATT) that 
will substantially enhance the protection of the Nation. Specifically, 
the SAFETY Act creates certain liability limitations for ``claims 
arising out of, relating to, or resulting from an act of terrorism'' 
where qualified anti-terrorism technologies have been deployed.
    Although there are many technologies that are important to 
protecting our homeland, the SAFETY Act Designation and Certification 
are designed to support effective technologies aimed at preventing, 
detecting, identifying, or deterring acts of terrorism, or limiting the 
harm that such acts might otherwise cause, and which also meet other 
prescribed criteria.
    OSAI evaluations are designed to generate advice to the Under 
Secretary on the appropriateness of granting protections under the 
SAFETY Act. In support of this mission, OSAI undertakes efforts to 
raise public awareness of the benefits of the protections available 
under the SAFETY Act. In addition, OSAI coordinates its process with 
other offices within DHS and other federal agencies to both support 
those offices in their missions and to minimize the burden on 
applicants for SAFETY Act protections.
    The Department moved quickly to create OSAI. In July 2003, a notice 
of proposed rulemaking was published for comment, and on October 16, 
2003, an interim rule was published with a request for public comments, 
thus implementing the program. Facilities to house the program were 
selected and OSAI has identified and entered into agreements with the 
lead implementation contractor and lead web site development/management 
contactor. OSAI designed and implemented a web-based application kit 
and process with an interactive help desk. OSAI executed a robust 
outreach program to introduce the industry to the SAFETY Act program 
and to encourage its participation. OSAI has received and has responded 
to 72 full applications and 166 pre-applications. Four applicants have 
been awarded SAFETY Act designation and certification: Northrop 
Grumman; Michael Stapleton Associates; Teledyne Brown Engineering; and 
Lockheed Martin.
    The Office intends to refine its operations throughout FY 2005. 
OSAI, in consultation with the Department's Office of the General 
Counsel, has been revising the Interim Rule based on the comments 
received from the public and our experiences with applicants over the 
past year. OSAI will revise the application kit to make it clearer and 
more user-friendly, and will work to streamline the process based on 
lessons learned from the previous year. The number of applications is 
expected to increase significantly with the introduction of the revised 
kit, implementation of the Final Rule, and higher visibility.
    In FY 2006, OSAI plans to expand its coordination of the program 
with pending federal, State, and local procurements. It also plans to 
work with recognized procurement organizations and appropriate industry 
associations to educate them on the availability of SAFETY Act 
protections to potential vendors.

Office of Inter-operability and Compatibility

    The Office of Inter-operability and Compatibility (OIC), managed by 
the S&T Directorate, was tasked to lead the planning and implementation 
efforts in coordination with other DHS programs. It oversees the wide 
range of public safety inter-operability programs and efforts currently 
spread across Homeland Security. These programs address critical inter-
operability issues relating to public safety and emergency response, 
including communications, equipment, training, and other areas as needs 
are identified.
    Creating inter-operability requires coordination and partnerships 
among managers, partners, and stakeholders at all levels of government. 
OIC will establish partnerships with all relevant offices and agencies 
to ensure that the programs address all possible issues related to 
public safety inter-operability and compatibility. These partners and 
additional relevant stakeholders include representatives from the 
emergency response providers represented by their national 
associations, State and local government agencies, DHS and other 
Federal Government agencies, standards development organizations, and 
industry.
    Since October 2004, the OIC has interviewed key stakeholders across 
federal and practitioner communities to validate findings, uncover 
additional inter-operability initiatives, and determine key issues for 
first response; identified a core group of federal programs that test 
and evaluate first responder equipment; began developing a plan to 
establish a Joint Evaluation and Testing Program to coordinate with 
other federal agencies; and conducted an initial scan of existing 
programs for first responders and collected information at the local, 
State, and federal levels.

Critical Infrastructure Protection Portfolio

    The Science and Technology Directorate's Critical Infrastructure 
Protection (CIP) portfolio protects the Nation's critical 
infrastructure and key assets from acts of terrorism, natural 
disasters, or other emergencies by developing and deploying tools to 
anticipate, identify and analyze risks, and systems to reduce those 
risks and the consequences of an event. The portfolio puts a focus on 
scientific prioritization of components of critical infrastructure and 
key resources/assets and partners with other organizations to catalyze 
development of critical infrastructure protection technologies.
    In FY 2004 and FY 2005, the Critical Infrastructure Protection R&D 
portfolio:

        <bullet>  Developed a CIP Decision Support System (DSS) focused 
        on prioritizing investment, protection, mitigation, response, 
        and recovery strategies related to Critical Infrastructure 
        Protection. The prototype model includes representation of all 
        14 critical infrastructure sectors, as outlined in the National 
        Strategy for the Protection of Critical Infrastructures and Key 
        Assets, as well as their interdependencies. Preliminary test 
        cases have been used to develop consequence estimation features 
        of the CIP-DSS at both national and metropolitan scales.

        <bullet>  Initiated a system study to find potential solutions 
        for personnel surety for security guards that guard our 
        nation's Critical Infrastructure, as well as insiders with 
        access to sensitive areas of, or information about the 
        infrastructure.

        <bullet>  Supported a System Study for Municipal Domestic Water 
        Security, along with the Biological Countermeasures Portfolio, 
        Chemical Countermeasures Portfolio, and Radiological/Nuclear 
        Countermeasures Portfolio.

        <bullet>  Initiated interagency development of the first annual 
        National Critical Infrastructure Protection R&D Plan using the 
        Infrastructure Subcommittee of the National Science and 
        Technology Council.

        <bullet>  Initiated cooperative and collaborative research and 
        development project with the Kentucky Homeland Security 
        University Consortium comprised of the University of Kentucky, 
        the University of Louisville, Eastern Kentucky University, 
        Western Kentucky University, Northern Kentucky University, 
        Morehead State University, Murray State University, Kentucky 
        State University and the Kentucky Community & Technical College 
        System.

    In FY 2006, the Critical Infrastructure Protection R&D portfolio 
plans to:

        <bullet>  Incorporate a fully parameterized metropolitan area 
        modeling capability into the CIP-DSS. Integrate adversary-
        defender constraint and information dynamics models into CIP-
        DSS. Add an enhanced threat spectrum capability to CIP-DSS and 
        complete pilot tests of the CIP-DSS in several State and 
        regional areas.

        <bullet>  Publish the National Academy Study on Security of the 
        Electrical Industry.

        <bullet>  Complete the quick-look system studies of all 14 
        Critical Infrastructures and Key Resources, and the end-to-end 
        System Study for Municipal Domestic Water Security.

        <bullet>  Deliver improved closed circuit TV (CCTV) components 
        for object identification and behavior recognition. Deliver an 
        enhanced threat detection CCTV system based on video image 
        understanding architecture, including the improved CCTV 
        components.

        <bullet>  Deliver the second annual National CIP R&D Plan with 
        agency budget information and a roadmap for deliverables. 
        Incorporate relevant inputs from: a) federal agencies including 
        activities, and levels of effort; b) critical infrastructure 
        sector owners and operators; and c) private and public research 
        institutions and universities.

Cyber Security R&D Portfolio

    The Cyber Security R&D Portfolio supports the mission of the 
Information Analysis and Infrastructure Protection Directorate and is 
focused on leading cyber security research, development; testing and 
evaluation endeavors to secure the Nation's critical information 
infrastructure through coordinated efforts that will improve the 
security of the existing cyber infrastructure, and provide a foundation 
for a more secure infrastructure. This will be accomplished by focusing 
on R&D aimed at preventing, protecting against, detecting, responding 
to, and recovering from large-scale, high-impact cyber attacks, 
supporting the development and accelerating the deployment and use of 
more secure Internet communication protocols, addressing cyber security 
R&D needs that are unique to critical infrastructure sectors, and 
provide novel and next-generation secure information technology 
concepts and architectures.
    In FY 2004 and FY 2005, the Cyber Security R&D portfolio:

        <bullet>  Initiated dialog aimed at international collaboration 
        on cyber security R&D with Canada, the United Kingdom, and 
        Japan. Interactions with the United Kingdom and Japan are at 
        early stages and have not yet reached the point where potential 
        joint R&D activities have been identified.

        <bullet>  Worked with federal researchers and officials and the 
        private sector to develop a roadmap to accelerate the 
        development and deployment of a secure domain name 
        infrastructure. Current work also includes the identification 
        of technology requirements and development of models to aid in 
        assessing the performance impact of utilizing Domain Name 
        System Security Extensions (DNSSEC) in operational 
        environments.

        <bullet>  Initiated a program to address different facets of 
        the need for improved methods for cyber security assessment and 
        testing, in order to provide a foundation for the long-term 
        goal of economically-informed risk-based cyber security 
        decision-making.

        <bullet>  Provide technical support funding through the 
        ``virtual'' Cyber Security R&D Center for the S&T Directorate 
        in pre-research activities (such as developing roadmaps, 
        organizing workshops and meetings, aiding in drafting research 
        solicitations and proposal review), as well as post-research 
        activities (such as facilitating pilot tests and exercises, 
        venture capital community outreach, private sector outreach, 
        and interfacing with non-government R&D communities).

    In FY 2006, the Cyber Security portfolio plans to:

        <bullet>  Continue to provide support to the Directorate 
        through the ``virtual'' Cyber Security R&D Center in pre-
        research activities and post-research activities. FY 2006 
        activities will have a significant focus on private sector and 
        venture capital community outreach.

        <bullet>  Initiate a new two-year R&D program phase, again 
        overlapping with the program started in FY 2005. As the FY 2004 
        program comes to a close in FY 2006, progress against the FY 
        2004 technical topic areas will be evaluated.

        <bullet>  Complete full-scale operational test bed, acquisition 
        and generation of network data sets, enhancement of remote 
        management and configuration capabilities, and a final project 
        report.

        <bullet>  Focus on system-level DNSSEC implementation, with the 
        development of software reference implementations for servers 
        and client applications, and planning for pilot deployments of 
        DNSSEC. Direct investments in the area of routing protocol 
        security at the development of a modeling and simulation 
        framework for impact assessment of secure routing protocols on 
        the Internet performance.

        <bullet>  Focus on pursuing partnerships that allow broader 
        non-government participation, accompanied by a greater role of 
        non-government organizations and funding sharing responsibility 
        for oversight and financial support for this capability.

R&D Consolidation

    Funds originally requested by the U.S. Coast Guard to support 
operations, maintenance and salaries for the assigned science staff for 
the Coast Guard Research and Development Center will be integrated into 
the Science and Technology Directorate mission space to support the 
continued operations and scientific activities at the Coast Guard 
Research and Development Center. Funds originally requested by the 
Customs and Border Protection (CBP) to support salaries for those 
assigned to the Research, Development, and Evaluation Branch will 
likewise be integrated into the S&T Directorate mission
    In FY 2006, DHS's Science and Technology Directorate will unite the 
RDT&E functions of the existing S&T explosives countermeasures 
portfolio along with those of the Transportation Security 
Administration program. The resulting integrated portfolio will then 
encompass and support the true objective of the explosives 
countermeasures technology program: to prevent, detect, respond, and 
mitigate the use of explosives in attacks against the population, mass 
transit, civil aviation, critical infrastructure and key assets. This 
consolidation allows for an expansion of the scope and number of 
programs within the explosives countermeasures portfolio in comparison 
to the current FY 2004 and FY 2005 and planned FY 2006 activities. 
Programs include explosives marking, smuggling, aviation security, 
suicide bomb interdiction, and vehicle bomb interdiction.

FY 2006 Science and Technology Directorate Initiatives

    The S&T budget request includes funding for a number of mission-
critical initiatives.

        <bullet>  National Bio and Agrodefense Facility [$23 million]

           The National Bio and Agrodefense Facility (NBAF) will extend 
        the capabilities of the National Biodefense Analysis and 
        Countermeasures Center (NBACC) for threat characterization, 
        forensics, and detection to defend both animal and public 
        health. Research, development, test and evaluation at the NBAF 
        will strengthen the Nation's ability to anticipate, prevent, 
        respond to, and recover from the intentional introduction of 
        high consequence biological threats, such as Foreign Animal 
        Diseases. The S&T Directorate will focus on developing and 
        testing the technical means to prevent attacks on agriculture 
        and humans and strengthening the capability to respond to an 
        attack, recover from an attack, reconstitute the agricultural 
        economy and infrastructure, and provide a means to identify the 
        bioterrorists and bring them to justice. The NBAF will enhance 
        situational awareness of the health of the American populace, 
        animals, plants, food supply, and environment, and result in 
        better informed decision-making and a quicker federal, State, 
        and local response to foreign animal and zoonotic diseases. The 
        capabilities provided by the NBAF meet the requirements of 
        HSPD-9 and HSPD-10. The National Bio and Agrodefense Facility 
        will ensure healthy livestock for the 21st century and protect 
        the public.

        <bullet>  Low Volatility Agent Warning System [$20 million]

           An additional $20 million is provided to develop the Low 
        Volatility Agent (LVA) Warning System, which will serve as the 
        basis for a warning and identification capability against a set 
        of chemical threat agents whose vapor pressure is sufficiently 
        low that detection by conventional approaches is exceptionally 
        difficult. This set of low volatility agents includes some of 
        the most toxic materials currently known. The Chemical 
        Countermeasures portfolio has initiated an effort to develop a 
        transportable capability for the detection of these materials 
        in a response and recovery mode. This R&D effort is referred to 
        as LVA Surface Contamination Monitor. The additional FY 2006 
        funding will be used to develop a protection-mode capability to 
        detect these materials upon release in specific environments. 
        This detect-to-warn system will alert the response system of 
        the imminent hazard and enable protection of potential victims 
        from exposure and permit application of prompt medical 
        countermeasures to minimize or eliminate casualties. This 
        system will be a network of detectors to provide a protect-to-
        warn capability for specific venues, such as high-value 
        buildings and transit systems. The LVA Warning System will both 
        detect and identify the agent to ensure correct medical 
        countermeasures are engaged.

        <bullet>  Radiological/Nuclear Countermeasures Test and 
        Evaluation Complex [$9 million]

           The Radiological/Nuclear Countermeasures Test and Evaluation 
        Complex (Rad/NucCTEC), part of the DNDO, will provide the 
        Nation with the necessary facilities and capabilities to 
        validate the performance of systems under development, and 
        already deployed, to protect the United States from the threat 
        of a terrorist radiological or nuclear attack. Located on the 
        Nevada Test Site, the Rad/NucCTEC will be a unique national 
        asset, permitting classified high-fidelity testing of 
        radiological/nuclear sensors and sensor systems utilizing 
        strategic quantities of special nuclear materials in realistic 
        configurations. The Rad/NucCTEC will provide the Nation with 
        the capacity to rapidly evaluate the performance of our current 
        and developing homeland defenses against validated threats, 
        using actual radiological and nuclear materials, for which no 
        facility currently exists.

        <bullet>  Counter-MAN Portable Air Defense Systems (C-MANPADS) 
        [$49 million]

           C-MANPADS' increase of $49 million plus $61 million of base 
        funding equal to a total funding level of $110 million in FY 
        2006. If deemed appropriate based on the Phase II results and 
        approval from Congress, the Counter-MANPADS Program will 
        initiate Phase III to include delivery and installation of pre-
        production Counter-MANPADS equipment on commercially operated 
        aircraft by U.S. cargo carriers similar to those aircraft 
        dedicated to meet the Civil Reserve Air Fleet (CRAF) 
        requirement. To foster competition, the additional funds will 
        be used to maintain two contractors in Phase III. In FY 2006, 
        each contractor will update its designs to incorporate new 
        design requirements including reliability improvements, 
        technology protection, and emergency ground notification. 
        Operational testing and evaluation will be performed on 
        multiple aircraft types to capture true operational and 
        maintenance costs as well as technical performance and 
        reliability data. In FY 2006, twenty operational aircraft will 
        be modified and sixteen Counter-MANPADS systems will be 
        procured to support reliability and test data collection and 
        critical technology protection measures. This information is 
        critical to further maturing the life cycle cost impact 
        analysis to the airlines, and the extensive reliability 
        analysis will be used to validate and improve system 
        reliability. Dialogue with Original Equipment Manufacturers 
        (OEM), such as Boeing and Airbus, will be initiated and studies 
        conducted to scope the effort required to include provisions 
        for Counter-MANPADS systems on future production aircraft. 
        Additionally, live fire test evaluations will provide insight 
        into the overall effectiveness of the system installed on 
        commercial aircraft. Finally, Federal Aviation Administration 
        (FAA) certification will be completed for additional relevant 
        aircraft types/models/series not addressed in Phase II.

        <bullet>  Research and Development Consolidation [$127.5 
        million] (67 FTE)

           The Transportation Security Administration (TSA), the United 
        States Coast Guard (USCG), the Bureau of Customs and Border 
        Protection (CBP) and the Information Analysis and 
        Infrastructure Protection (IAIP) will integrate their RDT&E 
        activities with those conducted within the Department of 
        Homeland Security's S&T Directorate. This consolidation will 
        bring the scientific and engineering personnel and other RDT&E 
        resources of the Department under a single accountable 
        authority. The S&T Directorate's vision for this RDT&E 
        integration will be to start the development and expansion of 
        collaborative relationships, foster and leverage an environment 
        of collective capabilities, maximize the efficiency and 
        effectiveness of the Department's RDT&E capacity as well as 
        develop and expand synergistic RDT&E programs that cut across 
        the Department's activities. Bringing RDT&E under the S&T 
        Directorate will allow the other organizational elements to 
        collaborate in the RDT&E integration and to focus on their 
        operational missions, and eliminate within them the specialized 
        management infrastructure required to manage RDT&E. The FY 2006 
        R&D Consolidation budget is $127,497,000 of which $10,600,000 
        is in support of 67 FTEs and $116,897,000 is for RDT&E.

    In addition to the RDT&E activities conducted at the portfolio 
level, the Science and Technology Directorate is committed to 
additional activities that both facilitate and enhance the research 
efforts of the portfolios. The Directorate places significant emphasis 
on its interfaces with other government agencies as well as the 
transfer of technology to other directorates and agencies.

Studies and Analysis

    The Homeland Security Science and Technology Advisory Committee 
(HSSTAC) and the Homeland Security Institute (HSI) constitute the major 
activities of Studies & Analysis. Both were established under the 
Homeland Security Act of 2002 to provide independent scientific & 
technical analytic expertise to the Department through the Under 
Secretary for Science and Technology. HSSTAC operates under the Federal 
Advisory Committee Act. HSI operates in accordance with regulations 
governing Federally Funded Research and Development Centers. By 
charter, each engages in substantial contact with other agencies, 
private sectors, and other entities to facilitate communication, 
identify issues, and bring the best advice to the Department and the 
Government.

The Homeland Security Science and Technology Advisory Committee 
                    (HSSTAC)

    The HSSTAC, established in November 2003, was chartered to be a 
source of independent scientific and technical planning advice for the 
Under Secretary for Science and Technology. It is solely advisory in 
nature and focuses on the responsibilities of the Under Secretary for 
Science and Technology to organize the Nation's scientific and 
technological resources to prevent or mitigate the effects of 
catastrophic terrorism against the United States; identify research 
areas of potential importance to the security of the Nation; assist in 
establishing mission goals for the future; advise on whether the 
policies, actions, management processes, and organization constructs of 
the Science and Technology Directorate are focused on mission 
objectives; advise on whether the research, development, test, 
evaluation, and systems engineering activities are properly resourced 
(capital, financial, and human) to accomplish the objectives; identify 
outreach activities; and, review the technical quality and relevance of 
the Directorate's programs.
    During the past year HSSTAC met, either in part or in whole, with 
the following:

        <bullet>  Port Authority of New York & New Jersey--To evaluate 
        the needs and operational requirements of the BioWatch and Rad/
        Nuc detection programs.

                <bullet>  Port Authority Police Department

                <bullet>  George Washington Bridge

                <bullet>  Holland Tunnel

                <bullet>  Howland Hook Marine Terminal

        <bullet>  NYC Office of Emergency Management--To meet with 
        senior leaders and gauge their assessment of the BioWatch 
        program

        <bullet>  NYC Public Health Laboratory--To observe the sample 
        testing phase of the BioWatch program.

        <bullet>  Department of Energy National Laboratories (Sandia 
        National Laboratory, Lawrence Livermore National Laboratory, 
        Pacific Northwest National Laboratory, Los Alamos National 
        Laboratory)--To learn about the various homeland security 
        technology capabilities found in the National Labs and discuss 
        with senior leaders how such laboratories can best serve the 
        Nation.

        <bullet>  Food & Drug Administration--The Acting Commissioner 
        and other senior leaders to assess how DHS and FDA determine 
        and implement respective roles and responsibilities regarding 
        disease detection.

        <bullet>  Department of Health and Human Services--Assistant 
        Secretary and senior staff from the Centers for Disease Control 
        to discuss how DHS and HHS determine and implement respective 
        roles and responsibilities regarding disease detection.

    Annual Report to Congress: The Committee's overarching conclusions 
are:

        <bullet>  The S&T Directorate has made notable progress in 
        organizing, establishing processes, establishing relationships 
        with other Department of Homeland Security (DHS) activities and 
        with the broader community relevant to homeland security.

        <bullet>  The Directorate's strategic planning process is 
        underway but needs staffing, clear intent and guidance, metrics 
        useful to set priorities, and methodologies for planning and 
        assessments.

        <bullet>  The Directorate has become the default operator of 
        some fielded systems; focusing on operating fielded systems 
        will divert both attention and resources needed to develop the 
        needed new and improved capabilities.

        <bullet>  The Directorate needs to focus on the needs of 
        multiple publics with distinctly different needs.

        <bullet>  A major objective of homeland security activities 
        should be to build public resiliency to a wide range of 
        possible attacks.

        <bullet>  Understanding a wide range of specific threats is 
        essential to understanding and addressing vulnerabilities to 
        potential disruptive assaults.

        <bullet>  To achieve the national goals in homeland security, 
        DHS needs to take the lead in fashioning a mechanism for 
        coordination and cooperation among the relevant federal 
        research and development (R&D) activities.

        <bullet>  A larger growth rate is needed to build programs, 
        infrastructure and capabilities.

        <bullet>  The S&T Directorate needs to define in some detail 
        what kind of relationship it believes is needed with the DOE 
        labs to meet DHS needs.

Homeland Security Institute

    The Homeland Security Institute is a Federally Funded Research and 
Development Center (FFRDC) operated and managed by Analytic Services 
Inc. to provide independent, objective studies and analyses to address 
critical homeland security issues, particularly those that require 
scientific, technical, business systems, and analytical expertise. The 
HSI is a strategic resource for the Department with the Under Secretary 
for Science and Technology (S&T) serving as primary sponsor on behalf 
of the Secretary. HSI programs crosscut DHS organizational lines and 
involve Coast Guard, BTS, EP&R, IAIP, as well as S&T Directorate 
components. In order to provide dedicated, multi-disciplinary, critical 
analysis and decision support capability for DHS department-wide, HSI 
engages other agencies and broader communities as necessary to better 
inform DHS and to apply ``dual-benefit'' approaches directly into 
program planning.
    During the past year HSI conducted the following studies that 
involved other federal agencies:

        <bullet>  National laboratory capabilities assessment--
        conducted an extensive survey of homeland security capabilities 
        resident in the Department of Energy national laboratories.

        <bullet>  Cargo summit--facilitated private sector 
        communications and provided analysis on the national cargo 
        security strategy including Department of Transportation, 
        Federal Highway Administration, Department of State, Department 
        of Defense.

        <bullet>  Critical Infrastructure Protection Vulnerability 
        Studies with Department of Energy (to include the National 
        Laboratories), United States Department of Agriculture, Food 
        and Drug Administration, Department of Transportation, United 
        States Coast Guard, National Transportation Safety Board, White 
        House Office of Science and Technology Policy, Amtrak.

        <bullet>  Wide Area Biological Restoration study involves 
        Environmental Protection Agency, Health and Human Services, 
        National Institute of Health, Department of Defense (U.S. Army 
        Center for Health Promotion and Preventive Medicine), United 
        States Postal Service, Department of State, Department of 
        Energy National Laboratories, Department of Justice, Federal 
        Bureau of Investigation, Central Intelligence Agency, United 
        States Department of Agriculture, General Services 
        Administration, Technology Surprise Working Group, Department 
        of Labor.

        <bullet>  Reasons for Successful and Unsuccessful Terrorist 
        Incidents Against the U.S.--Federal Bureau of Investigation, 
        Department of Justice, Department of State.

        <bullet>  Threat and Technology Assessments--Central 
        Intelligence Agency, Defense Intelligence Agency, U.S. Army, 
        U.S. Air Force, U.S. Navy, U.S. Marine Corps, National 
        Aeronautics Space Agency, Technology Surprise Working Group, 
        National Ground Intelligence Center, Office of Science and 
        Technology Policy.

Division of Effort Among the DHS S&T Directorate and Research Efforts 
                    at Other Government Agencies

    One of the accomplishments of which I am personally most proud is 
the emphasis our new Directorate has put on interacting with other 
federal departments and agencies. Knowledge of other science and 
technology programs and their results, appropriate collaboration 
between agencies, coordination of relevant programmatic activities, and 
information sharing are essential for us to best meet our mission 
requirements.
    The Science and Technology Directorate recognizes that many 
organizations are contributing to the science and technology base 
needed to enhance the Nation's capabilities to thwart terrorist acts 
and to fully support the conventional missions of the operational 
components of the Department. Congress recognized the importance of the 
research and development being conducted by numerous federal 
departments and agencies, and, in the Homeland Security Act of 2002, 
directed the Under Secretary for Science and Technology to coordinate 
the Federal Government's civilian efforts to identify and develop 
countermeasures to current and emerging threats.
    We take this responsibility very seriously.
    Over the last year, the Science and Technology Directorate has 
worked with the Office of Science and Technology Policy, the Homeland 
Security Council, the National Security Council, the Office of 
Management and Budget and the Office of the Vice President to initiate 
the effort to coordinate homeland security research and development 
across the entire United States Government. It will come as no surprise 
to the members of this Subcommittee that good, solid, effective 
research and development relevant to homeland security is being 
conducted by the Departments of Agriculture, Commerce, Defense, Energy, 
Justice, Health and Human Services, State, and Veteran's Affairs; 
within the National Science Foundation, the Environmental Protection 
Agency and other federal agencies; and by members of the Intelligence 
Community.
    Several interagency working groups already exist that are 
addressing issues important to homeland security. The Science and 
Technology Directorate has been, and continues to be, an active 
participant in these working groups, and in most cases has taken a 
leadership role. These fora foster an active exchange of information 
and assist each participating agency in identifying related needs and 
requirements, conducting research and development of mutual benefit, 
and avoiding duplication of effort.
    We also continue to have discussions at multiple levels of 
management with federal departments and agencies, as well as with the 
Office of Management and Budget, the Office of Science and Technology 
Policy, and the Homeland Security Council. These discussions ensure 
that the strongest possible links are made and the best possible 
coordination occurs between our Department and those who are conducting 
sector-specific research.
    A full list of S&T Directorate interagency interactions and their 
results are listed in the Appendix.

Technology Transfer

    We are often asked about the transfer of technologies between 
Departments. I want to assure you that the Science and Technology 
Directorate is very concerned about technology transfer. Often, 
technology developed for one purpose, such as a military application, 
cannot be transferred in a straightforward manner to civil operations. 
The requirements for maintenance and support, for performance, and for 
total cost of ownership often inhibit such transfers. Although the 
basic scientific principles that underpin a particular technology may 
be leveraged, nevertheless significant re-engineering is required to 
make the technology suitable for homeland security purposes.
    Other issues associated with transferring technologies to the 
homeland security operating environment include the need for ease of 
operations, extremely low total cost of ownership, providing liability 
relief, providing incentives for non-federal actors to purchase useful 
technologies, developing and promulgating standards and providing 
technical assistance to aid those purchasers in their procurement 
decisions. While the Department has made tremendous progress in all 
these areas, much remains to be done, and sustained effort is needed.

Short-Term and Long-Term Research

    In the two years that this Department has been in existence, the 
Science and Technology Directorate has focused its efforts on near-term 
development and deployment of technologies to improve our nation's 
ability to detect and respond to potential terrorist acts. However, we 
recognize that a sustained effort to continually add to our knowledge 
base and our resource base is necessary for future developments. Thus, 
we have invested a portion of our resources, including our university 
programs, toward these objectives. The following table indicates our 
expenditures in basic research, applied research, and development to 
date.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our expenditures in basic research are heavily weighted by our 
investments in university programs. These university programs will not 
only provide new information relevant to homeland security, but will 
also provide a workforce of people who are cognizant of the needs of 
homeland security, especially in areas of risk analysis, animal-related 
agro-terrorism, bioforensics, cybersecurity, disaster modeling, and 
psychological and behavioral analysis.

Basis for Policy on the Use of the National Laboratories

    The Department of Homeland Security recognizes the unique technical 
expertise and infrastructure at the Department of Energy national 
laboratories. The Science and Technology Directorate has and will 
continue to maximize and leverage the existing capability base at the 
national laboratories to address DHS strategic objectives. The S&T 
Directorate will use strategic partner laboratories to assist in 
developing program direction, and we will make strategic investments in 
the national laboratories to build an enduring national capability for 
DHS. For example, the S&T Directorate is creating technical centers 
within the national laboratories where expertise currently exists in 
specialized areas, such as a visual analytics center and a biodefense 
knowledge center.
    The Directorate submitted a Report to Congress on the ``Utilization 
of the National Laboratories'' last October which describes the Science 
and Technology Directorate's policy regarding the use of the national 
laboratory resources. The report details how the Science and Technology 
Directorate has translated its performance-based management philosophy 
into annual rigorous processes for program planning, program execution, 
and program reviews. Through this annual cycle, work performed at each 
of the laboratories is peer reviewed and funding decisions for the 
following year are based on the annual performance reviews.

Staffing

    When the Department of Homeland Security stood up on March 1, 2003, 
the S&T Directorate had a total staff of about 87, including the 53 
staff transferred from the Department of Energy's Environmental 
Measurements Laboratory.
    Two years later, we have a staff of nearly 450, including 167 DHS 
employees, Nine Public Health Service Officers, 32 Intergovernmental 
Personnel Act employees, 17 individuals on assignment from other 
agencies, and 223 contractors.
    We continue to be active in staffing our Directorate with well-
qualified individuals whose skills support the full breadth of our 
responsibilities and RDT&E activities. We continue to actively seek 
additional staff in accordance with our approved staffing plan.

Conclusion

    With nearly two years under the Department's belt, the scientists 
and engineers in the Science and Technology Directorate have 
accomplished more than I could have expected. I am proud to have shared 
with you today some of those success stories. We have appended a more 
comprehensive summary of accomplishments to date for the record.
    We also recognize that there is much to do, and we will be working 
just as hard in FY 2006.
    I look forward to continuing to work with the Science Committee, my 
colleagues here today, other federal departments and agencies; the 
academic community; and private industry to continue the work begun and 
continually improve our ability to protect our homeland and way of 
life.

Appendix A

       Accomplishments of the Science and Technology Directorate

                    Department of Homeland Security

                        FY 2004 to February 2005

Biological Countermeasures

        <bullet>  Deployed additional environmental sensor systems to 
        new metropolitan areas to protect our nation's cities from the 
        threat and ramifications of a bioterrorist attack. BioWatch 
        activities were significantly increased during the National 
        Code Orange Alert (December 2003-January 2004), with twice 
        daily samplings in the high threat cities, additional 
        collectors for special New Year's events and Bowl Games, and 
        deployment of temporary BioWatch systems to non-BioWatch cities 
        of special concern. BioWatch also provided field and laboratory 
        support to the G8 Conference, the Democratic National 
        Convention, and the Republican National Convention in Boston 
        and New York, respectively.

        <bullet>  Continued to develop new technologies to support 
        biosurveillance and detection. Two detection R&D programs 
        transferred to DHS from the DOE's Chemical and Biological 
        National Security Program (CBNP) are reaching their successful 
        conclusion. The Autonomous Pathogen Detection System that 
        provides for totally automated integrated sample collection and 
        analysis is now undergoing field-testing in New York City, 
        while the hand-portable chemical and biological detection 
        system known as micro-ChemLab is one of the leading contenders 
        for the next generation DOD Joint ChemBio Modular Detector. 
        High throughput processing techniques that will greatly 
        increase BioWatch capability have been developed and are being 
        piloted as part of the second generation BioWatch system known 
        as Gen 2 BioWatch. This pilot is in the process of being 
        deployed in New York City and will involve a two-to-threefold 
        expansion of the number of collectors at locations to be 
        specified by the city (e.g., high profiles venues, subways, 
        transportation hubs) with an even greater increase in sample 
        analysis capability so as to support surge activities and the 
        extensive follow-on analysis that would have to be done in the 
        wake of an actual event. Efforts are underway in the BioNet 
        program to develop integrated concept of operations with 
        civilian and military bio-monitoring systems (e.g., BioWatch 
        and the Joint Service Installation Pilot Program (JSIPP)/
        Guardian) using San Diego, California, as the pilot site. 
        Solicitations and awards for next generation biological 
        detection systems to support a fully automated BioWatch (Gen 3) 
        and to enable very rapid detection (about two minutes) for 
        protecting special events and selected facilities have been 
        made. However, these detection systems are only as good as the 
        underlying bioassays which recognize the agents of interest. 
        These assays are designed to detect multiple features in an 
        organism so as to produce very low false alarm rates, less than 
        one in a million.

        <bullet>  Initiated the design of National BioSurveillance 
        Integration System (NBIS) as part of an interagency process. 
        When completed in the first quarter of FY 2005, we will work 
        with the Information Analysis and Infrastructure Protection 
        (IAIP) Directorate to implement this system.

        <bullet>  Developed a set of ChemBio Defense Guidelines for 
        Airports that are currently out for review at five major 
        airports around the country through the Protective and Response 
        Options for Airport Counter Terrorism (ProACT). This program, 
        The Airport Restoration Demonstration, at the San Francisco 
        International Airport (SFO), is working with EPA, CDC and SFO 
        to develop a set of pre-approved protocols and decontamination 
        agents for decontamination and return to service of major 
        airport facilities. As part of this, the National Academy of 
        Sciences is conducting a study of ``How clean is clean?'' the 
        final report will be completed in the spring 2005. Work is on-
        going on improvements to technologies for facility clean-up, 
        including improvements in chlorine dioxide and vaporous 
        hydrogen peroxide approaches and the completion and testing of 
        a truck-deployed chlorine dioxide based decontamination system.

        <bullet>  Using the reference scenario approach recommended by 
        HSPD-10 for understanding the requirements of an integrated 
        national biodefense architecture, the portfolio will complete 
        the high-level analyses of four baseline references cases: a 
        large outdoor release of a non-contagious agent (anthrax); a 
        large indoor release of a contagious agent (smallpox); 
        contamination of a bulk food supply; and two highly virulent 
        agricultural attacks, one on livestock (Foot and Mouth Disease) 
        and the other on plants (soy bean rust). Completion of the 
        architectures will identify key requirements for each major 
        element, a ``report card'' on the current and projected status 
        in that area and performing detailed design tradeoffs for those 
        areas in which DHS has execution responsibility.

        <bullet>  Two material threat determinations have been made 
        (anthrax and botulinum) in support of BioShield and risk 
        assessments have been performed to help understand the 
        plausible worse case scenarios and help guide the size of the 
        BioShield procurements.

        <bullet>  BASIS was used to provide additional support for the 
        designated National Special Security Events (NSSEs) to include 
        the 2004 G-8 Conference, and the Democratic and Republican 
        National Conventions.

        <bullet>  A National Strain Repository will be established to 
        allow comparison of suspect samples with known existing 
        strains. Genotyping assays will be completed for anthrax and be 
        well underway for the next two high priority agents determined 
        by NBFAC and the law enforcement community.

        <bullet>  Initiating operations in interim facilities until 
        completion of construction of the new NBACC facility currently 
        scheduled for FY 2008/2009. Arrangements have been made for use 
        of BSL-2/3 aerosol laboratory capabilities through partnerships 
        and agreements with Lovelace Respiratory Research Institute, 
        Battelle Memorial Institute and the U.S. Army Medical Research 
        Institute of Infectious Diseases (USAMRIID) and for use of BSL-
        2/3/4 with DOD, USDA Food Safety and Inspection Service (FSIS), 
        and CDC.

        <bullet>  A systematic biothreat risk analysis process has been 
        initiated with broad involvement from government, industry and 
        universities. Technical support has also been provided to the 
        Emergency Preparedness and Response Directorate of DHS and to 
        the CDC to assist in understanding the requirements on the 
        Strategic National Stockpile.

        <bullet>  HSPD-10 designates the National Bioforensics Analysis 
        Center (NBFAC) as the lead national facility for technical 
        analysis of forensic samples from biological events. Pending 
        completion of the NBACC construction, a 3,000 square foot 
        dedicated microbial forensics laboratory has been established 
        at USAMRIID and is currently handling some 1500 samples. A 
        joint governance model is being developed with the FBI and 
        others and a broad based interagency meeting was held to 
        identify R&D requirements.

        <bullet>  Successfully addressing operational issues at the 
        Plum Island Animal Disease Center (PIADC). Improved security 
        procedures have been implemented and a new Operations and 
        Maintenance Contractor is in place. An integrated USDA-DHS 
        research strategy, and development, including a detailed 
        veterinary countermeasures and diagnostics strategy, has been 
        developed. R&D programs have been initiated to evaluate 
        improved variants of commercial animal vaccines, develop and 
        deploy the next generation multiplexed diagnostics assays to 
        rapidly and unequivocally identify foreign animal diseases 
        (FAD) such as Foot and Mouth Disease (FMD), and to implement a 
        bioforensics capability for FADs.

Chemical Countermeasures

        <bullet>  Initiated a process to define the requirements and 
        process for a robust national environmental analytical 
        laboratory capability through a core interagency working group 
        including EPA, CDC, and other stakeholders under DHS Chemical 
        Countermeasures leadership. The design of triage laboratory 
        capability to support analyses of complete unknowns was 
        completed. The portfolio conducted preliminary activities 
        toward the development of a Chemical Security Analysis Center 
        (CSAC) that will provide threat awareness and assessment. An 
        overall structure, similar to that characterizing the NBACC and 
        its supporting threat characterization, forensics, knowledge 
        management and reachback, is envisioned. Interfaces with the 
        FBI and Scientific Working Group for Forensic Analysis of 
        Chemical Terrorism (SWGFACT) identified shortfalls in current 
        forensics capabilities and infrastructures and facilitated the 
        initiation of a comprehensive program to address technical 
        deficiencies. Baseline forensics signatures were established, 
        and an initial set of laboratory forensics protocols were 
        developed.

        <bullet>  Initiated prototype development for a Mobile, High-
        Throughput Lab ID System. This system is a self-contained 
        mobile laboratory for on-site chemical analysis of a high 
        volume of samples to support comprehensive assessment of a 
        chemical incident scene and to monitor progress of restoration 
        activities. There is no current capability for on-scene 
        assessment and screening of environmental samples to streamline 
        the process of remediating a contaminated site. As has been 
        demonstrated by previous cases of chemical contamination of the 
        environment, very large numbers of samples must be analyzed to 
        determine extent of contamination and then support decisions to 
        re-use after decontamination procedures. Accordingly a high-
        throughput (possibly 1000 per day) sample stream must be 
        supported. Design the concept and demonstrate the prototype in 
        2005.

        <bullet>  Development of a playbook containing restoration 
        protocols following a chemical incident was initiated. Studies 
        were initiated to develop and evaluate decontamination 
        technologies for non-traditional agents.

        <bullet>  Deployed a chemical threat detection system to Boston 
        and New York City transit stations for the Democratic and 
        Republican National Conventions, respectively. The system will 
        also be deployed for the 2005 Presidential Inauguration. The 
        system was based on the Program for Response Options and 
        Technology Enhancements for Chemical/Biological Terrorism 
        (PROTECT) chemical agent detection system recently transitioned 
        to the Washington, D.C., Washington Metropolitan Area Transit 
        Authority (WMATA) metro system, which has operated for a year 
        without a false alarm. The system provides prompt detection of 
        a chemical attack to effect optimal response actions. The 
        system deployed to New York City is being left in place as an 
        initial permanent capability.

        <bullet>  Initiated systems studies around three defining 
        scenarios: indoor chemical agent release, outdoor toxic 
        industrial chemical release, and release of toxin in the water 
        system. Primary components of these defining architectures were 
        developed and serve as the basis for continued definition of 
        capability gaps and required improved countermeasures. 
        Development of these architectures and resultant guiding 
        principles will be coordinated with DHS IAIP as well as other 
        government agencies to maximize cross-agency leverage. Three 
        demonstration projects were also initiated: The Facility 
        Restoration Demonstration Project will develop and demonstrate 
        a capability to restore a facility that has been contaminated 
        with a classical chemical agent or persistent toxic industrial 
        chemical (TIC). A Water Security Demonstration will identify 
        and characterize technologies with the potential to provide 
        warning of chemical contamination of the water system. A NSSE 
        Deployable Detection System Demonstration will develop a 
        flexible architecture chemical detection system that can be 
        utilized for the warning and situational awareness of chemical 
        threats in temporary deployments.

        <bullet>  Initiated key development programs targeting leap-
        ahead advancements in detection. These programs will develop 
        two principal capabilities: a facility monitoring detector and 
        a responder detection tool. In both cases, the detectors will 
        provide detection and discrimination of up to 20 different 
        chemical threats, including classical chemical warfare agents 
        (CWAs) and toxic industrial chemicals (TICs) in a single unit 
        across a wide range of concentrations. Current chemical 
        detectors address far fewer chemical agents. These new 
        detectors will be network-compatible to provide comprehensive 
        situational awareness and, in facilities, will initiate 
        response actions to mitigate the threat as appropriate. A 
        workshop was conducted to gather and discuss technology 
        solutions for the challenge of detecting very low vapor 
        pressure chemical hazards. A program to develop such 
        technologies was formulated.

Radiological and Nuclear Countermeasures

        <bullet>  Presently developing new capabilities and a 
        corresponding architecture for detection of nuclear materials 
        through a new coordinating office, which will outline an 
        investment strategy for nuclear material detection R&D as well 
        as procurement and deployment of next-generation technologies.

        <bullet>  Expanded secondary-reachback to include all 
        instrumented Customs and Border Protection's POEs and 
        personnel, and U.S. Coast Guard special teams: Expert reachback 
        required to resolve highly suspicious or highly anomalous 
        alarms will be expanded to cover all sites and personnel within 
        the Bureau of Customs and Border Protection (CBP) and USCG that 
        use/carry radiation detection equipment.

        <bullet>  Radiological and Nuclear Countermeasures Test and 
        Evaluation Complex: Provides capability to conduct controlled 
        field testing of special nuclear material (SNM) in their most 
        relevant configuration in mock essential operational venues. 
        Initial capabilities will come on-line at the end of 2005.

        <bullet>  Assumed management of the Port Authority of New York 
        and New Jersey radiation detection test bed from the Department 
        of Energy in August, 2003. Following the transfer, the 
        portfolio broadened the project scope beyond testing and 
        evaluating individual pieces of technology to a systems 
        approach, including response protocols and operational 
        concepts. This program has been renamed the Countermeasures 
        Test Bed to more accurately reflect the span of the project.

        <bullet>  The portfolio will initiate a joint DHS/HSARPA and 
        DOD/DARPA (Department of Defense/Defense Advanced Research 
        Projects Agency) project focusing on radiological and nuclear 
        decontamination, consisting of four main tasks: (1) 
        Radionuclide capture decontamination; (2) Wide area 
        radionuclide decontamination; (3) Verification; and (4) 
        Modeling.

        <bullet>  Further efforts will begin under the Environmental 
        Measurements Lab's (EML) Urban Dispersion Program (UDP), an 
        atmospheric dispersion modeling effort to model the release of 
        airborne hazardous materials in New York City. Initial work on 
        this project will begin with radiological and meteorological 
        network installation plans as well as survey measurements of 
        SF6 (tracer) background in the city being completed this year. 
        Additionally, a crisis response scenario analysis was conducted 
        to identify technologies and capabilities needed for crisis 
        response. EML is also currently running the Incident Management 
        Radiological Monitoring Network in New York City, an 
        operational test bed for radiation sensor systems that can be 
        used for search and characterization by local first responders. 
        In August 2004, additional sensor nodes were installed and 
        established throughout the city, at sites selected in 
        conjunction with New York's Office of Emergency Management 
        (NYCOEM).

        <bullet>  Needs and technical approach analyses for both 
        passive and active interrogation detection technologies. 
        Several advanced passive detector technologies are in the early 
        stages of development: an inexpensive, deployable, high 
        efficiency neutron sensor; a large area combined neutron/gamma 
        detector; a large-volume high-pressure xenon (HPXe) detector; a 
        directional detector for fast neutrons; and a mercuric iodide 
        (HgI2) detector. The large-volume HPXe detector is currently in 
        the prototype phase. Also in development are two gamma-ray 
        imaging systems, one based on Compton imaging and the other on 
        coded aperture imaging; both are currently in early prototyping 
        phases. Additional efforts focused on the detection of shielded 
        SNM in cargo containers, based on the detection of both 
        neutrons and delayed high-energy fission product gamma rays, 
        and a portable neutron source, based on a mixed alpha-Be source 
        in a switchable configuration for use in active interrogation; 
        both currently are still in conceptual design and experiment 
        phases.

        <bullet>  Improvements in two current Customs and Border 
        Protection-deployed radiographic imaging systems. This included 
        software improvements and systems upgrades for local data 
        integration, threat image projection (TIP), and assisted 
        imaging processing (AIP). Efforts are expected to begin in the 
        4th Quarter of FY 2004 for work on near-term improvements in 
        hand-held radioisotope identification (RIID), area search 
        devices with radioisotope identification, passive primary 
        portals, advanced radiography systems for cargo and parcels, 
        and advanced active imaging and screening systems.

        <bullet>  An additional effort is directed towards a 
        comprehensive chemical, biological, radiological and nuclear 
        (CBRN) water system vulnerability study.

        <bullet>  Further efforts were begun under the Environmental 
        Measurements Lab's (EML) Urban Dispersion Program (UDP), an 
        atmospheric dispersion modeling effort to model the release of 
        airborne hazardous materials in New York City. Initial work on 
        this project has begun, with radiological and meteorological 
        network installation plans as well as survey measurements of 
        SF6 (tracer) background in the city being completed this year. 
        Additionally, a crisis response scenario analysis was conducted 
        to identify technologies and capabilities needed for crisis 
        response. EML is also currently running the Incident Management 
        Radiological Monitoring Network in New York City, an 
        operational test bed for radiation sensor systems that can be 
        used for search and characterization by local first responders. 
        By August 2004, additional sensor nodes will have been 
        installed and established throughout the city, at sites 
        selected in conjunction with New York's Office of Emergency 
        Management (NYCOEM).

Explosives Countermeasures

        <bullet>  Initiated the development of a prototype explosive 
        detector for vehicle bombs, and accelerated the development of 
        hardened overhead storage bins for passenger aircraft. 
        Additionally, it initiated a survey and evaluation of 
        commercial-off-the-shelf (COTS) equipment to detect, interdict 
        and mitigate the consequences of suicide bombers and vehicle 
        bombs, and conducted a cost-benefit analysis of approaches to 
        aircraft hardening.

Threat and Vulnerability Testing and Assessment

        <bullet>  Delivered two operational components, the Threat 
        Vulnerability Integration System (TVIS) and the Threat-
        Vulnerability Mapper (TVM), to the IAIP Directorate. The TVM 
        provides counterterrorism analysts with a simple, 
        straightforward way to depict the geographic distribution of 
        threats across the U.S. and to search the underlying databases 
        for information on the possible actors, agents, potential 
        severity of attacks, and extent of the vulnerabilities to and 
        effects of such attacks. TVIS integrates high-volume 
        information analysis capabilities with specialized 
        visualization tools that enable analysts to process large 
        amounts of disparate intelligence data.

        <bullet>  Created the Interagency Center for Applied Homeland 
        Security Technology (ICAHST) capable of addressing the 
        technical needs of the Department and other members of the 
        Homeland Security community. The center and its interconnected 
        laboratories provides detailed technical information and guides 
        research, strategy, and systems design for the broad range of 
        technologies and techniques necessary to identify, understand, 
        and remediate CBRNE threats. The center consolidates and 
        validates the S&T Directorate's and other customers' technical 
        requirements as well as performs comprehensive technical 
        evaluations of technologies either available through 
        commercial, academic, or government sectors or being 
        specifically developed through the various TVTA research 
        programs. The ICAHST activity is supported by an interagency 
        Steering Group with representatives from 23 intelligence and 
        law enforcement agencies.

        <bullet>  Completed an initial set of 120 all-CBRNE capability 
        assessments for 20 terrorist organizations on the five CBRNE 
        plus cyber threat agents. Continued support to the Nuclear 
        Assessment Program (NAP) that judges the credibility of 
        communicated nuclear threats for such clients as the FBI, DOE, 
        and Department of State (DOS).

        <bullet>  Created the National Visualization and Analytics 
        Center (NVAC). NVAC creates a national agenda document for 
        visual analytics with broad input and support from the 
        government, national laboratories and universities and provides 
        the following four core functions: research and development, 
        education, technology evaluation and implementation, 
        integration and coordination. NVAC is expected to address the 
        intrinsic challenges of:

                <bullet>  Dealing with massive streams of information 
                in support of the analysts;

                <bullet>  Visualization of information for detecting 
                deception and resolving uncertainty;

                <bullet>  Visualization of temporal primary and 
                supportive theme relationships critical for proactive 
                and predictive analytics; and

                <bullet>  New, multi-dimensional visualization tools 
                for human-information discourse, which enable analysts 
                to query, cluster or group, and manage multiple types 
                (for example, databases or unstructured text) and modes 
                (such as text, audio, video, imagery, or sensor) of 
                data or information as well as incomplete data streams.

        <bullet>  Establish an integrated, national capability, called 
        the Institute for Discrete Sciences (IDS), to investigate and 
        develop the specialized computing algorithms and hardware 
        architectures necessary to analyze massive amounts of diverse 
        data from multiple, disparate, distributed data sources, and to 
        model terrorist attacks and simulate consequences on a real-
        time, high-resolution basis. Like the NVAC, the IDS will have 
        broad interaction and support from the government, national 
        laboratories and universities.

        <bullet>  Complete an engineering design for the Enhanced 
        International Travel Security (EITS) system, initiated in FY 
        2004, which will enable several pilots to be implemented with 
        the United Kingdom, Canada, and Australia. EITS allows the 
        validity of travel documents and the identity of travelers to 
        be determined in real-time at U.S. borders and other points of 
        entry.

        <bullet>  Provide the science and technology needed in the 
        development of biometrics for precise identification of 
        individuals, and develop prototype instrumentation to aid 
        authorized officials in detecting individuals with potentially 
        hostile intent.

        <bullet>  Enable a comprehensive capability for determining 
        terrorist motivations, based on social, behavioral, and 
        economic factors. Integrate this with techniques for 
        determining terrorist or hostile intent as well as detecting 
        deception.

Standards

        <bullet>  Continued development of the First Responder 
        Chemical, Biological, Radiological, Nuclear and Explosives 
        (CBRNE) Protective and Operational Equipment Standards 
        Development Program, an ongoing comprehensive, multi-year 
        program that is developing an integrated suite of national 
        standards for emergency responder CBRNE protective and 
        operational equipment.

        <bullet>  Developed standards that address radiation protection 
        for all activities corresponding to the EP&R mission.

        <bullet>  Developed comprehensive standards for the 
        development, testing, and certification of effective detection, 
        response, remediation, and forensics tools for radiological and 
        nuclear materials.

        <bullet>  Composed three management directives to establish DHS 
        policy with regards to the adoption and development of national 
        standards. Two of the management directives dealing with DHS 
        internal standards policies have been issued. In addition to 
        establishing policy, the standards program has engaged with the 
        American National Standards Institute (ANSI) to develop a 
        searchable database containing existing standards related to 
        homeland security and to establish the ANSI Homeland Security 
        Standards Panel.

        <bullet>  Formed an interagency task force to address the 
        controversy over the effectiveness and use of lateral flow 
        immunoassays for the detection of Bacillus anthracis (anthrax) 
        by emergency responders. Five commercially available hand-held 
        immunoassays and two reference methods have been tested and 
        evaluated in a multiple laboratory study. Other accomplishments 
        in biological countermeasures include an effort with Edgewood 
        Chemical Biological Center (ECBC) to evaluate a five step 
        method to pre-screen suspicious white powders, an effort with 
        NIST to look at the effectiveness of biological agent 
        simulants, and the establishment of a program to address both 
        chemical and biological decontamination standards for the first 
        responder community. A draft standard for a hand-held vaporous 
        chemical warfare agent detector was developed. A project was 
        initiated to provide both physical standards and validated 
        spectral libraries necessary to impart confidence in the 
        performance of portable Raman spectrophotometers (currently in 
        use by first responders to identify unknown substances in real-
        time with minimal handling). Other accomplishments include 
        participation in the development of Protective Action Guides 
        following a RDD/IND event; the development and adoption of the 
        first radiological and nuclear detector for four classes of 
        radiation detection equipment ranging from hand-held alarming 
        detectors to radiation portal monitors for cargo containers; 
        the development and evaluation of the four accompanying test 
        and evaluation protocols; testing of relevant COTS radiation 
        detection equipment; production of standardized test sources 
        (g-ray, neutron); and the initiation of an effort to develop 
        performance specifications for active interrogation systems (x-
        ray, gamma-ray, and neutron imaging) used in the detection of 
        SNMs. High explosive countermeasures initiatives include 
        standards for explosives reference materials, trace explosive 
        detection devices, and explosive mitigation equipment 
        standards. The high explosives standards program is leveraging 
        programs funded by the Department of Justice's National 
        Institute of Justice to develop performance metrics for bomb 
        disposal robots, and to develop a bomb suit standard. Cyber 
        Security programs were initiated to address E-Authentication 
        (for remote authentication techniques), Forensics for Personal 
        Digital Assistant (PDA)/Handheld Devices, and Checklists for 
        Securing Operating Systems and Application Configurations. 
        Specific accomplishments include an exploratory workshop on 
        knowledge based authentication, general approach to password 
        authentication strength, guidance document on PDA forensic 
        policies, guidance document on current forensic software for 
        PDAs, draft guideline for the overall Security Configuration 
        Checklists Program, and a draft Special Publication 800-68 
        Guide for Securing Microsoft Windows XP Systems for IT 
        Professionals. A list of prioritized requirements for CBRNE 
        countermeasures standards will be constructed based upon the 
        interagency working group's efforts. In addition, a report and 
        database on existing CBRNE countermeasures standards will be 
        issued. New standard development will focus on validation of 
        existing, high priority, high use technology for CBRNE 
        detection Polymeric Chain Reaction (PCR) devices, Raman 
        spectrophotometers, spectroscopy based portal monitors, neutron 
        detectors, high energy x-ray interrogation systems, neutron 
        interrogation systems, trace explosive detection devices, and 
        explosion mitigation devices). In addition, work on 
        characterizing the performance of candidate CBRNE simulant and 
        reference materials will expand. Efforts will be expanded in 
        the area of CBRNE decontamination standards. Efforts will be 
        initiated to develop COTS and Government-off-the-shelf (GOTS) 
        CBRNE equipment consumer report guides based on FY 2004 testing 
        results. To address Cyber security standards the programs for 
        E-Authentication, Forensics for PDA/Handheld Devices and 
        Checklists for Securing Operating Systems and Application 
        Configurations will be continued, along with a new start to 
        develop a Standardized Mechanism for Universal Access Control 
        to enable and promote sharing of information across 
        organizational boundaries each with potentially different 
        access control policies. The standard access control mechanism 
        program will survey existing access control policies and models 
        identify and document access controls most primitive and atomic 
        principles and functions and design a universal access control 
        mechanism capable of abstracting, combining and enforcing all 
        existing attribute based access control policies.

        <bullet>  A standard for full frontal facial photographs 
        entitled ``Face Recognition Format for Data Interchange'' 
        developed by the International Committee for Information 
        Technology Standards (INCITS) is currently in the process of 
        being formally adopted by DHS. A biometrics working group was 
        established to gain consensus on the adoption of the standard. 
        A contract is being negotiated with INCITS that will give 
        access to the standard to DHS employees and contractors via the 
        DHS website. Supported a program to develop a portable, 
        externally deployable, biometric acquisition and information 
        system, designed specifically for collecting data for 
        evaluation.

        <bullet>  Continue work with ASTM International to obtain final 
        approval for the Hospital Preparedness Standards and the METL 
        standard for first responders. New initiatives with ASTM on 
        homeland security standards will include a standard guide for 
        building event dispersion and health assessment preparedness 
        and response planning, a standard guide for conducting 
        emergency preparedness drills and exercises, and a standard 
        guide for developing model emergency operations plans in 
        response to all-hazard events including CBRNE. DHS will support 
        EML to initiate a cooperative interagency effort to address 
        laboratory emergency response measurement protocol development 
        and laboratory capability and capacity assessment. Work with 
        National Incident Management System (NIMS) Integration Center 
        (NIC) and Urban Search and Rescue (USAR) robotics standards 
        will continue.

        <bullet>  Supported efforts with American Society for Testing 
        and Materials (ASTM) to coordinate the development of a draft 
        standard for hospital preparedness and to develop a multi-
        disciplinary Mission Essential Task List (METL) based on 
        Emergency Responder Guidelines developed by the Office of 
        Domestic Preparedness. Supported the EML along with the Council 
        of Ionizing Radiation Measurements and Standards (CIRMS) to 
        organize several sessions to gather information on standard 
        operating procedures and method standards that would be used in 
        data collection, sample preparation and analysis, data 
        reduction, as well as data reporting. To address requirements 
        outlined in the National Incident Management System (NIMS), S&T 
        Directorate is supporting an effort to catalog existing 
        incident management standards and identify and address gaps. 
        Initiated an effort with the NIST to develop comprehensive 
        standards related to the development, testing, and 
        certification of effective technologies for sensing, mobility, 
        navigation, planning, integration, and operator interaction 
        within urban search and rescue robotic systems.

        <bullet>  Supported the development of a number of respiratory 
        standards including three National Institute for Occupation 
        Safety and Health (NIOSH) standards and one National Fire 
        Protection Association (NFPA) standard adopted by DHS in 
        February 2004. The adopted respiratory protection standards 
        address open-circuit Self-Contained Breathing Apparatus (SCBA), 
        CBRN Full Facepiece Air Purifying Respirator (APR), CBRN Air-
        Purifying Escape Respirator, CBRN Self-Contained Escape 
        Respirator. To date, 50 separate models from six major 
        manufacturers of SCBA have been certified, and two models of 
        APRs have been certified.

        <bullet>  Established ties with the training community 
        including the Center for Domestic Preparedness and local and 
        State organizations. The S&T Directorate has also reached out 
        to determine the necessary requirements and needs for training 
        standards by participating and supporting the ANSI's Homeland 
        Security Standards Panel Subcommittee on Training. Currently 
        establishing the process by which training standards 
        requirements will be compiled and prioritized. In addition, the 
        development of standards to address training to current DHS 
        adopted radiation detector standards is in progress.

        <bullet>  Initiated efforts to supplement those supported by 
        the Wireless Public SAFEty Inter-operable COMmucations 
        (SAFECOM) program. Initiated an effort with NIST to define 
        wireless communications requirements and approaches for urban 
        environments, to develop emergency response operations 
        equipment standards dealing with tactical information from 
        building sensors and systems, wide-band characterization of the 
        dielectric properties of building materials, the definition of 
        wireless ad hoc and personal area networks public safety 
        requirements, and the development of an overall security model 
        for information sharing. These efforts support the integration 
        of communications equipment with protective equipment used 
        during incident response.

        <bullet>  Established the Geospatial Working Group Subcommittee 
        on Standards (with the support of the DHS Geospatial Management 
        Office) to address the adoption of a suite of Geospatial 
        related standards. Work will continue under the auspices of the 
        Geospatial Working Group Subcommittee on Standards. The group 
        will review the compilation of standards recommended for 
        adoption and achieve consensus on the adoption of all relevant 
        Geospatial standards.

        <bullet>  Supported an effort at NIST to work with the American 
        Society of Mechanical Engineers (ASME) to prepare for 
        acceptance a suite of standards and materials for a training 
        course on how to apply the homeland security standards to aid 
        the owners and managers of constructed facilities in the 
        selection of cost-effective strategies for the management of 
        risks associated with terrorist and natural hazards.

        <bullet>  Established the framework for a DHS conformity 
        assessment working group, consisting of experts from DHS, other 
        federal agencies, and the private sector. Other accomplishments 
        include a draft certification program for radiation detectors 
        affected by the DHS adopted ANSI N42 Radiation Detection 
        Standards; the development and deployment of a conformity 
        assessment training module; outreach to the private sector 
        through the ANSI's Homeland Security Standards Panel and the 
        American Council of Independent Laboratories; and the 
        identification of viable private sector laboratory, 
        certification and accreditation resources that have the 
        competence and capacity to perform selected functions.

Emergency Preparedness and Response

        <bullet>  The Interagency Modeling and Atmospheric Assessment 
        Center (IMAAC) is a DHS-led capability that provides a single 
        hazards prediction for airborne release of hazardous material. 
        The IMAAC coordinates federal atmospheric support for 
        ``incidents of national significance'' and provides hazards 
        predictions to federal, State and local responders. The IMAAC 
        began operation in FY 2004, supporting the National Exercise 
        Program and special events, such as the Democratic and 
        Republican National Conventions. IMAAC has established near-
        real time connectivity to the Department of Homeland Security 
        Operations Center and the FEMA National Emergency Operations 
        Center.

        <bullet>  Selected four urban areas were selected for the pilot 
        Regional Technology Integration (RTI) initiative. These 
        locations provide an opportunity to evaluate geographic and 
        governance diversity as well as variability in threats and 
        vulnerabilities. An integrated assessment process has been 
        initiated in collaboration with these communities. These 
        assessments will identify key assets, review existing 
        vulnerability and threat assessments, emergency preparedness 
        and response plans with the express purpose of identifying 
        potential technology systems that can help prevent, detect, 
        respond to and recover from terrorist and other major 
        emergencies.

        <bullet>  Leveraged the work initiated by ODP and the Memorial 
        Institute for the Prevention of Terrorism, the National 
        Institute of Justice and the Department of Defense in 
        identifying needs and gaps as well as existing technology 
        development programs that can be utilized for incident 
        management training. Developing a rapid prototype of the 
        Technology Clearinghouse ``hub and spoke'' concept to enable 
        first responders to access important information on existing 
        and emerging technologies, training, and relevant standards 
        through a single knowledge portal.

        <bullet>  Established an R&D program that seeks materials and 
        technologies that can be used in multi-hazard environments, 
        applicable to diverse users, and function as an integral part 
        of a more complex personal protection system. Focus is on 
        materials that are lighter-weight or likely to impact on weight 
        reduction of the overall personal protective system, that are 
        robust and able to withstand the challenges of strenuous 
        activity in unstable and uncertain conditions (rubble, 
        collapsing structures, flying debris, etc.) and environments 
        (extreme heat or cold, wind, rain, flash fire) and provide 
        protection against a multitude of hazards (industrial 
        chemicals, chemical or biological warfare agents, radiation, 
        shrapnel, flying debris, other).

        <bullet>  Unified Incident Command and Decision Support: The 
        research and development program in UICDS seeks to harness 
        innovative ideas in an effort to create an information 
        management and sharing architecture specifically designed to 
        meet the needs of incident commanders and emergency responders 
        throughout the Nation. It further seeks to realize a robust, 
        fully functional UICDS information management system to enhance 
        the safety and effectiveness of the Nation's emergency 
        responder community. This program will confront the technical 
        challenges associated with the development of innovative, 
        modular, scaleable, and secure information management 
        architecture. Utilizing this systems approach will enable 
        incident commanders to capture important incident-related 
        information, analyze captured information, more effectively 
        disseminate mission critical information to emergency 
        responders, present decision guidance options for incident 
        commanders, more finely coordinate the efforts of emergency 
        responders, and store relevant information for future study.

Border and Transportation Security

        <bullet>  Issued a solicitation for an Advanced Container 
        Security Device to develop and field-test the next generation 
        of shipping container security devices, building on the current 
        efforts through Operation Safe Commerce as well as current BTS 
        policy efforts to develop and implement performance standards 
        for container security. The Advanced Container Security Device 
        Program is part of a ``Future Smart Container'' initiative 
        encompassing container security, communications, and data 
        systems for the future. The goal is to develop and field-test 
        the next-generation of shipping container security devices that 
        are not currently available in the marketplace.

        <bullet>  Supported BTS in putting technology in the field to 
        support the Arizona Border Control Initiative. The program 
        funded the effort to put Unmanned Aerial Vehicles into 
        operation to support surveillance activities. Demonstrated 
        other technologies such as a long range acoustic device which 
        allows agents to communicate from a safer stand-off distance to 
        determine the intent of people. These opportunities allowed the 
        BTS portfolio to evaluate new technologies that could improve 
        the safety and effectiveness of our border patrol agents.

        <bullet>  Conducted a series of officer and agent workshops to 
        understand the operational environments, functional 
        capabilities needed, and associated goals. In addition, a 
        series of technologist workshops were conducted with federal, 
        industry and academia experts to examine the technologies 
        needed to fill the gaps in capabilities identified during the 
        operators' workshops. Because not all gaps can or will be 
        solved by technology, those gaps that do not lend themselves to 
        technological solutions were referred to BTS management for 
        their information and attention. Added a Scenario Game feature 
        to some of the workshops. The purpose of these scenario-based 
        seminar games was to highlight and validate areas for 
        investment and high pay-off, focus on national impact of 
        technology decisions, examine requirements across components, 
        and analyze the strengths, weaknesses, opportunities and 
        threats of current procedures and technologies.

        <bullet>  Developed a BTS Technology Vision. Together, the 
        elements of this vision--Border Watch, Transportation Watch and 
        Border Net--will significantly improve our ability to provide 
        the information necessary to secure our borders. The foundation 
        of the vision is an architecture and a set of technology 
        programs that will gather, process and distribute real-time 
        knowledge of the border and transportation situation and 
        provide decision support tools and labor saving devices for our 
        security forces.

U.S. Coast Guard

        <bullet>  Integrated a major developmental program, HAKWEYE, 
        into a USCG operational prototype Sector Command Center in 
        South Florida. The HAWKEYE program demonstrates innovative 
        technologies (such as Maritime, Surveillance, Command & 
        Control, Sensor Fusion, and Communications) allowing 
        simultaneous evaluation of technology performance as a direct 
        impact on mission execution. The Operational Assessment of 
        initial equipment installations of HAWKEYE at Ft. Lauderdale, 
        Miami, and Key West will be conducted this year. Focused on the 
        introduction of automated scene understanding and sensor/data 
        fusion technology (a requirement for meeting manning 
        constraints.

        <bullet>  Expedited the operational evaluation deployment of a 
        new application for an underwater imaging device that was in a 
        long-term development program within the Office of Naval 
        Research. The device's development as a small boat mounted 
        underwater inspection device for threats such as improvised 
        explosive devices or parasitic contraband attachments on 
        vessels or piers. The device will allow the Coast Guard or 
        other maritime security interests with the ability to rapidly 
        inspect critical vessels or maritime infrastructure.

U.S. Secret Service

        <bullet>  The Emerging Threats Program supports the Secret 
        Service's continuing, comprehensive assessments of emerging 
        threats and evolving technologies that pose a threat to 
        dignitaries and assets protected by USSS personnel. This effort 
        centers on the annual analysis of the common attack 
        methodologies, strategies and models of operation currently 
        being enacted against assets of a similar nature to those 
        protected by the USSS. This analysis is to be based on open 
        text information without any information as to the defense, 
        mitigation, and protection models being enacted by the USSS.

        <bullet>  The Law Enforcement Virtual-Reality Training Model 
        program supports prototyping and deployment of a law 
        enforcement security-oriented simulation training system for 
        the USSS-specific training and modeling. Additionally, this 
        system will enhance the effectiveness of emergency responders 
        during actual events.

        <bullet>  The Critical Structure Protective Initiative (CSPI) 
        program will ensure continued research and development of 
        network protection systems and procedures designed to mitigate 
        exploitation of site-specific ``Very Large Scale Integration'' 
        (VLSI) control architectures.

        <bullet>  The Wireless Tracking Device program supports 
        development of a handheld, man-portable wireless tracking 
        device for locating operators of wireless communication 
        device(s) in difficult radio frequency environments such as an 
        office building or event stadium.

Emerging Threats

        <bullet>  Established informal partnerships with the 
        intelligence community and with the USSS portfolio to leverage 
        ongoing activities in support of over-the-horizon assessment.

        <bullet>  Initiated efforts Emerging Threats, in combination 
        with the Rapid Prototyping portfolio, in both near-term and 
        breakthrough solutions to homeland security issues.

        <bullet>  Held a privacy protection workshop in which the 
        technical and policy communities interacted to identify 
        important technical challenges and high impact solution areas. 
        Information from this workshop will form the basis of upcoming 
        programs in this area.

        <bullet>  Analyzed multiple radar technologies and other 
        surveillance strategies to determine which combination of 
        technologies would best support coastal surveillance by the 
        USCG.

        <bullet>  Conducted three sensitive projects, two in 
        collaboration with the USSS and one addressing a critical 
        infrastructure.

        <bullet>  Sponsored studies at the Homeland Security Institute 
        to identify threat and technology trends and develop a 
        framework for analyzing emerging and future threats to homeland 
        security.

Rapid Prototyping

        <bullet>  Solicited ideas, concepts and technologies for 50 
        requirement areas of interest to both the Department and other 
        agencies. Efforts have been initiated to address chemical and 
        biological threats, explosive detection, training technology 
        tools, improvised nuclear device defeat, and investigative and 
        forensic support topics.

        <bullet>  Developed a joint port and coastal surveillance 
        prototype designated HAWKEYE with the United States Coast Guard 
        (USCG) that provides an integrated maritime surveillance system 
        covering Port Everglades, Miami, and Key West, Florida. This 
        first-of-its-kind integrated command center and maritime 
        surveillance facility opened in July 2004.

        <bullet>  Initiated the implementation of the Technology 
        Clearinghouse as required in the Homeland Security Act of 2002. 
        This clearinghouse serves as the central nexus to the public 
        safety and first responder community on: (1) Information 
        services supporting access to, and dissemination of, 
        information regarding innovative technologies serving the DHS 
        mission; (2) Resources designed to support the collaborative 
        needs of teams serving the mission of DHS; and (3) Technology 
        programs and resources themselves, designed to serve the 
        mission of DHS and distributed via a central DHS mechanism. The 
        clearinghouse will integrate these existing databases though a 
        ``hub and spoke'' configuration and allow a single point of 
        access to multiple disparate information sources.

        <bullet>  Initiated efforts, in combination with the Emerging 
        Threats portfolio, in both near-term and breakthrough solutions 
        to homeland security issues. Near-term projects are funded out 
        of the Rapid Prototyping Portfolio. Breakthrough projects are 
        funded from the Emerging Threats Portfolio.

        <bullet>  Initiated a program to demonstrate an improved fire 
        fighting protective ensemble and continued its further 
        development. These next-generation garments will provide 
        dramatically enhanced protection against chemical and 
        biological agents while improving the flexibility, weight, 
        durability, heat stress reduction, service life, and costs 
        associated with currently available protective gear.

        <bullet>  Development is underway in the Rapid Prototyping 
        portfolio on technologies that will enable response 
        coordinators to locate, track, monitor, and communicate with 
        emergency responders in structures.

Counter-MANPADS

        <bullet>  Initiated and completed Phase I. In January 2004, 
        following a competitive bidding process, DHS awarded Other 
        Transaction (OT) for Prototype Agreements (OTA) to three 
        companies--BAE Systems, Northrop Grumman, and United Airlines--
        for Phase I of a two-year System Development and Demonstration 
        (SD&D) effort. During this time, the contractors focused on 
        proving the feasibility of migrating existing DOD technology 
        into the commercial sector and exploring other technology as 
        appropriate. Following Preliminary Design Reviews with all 
        three companies in July 2004, the Phase I portion of the 
        twenty-four month SD&D effort concluded and DHS selected BAE 
        Systems and Northrop Grumman to proceed into Phase II to 
        further mature their preliminary designs, build representative 
        prototypes, install them on aircraft, and conduct formal 
        testing during the Phase II eighteen month effort.

        <bullet>  Involved the commercial aviation stakeholder 
        community beginning in FY 2004 through a widely publicized 
        industry day and a series of one-on-one briefings with key 
        commercial aviation groups and organizations. In late 2004, the 
        Program Office hosted a Stakeholders' Meeting, which was 
        attended by representatives of the airlines, the equipment 
        manufacturers, and other affected sectors, including 
        representatives of multiple Federal Government Departments and 
        Agencies.

        <bullet>  Initiated Phase II of the Program. BAE Systems and 
        Northrop Grumman were selected to proceed into this phase. 
        Phase II of the program includes advancing the studies 
        initiated in Phase I, building system prototypes, applying for 
        and receiving FAA certification of system airworthiness, and 
        effectiveness testing.

Office of Safety Act Implementation

        <bullet>  Drafted regulation, commented upon and implemented. 
        Facilities to house the program were selected and the Office 
        has identified and entered into agreements with the lead 
        implementation contractor and lead web site development/
        management contactor. The Office designed and implemented a 
        web-based application kit and process with an interactive help 
        desk. The Office executed a robust outreach program to 
        introduce the industry to the SAFETY Act program and to 
        encourage its participation. The Office conducted one-day 
        educational seminars across the U.S. inviting industry, 
        attorneys, risk managers and insurance representatives to 
        participate. Articles and interviews were conducted to further 
        our outreach initiatives. To ensure that pending procurement 
        actions are addressed expeditiously and effectively, the S&T 
        Directorate has created a partnership with federal procurement 
        offices to introduce them to the program; the Office is 
        designing a mechanism that incorporates the SAFETY Act program 
        into the procurement process.

        <bullet>  Received and has taken action on 30 full applications 
        and 120 pre-applications. Four applicants have been awarded 
        SAFETY Act designation and certification: Northrop Grumman, 
        Michael Stapleton Associates, Teledyne Brown Engineering and 
        Lockheed Martin.

Office of Inter-operability and Compatibility

        <bullet>  Interviewed key stakeholders across federal and 
        practitioner communities to validate findings, uncover 
        additional inter-operability initiatives, and determine key 
        issues for first response; identified a core group of federal 
        programs that test and evaluate first responder equipment; 
        began developing a plan to establish a Joint Evaluation and 
        Testing Program to coordinate with other federal agencies; and 
        conducted an initial scan of existing programs for first 
        responders and collected information at the local, State, and 
        federal levels.

University and Fellowship Programs

        <bullet>  Selected the Texas A&M University and its partners 
        from the University of Texas Medical Branch, University of 
        California at Davis, and the University of Southern California 
        to receive $18 million over the course of the next three years 
        for the study of foreign animal and zoonotic diseases. The 
        Center, which will be known as the National Center for Foreign 
        Animal and Zoonotic Disease Defense, will work closely with 
        partners in academia, industry and government to address 
        potential threats to animal agriculture including Foot and 
        Mouth Disease, Rift Valley fever, Avian influenza and 
        Brucellosis. The Foot and Mouth research will be carried out in 
        close collaboration with DHS's Plum Island Animal Disease 
        Center.

        <bullet>  Selected the University of Minnesota and its partners 
        for the National Center for Food Protection and Defense to 
        address agricultural security issues related to post-harvest 
        food protection. The University of Minnesota's team includes 
        partnerships with major food companies as well as other 
        universities, including Michigan State University, University 
        of Wisconsin at Madison, North Dakota State University and 
        others. The Department of Homeland Security expects to provide 
        the University of Minnesota and its partners with $15 million 
        over the course of the next three years to establish best 
        practices and attract new researchers to manage and respond to 
        food contamination events, both intentional and naturally 
        occurring.

        <bullet>  Selected the University of Maryland and its partners 
        as the site for the fourth Center of Excellence on Behavioral 
        and Social Research of Terrorism and Counter-Terrorism. This 
        Center will be funded at $12 million for three years. Support 
        will continue for the three previously awarded DHS Centers as 
        well. All DHS Centers will have a DHS program manager as well 
        as a technical liaison to facilitate linking research and 
        education objectives with the longer range needs of S&T 
        portfolios and DHS operating Directorates. A reporting and 
        assessment procedure will be developed and implemented to 
        ensure effective communication. Explicit plans will be put in 
        place to integrate and complement the activities of the 
        individual Centers with larger scale objectives.

        <bullet>  Announced the selection of the University of Maryland 
        (UMD) and its partners as the Center for Behavioral and Social 
        Research on Terrorism and Counter-Terrorism. This Center will 
        be funded at $12 million for three years.

        <bullet>  Selected approximately100 students for the 2004 class 
        of DHS Scholars and Fellows bringing the total of students to 
        about 200. Students from the 2003 and 2004 class participated 
        in a DHS orientation for the purpose of learning about DHS 
        mission objectives, the critical research needs, and meeting 
        scientists from DHS laboratories, Centers of Excellence and DOE 
        national laboratories. Students from both classes are attending 
        93 institutions (including Historically Black Colleges and 
        Universities/Minority Serving Institutions) in 38 states and 
        the District of Columbia. Seventeen of the institutions are 
        located in Experienced Programs to Stimulate Competitive 
        Research (EPSCoR) states. Besides making immediate 
        contributions to homeland security-related R&D, these students 
        will be part of the development of a broad research capability 
        within the Nation's universities to address scientific and 
        technological issues related to homeland security.

        <bullet>  As part of the DHS mission to maximize interaction 
        with other federal agencies, University Programs and EPA's 
        Science to Achieve Results (STAR) Program have collaborated on 
        the topic of microbial risk assessment. The DHS-EPA Cooperative 
        Center on Microbial Risk Assessment will result in one five 
        year grant to a university-based consortium that is jointly 
        funded by both agencies at $10 million.

Critical Infrastructure Protection

        <bullet>  Developed a CIP Decision Support System (DSS) focused 
        on prioritizing investment, protection, mitigation, response, 
        and recovery strategies related to Critical Infrastructure 
        Protection. The prototype model includes representation of all 
        14 critical infrastructure sectors, as outlined in the National 
        Strategy for the Protection of Critical Infrastructures and Key 
        Assets, as well as their interdependencies. Preliminary test 
        cases have been used to develop consequence estimation features 
        of the CIP-DSS at both national and metropolitan scales.

        <bullet>  Identified requirements for standards and research 
        and development for Supervisory Control and Data and 
        Acquisition (SCADA) systems.

        <bullet>  Initiated a system study to find potential solutions 
        for personnel surety for security guards that guard our 
        nation's Critical Infrastructure, as well as insiders with 
        access to sensitive areas of, or information about the 
        infrastructure.

        <bullet>  Began National Research Council studies on the 
        security of the Electrical and Chemical sectors.

        <bullet>  Supported a System Study for Municipal Domestic Water 
        Security, along with the Biological Countermeasures portfolio, 
        Chemical Countermeasures portfolio, and Radiological/Nuclear 
        Countermeasures portfolio.

        <bullet>  Initiated interagency development of the first annual 
        National Critical Infrastructure Protection R&D Plan using the 
        Infrastructure Subcommittee of the National Science and 
        Technology Council.

Cyber Security

        <bullet>  Initiated dialog aimed at international collaboration 
        on cyber security R&D with Canada, the United Kingdom, and 
        Japan. Interactions with the United Kingdom and Japan are at 
        early stages and have not yet reached the point where potential 
        joint R&D activities have been identified. Interactions with 
        Canada are more advanced, with three joint, mutually 
        synergistic U.S.-Canada R&D projects resulting from the 
        interaction: (1) a secure wireless data pilot project, (2) 
        collaborative funding of an economic assessment study, and (3) 
        development of geographic information system-based tools for 
        geospatial mapping of cyber assets.

        <bullet>  Focused on securing the domain name infrastructure is 
        working to advance the diffusion and use of the Domain Name 
        System Security Extensions (DNSSEC) protocol as a replacement 
        for the traditional domain name infrastructure. Worked with 
        federal researchers and officials and the private sector to 
        develop a roadmap to accelerate the development and deployment 
        of a secure domain name infrastructure. Current work also 
        includes the identification of technology requirements and 
        development of models to aid in assessing the performance 
        impact of utilizing DNSSEC in operational environments.

        <bullet>  A second effort aimed at secure routing 
        infrastructure is working to address vulnerabilities in Border 
        Gateway Protocol (BGP), the protocol associated with the 
        Internet's underlying routing infrastructure. This need was 
        also identified as a priority in the National Strategy to 
        Secure Cyberspace. Focused on preliminary planning for outyear 
        activities. The development and deployment path for a secure 
        routing protocol is expected be similar to that of DNSSEC, but 
        will reach an equivalent level of maturity some years later, 
        with DHS investments aimed at accelerating this process.

        <bullet>  Initiated a research and development program to fund 
        the development of next-generation cyber security technologies 
        in a variety of topic areas including: (1) Vulnerability 
        prevention, discovery and remediation through software 
        assurance technology, including tools for development and code 
        analysis; (2) Cyber security assessment methods and tools, 
        including the development of metrics, security analysis, 
        development of benchmarks; (3) Security and trustworthiness of 
        information systems, with an emphasis on critical 
        infrastructure sectors and critical information infrastructure 
        systems; (4) Wireless security, including foundation for new 
        wireless-based security mechanisms and services, and security 
        for mobile ad hoc wireless networks; (5) Network attack 
        forensics, focused on Internet Protocol traceback (tracing of 
        data back to its source) and attack traceback; and (6) 
        Technologies to defend against identity theft.

        <bullet>  Development of a security architecture for securing 
        the DETER testbed, initial operation of the initial testbed 
        cluster (a scaled-down version of the final testbed), 
        development of an initial hardware/software design document, 
        and initiation of interconnection of university facilities. 
        Accomplishments for the EMIST framework include development of 
        experimental policies and procedures, calibration experiments, 
        operational Phase I experiments on the scaled-down testbed, and 
        documentation of additional attack scenarios and defense 
        mechanisms.

        <bullet>  Initiated a program to address different facets of 
        the need for improved methods for cyber security assessment and 
        testing, in order to provide a foundation for the long-term 
        goal of economically-informed risk-based cyber security 
        decision-making. Initiated investigations of two important 
        issues. The first is the development of a general model for 
        assessing the economic impact of cyber events and attacks to 
        verify or refute the figures typically publicized (e.g., $38 
        billion for a single Internet worm attack). The second area of 
        interest is the development of tailored business cases aimed at 
        different types of stakeholder community perspectives (e.g., 
        large enterprises, critical infrastructure sector companies, 
        small businesses, home users, etc.). These activities are aimed 
        at putting better information in the hands of cyber security 
        decision-makers (ranging from policy makers to customers of 
        commercial security technology).

        <bullet>  Development of a trusted access information sharing 
        repository infrastructure for collecting and sharing data sets 
        among trusted partners, and development of a contractual and 
        policy framework for ensuring trust among participants and 
        protection of data sets through the Large-scale Network Data 
        Sets Program.

Appendix B

                S&T Directorate Interagency Interactions

                    Department of Homeland Security

                      March 2004 to February 2005

International:

    The Science & Technology Directorate led the interagency effort to 
pilot a distributed database architecture to support verification of 
the identity of international travelers and validity of their travel 
documents. Primary partners on this effort are DHS, OSTP, DOS, and DOJ.
    The S&T Directorate worked with DOS (STAS), USDA, OSTP, NSF to 
create and support the U.S.-Japan Safe and Secure Society forum.
    The Directorate and DOS (OES) jointly created and negotiated the 
U.S.-U.K. S&T Memorandum of Agreement (MOA). The resulting MOA supports 
collaboration on Homeland Security research, development, testing, and 
evaluation between the U.S. and the U.K.
    The S&T Directorate has partnered with DOE (Second Line of Defense) 
and the U.K. to conduct information exchanges regarding development and 
operational testing of radiation monitors for border security 
applications.

Biological Countermeasures:

    The Science and Technology Directorate participated in the White 
House led interagency Homeland Security Council (HSC) Biodefense 
Pathobiologics Collaborating Center. This committee has played a major 
role in conducting the Biodefense End-to-End Study which then led to 
HSPD-10, NSPD-33 and is now overseeing the implementation of that HSPD/
NSPD. Separate subcommittees of this PCC have addressed Food, 
Agricultural, and Water Security.
    The Science and Technology Directorate enacted Project BioShield 
was enacted in 2004 as a joint HHS-DHS program to accelerate the 
development of new medical countermeasures for biological, chemical and 
radiological/nuclear threats.
    The Science and Technology Directorate is a co-chair on the Weapons 
of Mass Destruction Medical Countermeasures (WMD-MCM) subcommittee. 
This is a subcommittee under the National Science and Technology 
Council, and has been providing input on BioShield needs and 
recommendations. DOD and HHS are the primary partners on this 
subcommittee.
    The Science and Technology Directorate and HHS co-chair an 
interagency committee to address the Engineered Threat.
    The Science and Technology Directorate is developing the National 
Biosurveillance Integration System (NBIS) to integrate biosurveillance 
information from interagency partners into a common operating picture 
and then share that information with federal, State and local partners.
    The Science and Technology Directorate leads a partnership with 
CDC, EPA, and FBI on the deployment of BioWatch, a bioaerosol detection 
system deployed to many of this nation's cities.
    BioNet is a DHS funded, DTRA executed pilot program to integrate 
civilian and military domestic biodetection and consequence management, 
using San Diego as a pilot city.
    As part of its HSPD-10 responsibility, the Science and Technology 
Directorate is leading an interagency effort with HHS, DOD, and USPS to 
develop a National Integrated Biomonitoring System.
    The Science and Technology Directorate is a primary participant in 
the establishment of the National Interagency Biodefense Campus being 
developed at Ft. Detrick.
    The National Bioforensics Analysis Center (NBFAC) is a joint 
Science and Technology Directorate-FBI program.
    The Science and Technology Directorate and USDA have developed an 
integrated national agrodefense strategy, with especial emphasis on 
foreign animal disease. The Directorate and USDA also conduct joint 
research and development programs at the Plum Island Animal Disease 
Center.

Chemical Countermeasures:

    The Science and Technology Directorate participated an interagency 
effort lead by the Homeland Security Council (HSC) to define the 
Nation's operational vulnerabilities and gaps in responding to a 
chemical terrorist attack. Interagency participants on this effort 
include DOD, HSC, OMB, HHS, OSTP, NSC, DHS, EPA, VA, USDA, OVP, FBI, 
DOT, DOL, and TSWG. The interagency working group has completed a draft 
version of a Chemical End-to-End Assessment that identifies critical 
gaps and vulnerabilities in the Nation's chemical defense.
    The Science and Technology Directorate participated on the 
Counterproliferation Technology Coordinating Committee Chemical Weapons 
Working Group with other interagency partners, including DOD, EPA, 
TSWG, HHS, CIA, and DIA. The CTCC was created to improve the 
coordination of WMD R&D efforts among government agencies. The CTCC 
Chemical Weapons Working Group meetings resulted in the development of 
a document identifying priorities, gaps and overlaps in existing R&D 
programs.
    The Science and Technology Directorate initiated an interagency 
technical working group focused on the establishment of an 
Environmental Chemical Laboratory Response Network. Interagency 
partners in this effort include DOD, EPA, CDC, FBI, CIA, HSC, OSTP, and 
OVP.
    The Science and Technology Directorate is a leading member of a 
technical working group to establish CSAC. The CSAC will provide the 
Nation with the scientific basis for awareness of chemical threats and 
attribution of their use against the American public and involves 
knowledge management, threat characterization, and forensics. The 
interagency partners in this effort include DOD, CIA, DIA, and the FBI. 
Currently, efforts are focused on the development of MOUs between DHS 
and DOD and DHS and the Intelligence Community.
    The Science and Technology Directorate is a member of the 
Scientific Working Group for Forensic Analysis of Chemical Threats 
(SWGFACT). Interagency partners participating in SWGFACT include DOD, 
DOE, FBI, CDC, FDA, and USDA.
    The Science and Technology Directorate participated jointly lead an 
effort with OSTP to develop an interagency report to shape strategy and 
provide guidance regarding WMD research and development. Agencies 
involved in this effort include DOD, EPA, TSWG, CDC, FDA, and NIH. This 
effort resulted in a National Strategy for Chemical Defense that 
outlined necessary efforts by participating agencies.

Explosives Countermeasures:

    The Science and Technology Directorate organized an IED Working 
Group that has included representatives from DOS, DOT, DOI, DOD, DOJ, 
DOE, Joint IED Task Force. This meeting allows each agency a forum to 
discuss their requirements and plans with regard to IEDs. Discussions 
focus on Science and Technology Department mandates, the IED 
organization roles and responsibilities, partnerships, resources, 
operational and technical requirements, plans for FY05 and out years, 
specific projects, technologies of interest, and outcomes/lessons 
learned.
    The Science and Technology Directorate sponsored a VBIED 
conference, attended by representatives of the DOS, DOT, DOD (including 
OSD, OCJCS, USN, USA, USAF, PSEAG, DTRA), DOE, DOJ, FBI, and NIJ. This 
conference provided a forum to share information on detection 
approaches with the community and encourage provocative discussions 
among peers.
    The Science and Technology Directorate is sponsoring a suicide 
bomber conference scheduled for February 2005. The primary focus of 
this meeting will center on the detection of suicide bombers. Speakers 
from appropriate government agencies will present information about the 
technologies, both existing and those in developmental stages, 
qualified for detecting explosives carried on the person.
    The Science and Technology Directorate has worked closely with TSWG 
and DOD in their efforts to address the explosives threat, including 
participation in conferences, technical evaluations, program reviews, 
and site visits.

Radiological/Nuclear Countermeasures:

    The Science and Technology Directorate hosted an interagency 
Technical Exchange Meeting to provide a forum for interagency 
communication on Radiological and Nuclear Countermeasures research and 
development.
    The Science and Technology Directorate participated in several 
exchanges with DOE components working the radiological/nuclear area to 
consolidate efforts.
    The Science and Technology Directorate participated on the OSTP 
Domestic Nuclear Defense Working Group to facilitate the formation of 
the Domestic Nuclear Defense Office.
    The Science and Technology Directorate has a lead role in the 
establishment of the DNDO. The DNDO is being stood up as a national 
office that will be comprised of interagency participants. The office 
will be located within the Department of Homeland Security (DHS), but 
will be jointly staffed with representatives from DHS, the Department 
of Energy (DOE), the Department of Defense (DOD), and the Federal 
Bureau of Investigations (FBI), with coordination between the 
Department of Justice (DOJ), the Department of State (DOS), the 
Intelligence Community (IC), and other departments as needed. 
Interagency staff will hold principle management positions within the 
DNDO when it becomes fully operational.

Standards:

    The Science and Technology Directorate interfaces with other 
government agencies to facilitate the development of standards for 
Homeland Security concerns. The Directorate's interactions with other 
agencies resulted in several voluntary consensus standards developed in 
concert with US industry and accredited Standards Development 
Organizations (SDOs).
    The Science and Technology Directorate collaborated with DOD (Army, 
Navy), DOE (National Labs), USDA, and DOC/ National Institute of 
Standards and Technology) and developed standards for radiation 
detectors for radiological & nuclear countermeasures.
    The Science and Technology Directorate collaborated with DOC/NIST, 
HHS/Centers for Disease Control, DOD (Office of the Secretary, Army and 
Navy), FDA, USDA, EPA and FBI to address detection standards for 
Bacillus anthracis (anthrax). This interagency interface resulted in 
the development of standards for detection of Bacillus anthracis 
(anthrax).
    The Science and Technology Directorate succeeded in developing 
standards for personal protective equipment for emergency responders 
through collaborative interagency efforts with DOD (Edgewood and 
Natick), the DOC/NIST, and HHS/NIOSH (Pittsburgh laboratory).
    The Science and Technology Directorate developed standards for 
biometrics (facial photograph standards) by partnering with DOC/NIST, 
DOJ/FBI and Department of State.
    The Science and Technology Directorate participates on an OSTP/NSTC 
Subcommittee on Standards that included DHS, National Research Council, 
Environmental Protection Agency, Department of Energy, Health and Human 
Services/National Cancer Institute, DOL/Occupational Safety and Health 
Administration and Department of Defense. This Subcommittee on 
Standards developed Protective Action Guides to provide federal 
guidance to emergency responders to a dirty bomb or nuclear.

Border and Transportation Security:

    The Science and Technology Directorate regularly interfaces with 
the Department of Justice personnel and is involved in various National 
Institute of Justice (NIJ) Office of Science and Technology activities. 
NIJ convenes a technology review board which enables technology 
transition. NIJ also has a Southwest Center of Excellence for Public 
Safety Technology. The Directorate has been involved in the University 
of Houston's educational workshop which is part of the NIJ Center of 
Excellence.
    The Directorate is also in the process of setting up a formal 
interface with the Federal Bureau of Investigation. The FBI's R&D 
director is a newly created position, and the Directorate anticipates 
meeting to discuss areas of collaboration, technology information 
exchange, and technology transition.
    Over the past two years, the Science and Technology Directorate has 
coordinated extensively with the Department of Defense and Federal 
Aviation Administration with respect to Unmanned Aerial Vehicle (UAV) 
operations and evaluations. Last year, the UAV Executive Steering Group 
(UAV ESG) was established to advise the Secretary of Homeland Security 
and provide a forum for communication, coordination and cooperation to 
address DHS UAV issues. The UAV ESG is made up of representatives from 
DHS components, the Department of Defense and the Federal Aviation 
Administration.
    The Science and Technology Directorate is a representative on the 
InfoSec Research Council (IRC). The IRC is an interagency working group 
that engages in coordination activities at a more technical level than 
the CIP IWG. The IRC is updating the InfoSec Hard Problems List, a 
report on important information security research challenges that was 
first published in 1999 and is in need of updating due to the 
significant advances and evolution in technology in the past five 
years.
    The Science and Technology Directorate and NSF are jointly co-
funding the two large multi-university projects that form a Cyber 
Security Testbed Program and recently co-sponsored a United States-
Japan Experts Workshop on Critical Information Infrastructure 
Protection.

Emergency Preparedness and Response:

    The Science and Technology Directorate established the Interagency 
Modeling and Atmospheric Assessment Center (IMAAC) in April 2004. The 
IMAAC is currently operational and provides atmospheric hazards 
predictions for incidents of national significance. Participants 
include DOD, DOE, EPA, NRC, NOAA, NASA, and DOC. The IMAAC developed an 
MOU that establishes general operating principles and provides for the 
development of annexes which detail the department to agency specific 
resource commitments. In addition to the MOU the working group has 
produced an interim Standard Operating Procedure, currently is 
reviewing the template for annexes, and started discussions on other 
critical aspects of atmospheric hazard prediction that will improve the 
coordination of federal assets.
    The Science and Technology Directorate participates in the Federal 
Committee for Meteorological Services and Supporting Research (FCMSSR). 
This interagency group provides direct policy guidance to the Office of 
Federal Coordinator for Meteorological Research.
    The Science and Technology Directorate participates on the 
Interdepartmental Committee for Meteorological Services and Supporting 
Research (ICMSSR) and co-chairs an interagency Joint Action Group as 
part of this committee. A collaborative process was co-led by the 
Directorate and the Army Research Office, with participation from DOE, 
DTRA, Dugway Proving Grounds, EPA NASA, NOAA, and the NRC to focus on 
modeling of Atmospheric Transport and Dispersion (ATD). The Joint 
Action Group, as a subset of the ICMSSR, developed an Atmospheric 
Transport and Diffusion Research and Development Plan that describes 
the requirements to meet ATD user-community needs. The R&D Plan also 
recommends strategies to address those needs to achieve reliable ATD 
modeling capability.

Critical Infrastructure Protection:

    The S&T Directorate co-chairs the Infrastructure Subcommittee (ISC) 
of the National Science and Technology Council (NSTC), and over twenty 
other government agencies are members of the ISC. The ISC reports 
directly to two NSTC committees: the Homeland and National Security 
(co-chaired by the Directorate) and the Technology committees. The ISC 
developed the first annual 2004 National CIP R&D Plan as well as hosted 
a Federal CIP R&D Managers Workshop focused on drafting the 2005 
National CIP R&D Plan.
    The Directorate is co-sponsoring a multi-agency (including non-
government) CIP Roundtable with the National Academy of Sciences that 
will begin meeting in the upcoming year. The roundtable is aimed at 
addressing the most pressing vulnerabilities associated with critical 
interdependent infrastructure systems. A dialogue between government, 
industry, and academia will be established to facilitate development of 
a long-term strategy for reducing the vulnerability of the Nation's 
infrastructure to debilitating failures, whether from terrorist acts, 
natural disasters, or accidental failures.
    The Science and Technology Directorate is a member of the DOD 
Defense Science Board Task Force on Critical Homeland Infrastructure 
Protection. The Defense Science Board (DSB) on Critical Homeland 
Infrastructure Protection (CHIP) has concluded their assessment of US 
Homeland Installations, and is in the process of writing a report on 
identifying issues for balancing military and private responsibilities 
for Critical Facility Protection. The report will also address 
shortfalls and deficiencies associated with operational security, and 
gaps in security standards.
    The Science and Technology Directorate is an ex-officio member of 
the Government Coordinating Council for Nuclear Power Plants. This 
Council is one of the entities established by the National 
Infrastructure Protection Plan (NIPP). In a joint effort, the Nuclear 
Power Plant and Disposal Facilities Government Coordinating Council 
(GCC) and Sector Coordinating Council (SCC) is conducting Comprehensive 
Reviews on all of the Nation's Nuclear Power Plants used for commercial 
power generation. These reviews include Buffer Zone Protection Plans, 
Site Security Plans, Nuclear Site Security Annexes, On-Site Emergency 
Preparedness Plans, Off-Site Emergency Preparedness Plans, and 
consideration of the general vulnerability to an aircraft as a weapon.

Cyber Security:

    The Science and Technology Directorate co-chairs the Critical 
Information Infrastructure Protection Interagency Working Group (CIIP 
IWG). The CIIP IWG is chartered by the White House Office of Science 
and Technology Policy (OSTP) under the National Science and Technology 
Council (NSTC) and is co-chaired by OSTP. The CIIP IWG has membership 
from more than twenty organizations in over a dozen departments and 
agencies, meets monthly, and is developing a coordinated interagency 
Federal Cyber Security R&D Plan to guide future funding and 
programmatic decision-making in this area.

                   Biography for Charles E. McQueary
    Dr. Charles E. McQueary was appointed by President Bush as Under 
Secretary for Science and Technology of the Department of Homeland 
Security and confirmed by the U.S. Senate in March of 2003.
    Dr. McQueary leads the research and development arm of the 
Department, utilizing our nation's scientific and technological 
resources to provide federal, State and local officials with the 
technology and capabilities to protect the homeland.
    Prior to joining Homeland Security, Dr. McQueary served as 
President, General Dynamics Advanced Technology systems, in Greensboro, 
N.C. Earlier in his career, Dr. McQueary served as President and Vice 
President of business units for AT&T, Lucent Technologies, and as a 
Director for AT&T Bell Laboratories.
    In addition to his professional experience, Dr. McQueary has served 
his community in many leadership roles as Chair of the Board, and 
Campaign Chair, of the United Way of Greensboro; Member of the Board of 
Trustees of North Carolina Agricultural and Technical State University; 
Member of the Guilford Technical Community College President's CEO 
Advisory Committee; Member of Board of World Trade Center North 
Carolina; Chair for Action Greensboro Public Education Initiative; and 
as a Member of the Board of Guilford County Education Network.
    Dr. McQueary holds both a Ph.D. in Engineering Mechanics and an 
M.S. in Mechanical Engineering from the University of Texas, Austin. 
The University of Texas has named McQueary a Distinguished Engineering 
Graduate.

                               Discussion

    Chairman Boehlert. Thank you very much.
    And thank all of you.
    Mr. Kassinger, this is not so much a question but an 
observation. To quote a late, very popular President, ``There 
you go again,'' I note, once more, that the Manufacturing 
Extension Partnership is drastically cut in the proposed 
budget. That, I think, is unacceptable to the Congress on a 
bipartisan basis. One of the few programs designed to help the 
small manufacturer improve his processes so it can improve its 
marketing and improve its employment opportunities. So please 
carry the message back that we are enamored with the MEP 
program. We want it to continue, and we will work cooperatively 
with you to try to convince you that you should be as 
enthusiastic about it as we are.
    Now to Dr. Bement.
    I am concerned about education at NSF, as I indicated in my 
opening statement. My view is that NSF has a unique role in 
education because of its connections to universities, its peer 
review process, and its history of running successful education 
programs, way back to the teacher-training institutes of the 
1960s. How do you see NSF's role in education? And why is it 
being eroded so steadily? Is this a stealth effort to get it 
out of NSF and over exclusively in the Department of Education? 
Because if it is, we have detected the effort, and we are going 
to vigorously oppose it, because we think you do things 
exceptionally well at NSF. And if we keep doing things the same 
old way, we will get the same old results where our youngsters 
in science and math education proficiency just don't measure up 
to their counterparts around the world.
    Dr. Bement. Yes, sir. The Administration does support NSF's 
research in the area of education at every level. And they are 
working very hard to strengthen those programs. As a matter of 
fact, even with the reduction in education, there are enormous 
successes. We have been working with pilot school districts in 
K-12 education around the country. We will never have enough 
resources to deal with all of them. But in my visit to El Paso 
last week, I saw one of these success stories. The NSF has 
supported them through the systemic initiatives for five years 
and through the Math and Science program for five years. They 
are one of the poorest school districts in Texas with a student 
population of about 85 percent Hispanic students. And----
    Chairman Boehlert. Excuse me. If I may interrupt, because I 
have a limited time----
    Dr. Bement. You want a short answer.
    Chairman Boehlert. I know about some of your successes, and 
boy, I applaud those successes. But it is a funny way to show 
support when we have a reduction of 22 percent below the fiscal 
year 2004 level. And I know there are some within the 
Administration, present company, I think, excepted, who want to 
put everything in science and math education in the Department 
of Education. Well, that hasn't worked. And this so-called 
stealth attack is not going to work, if I have anything to say 
about it. And I am going to get you more resources. Because if 
we don't do a better job in K-12 in science and math education, 
all of those Nobel laureates that Secretary Bodman is bragging 
about, well, they are going to diminish in numbers compared to 
the Nobel laureates from abroad.
    So I want you to carry that message forward.
    Dr. Bement. Yes, sir.
    Chairman Boehlert. Okay.
    Let me turn to Dr. McQueary, because you and I have been 
exposed to something that I think is quite important, and that 
is container security technology. And we have had an 
opportunity to see some exciting developments, particularly the 
one company that is developing an end-to-end system for 
tracking cargo shipments while also detecting attempts to 
tamper or open containers while in the supply chain.
    I know from your testimony that DHS is working on future 
smart container initiative, encompassing container security, 
communications, and data systems for the future. Is this a new 
start for 2006? And how much does DHS intend to spend in the 
program? And in your view, are we spending enough on this 
important area of R&D, because we keep hearing about port 
security and the----
    Dr. McQueary. The issue of container security as they come 
into this country is, obviously, extremely important. The 
complexity of the job is one, as we know, and all you have to 
do is go to a port and see the number of containers that are 
coming in, whether the correct answer is one of having every 
container have a device on it so that one can know exactly what 
is in it, about where it came from and so forth, is the correct 
answer, and have someone monitoring that all of the time, or is 
there a better solution that lets us know that when a container 
is packaged, and then we know what is done with it subsequent 
to that packaging before it gets into this country. Because we 
are talking if we were to go down the path of having enormous--
have a sensor in each and every container, then we are talking 
about having enormous data information flow and analysis that 
is required. And I think it is extremely important that we know 
which approach is the one. The work that we are doing in the 
science and technology direction is focusing on two things. One 
is the sensors themselves, what would be a good sensor. And of 
course, there is some tremendous work that is going on in RFID 
tags, and we believe that we are going to see an answer there, 
and I think we will be able to make a recommendation.
    Chairman Boehlert. How much is involved in this future 
smart container initiative?
    Dr. McQueary. Sir, I would have to--I don't have that 
number off the top----
    Chairman Boehlert. Provide it for the record.
    Dr. McQueary. If I could provide it for the record, I would 
appreciate that.
    Chairman Boehlert. Okay.
    Dr. McQueary. But--and then the other part is the--as I 
indicated, is how we put all of this information together, 
because quite frankly, I think the whole issue, for the 
Department of Homeland Security, of how you collect the 
information disseminated is one of the largest challenges that 
we have, a lot more so than just the scientific aspect of it.
    Chairman Boehlert. Well, when you have this array of talent 
before you and you have the podium, the advantage of the Chair, 
my temptation is to just go on and on with my questions, but 
the red light is on for me. And so I will defer to my 
distinguished colleague, the Ranking Member, Mr. Gordon of 
Tennessee.
    Mr. Gordon. Thank you, Mr. Chairman. There is a lot to talk 
about, so let me just quickly concur, Mr. Kassinger, with the 
MEP program. We all think this is an important productive 
program for the country.
    And Dr. Bement, science education is cut, again, I want to 
concur, in that science education funding is very important.
    Dr. Marburger, throughout your testimony, you sort of 
factored out, I guess you would say, congressional earmarks to 
make the figures look better. Let me point out that the entire 
Administration budget is an earmark. And it would seem that, as 
an equal partner in government, that the Legislative Branch 
might have some good ideas, also. For example, as the Chairman 
pointed out, we would not have a tsunami warning system now if 
it wasn't for earmarks there. So you know, the equal branch 
congressional earmarks are very, very small in comparison to 
the Administration's complete earmark. So I just want to be 
sure that we understand that.
    And Dr. Marburger, you again mention a historic increase in 
R&D over the course of this Administration and record R&D 
budgets. And while R&D, as a percent of discretionary spending, 
is relatively high, in historic terms, the federal R&D as a 
percent of GDP is near a 50-year low. And while I accept your 
point that weapons systems development can drive innovation and 
strengthen economic competitiveness, you, yourself, have stated 
before this very Committee that the federal R&D budget is an 
imperfect value for evaluating science and technology funding. 
Most agree that the S&T budget is a more exact measure of 
research funding and that decreases by 1.4 percent, or $877 
million in the request. But if you want to use R&D, let us use 
the R&D. The R&D increases by merely, approximately, 1/2 
percent, which is less than the two percent expected rate of 
inflation. So in real spending power, it is a decrease. 
Overall, R&D funding for basic research would decrease by 1.2 
percent and funding for applied research would decrease by $3 
million, again, all less than the two percent inflation.
    Now again, Dr. Marburger, I do not mean this as personal 
criticism. You are dealing with the hand you were dealt, and if 
you were the dealer, I think that might be, you know, 
different. So again, this is not personal to you.
    Now Dr. Bement, I have got some--I want to go over some 
things with you. I have got some questions, and I have staff 
that is going to bring the questions to you--I am going to read 
them for the record, but so that it will be easier for you, you 
can have them also.
    Dr. Bement, although the budget request shows a 2.7 
increase for Research and Related Activities, the actual budget 
picture is much less positive. Over 40 percent of the increase 
is an accounting change, or some might say gimmick, for how the 
Coast Guard is reimbursed for the use of its icebreakers in 
support of the National Science Foundation's science 
activities. As the budget presentation points out, the actual 
increase proposed for research projects is approximately 0.3 
percent, which is, as we have pointed out, below inflation.
    And so here are some questions concerning the icebreaker, 
Dr. Bement.
    At what level of the Administration was the decision made 
to give the National Science Foundation responsibility to 
assume more of the icebreaker operations and maintenance costs 
in fiscal year 2006? Is NSF the sole user of the Coast Guard 
icebreakers, or do the icebreakers have other missions? What is 
the current arrangement for reimbursing the Coast Guard for 
icebreaker use? And how much did the National Science 
Foundation spend for this purpose in fiscal year 2004? And how 
much is projected to be spent in fiscal year 2005? And does the 
National Science Foundation have an agreement with the Coast 
Guard on the cost of use of icebreakers in 2006? And is it 
possible that the reimbursement could exceed the $48 million 
budgeted? And finally, and I hope all of this can be, you know, 
crisp, is the National Science Foundation formally obligated to 
use the Coast Guard icebreaker to meet its needs for fiscal 
year 2006? Or is the Foundation free to lease foreign 
icebreakers? And is leasing foreign icebreakers a viable 
option?
    Dr. Bement. Thank you for those questions. I will try and 
be crisp.
    The estimated cost for maintaining the Polar Sea and Polar 
Star, which are near the end of life, is around $70 to $75 
million over the next two or three years per year, which 
greatly exceeds the amount that was provided through this so-
called accounting change. The decision to give NSF that 
responsibility came as a result of several meetings at the 
White House between OSTP and OMB since the dominant use of the 
icebreakers is in support of science. But that is not its only 
use. In the polar treaty it is also expected that the United 
States will maintain a presence in the Antarctic, which goes 
beyond the science. And there are other missions for ice 
breaking, which could include navigation, military support, and 
so forth.
    The current arrangement for reimbursement of the Coast 
Guard is that we will reimburse for use of the icebreakers for 
science support.
    Mr. Gordon. And that has been determined to be $48 million?
    Dr. Bement. Well, we are currently in discussion with the 
Coast Guard to develop an operating plan for fiscal year 2006 
that will be within an affordable limit that we can deal with. 
Those discussions are ongoing. We should have a determination 
later in the spring, and we can share that with you at that 
time.
    Let us see. As far as obligation to use the Coast Guard 
icebreakers, yes, by law, we are obliged to use the Coast Guard 
icebreakers if they can perform a mission. This last year, 
because the Polar Sea was laid up, and it takes two 
icebreakers, one in support to free up the lanes for logistics 
support, we, with their concurrence, also looked at foreign 
icebreakers that could help support that mission. And it turned 
out that the only one that was available was the Krasin, which 
was a Russian icebreaker, and they performed the mission 
splendidly well.
    Mr. Gordon. Thank you for helping enlighten me on this 
issue.
    Chairman Boehlert. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I represent a number of high-tech companies, and a 
particular interest of mine is nanotechnology. And I know all 
of the witnesses know how important that subject is. My 
question to Dr. Marburger and Dr. Bement and Mr. Kassinger is 
this. What is the Federal Government doing in research and 
development to promote nanotechnology, to integrate it better 
with other sciences, and to educate the American people about 
its promise?
    Dr. Marburger. Let me begin by saying that each of the 
people at the table here do have a stake in nanotechnology. And 
I believe at the present time, 13 agencies are involved in the 
National Nanotechnology Initiative.
    My office does provide coordination, a very vigorous 
interagency working group, and operates the National 
Nanotechnology Coordinating Office, the NNI Coordinating 
Office, with a paid executive who ensures that the agencies 
that have something to contribute to nanotechnology will be 
involved in the program and active. We are vigorously reaching 
out, not only to the agencies, but also to the community to 
understand what their needs are. And it is one of the high 
salience programs in this Administration.
    Mr. Smith. Thank you.
    Dr. Bement, do you have anything to add to that?
    Dr. Bement. Yes, we have a lead responsibility for the 
nanoscience initiative, the NNI. And we exercise that in 
cooperation with the National Science and Technology Council 
through interagency cooperation, because we are all leveraging 
off each other. We also have international programs, and we 
also have industry linkages through SBIR and STTR programs.
    We are focused primarily on seven different initiatives 
through all of these mechanisms. One is fundamental phenomena 
and processes, research and nanomaterials, nanoscale devices 
and systems, instrumentation research for nanotechnology, in 
other words, how do you measure down at the level of a proton, 
instrumentation research for nanotechnology, nanomanufacturing, 
and this is where the strong linkages are with industry, major 
research facilities and instrumentation acquisition and 
societal dimensions, because we are worried about toxicology 
concerns. We are worried about public concerns. We don't want 
that to block the innovation or the eventual migration of new 
technologies coming out of this field into the marketplace. So 
we are investing about $44.5 million in that area.
    Mr. Smith. Thank you.
    And Mr. Kassinger.
    Mr. Kassinger. Mr. Smith, we also are heavily invested in 
this area. It is one of the three areas I identified as the 
priorities in my oral statement, and my written statement has 
more detailed information. But specifically, in our Advanced 
Measurement Laboratory, we are proposing $10 million towards 
the National Nanomanufacturing and Nanometrology facility, 
which will be a brand new facility to work with in cooperation 
of industry on these issues. We are putting another $4 million 
into nanomanufacturing research also in connection with that 
effort. So it is an important focus of attention for NIST.
    Mr. Smith. Thank you very much.
    Dr. McQueary and Dr. Bement, I would like to ask you about 
cyber security. Obviously, one of the great threats to our 
homeland security is a breach in our cyber security systems. So 
what is the government doing to strengthen our cyber security 
defenses?
    Dr. McQueary.
    Dr. McQueary. The science and technology organization 
within the Department of Homeland Security serves as a support 
role to the National Cyber Security Division, which is located 
in the IAIP [Information Analysis and Infrastructure 
Protection] organization. We have requested about $17 million 
in support of the R&D activity. It focuses in a number of 
areas. One is in the establishment of a joint laboratory with 
the National Science Foundation in which we can actually do 
cyber security technology testing, if you will, because you 
don't want to do testing out on the open Internet. You want to 
have something that is confined to be able to do that. We 
support that activity jointly with them.
    And then we are funding some research in the area of the 
domain name cyber security activities that are going on, too. 
But we really are in a support role, if I may, because we don't 
have a charter to go off on our own and independently work that 
issue.
    Mr. Smith. Thank you.
    Dr. Bement.
    Dr. Bement. Yes. Most of our investment in this area comes 
through our Computer and Information Science and Engineering 
[CISE] Directorate, which directly addresses the President's--
or the Cyber Security Research and Development Act. In addition 
to the investments by that directorate, other directorates are 
also contributing to developing robust computing systems, which 
will eventually make computing systems much more secure. So we 
track our total investment at about $94 million and the CISE 
investment at about $69 million, which is a significant 
increase.
    Now that deals not only with secure architectures but 
secure networks and also robust software and intrusion 
protection systems.
    Mr. Smith. Thank you.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    And this committee is particularly proud of the Cyber 
Security Research and Development Act and the 21st Century 
Nanotechnology Research and Development Act. Those are two 
initiatives from this committee.
    There is good news and bad news in this story. I mean, when 
you are looking at nano, we have increased, more than doubled, 
funding from 2001 to the present. And that is good news. That 
is money well spent. And when you look at cyber security, it is 
sort of flat spending. And Dr. Bement, as we look at your 
budget, we are excited about certain areas of it, but once 
again, education takes a hit, and it is down 27 percent for 
cyber security-focused education programs. That is a cause for 
some concern.
    Dr. Bement. I should also mention that under the H1-B Visa 
account, we are planning to invest about $100 million in not 
only computer and IT training, but also cybertraining, which 
will partly offset some of the reductions in cyber security 
training.
    Chairman Boehlert. Thank you for that input.
    Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you.
    I would like to join you in welcoming all of our witnesses 
here today. Mr. Secretary, congratulations on your 
confirmation, and we look forward to working with you.
    I have two questions, two separate topics. One is that I am 
pleased, and I think the Committee is pleased, that the 
Administration has again reaffirmed their commitment toward the 
FutureGen project, the future generation power plant and has 
called for an $18 million funding level, the same appropriation 
level as they called for last year. And we are also pleased 
that the Department of Energy has moved forward with the 
consortium in order to move the FutureGen project forward. We, 
of course, in Illinois, believe--there are a number of states 
that, I believe, are attempting to convince the Department of 
Energy and the consortium that the FutureGen plant should be 
built in their state. We believe that Illinois, and in 
particular, southern Illinois, has all of the necessary 
components to make this project successful. And regardless of 
where it is sited, we believe it is a very good project and 
will help make us become less dependent on OPEC oil and more 
dependent on natural resources from us.
    I wonder if you might give us an update as to where we are 
with the future generation project and comment about the 
consortium and a date when we can expect the Department and the 
consortium to make a decision on site selection.
    Secretary Bodman. Well, first of all, Mr. Costello, your 
number is accurate in terms of the amount of money, $18 million 
in this year's budget, and I think it is $260-some-odd million 
anticipated in the 2007 budget, which will get us well on the 
way to funding this multi-hundred-million-dollar project. We 
will be meeting the coalition; this is to be a partnership 
between public utilities and coal producers with the Federal 
Government. And so we have been going back and forth with the 
coalition, and we will--we have scheduled a meeting. I don't 
have the exact date in my mind, but soon, within the next month 
or two, I believe. That is my best guess. And in order to try 
to reach some conclusion, I think that, frankly, there has been 
some hesitancy on the part of the coalition to move forward 
unless there is greater certainty, in terms of the funding. And 
we, on the other hand, are trying to stage this in a way that 
matches up with the very stringent budget situation that we 
find ourselves in.
    So we are continuing to work with them. And we do believe 
in it. We think this is very important.
    Mr. Costello. Is it reasonable for anyone to assume that--
assuming that progress is made with the coalition, that a 
decision might be made by the end of the year as to the 
location of the plant?
    Secretary Bodman. I have only been there two weeks, sir, so 
I am going to take the fifth on that, if I may. I don't want to 
give you a date and then be unable to honor it.
    Mr. Costello. Sure.
    Secretary Bodman. I would be happy to look into it and give 
you a better response, you and the other Members of the 
Committee, if that is of interest to you.
    [The information referred to is located in Appendix 2: 
Additional Material for the Record.]
    Mr. Costello. And I would like to do that, Mr. Secretary.
    The other point that I would make, it is really not a 
question, and I know that you have only been there a few weeks, 
so I won't ask you to make a commitment on this, but I ask you 
to consider it.
    This committee has gone on record supporting external 
regulation for the ten non-defense civilian labs operated under 
the jurisdiction of the Department of Energy. My colleague, Mr. 
Calvert from California, and I have sponsored amendments that 
have been approved in the past through this committee. And it--
every other institution, both in government, education, and in 
the private sector, is subject to being regulated by external 
regulation through either the NRC or OSHA. We have repeatedly 
attempted to get these ten labs, and let me say that there were 
three deaths that happened last year and 2004 at these labs. We 
have repeatedly asked the Department of Energy and others to 
support external regulation. So I would ask you to go back and, 
as you are organizing your organization in the Department of 
Energy, to please take a look at external regulation for those 
civilian labs. And at some point in time, I would like to 
revisit this with you.
    Secretary Bodman. If I could just respond briefly, sir, and 
tell you that the safety of the employees of this Department 
will have my highest level of priority. My two former 
colleagues on the left, Dr. Bement and Mr. Kassinger, can tell 
you of my days in the Commerce Department when we all worked 
together there that that was my highest priority there. It will 
continue to be in this area. And I will look into the matter 
related to the regulation. I am aware of your interest in it, 
sir, and of your having sponsored the amendment. All I can tell 
you is that we share a common goal, that is to say to have a 
much higher degree of certainty with respect to the physical 
safety of all who work in our laboratories, be they 
contractors, be they federal employees, or be they 
subcontractors.
    Mr. Costello. Well, your concern for worker safety is well 
known, and I commend you for that and know that that is one of 
the reasons why I am encouraged that you are the Secretary of 
the Department now. And I would look forward to working with 
you on this.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Ehlers. [Presiding.] Thank you.
    As you probably heard, the bells rang, and we are having a 
vote. We are trying to set up a rotation scheme here, and so I 
will ask questions next, and hopefully another member will come 
back from voting and chair by the time I finish.
    I really have very few questions. I have lots of 
complaints. And the point is simply that the funding for 
science this year is just inadequate. I would recognize the 
tough budget. I recognize tough times. I recognize the military 
necessities we have. But we seem to forget the important role 
that research and education plays in our national defense and 
also in our national prosperity. One of the first tasks I was 
assigned when I came to the Congress was to try to develop a 
statement of national science policy, which really hadn't been 
done since Vannevar Bush did it in 1945. And we did our best. 
We produced something which was approved by this committee and 
the House of Representatives. And we made that point very 
clearly in there. But as part of the process of writing that 
report, I tried to find out what the rate of return on our 
investment in scientific research was. I gave up. I read a 
number of papers on this. But I can tell you that the estimates 
of the rate of return on our investment in science range from a 
low of about 25 percent to a high of 4,000 percent. Now you can 
take your pick anywhere between there, but the point is simply 
that putting money into science research and into math and 
science education is an incredibly good investment for this 
country. And yet, I think in this budget, we are being very 
penny-wise and pound-foolish by not putting enough resources 
into that. And when we ask for some money for the military, 
``Oh, yes. Of course. Don't you need an extra $5 billion?'' 
without recognizing that the money we are putting into science 
is likely, for the long-term, much more important for the 
defense of this Nation than any of the money we are spending 
this year on the Defense budget.
    I guess that would be the end of my sermon but not the end 
of my complaining. And when I look at the NSF budget in 
particular, two items stand out. First of all, we are supposed 
to appreciate the generosity that the National Science 
Foundation did very well this year compared to most other 
civilian agencies. And that may be, but when you take the $130 
million increase, subtract the $48 million for the icebreakers, 
we are down to $84 million, and we find out that we are 
considerably below the fiscal year 2004 expenditures. In other 
words, you know, this Congress passed a bill saying we should 
double the funding of the NSF over five years, which means an 
average 15 percent increase, and yet two years ago, we were 
spending considerably more on the National Science Foundation 
than we are proposing to spend next year. That just doesn't 
make sense. We are going downhill instead of uphill.
    When you look at math and science education, a 12.4 percent 
cut, last year this committee conducted a special hearing on 
the proposal to take money from the National Science Foundation 
Math and Science Partnerships and put it in the Department of 
Education. I would say this committee was unanimously opposed 
to that proposal and spoke strongly against it. We all assumed 
it wouldn't happen, and yet in the omnibus bill, it did happen. 
The National Science Foundation funding for math and science 
education, which they have done extremely well for very many 
years, was cut. And in fact, the National Science Foundation 
was cut $60 million below the previous year's actual 
expenditures. And that is the first time in over 10 years that 
the National Science Foundation's spending has been reduced.
    I am not blaming you. I am not blaming the Administration. 
The Congress was complacent in that, and they have to take the 
responsibility. But to cut it further--and I understand we are 
increasing the spending for Math and Science Partnerships in 
the Department of Education. The point is simply these are two 
different programs of two totally different natures. And 
somehow thinking that, ``Well, we have this program in the 
Department of Education. We want to beef that up. Let us take 
money away from the National Science Foundation to do that.'' 
And as I told the key members of the White House dealing with 
this that that is absurd. Just because it has the same name 
doesn't mean you have to rob money from a program that is doing 
well and spend it on another program that is also doing well. I 
mean, if they are both good, why cut one to fund the other?
    It is very frustrating to me to recognize the need and 
incidentally, I have been involved with Mr. Udall, who already 
went to vote, but he and I are co-chairs of the STEM caucus, 
STEM education caucus, Science, Technology, Engineering, 
Mathematics education caucus. I can't believe the response that 
we have received, both from the members and particularly from 
industry. We have industry groups literally fighting to get on 
our Advisory Committee to help us. We have had CEOs of 
technically-oriented companies coming in to meet with 
appropriators and beg that they will increase the funding for 
math and science education, because they simply can not hire 
employees who can do the job. And we complain a lot about 
outsourcing jobs to India and China, but what do you expect? 
They, 15 years ago, recognized what had to be done. They 
improved their science and math education programs. And so the 
business is going there, because they are producing good 
scientists, engineers, mathematicians, and we are not.
    As I said, this is more in the nature of a complaint than a 
question, because I don't think any of you here bear 
responsibility for the budget that has been put together. I 
personally called OMB and said, ``Please do not use last year's 
NSF budget as a benchmark for next year. Don't pass the 
punishment on from year to year.'' And unfortunately, it didn't 
happen. We still don't have the funding there. And the cut in 
the Department of Energy, again, is a very large cut to an 
organization that does a great deal of good. And if we are not 
serious about solving our energy problems, which is what the 
Department of Energy is supposed to do, I don't know where we 
are going to be 15 years from now in trying to deal with these 
problems.
    My time has expired. I apologize for unloading on you, but 
I want to get this on the record. And I hope we can all work 
together to try to change this, certainly during this coming 
fiscal year, and undoubtedly for the fiscal year beyond that.
    Mr. Lipinski is next, but he has left. And I am the only 
one, so I am going to declare a recess while I go vote. And Mr. 
Boehlert, I am sure, will be back soon.
    The Committee stands in recess.
    [Recess.]
    Chairman Boehlert. We will start again, and I will take the 
advantage of being in the chair and continue the questioning 
until some of my colleagues return.
    Dr. Bodman, let us talk about DOE Office of Science. I 
think there has been consensus inside and outside the 
government that the physical sciences are underfunded, but the 
Office of Science, which funds 40 percent of that research 
continues to fare poorly in Administration budgets. Doctor, you 
weren't at DOE when the budget was put together, but can you 
offer us any insight on how to reverse this trend? And if 
funding remains limited, what would be the priority for the 
Office, funding existing facilities, starting new facilities, 
or funding individual researchers? The current budget proposal, 
in a way, does badly by all three, postponing or killing some 
new projects, cutting back on the hours of existing projects, 
and cutting individual researcher grants by about 10 percent. I 
think you can sense from the tone of the question that, 
speaking on behalf of the entire Committee, we are big fans of 
the Office of Science, and we think this is an area that 
demands more attention. And you being the new guy on the block 
at DOE, I would like to get some of your insight.
    Secretary Bodman. Well, first, Mr. Chairman, I am very 
pleased to learn that--or reinforce that the Committee is 
enthusiastic about the Office of Science. I share that, as I 
mentioned, in my opening remarks. The Office has prepared what 
they have called an outlook, the document that describes places 
in priority, various initiatives that are on the radar screen 
of the Office of Science. It is, I think, a very particularly 
well done document. It is not a plan in the sense that it is 
not a commitment to the funding. And frankly, what was done, 
under the circumstances that we have been dealing with in terms 
of the financial support that this Office has generated, is to 
look at the outlook and to make a determination, particularly 
for some of the highest and most costly undertakings that we 
have deferred those, frankly. And just in the sense of trying 
to provide support for those we believe that we can undertake 
and not mislead anyone. And so that is what this budget does.
    We are enthused about the choices that have been made. We 
think that great progress can be made. I intend to be a 
vigorous advocate for this Department as we start the 
discussions on the 2007 budget. And in subsequent years, I will 
do my best to be vigorous and hopefully effective. We have 
great leadership in that office, as I have mentioned during my 
remarks, and I am very enthusiastic about it.
    I might mention, one of the challenges of managing the 
Energy Department is the fact that a lot of what we do is not 
known, doesn't seem to get much publicity. I thought the 
question, for example, on the nanotechnology centers, we have 
got four new ones that will open up as a consequence of this 
2006 budget at our national laboratories. It is, I think, the 
second largest component of the interagency effort and leading 
with it, but the questions were directed at three of my 
colleagues, and I just wanted to put an aura in that we also 
have a major undertaking in that area----
    Chairman Boehlert. Well, that is great. And----
    Secretary Bodman.--that combines with theirs.
    Chairman Boehlert. As I indicated, from 2001 to 2005, it 
has more and doubled the nano budget, so that is one of the 
many positives in an otherwise very difficult budget. And let 
me reiterate to you that we also have great confidence in the 
leadership of the Office of Science. We would like to see some 
followership in terms of dollars. And I hope that you--well, I 
know you are concerned about the trend down rather than up, and 
I hope you will work with us to reverse that.
    Secretary Bodman. Well, I think it is, as you and I have 
talked during my days in the Commerce Department, the funding 
that the health sciences have benefited from, extraordinary 
growth in support, where the physical sciences have been level 
to down for many years. And I think this is something that OMB 
is aware of, and they have got very tough choices to make 
themselves under the circumstances that we find ourselves in, 
so this is what we feel is the best tradeoff.
    Chairman Boehlert. Mr. Kassinger, let me ask you one.
    We were enthusiastic with the Administration's immediate 
response to the tsunami, the devastating loss of lives and 
property. And we are supportive of the Administration's 
proposal to expand tsunami detection and warning capabilities 
to all U.S. coasts, not just the Pacific, but all U.S. coasts: 
the Atlantic, Caribbean, and the Gulf of Mexico. NOAA's budget 
request cuts by nearly 50 percent the Tsunami Hazard Mitigation 
Program. Now in Washington terms, we are not talking about big 
dollars, from $4.3 million to $2.3 million. This program 
provides funding for education and outreach activities as well 
as help local communities with evacuation planning, which we 
happen to think is quite important. And witnesses at the 
hearing we had last week stated that these education activities 
were almost as important as the technology for detection. Why 
was the program cut in half when NOAA is requesting $9.5 
million for new buoys?
    Mr. Kassinger. Well, Mr. Chairman, NOAA is not only 
requesting $9.5 million into supplemental for new buoys, but 
another $14 million in the 2006 request to build out the system 
completely. That amount of money doesn't just go to buoys. It 
goes for all of the instrumentation, the seismometers that go 
with that, the other programs to improve community 
preparedness, including education, also, more money for mapping 
of where tsunami inundations may occur. I am not sure that it 
is correct to say that education is more important than the 
technology we are investing in.
    Chairman Boehlert. Believe me, you wouldn't get the 
Chairman of the Science Committee saying that.
    With that said, all of our expert witnesses indicated the 
importance of education almost as important as the development 
of technology, not on that--on an equal level.
    But as we look at the Administration's request, and once 
again applauding it, immediate and comprehensive, except that 
it is really petty cash we are talking about. As I looked at 
the request, the total request, like $37.5 million, it was a 
little over a million for education. And I remember one of the 
witnesses telling us a very poignant story that an English 
family was visiting Thailand, a resort in Thailand. And the 
tsunami was coming. And a 10-year-old girl stood on the beach 
and said, ``That is a tsunami. We just studied that in school 
last week.'' She issued the warning. The parents went to the 
management of the hotel. They immediately evacuated the beach, 
and I don't know how you put an estimate on such things, but it 
is claimed, and this story was widely reported, it is claimed 
that this action of the 10-year-old saved about 100 lives.
    I guess the point is, a million and a half is not very much 
for education. So while we are not suggesting that we take it 
out of the money for buoys, and we are not saying write a blank 
check, but I would hope, as you examine this request, that we 
can work together and perhaps get some more in there for 
education and to help communities on our own--in our own 
country with evacuation plans.
    Mr. Kassinger. We will certainly take a look at that, Mr. 
Chairman.
    Chairman Boehlert. Thank you very much. I do appreciate it.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And welcome to the 
panelists.
    I have a question--a comment and a question for Mr. 
Kassinger.
    The MEP is a State-federal partnership, and every federal 
dollar is leveraged by $1 of state funds and $1 in fees for 
service. And every year, since the Administration has proposed 
cutting MEP funding, we have asked what consultation have you 
had with the states. And every year, we get the same response 
that we will be doing that in the future. So have you had any 
discussions to date about this year's federal funding level?
    Mr. Kassinger. We have not consulted with the states on 
this year's funding level, Mr. Honda, because our feeling is, 
of course, we needed to talk to you first on the Hill. But we 
will be doing that. Our proposal is to reduce the federal 
share, but we feel like the amount we proposed will be 
sufficient to maintain the national system of centers. And the 
question is, as you, I think, are alluding to, what is the 
appropriate sharing relationship? How can we help our--work 
with our partners to find other sources of funding to the 
extent the states and communities want to do more with these 
centers? I know of the strong interest in the Committee in this 
program, as voiced by Chairman Boehlert and Mr. Gordon, and we 
will continue to work with our partners on the program.
    Mr. Honda. There was a recent study commissioned by the 
Department of Commerce, and the outcome was something like the 
small manufacturing market is underserved in terms of 
assistance with the productivity and performance improvement 
measures. And given this finding and increasing pressure of 
global market competition on small manufacturers, doesn't it 
feel like we should be increasing the funds rather than cutting 
them back in order for us to be more economically viable?
    Mr. Kassinger. Well, again, Mr. Honda, we support 
maintaining the national system of the MEP centers, but in a 
time of tight budgets, the question is how large the federal 
share should be of that. If the program is so successful and 
valuable, we would hope that others would support that with 
additional money. We will be talking to our federal partners, 
as we did last year, about other sources of funds within the 
Federal Government as well.
    Mr. Honda. Okay. And then relative to ATP, and I will 
change the question slightly from the last couple of years. How 
seriously are we supposed to take your proposal to terminate 
the program given that you haven't provided funding to execute 
this elimination? You would have to reassign or eliminate at 
least 228 positions. And that cost could be as high as about 
$20 million to do this. And ATP is expected to fund about $13 
million worth of R&D at the NIST labs. So if ATP ceased to 
exist, it would cost NIST as much as $33 million to pick up 
that effort. And this would eat up most of the proposed 
increase for the labs, if I read the budget correctly. So 
either we are supposed to believe that you really don't want to 
increase NIST lab funding or that you really are not serious 
about terminating ATP. Could you explain which it would be?
    Mr. Kassinger. There is a third alternative and that is we 
are very serious about our proposal to eliminate the ATP 
program. You are correct that there would be transition costs. 
We believe those are manageable within the budget. I think it 
is premature to estimate, or even speculate, about the number 
of positions that we would have to reduce, for example, or how 
much intramural funding we would have to reduce.
    There are several reasons for this. For example, every 
year, we know that there are parts of the ATP grants that are 
terminated, and that leaves money. We don't know how much that 
will be this year, but history teaches that there will be 
several million dollars available to contribute to these other 
transitional costs.
    The other point I would like to make is that the increase 
in labs that we are proposing of nearly 13 percent would be 
built into the base. That is a permanent commitment by the 
Administration to build up what we regard as the real core NIST 
programs. ATP is a program that has had some successes over the 
year, but it clearly is not a core mission of NIST in these 
days.
    So we think we can manage the transition, and we are very 
serious about transferring the focus to the core NIST programs.
    Mr. Honda. So it sounds like you will continue it, but it 
will continue through attrition so that it will hit zero some 
time in the future.
    Mr. Kassinger. Well, our program--our plan, if Congress 
agrees with our proposal, would be to wind up the ATP program 
in 2006, so it won't be an indefinite into the future 
situation. We believe that we can manage this with our proposed 
funding.
    Mr. Honda. Since I still have a little bit more time, 
Secretary Bodman, I am looking at the budget for energy 
efficiency and renewable energy programs, and I am a little bit 
puzzled. The Administration is making the long-range Hydrogen 
Fuel Initiative a big focus, but as you well know, hydrogen is 
not an energy source. It is, rather, an energy carrier. And for 
the initiative to succeed, we are going to have to come up with 
some way to produce hydrogen in a way that must be sustainable. 
And so otherwise, we might continue to deal with the greenhouse 
gas emissions problem. We won't end our dependence on finite 
fossil fuel supplies. But this budget cuts funding for energy 
efficiency and renewable energy programs by 11 percent. Dr. 
Secretary, can you tell me where the hydrogen is going to come 
from if we don't develop the means to produce it?
    Secretary Bodman. There are a variety of ways of producing 
hydrogen. One is electrolysis that could be readily carried out 
in conjunction with nuclear power, one of the initiatives that 
the Administration has argued for and continues to aspire to is 
an increased use of nuclear energy, which has the advantage of 
not producing any carbon dioxide or other oxides of carbon. 
Electrical energy could be used for the generation of hydrogen. 
There are also some other higher temperature cycles that have 
been discussed in connection with the nuclear program that 
could also lead to the production of hydrogen. And then some of 
the coal technologies, the FutureGen project in the coal area 
calls for hydrogen production itself. And so there are a number 
of other initiatives that would produce hydrogen. You are quite 
right in characterizing it as an energy carrier. That is what 
it is. And it has the advantage of producing water as a 
byproduct, which is something that is quite benign in the 
environment.
    Mr. Honda. You mention a couple of sources for energy. Are 
there other----
    Chairman Boehlert. The gentleman indicated before that you 
had a little time left, and I noted it was just one second. You 
are right: there was a little time. And now you are 
considerably----
    Mr. Honda. Thank you, Mr. Chairman.
    Chairman Boehlert.--over that, Mr. Honda.
    Mr. Honda. If you don't mind, then, I would like to submit 
the rest of my questions to the individuals in writing and----
    Chairman Boehlert. Oh, without----
    Mr. Honda.--I would like a written response.
    Chairman Boehlert. Without any objection, because as the 
witnesses know, this committee has a penchant for submitting 
questions in writing following your testimony. It gives you 
some time to think about your answers. We would hope for a 
timely response, which would enable us to do our jobs.
    Mr. Honda. Yes. And one other comment, Mr. Chairman. I 
appreciate having this hearing, but each one of those gentlemen 
can provide a sufficient, you know, conversations and questions 
and I ask for----
    Chairman Boehlert. Oh, yeah.
    Mr. Honda.--a hearing in and of itself, so maybe some time 
in the future we could arrange that.
    Thank you very much.
    Chairman Boehlert. Well, I am so glad that you brought up 
MEP again. I think you got the message, Mr. Kassinger and Dr. 
Marburger. I mean, look at the whole genesis back in 1988 when 
we established MEP, we looked at one of the most successful 
programs in the history of the Republic, cooperative extension. 
And that has enabled American agriculture to be the most 
productive agriculture economy worldwide. And I remember at 
that time, Dr. Frank Rose was President of Cornell University. 
Mr. Secretary, you are fond of that great institution. And I 
said to myself, ``Why not something for manufacturers, 
particularly the small manufacturers, patterned after 
cooperative extension?'' And that is sort of the genesis of the 
program. But we keep fighting every year with the 
Administration. I mean, this is not a gift to small 
manufacturers who desperately need assistance: 1/3 Federal 
Government, 1/3 State, 1/3 users. I mean, that is a pretty fair 
arrangement. And if you are--Dr. Marburger, if you are going to 
cut the program by 60 percent, I don't see how in the hell you 
can maintain the same national network. Does that mean you are 
going to eliminate half of the centers? And then what kind of a 
national network do you have? I mean, this is something, as I 
think you can sense from my commentary, but from others like 
Mr. Gordon and Mr. Honda, on both sides, this is one program 
designed to help the small manufacturers in America. I am sort 
of tired of seeing so much go beyond our borders. I would like 
to help those within. But I don't want to give them a gift; I 
want to give them a helping hand. So can you assure me that we 
will maintain a national network under the modest request from 
the Administration?
    Dr. Marburger. I think Mr. Kassinger's commitment to the 
program was well characterized in his remarks. There is a 
question of priorities here. And I think that one of the key 
decisions that had to be made was to balance the long-term, 
enormous impact that the work that the NIST core budget 
supports in research, basic research for new technologies, 
future technologies versus, admittedly, an immediate, 
relatively small leverage impact compared to the huge impact of 
the core budget. That is one of the considerations that I am 
aware of. But we are not arguing that the program is not 
valuable. I believe the program is valuable. And we felt that 
the funding that is in this request is adequate to support it 
during these times.
    Chairman Boehlert. Guess what? We don't agree, but that was 
a very skillful answer from a very professional witness. We do 
appreciate that, but we are talking long-term, too, and we 
would like there to be longer term for a lot of the small 
manufacturers who might no longer be in business absent some 
input from these MEP centers, which I think are proving very 
productive. But this conversation will continue.
    Thank you very much.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me note that today's discussion is taking place in the 
context of a level of deficit spending of $500 billion a year. 
And that is why we are here. That is why there is some 
pressure. That is why people are talking about various issues 
that we are talking about today. But if we didn't have a $500 
billion level of deficit spending, it would be a whole 
different discussion, or at least it should.
    When you have these types of economic pressures, I find it 
a bit disturbing that the discussions that we have had have not 
centered on what are you doing to cut spending or what are you 
doing to cut out the most wasteful or least productive spending 
that you have had under your jurisdiction. And that doesn't 
seem to be what has been discussed at all today. In fact, we 
are discussing why we aren't spending more in certain areas. 
When I was a speechwriter, people would always come to me. I 
was a speechwriter for President Reagan for seven years. And 
then they would come to me and say, ``You have got to cut down 
the length of this speech. And by the way, we want you to 
include this, this, and this.'' And it is the same principle. 
And either we are serious about this $500 billion deficit or we 
are not.
    Let me ask you this, Dr. Marburger. Did you say earlier on 
that you were going to increase spending for fusion energy?
    Dr. Marburger. I did not say that we are going to increase 
spending for fusion energy. I don't have that particular number 
at my fingertips, but this Administration does support 
continued progress on nuclear fusion as an energy source in the 
distant future.
    Mr. Rohrabacher. Maybe you could outline for me the great 
progress we have had on fusion energy. Quite frankly, I did a 
study on that a number of years ago and found that it was the 
least--had the least amount of progress of any of the energy 
research that was taking place, and it was receiving hundreds 
of millions of dollars. Maybe somebody could enlighten me as to 
what has happened in the last few years that justifies changing 
that opinion.
    Dr. Marburger. Right. In just a few words, some things have 
happened in the last few years that justify changing that, and 
one of them is the development of the instrumentation that 
permits us to understand--to peer into the interior of these 
very complex machines and measure the conditions there. Another 
important breakthrough is the quality and strength of our 
computing power that allows us to simulate and numerically 
design devices, these very complex devices, for containing the 
very high-temperature fusion plasma.
    Mr. Rohrabacher. Well, has there been any----
    Dr. Marburger. And there have been important advances in 
the comparison between what we----
    Mr. Rohrabacher. Have we seen any advance in the actual--I 
mean, the last time I heard it was less than a second blip of 
fusion reaction. Has there been any greater length than that?
    Dr. Marburger. It is necessary to build a larger machine to 
see the physical phenomena that now stand in the way--may stand 
in the way of future development.
    Mr. Rohrabacher. I am very----
    Dr. Marburger. That is what ITER is all about.
    Mr. Rohrabacher. I am very interested in that, and if you 
could--your office or someone else send me something that would 
show me the progress that we have had. I think it was four or 
five years ago that we actually analyzed fusion and found it to 
be----
    Dr. Marburger. I would be glad to do that in cooperation 
with the Department of Energy.
    Mr. Rohrabacher. Okay. And Secretary Kassinger, in that 
same era, when we tried to reduce the budget, we found that one 
of the things that could really be done at NOAA much cheaper is 
to actually charter ships when they need them rather than 
having a navy. Does NOAA still have a navy all of these years?
    Mr. Kassinger. We do have the NOAA corps, which is--both 
operates the NOAA--the officer corps, which----
    Mr. Rohrabacher. But do they have--do we have ships and----
    Mr. Kassinger. Yes, we have fisheries research vessels and 
mapping vessels that they are the officers for. They--you know, 
we----
    Mr. Rohrabacher. Is there any reason why, if that could be 
done in the private sector at considerable savings, that we 
shouldn't be doing that?
    Mr. Kassinger. If that were the proposition, that would be 
the case, but we have looked at that, and it is not evident 
that savings are available.
    Mr. Rohrabacher. Well, I can tell you we had hearings on it 
six or seven years ago, and I remember it was very beneficial.
    Mr. Kassinger. We have contracted out in the last year or 
so for some oceanographic mapping services.
    Mr. Rohrabacher. Okay. I would suggest that when you are--
when we are facing these kind of budget crunches that we need 
to look at privatization. We need to look at every alternative 
that we can. And we mentioned the nanotechnology that $45 
million was being spent for commercialization of 
nanotechnology. Is that what you said?
    Mr. Kassinger. Not commercialization, but we are investing 
in the advanced measurement laboratory at NIST where we are 
putting that money into facilities that will be joint industry 
government research facilities.
    Mr. Rohrabacher. People suggest that nanotechnology is 
going to be incredibly profitable, and it is going to have an 
incredible impact on our economy, and thus our large 
corporations will be making big profits with nanotechnology. 
Have we done anything to build a payback into the system so 
that the nanotechnology developed by our research projects 
will, in some way, be paid for by those commercial entities 
that are using them for profit in the future?
    Mr. Kassinger. The users of the facility contribute to the 
cost of using the facility.
    Mr. Rohrabacher. Right.
    Mr. Kassinger. We have not--if you are suggesting have we 
taken an override on, say, patent royalties or something, no, 
we have not.
    Mr. Rohrabacher. Right. Well, I would suggest that instead 
of, Mr. Chairman, instead of complaining that the glass is half 
empty or half full, that we should be looking at ways like that 
of making sure that the people who benefit from these 
investments, especially big corporations, will pay in the 
future for the type of research that is being done. And number 
two, I would hope that when there is any private sector 
alternative that is cheaper for us to do, like the NOAA navy, 
that we should be going in that direction.
    And I appreciate you very much.
    Chairman Boehlert. Thank you very much for your comments.
    The gentleman's points are well taken.
    I would commend to him for his reading the current issue of 
Business Week, which has a cover story on nanotechnology, which 
gives an exciting forum, the great promise this holds for the 
future of our economy. And I would further point out that in 
all of our dialogue with our very distinguished witnesses, we 
have not mentioned a number of areas that are proposed for 
reductions, but we have pinpointed those areas that we think it 
would be wise to consider increases. Because as we have learned 
from the great revolution of the '90s when we had 10 
consecutive years of growth in our economy, everything was 
going up: more jobs, more opportunity, more exciting products. 
That was a technology-driven drive upward. And our investment 
in technology and science and technology paid very handsome 
dividends for America.
    So we are talking about a modest program like the 
Manufacturing Extension Partnership----
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Boehlert. Yeah.
    Mr. Rohrabacher. If you would indulge me just one thought, 
and that is, we talked about cyber security. Obviously, the 
companies that are going to most benefit from cyber security 
technology are these big computer companies. Why aren't we 
making sure--and that was going to be another question that I 
didn't have time for, why aren't we making sure that those 
companies are going to have to pay for the research that is 
going to give them this great profit in this new technology?
    Just a thought.
    Chairman Boehlert. Let me tell you, the greatest 
beneficiary of advances in cyber security will be the United 
States Government.
    The Chair now recognizes Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman. I do agree with you 
on MEP, just so you know.
    Dr. Bodman, welcome to your new position at the Department 
of Energy.
    I would like to put up a slide, if I could.
    [Slide.]
    That is a picture of a site near the Colorado River near 
Moab, Utah. This is a site right now that is controlled by the 
Department of Energy. And I noticed in the budget, under the 
line item of acceleration completions, that there is a $20 
million increase in this category, which would include 
projects, such as this site in Moab. By background, this site 
is a 10.5 million-ton pile of uranium tailings. It is leaking 
into the Colorado River, where there are over 25 million users 
downstream.
    And if I could put up slide number two.
    [Slide.]
    Congress passed a law, which the President signed into law, 
that indicated that this site should be moved, that the 
tailings pile should be moved to another location within the 
State of Utah. I will pause a second if people want to read 
that.
    The reason I point this out is that after Congress passed 
this law saying that it ought to be moved, Congress also asked 
the National Academy of Sciences to do a study of this site. 
And the National Academy report indicated the current site is 
unstable and that the scenario where the Colorado River 
ultimately would run across the site is a near certainty. And a 
recently completed U.S. Geological Survey report verified the 
findings of the National Academy of Sciences report.
    And so it is interesting that right now--we could go back 
to the first slide again, just so people can see the picture.
    [Slide.]
    It is interesting right now the Department of Energy is 
undertaking an environmental impact statement to evaluate what 
to do to mitigate this problem. And in the environmental impact 
statement process, the draft that was issued listed, as some of 
the options, leaving the pile in place, which is in direct 
contradiction to what Congress said the Department of Energy 
ought to do. In fact, this draft environmental impact statement 
that came out from the Department of Energy, didn't list a 
preferred alternative, which I thought was kind of unusual not 
to list one, so hope springs eternal that the preferred 
alternative in the final EIS perhaps will be to move the pile, 
as Congress has asked that it be done.
    But I noticed, as I said, in the budget, an increased 
amount of money going into that account compared to what had 
been spent in previous years. And I guess I wanted to ask you 
if you had a sense of why this account was increased and what 
impact it would have for fiscal year 2006 on remediation 
activities at this site. And secondly, I would like to see if 
you had any sense of why the Department's draft environmental 
impact statement included options under consideration that are 
in contradiction with public law passed by the Congress?
    Secretary Bodman. I am familiar, sir, with the existence of 
the site and the history of it, how it originated, and how it 
ended up under the care of the Department of Energy. I am aware 
of that.
    Mr. Matheson. All right.
    Secretary Bodman. I am aware that there is an environmental 
impact statement being prepared. I can't comment on whatever 
alternatives were being considered are or are not in agreement 
with federal law. I can assure you that this Department will 
not knowingly violate federal law. There may be differences of 
opinion as to what the law says. I can't----
    Mr. Matheson. I understand.
    Secretary Bodman.--speak to that. And I can tell you that 
since this is now my responsibility, I will pursue this, as I 
will every other part of my responsibility, with vigor.
    Mr. Matheson. Well, I appreciate that. I appreciate, with a 
new person in charge, the opportunity for new vigor to pursue 
some of these things.
    I would also add that an independent study by scientists of 
the University of Utah has found that the radioactive 
contamination has gone underneath the river and is approaching 
the groundwater supply for the town of Moab. Not only the 25 
million users downstream face a long-term issue of concern, but 
there is an immediate issue of concern for the residents living 
right in the area. And I would encourage you and the folks in 
the Department to take a look at this draft EIS, and when you 
publish the final EIS, I would encourage folks to consider what 
public law said.
    And lastly, on that EIS, I would encourage people to look 
at the overall long-term life cycle cost of the different 
options, because if we cap it in place, I think there will be a 
longer cost over time. There is a higher up-front cost in 
moving the tailings pile today, but I think there is a higher 
long-term cost if we leave them in place. And my concern is 
short-term cost considerations are going to trump the right 
decision that ought to be made. And that is the message I 
wanted to deliver to you today.
    Secretary Bodman. Your message has been delivered and 
received, sir.
    Mr. Matheson. Well, I appreciate that.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired.
    The distinguished Chairman of the Subcommittee on Research, 
Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.
    You know, it seems to me that in the President's budget, 
what he is attempting to do is what we all must do. He is 
attempting to focus on the most needful priorities. Simple 
spending must give way to thoughtful investing. If it produces 
a return, invest it. If it doesn't, cut our losses.
    Investments in innovation make an awful lot of sense. Our 
future depends on innovation. And one of the ones that I am 
particularly excited about that Secretary Bodman mentioned was 
the President's hydrogen initiative. We have an exciting 
opportunity in South Carolina involving BMW and Michelin in 
funding a graduate Department of Engineering at Clemson 
University that, along with Microsoft and IBM, would partner to 
create an opportunity to develop smart cars and fuels of the 
future. BMW has a hydrogen car right now, a direct-burn 
hydrogen car. If we went to Spartanburg right now, we would see 
it.
    So Mr. Secretary, the question I have for you is when will 
we be seeing some fuel for that car? And what can we do to 
hasten that day that we could actually drive it out of the 
BMW's interim and up to the 300-mile radius that it is about to 
achieve?
    Secretary Bodman. First, I am pleased to hear that you are 
as enthusiastic about the prospects for our hydrogen-powered 
vehicles as I am. Secondly, there are some experimental 
stations being set up that do provide for hydrogen in limited 
quantities. I think before a more extensive network is put in 
place, the effectiveness and the cost effectiveness of the 
technology has to make some progress. At least that is my 
preliminary view. I have not gotten into detail on it. I have 
not looked at the BMW car, and I don't know what its cost might 
be in terms of if it were in mass production. But as a general 
matter, these vehicles and the technology involved in them 
remains very costly. And therefore, there remain doubts as to 
how rapidly the technology could be moved to the bulk of our 
population.
    We continue to fund efforts at identifying the technical 
challenges involved in developing fuel cell or hydrogen-powered 
vehicles, one of which is carrying enough hydrogen. And that is 
a real challenge to get enough hydrogen on board and how do we 
store it and how do we do it under pressure conditions that are 
acceptable in terms of the safety of the occupants of the 
vehicle. So we are continuing to work on it. I don't have a 
fixed date for you----
    Mr. Inglis. Right.
    Secretary Bodman.--that I would have any confidence in.
    Mr. Inglis. You know, it is also exciting that at Savannah 
River Site, which of course is under your jurisdiction, we have 
a long history of dealing with tritium under pressure and 
storage issues there. So hopefully we can have some of that 
expertise apply to this question. And we are very excited about 
that.
    Dr. Bement, you may have answered this question while I was 
voting in another committee, but the question about whether the 
change in the education funding is just a function of tight 
budget times or whether it reflects a policy decision or a 
different direction that you are taking.
    Dr. Bement. I think it is some of both, Mr. Inglis. Fist of 
all, in order to meet the requirements of our priorities, 
especially in broadening participation, we did shift some funds 
out of undergraduate education and shifted it in broadening 
participation, because about 2/3 of that funding is really 
undergraduate education, not only in research universities, but 
four-year colleges and community colleges. So the base is much 
broader than what you might see in a table where you are only 
looking at one element.
    The total investment in broadening participation, if you 
just look at the programs of congressional interest, would be 
about $400 million, but if you look at the total investment, 
including all of the science directorates in the offices, it is 
more like $597 million. So that is a very large investment in 
education.
    Now to get to the second part of your question, and I want 
to go back to the question I didn't quite finish with the 
Chairman, we have school districts that have made phenomenal 
progress. They know what works, and they know what works 
because their test scores show that they work. And if I could 
just refer back to the El Paso School District again, that 
school district is 85 percent Hispanic, and over the past 10 
years, they have closed the gap between the performance, not 
only at 11th grade, but at 3rd grade, between white students, 
Hispanic students, and African American students. And they are 
outperforming almost every other school district in Texas.
    So there are lessons. There are best practices. There is 
knowledge there that can be applied to every school district in 
the country. So what is necessary now is to propagate that 
knowledge. And that is what we work with the Department of 
Education to try and bring about, because the impact that we 
can have is small, but the impact that they can have by 
propagating those lessons can be quite large.
    Mr. Inglis. Thank you.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Might I indicate, as always, my appreciation to the Ranking 
Member and the Chairman. But with that appreciation goes a 
concern that each of these representatives really require, for 
any kind of adequate oversight, separate hearings for each of 
you. Frankly, I believe the importance of science is such that 
we don't have enough time to delve into the drastic impact of 
the President's tax cuts and the growing cost of the war and 
Medicaid on science. And I think this budget is an attempt, 
with a lot of smoke and mirrors, to convince us that we have 
any credibility in terms of basic research in the science area. 
And frankly, I believe that we do not have any credibility.
    One of my concerns, of course, is the economy and the good 
work of the MEP program and to find out that this program is 
being cut in half, which says to me that there is not a serious 
concern about the importance and the responsibility of the 
government work with our corporate community in creating jobs.
    If I might share with you briefly some numbers, and I know 
that we will have an opportunity to look fully at the NASA 
budget forthcoming, but if we were to look at the NASA budget, 
let me just simply suggest it goes up a mere $537 million, so 
it is $11 billion. I don't know if there is any opportunity 
there to do the safety review and oversight that is necessary 
and provide the resources that I believe is necessary for the 
safety with the human space shuttle as well as International 
Space Station. I hope to encourage the leadership of this 
committee to have a hearing specifically on safety and how much 
it will cost.
    When we look at energy----
    Chairman Boehlert. Ms. Jackson Lee, we are having a hearing 
just tomorrow on NASA's budget.
    Ms. Jackson Lee. I am aware of that. I won't pursue that. I 
thank you so very much, Mr. Chairman.
    On the energy research R&D, you are going down $101 
million, barely $8 billion, when we have been very much in a 
discussion about the energy dependence of the United States on 
international resources. So obviously, we are not concerned, 
from the R&D perspective, because we have cut that down.
    The National Science Foundation, a mere $4 billion in R&D, 
a $112 million increase. That is a mere shadow of what is 
needed.
    In Homeland Security, one of the big issues for this 
Administration, a mere increase for federal research and R&D. 
One of the key issues of Homeland Security, prevention of 
nuclear attack, has to do with research R&D. And in Commerce, 
it is a minus $121 million.
    So I am not convinced, even with the good will of this 
committee leadership, that we are doing anything but touching 
the outskirts of a tragedy, and the tragedy is that we are not 
interested and committed to basic research R&D and to the 
sciences.
    Let me also mention this, and I appreciate, Dr. Marburger, 
in your answers, if you would give me this. One renowned 
president of a renowned Ivy League institution made a public 
statement about the genetic question of women when it comes to 
science. We are hoping and praying that he has had a rebirth 
and understands the egregiousness of any such comment, and I am 
being kind by not calling the university's name or the 
president's name of that university who formerly served in an 
Administration, in a Democratic Administration. And I imagine 
he has found his way, I hope.
    But in that vein, I am looking at the education 
directorate. The request totals $104 million, or 12 percent, 
below the fiscal year 2005 appropriations level. And it is 
continuing to decline. But more importantly, the decrease is 
comprised of continuing the closeout of the Math and Science 
Partnership program. It cuts the K-12 teacher education and 
professional development program, cuts undergraduate education 
programs, and cuts education research and evaluation programs.
    How in the heck, if you will, are we serious about--even 
with wonderful numbers from El Paso, a great city in my state, 
isolated incident that we are talking about, but we are talking 
about a commitment to education for K-12 and also college age, 
and we are in a crisis with respect to math and science 
scholars, particularly physicists and chemists, who happen to 
be Hispanic, African Americans, and others. We are in a crisis, 
as evidenced when we look to the science institutions, 
including some of the ones that I know, and of course there is 
no presence of minorities in those, and there is no presence 
when they come before our committee. And no one comes to our 
committee, that happens to be a minority, that is testifying on 
anything of substance because we have not reached that point 
yet.
    So I ask humbly your answers, Dr. Marburger.
    Thank you. I yield back.
    Chairman Boehlert. The gentlelady's time has expired, but 
we will permit Dr. Marburger an opportunity to respond.
    Dr. Marburger. Thank you.
    Ms. Jackson Lee, I believe that there is more than one way 
to address the very serious issues that you have raised, and as 
Dr. Bement has pointed it out, some of the support in areas 
other than the education part of the National Science 
Foundation, play a very important role in drawing young people 
into the sciences and mathematical and technical subjects. I 
have a feeling that there is funding well beyond the amounts 
that are in question that is being spent on this critical issue 
elsewhere in the budget, including in the Department of 
Education. I think it is a mistake to discount the enormous 
impact of the potential and existing impact of the Department 
of Education on the improvement of instruction in math and 
science in our schools in the K-12 sector.
    So this Administration does care about education. It does 
believe that education is important. It does believe that no 
child should be left behind, regardless of race or gender, and 
that it will continue to explore the best ways of accomplishing 
educational goals and asking Congress for funds to support that 
and departments that are appropriate to it.
    Chairman Boehlert. Thank you very much.
    Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman.
    I apologize for my running in and out since I am in a 
markup as well. So I think I can make it through my questions 
before I am called back there. But I did want to come and 
congratulate Secretary Bodman on his recent confirmation. I 
know that this is the third or fourth Committee, I think, that 
you have appeared before to discuss the President's budget, and 
I just wanted to know if you are having fun yet.
    Secretary Bodman. I am really enjoying myself, thank you 
for asking.
    Ms. Biggert. Good.
    No, I am confident that you, as a native of Chicago, will 
do a great job and look forward to working with you.
    Chairman Boehlert. Dr. Bodman, could you refresh my memory? 
What was the Senate vote on your confirmation?
    Secretary Bodman. It was unanimous, sir.
    Chairman Boehlert. Oh. That says a lot.
    Ms. Biggert. Okay. And I also wanted to commend Ray Orbach 
for the superb job that he has done for the Department and 
especially for the Office of Science. And then also for 
developing the 20-year facilities plan that cuts across the 
scientific disciplines, not to mention programs and offices at 
the DOE to set priorities for all science. And I think this is 
no small feat and a major accomplishment.
    But as the Chairman of the Energy Subcommittee, and as the 
Chairman sometimes refers to me as the gentlelady from Argonne 
National Laboratory, I do have a few questions.
    And I was disturbed when the fiscal year 2006 budget came 
out to request only $4 million for the continued research and 
development of the Rare Isotope Accelerator, or RIA. And it 
wasn't so much the level of funding that surprised me but--the 
President requested $4 million in his last three budgets, and 
we have raised those before, but what really dismayed me the 
most was to learn that the DOE would not issue a final RFP or 
complete the site selection process, which would put both the 
members of Illinois and the members of Michigan out of our 
misery of what is going to happen with the site. But Congress 
certainly has provided enough funding in fiscal year 2005 for 
the DOE to finalize the RFP and complete the site selection 
process.
    Now I know that you are--that this is--you know, you are 
just here, and but I would like to ask you if, particularly, 
and I notice that there is going to be new investments in ITER 
and the advanced scientific computing. Is the Department 
committed to the construction of RIA, which was ranked--well, 
tied for third place in among the plant's near-term priorities, 
in which I think has really progressed further than certainly 
the number one ITER, which is to be built out of this country, 
as I understand it. So do you think that this--do you have this 
commitment, or is it just gone by the wayside?
    Secretary Bodman. First, I am pleased to be here, and I 
appreciate your introductory remarks.
    The assumptions that you list in your questions, you have 
got all of the right assumptions. It is, in fact, tied for 
third on the list of the outlook of a paper that was pulled 
together by Dr. Orbach and his colleagues. Frankly, I view that 
$4 million as a placeholder. There is not a commitment at this 
point in time. Given the enormity of the cost, the potential 
cost of the RIA, which is of order of $1 billion, that as we 
look out and look at the various financial requirements of 
running the science program. The judgment was made that, even 
though it was ranked very highly, given the costliness of it, 
that at this point in time, we can not say that we are 
committed to issuing the RFP, causing some of your constituents 
and those in Michigan and others, presumably, to go through the 
costly exercise of responding to the RFP when we don't have a 
commitment that we can write a check on. And so that is the 
reason that we made that judgment at this point in time.
    It is an important initiative. Intellectually, it is an 
important initiative, and it was one of the very difficult 
tradeoffs that had to be made that Dr. Marburger referred to in 
arriving at this budget proposal.
    Ms. Biggert. Well, putting more money into the ITER, which 
at their last hearing a year ago, Dr. Orbach said that that 
would cost $700,000 and there would be--$700 million, sorry. I 
forgot a few zeros there. There would be no cost increase, and 
now I see that it is up to over $1 billion, or $1.1 billion, I 
believe. So that surprises me and then saying that there is not 
the money for this one. This has gone so far. I would ask, 
then, if this program were to be resumed, and certainly the 
participants in competing for this project have put a lot of 
money into this already, would that final RFP come out without 
changes, or would all of these people have to start all over 
again? I mean, that is a hypothetical, I guess, but it still is 
an important question.
    Secretary Bodman. Oh, I understand.
    First of all, in terms of the cost, we have partners in the 
ITER proposal, that is a group of six countries. The RIA is 
something that we are going to write--we, the Federal 
Government, U.S. Government, would write a check on in its 
totality. So it is a very substantial amount of money. And I 
don't have a very glib answer for you, ma'am, you know, that 
would satisfy you. I could just tell you that, at this point in 
time, we do not have a commitment to go forward with it. And 
when we look at that and make a scientific judgment of the 
value of that versus the other things and the amounts of money 
that are required, we made the difficult choice of not 
supporting that in this budget.
    Ms. Biggert. Okay. And I think that is about all I have to 
ask, but just let me comment. I think that we have worked so 
hard on the Office of Science and to make sure that people 
understand how important the physical sciences are, and we have 
had an increase in the budget and now that has gone down again, 
and we have worked, I think, so hard with--just to raise the 
consciousness of our members and how important that is, and I 
think that we are just seeing that suddenly, you know, the 
priority is going down again. And I would love to discuss that 
further with you at some point.
    Chairman Boehlert. Thank you. The gentlelady's time has 
expired.
    Mr. Miller, for the final question of the day.
    Mr. Miller. Thank you, Mr. Chairman.
    First, I do want to join Chairman Boehlert, Mr. Gordon, Mr. 
Matheson, and probably others in my support for the MEP. My 
state, North Carolina, has lost many manufacturing jobs. We are 
looking for small to medium-sized manufacturers to create new 
jobs, and the MEP programs are very important to them.
    Mr. Bodman, we had a hearing last week on CAFE standards, 
and I asked exactly the same question to those witnesses that 
Mr. Honda asked you earlier: where is the hydrogen going to 
come from for the hydrogen fuel cell? You described 
electrolysis as part of nuclear power and coal. Where does the 
research into those processes stand, and how are they funded in 
this budget?
    Secretary Bodman. Those processes are funded in this 
budget. The FutureGen project, which will produce hydrogen, is 
funded in this budget.
    Mr. Miller. Is that--is the resourcing to that--and is that 
research part of the hydrogen funding, or is that separate?
    Secretary Bodman. No, it is a separate line item for 
FutureGen, and there is a lot of interest in creating more 
nuclear power in this country and that initiative is in the 
budget. The 2010 proposal looks to expand the presence of 
nuclear power throughout the economy. And there is other 
research as a part of this budget in the nuclear area.
    Mr. Miller. The witnesses last week all said that we needed 
to find a way to remove--or get hydrogen from renewable fuels, 
renewable sources of energy. Are you counting nuclear energy as 
a form of renewable energy?
    Secretary Bodman. No, sir.
    Mr. Miller. Okay.
    Secretary Bodman. There is also an initiative with respect 
to----
    Mr. Miller. Renewable.
    Secretary Bodman.--renewable, yes.
    Mr. Miller. And how is that funded?
    Secretary Bodman. That is part of the renewable energy----
    Mr. Miller. Well, that was cut, was it not?
    Secretary Bodman. It has been reduced--this component of it 
remains an important part of it.
    Mr. Miller. All right.
    In order to have a practical fuel cell supply of energy, we 
have got, first, to do the research to make the hydrogen fuel 
cells practical, cost efficient, and then also do the research 
and accomplish what we need to do to create the sources of 
hydrogen available. What is the realistic time horizon for 
having a significant fuel cell source of energy?
    Secretary Bodman. Fifteen or twenty years.
    Mr. Miller. Okay. You mentioned that the combination of--
that hydrogen fuel cells simply produce water, which is a 
benign--you call it a benign factor in the environment, which I 
agree with. But what are the environmental effects of the 
various methods that are used to generate hydrogen? Apparently 
the current methodology of taking it from fossil fuels is a 
pretty dirty process.
    Secretary Bodman. You are correct, sir, that often, one 
overlooks the environmental impact of just what it will cost to 
create the hydrogen. And so one must be very conscious of that. 
That is why I mentioned the attractiveness, relative 
attractiveness of nuclear energy, the relative attractiveness, 
you have raised the issue of, renewable sources, where we can 
produce hydrogen without having any potential adverse effects 
on the environment.
    The general sense that I have, sir, is that the most 
difficult, the most intractable technical problems, the time-
consuming problems relate to the creation of an adequate fuel 
cell electrode that will produce an economic source of energy 
for an automobile, number one, and number two, the capability 
of storing hydrogen on board the vehicle. Those have proven to 
be very difficult achievements. We have gradually made 
progress. We still have another factor of, I think, three or 
four in terms of the costs that we must get to, and that means 
getting higher electric output for a much less costly 
electrode. So that is where the problem is going to be and not 
in getting the hydrogen delivered throughout our economy, in my 
opinion.
    Mr. Miller. In the last Congress, we had hearings also on 
the--well, I see my time is expired, and we need to go vote, 
Mr. Chairman.
    Chairman Boehlert. Thank you very much.
    And that ends a very productive hearing, and I thank all of 
you for your input, for being so helpful to this committee.
    I think it is very obvious to all of you that this 
committee is very interested in the work you are about. We want 
to help provide the resources you might need. And contrary to 
what some have suggested, we are not recommending increases in 
everything. And contrary to what some others have suggested, it 
is not a terrible budget. It is a budget that we have got to 
massage a little to improve, and when all is said and done, we 
are going to work constructively and cooperatively to do what 
is best for America.
    Thank you very much. This hearing is adjourned.
    Mr. Gordon. Mr. Chairman, if I could, please. Eddie Bernice 
Johnson was here earlier and would like to be able to make a 
couple of questions for Mr. Bodman as a part of the record.
    Chairman Boehlert. All right. Thank you. Without objection, 
so ordered.
    The hearing is adjourned.
    [Whereupon, at 1:45 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John H. Marburger, III, President's Science Adviser; 
        Director, Office of Science and Technology Policy

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  The Administration's Climate Change Research Initiative is focused 
on providing answers to important climate change research questions in 
the near term (two to five years). What is the rationale for cutting 
these activities by $38 million, or 17 percent, while generally 
maintaining current funding levels for the long-term climate change 
research questions?

A1. The FY 2006 Budget requests $181 million for the Climate Change 
Research Initiative, a decrease of $36 million from the FY 2005 enacted 
level. The decrease is due to changes in NASA's budget, which reflects 
the re-scoping of the Glory mission to focus solely on instrument 
development.

Q2.  What role will the Office of Science and Technology Policy (OSTP) 
play in the current negotiations between the U.S. Coast Guard and the 
National Science Foundation (NSF) over reimbursement for ice-breaking 
expenses in fiscal year 2006 (FY06)? How will the wider value of U.S. 
icebreaking capability in the Antarctic--such as enhanced military 
preparedness, or the geopolitical value of a U.S presence in Antarctic 
waters--be factored in to these negotiations? What specific ice-
breaking-related costs are NSF and the U.S. Coast Guard each obligated 
by law to support? Please describe OSTP's position and rationale on 
what flexibility NSF should have to consider alternative ways to get 
needed ice-breaking capabilities at the South Pole in FY06 and future 
years.

A2. Cumulative cuts over time to the Coast Guard's icebreaker 
maintenance funds presented a challenge: adequate funding was not 
available to repair POLAR SEA after Deep Freeze 2004, and the Coast 
Guard would not have the funds if POLAR STAR required major repairs 
after Deep Freeze 2005. In response to this situation, OSTP coordinated 
a series of interagency meetings during the fall of 2005 to develop a 
strategy for maintaining the icebreaking capabilities of the U.S. 
Government. These meetings involved representatives from the National 
Science Foundation (NSF), the Coast Guard, the National Oceanic and 
Atmospheric Administration (NOAA), the U.S. Maritime Administration, 
the U.S. Geological Survey (USGS), the Office of Management and Budget 
(OMB), the Department of State (DOS), and the Arctic Research 
Commission.
    Our primary goal was to develop a recommendation that would 
maintain the U.S. Government's current icebreaking capabilities in the 
mid-term while allowing an orderly process for determining the Nation's 
future needs to take place. The FY 2006 proposal for funding the Coast 
Guard icebreakers needs not be--and is not intended to be--a permanent 
solution. Under our proposal the icebreakers will be maintained until a 
decision can be made to undertake major rebuilds of the existing 
vessels--the ``service life extension programs''--or to replace the 
existing vessels with new icebreakers or to find alternative methods of 
meeting the Nation's mission needs in the Antarctic.
    Under a Memorandum of Understanding (MOU) between NSF and the Coast 
Guard, NSF agreed to reimburse the Coast Guard for its marginal costs 
of operation, up to a share of average annual costs. Coast Guard data 
from 1999 to 2004 show that the defense, enforcement and rescue 
missions combined account for only 1.5 percent of the usage of the 
POLARs. During the period 1989 to 2004, these non-research missions 
account for only 3.0 percent of the total usage. In such a case, the 
marginal costs attributable to NSF come close to equaling the full 
direct costs of operations incurred by the Coast Guard.
    OSTP will continue to coordinate a government-wide analysis of 
icebreaking needs by the involved agencies. We are tasking DOD and 
other agencies with carrying out analyses of their peacetime and 
wartime icebreaking needs in both the Arctic and the Antarctic. We are 
also aware that Congress requested the National Academy of Science 
(NAS) carry out a study of national icebreaking needs. NSF is also 
investigating other options for supporting the United States Antarctic 
Program (USAP). The Administration will use the results of these 
studies to provide an informed plan on the most cost-effective method 
of simultaneously supporting both the needs of the USAP as well as 
maintaining an appropriately sized U.S. icebreaker fleet.

Questions submitted by Representative Judy Biggert

Q1.  Dr. Marburger, where did the Administration draw the line in terms 
of which projects should proceed, and which ones should be delayed? 
With respect to the Department of Energy (DOE), it seems like the 
budget decisions were made in a piecemeal way, on a project-by-project 
basis, and were based not so much on the merit or benefit of a project, 
but rather on its price tag. For instance, it would make sense if your 
office or the Office of Management and Budget (OMB) had put a halt to 
any project for which the Secretary of Energy had not signed a CD-0, or 
even a CD-1 (Critical Decision-0 determines mission need). However, 
that does not appear to be the case. Were there standards or criteria 
used to determine which big projects would proceed with funding, and 
which ones should be postponed or delayed because funding was withheld?

A1. The advice and counsel leading up to the recommendations which form 
the basis of the President's budget are part of an internal 
deliberative process to which I provide input. Decisions on programs 
usually take into account advice from external expert panels. With 
respect to large facilities, I have suggested five priority factors. 
These are not determinative in any specific case, but provide a general 
framework for setting priorities. The following description of these 
factors comes from a presentation I made to a committee of the National 
Academy of Science.

1.  Facilities useful for multiple fields of science

    Imaging satellites, supercomputers, synchrotron light sources, high 
field NMR, ocean research vessels, neutron sources, all have multiple 
uses. Computing power, in particular, has become an essential tool for 
investigating through simulation all physical phenomena described by 
known, highly accurate, physical laws. Higher priority should go to 
facilities that support a broader range of science.

2.  Facilities that enable or exploit major opportunities in science

    The Big-Bang mechanism of cosmic evolution turns the entire 
universe into a high energy physics experiment. The ability to observe 
manifestations of the early universe opens a new window on studies of 
the smallest scales of matter. New instrumentation plus powerful 
computing permits imaging, manipulating, and simulating atomic scale 
processes. This opens new vistas of nanoscience. Fields of chemistry, 
physics, and biology are converging at the atomic scale. ``Genomics'' 
and ``proteomics'' are based on these new capabilities. These are 
examples of unprecedented opportunities that deserve priority 
consideration.

3.  Facilities whose cost and operation can reasonably be shared with 
other nations

    As a matter of policy, it makes sense to share costs 
internationally on expensive basic discovery-oriented science 
facilities. In contrast, other kinds of big facilities, such as 
supercomputers or x-ray sources, produce new knowledge in areas of 
science relevant to national issues, and these should be developed 
independently of international collaboration. Science can be well 
served without duplicating hugely expensive facilities in different 
countries. Where the science scope is large, and user demand is high, 
duplication can be justified (e.g., synchrotron light sources, research 
reactors, satellites, ocean-going vessels, supercomputers).

4.  Facilities that empower large communities of scientists

    Synchrotron light sources may be the most productive of all large 
scientific instruments, but telescopes (on Earth or in space), ocean 
research vessels, and some other obviously ``shareable'' instruments 
rank high. New internet-based communication and control concepts can 
make centralized facilities available to larger numbers of 
investigators.

5.  Facilities that address major national priorities

    Biological containment facilities, observation systems for weather 
and climate, supercomputers for intelligence analysis, and facilities 
for nuclear weapons stockpile stewardship are required to carry out 
major functions of government. The priority accorded to such a function 
transfers to the facilities that support it.

Q2.  Since remaining at the forefront of research in the physical 
sciences is going to require new investments beyond the International 
Thermonuclear Experimental Reactor and Advanced Scientific Computing at 
DOE, is the Administration committed to the implementation of the 20-
year, Facilities for the Future of Science plan developed by the DOE 
Office of Science and publicly touted by former Energy Secretary 
Abraham?

A2. The Administration encourages the development of strategic planning 
documents, such as the 20-year Facilities Plan, which help to inform 
the White House Offices, including my office and the Office of 
Management and Budget, as well as Congress, about the opportunities and 
the strategic plans of the Agency. The 20-year Facilities Plan 
represents a good example of the articulation of priorities for future 
investments in large scientific facilities. Other agencies are 
encouraged to undertake similar prioritization exercises. However, the 
20-year Facilities Plan is a Department of Energy planning document and 
not a statement of Administration position.

Questions submitted by Representative Bart Gordon

Q1.  Since March 2004, the National Institute of Standards and 
Technology (NIST) has been without a full time director. Although Dr. 
Hratch Semerjian has done an outstanding job as Acting Director, the 
fact remains that NIST has been without a full-time Director for almost 
a year. When does the Administration intend to nominate a new NIST 
Director?

A1. The position of Director, National Institute of Standards and 
Technology, has been vacant since November 24, 2004, when Dr. Bement 
was sworn in as the Director of the National Science Foundation. The 
Administration has been working actively since that time to identify 
and nominate a candidate for this position and will announce a 
nomination as soon as the process is complete.

Q2.  Since 2001, we have lost 2.8 million manufacturing jobs. This past 
December alone we lost another 25,000. The Administration's FY 2004 
Manufacturing Extension Program (MEP) Impacts Report says that MEP 
increased sales by $4 billion and created over 50,000 jobs. (These 
numbers reflect results from just 1/4 of the recipients, so they are 
very conservative.)

Q2a.  What other federal program produces the kind of return on 
investment that MEP has demonstrated?

A2a. The estimated return on the Federal Government's investment in R&D 
varies widely. It is clear, however, that this investment has had--and 
continues to have--a tremendous impact on the Nation's economy. The 
programs through which these investments are made are spread across 
numerous departments and agencies, including NIST. According to NIST, 
between three percent and six percent of the U.S. gross domestic 
product (GDP) is attributed to measurements and measurement-related 
operations that rely on NIST for accuracy, reliability, and 
international recognition. Based on the 2004 GDP of $11.6 trillion, 
that equates to a range of approximately $350 billion to $700 billion 
worth of U.S. goods and services. Because of the tremendous impact on 
the economy of NIST's R&D programs, the Administration continues to 
place a high priority on the NIST core laboratory programs.

Q2b.  Given the performance of MEP and the economic situation in 
manufacturing, why hasn't the Administration brought forward a budget 
proposing to expand MEP?

A2b. The Administration's highest priority for NIST is the laboratory 
research programs, which produce the scientific foundation for new 
technologies and support measurement and standards activities that help 
enable the development and commercialization of new and emerging 
technologies. Through these programs, NIST provides the infrastructure 
necessary to promote innovation and enhance the productivity and 
competitiveness of U.S. manufacturers.

Q2c.  How many MEP centers will end up being closed under this proposal 
and where are they located?

A2c. The FY 2006 Budget does not target any centers for closure. NIST 
is in the process of defining the criteria and the process by which 
evaluation of centers will be conducted.

Q2d.  The FY03 and FY04 requests for MEP were both $13 million; the 
FY05 request was $39 million; now we get $46.8 million. Can you explain 
the process whereby the Administration determines the proper funding 
level for MEP?

A2d. The Fiscal Year 2006 Budget request proposes to fund MEP at $46.8 
million, 50 percent of the FY 2005 grant level. This level will enable 
NIST to maintain its focus on improving the productivity, economic 
competitiveness, and technological capability of U.S. manufacturers, 
particularly small manufacturers, through MEP centers. At the same 
time, the Budget will provide the NIST laboratories with the funding 
levels necessary to ensure the scientific foundation for new 
technologies and maintain support for standards activities that are key 
to the development and commercialization of new and emerging 
technologies.

Q3.  The Administration has asked to have the Math and Science 
Partnership transferred to the Department of Education, which has no 
history of working to forge links between schools and university 
faculties as called for in the program. You have also sought a 35 
percent cut to the K-12 teacher training program--this amounts to 
cutting the training program in half over the last two budgets.\1\ 
Meanwhile, our students score badly in international science and math 
tests, and we know that 82 percent of middle school students and 46 
percent of high school students have someone teaching them physical 
sciences who is not considered qualified to teach.
---------------------------------------------------------------------------
    \1\ This figure comes from (presumably) the 34.9 percent reduction 
(over FY05) to the Teacher Development Program in Elementary, Secondary 
and Informal Education Division at the NSF. (ESIE was cut 22.6 
percent.) Funds for Teacher Professional Continuum were reduced by 45 
percent. The program will focus on elementary science in FY06. In FY04, 
TPC received 198 proposals and funded 14 percent. In FY06, 30 new 
awards will be funded. Request is $33M, down $27.2M from FY05 Current 
Plan.

Q3a.  Do you have evidence that either the Math and Science Partnership 
or the K-12 teacher training program at the National Science Foundation 
---------------------------------------------------------------------------
(NSF) was failing or mismanaged?

A3a. The consolidation of the Math and Science Partnership (MSP) at the 
Department of Education reflects a desire to focus the program on 
integrating evidence-based practices into classroom settings and on 
implementing research findings already incurred. NSF continues to 
support current MSP awards (for $60 million in 2006), but otherwise NSF 
is focusing K-12 investments on supporting cutting-edge educational 
science programs.
    While NSF is preeminent in forging relationships between research 
and practice, the Department of Education's MSP program has a statutory 
requirement for departments of engineering, mathematics or sciences to 
partner with State or local institutions of higher education in using 
MSP formula funding.
    It should be noted that the Administration still favors competition 
for this program. The FY 2006 request for MSP at the Department of 
Education of $269 million (a 51 percent increase over FY 2005), 
includes $120 million for competitive grants to improve math education 
for low achieving secondary school students.

Q3b.  Is there a single improvement that you are aware of that would 
have a larger impact on student achievement than having well qualified 
teachers in every classroom?

A3b. Increasing student achievement is a very complex endeavor that 
requires R&D in numerous domains. The availability of well-qualified 
teachers is clearly very important. The President's Department of 
Education budget includes $2.92 billion for Improving Teacher Quality 
State Grants to help states ensure that all teachers of core academic 
subjects are highly qualified, as required by the No Child Left Behind 
Act of 2002. The budget also includes $500 million for a new Teacher 
Incentive Fund, which would provide formula grants to reward effective 
teachers and create incentives to attract qualified teachers to high-
need schools. The new Adjunct Teacher Corps Initiative will provide $40 
million in support of drawing on the skills of well-qualified 
individuals outside the public education system to meet specialized 
teaching needs in secondary schools. In addition, the President has 
proposed to extend the Education Department's new teacher loan 
forgiveness program, enacted for one year as part of the Taxpayer-
Teacher Protection Act of 2004, that will provide up to $17,500 in 
student loan forgiveness to highly qualified math, science, and special 
education teachers serving low-income communities.

Q3c.  Is NSF abandoning its historic role in teacher training and 
professional development? If not, why are teachers and their 
preparation becoming such a low priority at NSF?

A3c. Education and workforce development continue to be integral to the 
mission of the NSF. NSF continually considers new education programs 
that will create the best ways for broadening opportunities and 
participation--including an emphasis on minority-serving institutions 
and community colleges, to link these up with major research 
universities. The FY 2006 Budget will continue NSF's efforts to prepare 
U.S. students to enter the science and engineering workforce, with 
funds for 4,600 graduate research fellowships and traineeships. The 
Graduate Teaching Fellows in the K-12 Education program, which supports 
fellowships that put graduate students in NSF-supported Science, 
Technology, Engineering and Mathematics (STEM) disciplines in K-12 
classrooms, improves teaching and communication skills while enriching 
STEM instruction in these schools. With an increase of $100,000, and 
with support from other NSF Directorates, the program will support 
approximately 935 graduate fellows in FY 2006.

Q4.  A subcommittee of the President's Council of Advisors on Science 
and Technology (PCAST) is reviewing the federal support for basic, non-
classified cyber security research. A preview of the report's findings 
presented at a PCAST meeting last month included a concern that such 
funding is inadequate. The report will call for substantial increases 
in basic cyber security research at NSF, the Department of Homeland 
Security (DHS) and the Defense Advanced Research Projects Agency 
(DARPA).

Q4a.  Is cyber security research an area that receives emphasis in the 
annual guidance OSTP gives to the agencies on national R&D needs?

A4a. While not specifically called out in the guidance provided by the 
joint OSTP/OMB memo that defines Administration S&T priorities, cyber 
security is an important component of the interagency Networking and 
Information Technology R&D (NITRD) Program, which is highlighted in the 
joint priorities memo to agencies. Current cyber security R&D 
activities of NITRD agencies are reported primarily in the High 
Confidence Software and Systems (HCSS) and the Large Scale Networking 
(LSN) components of the NITRD Program. The NITRD Program is currently 
considering reporting the cyber security R&D activities under a new 
Cyber Security component of the Program.

Q4b.  Are you satisfied that the funding requests for NSF, DARPA and 
DHS for FY 2006 will provide adequate resources for this purpose?

A4b. The FY 2006 budget requests for NSF, DARPA and DHS are the result 
of careful prioritization of agency missions and responsibilities. The 
NSF expects to spend $80 million on cyber security R&D in FY 2006, 
which will support research grants on long-term fundamental cyber 
security research and cyber security-related education and training. 
DARPA's FY 2006 budget request of $84 million in cyber security R&D is 
targeted at developing cyber security technologies that benefit the 
military, particularly important in a network-enabled war fighting 
context. DHS's FY 2006 budget request of $20 million ($17 million after 
deductions for salary allocations) for cyber security R&D is formulated 
based on a formal strategic planning process that takes into 
consideration risks, threats, and vulnerabilities. These and other 
agency cyber security activities are consistent with agency missions 
and provide a complementary approach to cyber security R&D.

Q4c.  The PCAST subcommittee also found that the federal research 
effort in cyber security is unfocused and inefficient due to poor 
coordination and oversight. Do you agree with this finding, and do you 
believe cyber security R&D should receive greater attention in the 
planning and coordination of the interagency National Information 
Technology R&D program?

A4c. The finding by the President's Information Technology Advisory 
Committee (PITAC) regarding the coordination and oversight of cyber 
security R&D did not reflect the efforts of the Critical Information 
Infrastructure Protection interagency working group (CIIP IWG), which 
first met in November 2003 and has become increasingly active since 
then. This active coordinating body representing the cyber security R&D 
efforts of over 20 organizations from a dozen departments and agencies 
holds monthly coordination meetings, and is currently completing an 
interagency cyber security R&D plan. PITAC's recommendation that the 
coordination of cyber security R&D should be conducted under the 
Networking and Information Technology R&D (NITRD) Program is currently 
being implemented.

Q5.  The National Science and Technology Council established an 
Education Research Task Group to review current federal education 
research activities and to make recommendations for strengthening the 
federal research portfolio.

Q5a.  What has this Task Group accomplished thus far and are any 
recommendations of the Task Group incorporated in the FY 2006 budget 
request?

A5a. The National Science and Technology Council, Committee on Science, 
Subcommittee on Education and Workforce Development has established an 
Education Research Task Group. The objectives of the Task Group are to: 
a) review and appraise the depth and content of the current federal 
investment in research on learning and education in Science, 
Technology, Engineering and Mathematics (STEM) and in evaluation 
research, K-20; and b) provide recommendations for strengthening the 
federal research portfolio.
    The reports and recommendations of the Task Group will be submitted 
to the Subcommittee on Education and Workforce Development and to the 
Committee on Science for review. To date, no recommendations or 
findings have been forwarded to the Committees or incorporated in the 
FY 2006 budget request.
    The Task Group reports that it has identified the major federal 
agencies that invest in Science, Technology, Engineering and 
Mathematics (STEM) education and evaluation research. Using published 
solicitations and program announcements, the task group reports that it 
is nearing completion of the following:

        1)  a database that characterizes the STEM education research 
        programs and portfolios of these agencies by indicating how 
        much was invested in each of these research areas for each 
        program in FY 2003;

        2)  a grid in which we list the general priorities and 
        objectives that guided these investments;

        3)  a table spelling out in detail the specific priorities and 
        objectives for every relevant program in each of the major 
        agencies funding STEM education research;

        4)  a description by each federal agency regarding the various 
        types of research designs, methods, and data-analytic 
        strategies that are considered to be acceptable and/or of 
        particular interest with respect to the conduct of STEM 
        education research projects;

        5)  a bibliography of 60+ STEM education reports issued by the 
        National Research Council, the National Science Board, or other 
        organizations during the past 5-7 years; and

        6)  a list of recommendations emanating from the above-
        mentioned reports that pertain to research-related issues. The 
        working group reports that it is currently working on a mapping 
        of these recommendations onto the priorities and objectives of 
        all research programs, in order to extract issues and concerns 
        raised in these reports that may still require additional study 
        by the research community.

    Based on this information, the Task Group will then develop a list 
of suggestions and recommendations regarding: 1) how the federal 
agencies might work together to cover gaps and areas of significant 
under-funding in the current STEM education and evaluation research 
portfolio, 2) steps that can be taken to interest investigators who 
study other societal issues to undertake research on education; and 3) 
strategies for attracting students to the STEM education and evaluation 
research fields.
    A report to include the databases and recommendations will then be 
produced and vetted through the respective federal agencies and the 
Education and Workforce Development Subcommittee prior to public 
release. The draft report is anticipated by June 2005.

Q5b.  What is the level of federal funding for education research 
across agencies in this year's budget and how does it compare to the 
previous year?

A5b. No crosscut budget analysis for education research in the FY 2006 
Budget is available at this time.
    The Task Group's charge is to look across federal agencies and 
examine the programs that include a STEM education research component. 
The Task Group took a ``snapshot'' of the investments in STEM Education 
Research for FY 2003 only (the year the Task Group began). Preliminary 
summary data of each agency's budget evaluated by the Task Group 
indicate that NSF funded nearly $140 million in STEM education research 
studies, the Department of Education funded over $28 million (though 
much of this funding wasn't specifically allocated to STEM issues), and 
The National Institutes of Health (National Institute of Child Health 
and Human Development, NICHD) funded nearly $6 million.
    However, it should be noted that the 2006 Budget includes $479 
million for the Department of Education's Institute of Education 
Sciences. The Institute invests some of these funds in new research 
programs, including focused programs to identify effective approaches 
to mathematics and science education, to understand how to enhance 
children's reading comprehension and to intervene with struggling 
readers, to identify which preschool programs best prepare children to 
learn to read and do mathematics, and to determine how to improve the 
preparation and professional development of teachers of reading and 
mathematics. In addition, the Institute launched a major program to 
fund university-based interdisciplinary training programs in the 
education sciences to train a new generation of scientists who are 
capable of linking rigorous research to the needs of education 
decision-makers.
    It is important also to note that education research activities are 
supported throughout the NSF, not only in the Education and Human 
Resources (EHR) Directorate. The Science of Learning Centers, funded 
within Research and Related Activities (R&RA) at $23 million, (a $3.16 
million increase), support multi-disciplinary research to advance 
fundamental knowledge in the science of learning. NSF continues to 
support its Science and Technology Centers with an increase of $2 
million to support two Centers initiated in FY 2005--these Centers 
foster partnerships that build collaborative culture among researchers 
and education, and create team environments for learning and research.
    The NICHD supports research relevant to education via its Early 
Learning and School Readiness Program, which focuses on research that 
attempts to specify the experiences children need from birth to age 
eight to prepare them to learn, read, and succeed in school. The NICHD 
research program in learning disabilities and reading disorders is now 
entering its 39th year; the program has increased from one to 44 
research sites, and findings obtained from these sites now serve as the 
scientific basis for evidence-based reading practices and policies in 
the United States.
    In 2002, the NICHD established its mathematics and science learning 
program to improve understanding of normal and atypical development of 
mathematical and scientific thinking and learning. In FY 2005, the 
NICHD, in collaboration with the Administration for Children and 
Families (U.S. Department of Health and Human Services) and the Office 
and Special Education and Rehabilitative Services (U.S. Department of 
Education) supported the development of tools to measure school 
readiness outcomes for young children. This initiative was directed at 
providing appropriate measures for linguistically and culturally 
diverse populations of young children as well as those with 
disabilities.

Q5c.  What is the relationship between the National Science and 
Technology Council review and the proposed cut of 42 percent to 
education research in NSF's education directorate?\2\
---------------------------------------------------------------------------
    \2\ Presumably, this refers to the 43.2 percent decrease in 
Research, Evaluation and Communication in EHR.

A5c. The Education Research Task Group has not yet made recommendations 
to its parent subcommittees (Subcommittee on Education and Workforce 
Development) of the NSTC, so the work of the Task Group did not play a 
---------------------------------------------------------------------------
role in funding decisions for NSF's education directorate.

Q5d.  Why is the Interagency Education Research Initiative involving 
NSF, the National Institutes of Health and the Department of Education 
being phased out, and again is this an outcome of the National Science 
and Technology Council review?

A5d. As I explained earlier, the Education Research Task Group has not 
yet made recommendations to its parent subcommittees (Subcommittee on 
Education and Workforce Development) of the NSTC, so the work of the 
Task Group did not play a role in decisions regarding the Interagency 
Education Research initiative (IERI).
    The Department of Education reports that the Interagency Education 
Research Initiative not been ``phased out.'' The participating agencies 
decided that it would be better to support the scale-up projects that 
were the focus of IERI through their own agency's competitive 
procedures.
    In FY 2003, the Institute of Education Sciences (IES) funded its 
own IERI projects pursuant to a competition specifically and solely for 
IERI projects that was managed on behalf of NSF, NICHD and the 
Department of Education. This was the last competition dedicated 
exclusively to IERI projects. However, in FY 2004, IES invited 
applicants under their reading comprehension, math and science, and 
teacher quality research competitions to submit applications that 
addressed the IERI goal. Those competitions included other research 
goals that could be addressed by applicants as well. Some of the awards 
made in FY 2004 and FY 2005 addressed the IERI goal, and similar 
opportunities will be available in FY 2006. Both NSF and NIH continue 
to provide research support in these areas.
    The NSF portion of IERI held its own competitions in FY 2003 and FY 
2004 (with a final competition expected in 2005), because NSF believes 
that more projects are needed that focus specifically on mathematics 
and science. In addition, NSF's Research on Learning and Education 
(ROLE) program supports fundamental research on teaching and learning.

Q6.  The Federal Oceanographic Facilities Committee's December 2001 
report forecast the need for the addition of ten new ships over a 20-
year period to the aging academic research fleet in order to maintain 
the current fleet capacity. Little has been done to put in place a plan 
for ship replacement, while we have seen growth in the need for ship 
time to support ocean observatories and to deploy and service the 
tsunamis alert system. Is this matter on the OSTP radar screen, and if 
so, how is it being addressed in the FY 2006 budget request? Is OSTP 
involved in any effort to develop a long-term plan for research ship 
replacement?

A6. The federal oceanographic fleet renewal activity includes: a 
global-class seismic research ship in FY 2006; four ocean-class fishing 
survey vessels, with one built and operational in FY 2005, two under 
construction, and one proposed for funding; four ocean-class ships 
planned; and, three regional-class ships planned. OSTP, through its 
participation in the National Oceanographic Partnership Program and 
through the President's Ocean Action Plan (OAP), is cognizant of the 
aging oceanographic research fleet. OSTP, through its leadership of the 
National Science and Technology Council and of OAP, is preparing an 
ocean research priorities plan and implementation strategy, which will 
be completed on December 31, 2006, and which will state the Nation's 
vision for the oceans.
                   Answers to Post-Hearing Questions
Responses by Samuel W. Bodman, Secretary of Energy, U.S. Department of 
        Energy

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Your budget request proposes to phase out funding for oil and gas 
technology research and development (R&D), stating that ``Budget 
discipline necessitated close scrutiny of all Fossil Energy programs, 
using strict guidelines to determine their effectiveness and compare 
them to other programs offering more clearly demonstrated and 
substantial benefits.'' What guidelines did the Department of Energy 
(DOE) use to evaluate program effectiveness, and why did these programs 
fare poorly? Can the oil and gas industries support this research on 
their own?

A1. The Administration's decision to terminate the oil and gas research 
programs reflects a strategic assessment of the program compared to 
other Fossil Energy programs. The assessment relied on guidelines to 
evaluate the oil and gas programs' effectiveness, efficiency and 
technical viability. Much of the Department's oil and natural gas 
research is jointly funded by industry and the government. In this case 
it was determined that the industry has the capacity to pursue this 
research, especially in light of the current strong economic 
performance of the industry. This is in line with our commitment to 
deliver results for the American taxpayer.

Q2.  According to the National Academy of Sciences, significant 
reductions in oil use from a transition to hydrogen are at least one or 
two decades away. How does your budget proposal treat R&D efforts that 
more focused on near-terms results, such as research on lightweight, 
high-strength automotive materials, hybrid vehicles and advanced 
diesels? How can DOE do a better job of encouraging the adoption of 
these energy-saving technologies into the marketplace?

A2. The Department strongly supports nearer-term and mid-term 
approaches to reducing our dependence on foreign oil. In fact, almost 
all of the proposed FY 2006 activities in our Vehicle Technologies 
Program contribute to nearer-term and mid-term solutions, including 
$48.8 million for hybrid and electric propulsion, $41.1 million for 
advanced combustion engines (including diesels), $38.2 million for 
advanced materials technologies, $13.6 million for advanced fuels 
development, $13.8 million for vehicle systems, and $5.0 million to 
support alternative fuel use in fleets.
    The Vehicle Technologies Program works through two major 
government-industry partnerships, the FreedomCAR and Fuel Partnership 
and the 21st Century Truck Partnership. Partnering with industry 
creates a common understanding of technical capabilities and barriers, 
which increases the likelihood that industry will pick up DOE's energy-
saving technologies. The Vehicle Technologies Program undertakes 
efforts to encourage the use of alternative fuel vehicles and 
alternative fuels in federal, State, local and provider fleets. DOE 
also provides extensive information for consumers and fleet owners on 
already commercialized energy efficient transportation technologies on 
www.fueleconomy.gov and www.eere.energy.gov/vehiclesandfuels.

ITER

Q3.  In last year's budget hearing, the Administration witness assured 
the committee that the U.S. share of ITER, the international fusion 
project, would not exceed $700 million dollars. This year's 
Congressional Budget request puts the U.S. share at over $1.1 billion 
dollars. Has the Administration withdrawn its commitment? If not, 
please explain the discrepancy.

A3. The Administration's commitment to ITER remains strong. The $700 
million figure to which you refer was a very preliminary figure derived 
from an estimate prepared by the ITER Parties in July 2001 when the 
U.S. was not involved in ITER. Their estimate was $5 billion for the 
total project construction in constant 2002 dollars, so a U.S. 10 
percent share would be $500 million. To this $500 million number, DOE 
added contingency and escalation to reach approximately the $700 
million figure. However, based upon continuing U.S. participation in 
the ITER negotiations, it has become clear that other elements of a 
typical DOE project cost estimate, such as U.S. industrial input, 
project management of U.S. procurements, exchange rate effects for 
personnel sent abroad, and additional R&D and design needed to be 
included. These items have been included in the FY 2006 President's 
budget. The detailed current understanding of the ITER ``construction'' 
costs are summarized in the President's FY 2006 budget proposal, 
namely:
    The current estimated cost for the U.S. Contributions to ITER 
project begins with the nominal $502 million dollar value estimate from 
the international estimate in the Final Design Report of 2001. Since 
then, as is customary for DOE Major Items of Equipment projects, we 
added 1) $95 million reflecting the actual cost of producing in U.S. 
industry the components included in our 10 percent portion of the 
facility, 2) $35 million to the personnel costs reflecting our 
experience in the previous ITER Engineering Design Activities, and 3) 
$103 million for project and procurement management. With this base 
cost for the components, personnel and cash contributions, we needed to 
add $120 million to cover contingency, $183 million to account for 
escalation over the years of the project, and $84 million to provide 
for remaining design and R&D incorporated into the Total Project Cost. 
With these additions, the nominal $502 million value becomes, in the 
DOE project management costing system, a total of $1.122 billion.
    It is also important to note that the FY 2006 President's Budget 
also says that this Total Project Cost of $1.122 billion is a 
preliminary estimate that may well change (due to changes in OMB's 
outyear inflation estimates and/or currency exchange rates) by the time 
the project receives its formal performance baseline (known in Critical 
Decision-2 in the parlance of DOE project management) following the 
signing of a final multilateral agreement.

Q4.  What, in your view, is the most effective strategy for the 
Department to bridge the remaining gap from the laboratory to the 
commercial grid in the area of high temperature superconductivity? What 
can be done to ensure there are demonstrations of complete, integrated 
systems based on superconducting technology?

A4. The FY 2006 Budget request supports two parallel paths in order to 
bridge this gap. We are continuing research that improves the 
performance and potential cost of future high temperature 
superconductivity grid equipment. At the same time, in partnership with 
electric utilities and equipment manufacturers, we are supporting 
demonstrations of first-of-a-kind equipment prototypes in operation on 
the grid. The time to market will be accelerated by this approach which 
provides utilities direct experience with installation and operation of 
superconducting equipment as well as gaining the advantages of their 
collaboration in designing equipment which will meet their needs and 
requirements. For example, three complete, integrated systems that 
demonstrate different aspects of superconducting cables are now being 
developed in partnership with American Electric Power, Long Island 
Power Authority and National Grid (Niagara Mohawk) for planned 
operation and testing on electric grids in Ohio and New York.

Questions submitted by Representative Judy Biggert

RIA Project

Q1.  The other projects ahead of or tied with the proposed Rare Isotope 
Accelerator (RIA) on the 20-year facilities plan would cost the U.S. 
Government less than RIA (with the possible exception of ITER which was 
supposed to cost less, but which the FY06 budget says will cost more). 
That being the case, did DOE suspend the final request for proposals 
and delay indefinitely the site selection process for RIA only because 
of money--namely the total project cost and a lack of funding in the 
FY06 budget and in the outyears? Or were there other considerations, 
and if so, what were they? Is there no room in the budget for RIA 
because ITER has become a billion dollar project?

A1. Before proceeding with a project like RIA that requires a 
significant investment by the U.S. Government, the funding to construct 
and operate the proposed facility needs to be identified and the 
decision to proceed must be made in the context of other departmental 
and national needs and priorities. Under the FY 2006 request, necessary 
research and development work will continue on the RIA project.
    The ITER project has been identified by the President as an 
Administration priority and funding is requested in FY 2006 to start 
this project. The detailed estimate of the ITER ``construction'' costs 
(in full DOE project management accounting terms) are summarized in the 
President's FY 2006 Budget. The total project cost includes all costs 
associated with a Major Item of Equipment project, namely, fabrication 
of components, personnel and cash contributions to the ITER 
Organization, contingency, escalation, project and procurement 
management, and remaining design and R&D.

Office of Science Projects

Q2.  Where did the Administration draw the line in terms of which 
projects should proceed, and which ones should be delayed? With respect 
to DOE, it seems like the budget decisions were made in a piecemeal 
way, on a project-by-project basis, and were based not so much on the 
merit or benefit of a project, but rather on its price tag. For 
instance, it would make sense if your office or the Office of 
Management and Budget (OMB) had put a halt to any project for which the 
Secretary of Energy had not signed a CD-0, or even a CD-1 (Critical 
Decision-0 determines mission need). However, that does not appear to 
be the case. Were there standards or criteria used to determine which 
big projects would proceed with funding, and which ones should be 
postponed or delayed because funding was withheld?

A2. For all Office of Science projects, the budget decisions were 
guided by our Facilities Outlook, ``Facilities for the Future of 
Science: A Twenty Year Outlook.'' In our FY 2006 request, the top 
priority in the Facilities Outlook, ITER, is funded as U.S. 
contributions to this international project begin. The next priority, 
the Ultrascale Scientific Computing Capability, or Next Generation 
Architecture, was funded in FY 2005 and continues in FY 2006. One of 
the projects tied for third place in the facilities outlook, the Linac 
Coherent Light Source, continues design funding started in FY 2005 and 
also begins physical construction funding in FY 2006. Of the remaining 
priorities only the Transmission Electronic Achromatic Microscope, a 
relatively small project with a total project cost range of $25,000,000 
to $30,000,000 is funded in our FY 2006 request beyond the R&D stage.
    All Office of Science projects included in the FY 2006 request to 
Congress have CD-0 approval except ITER. CD-1, approval of preliminary 
baseline range, is required before funding appropriated for a project 
can be used, but not before the funding request is made.

Question submitted by Representative Dave G. Reichert

Volpentest HAMMER Training and Education Center

Q1.  I was recently briefed on the Volpentest HAMMER Training and 
Education Center in Richland, WA, which provides hands-on ``Training as 
Real as It Gets'' that is keeping Hanford cleanup workers safe and 
healthy, and is helping fire, law enforcement, customs, border 
protection, security, emergency medical, and other emergency response 
personnel prepare for the many hazards they face daily in protecting 
the homeland. Also, HAMMER is helping the Pacific Northwest National 
Laboratory field test and deploy new technologies to keep workers safe 
and healthy, and the homeland secure.

     Will DOE coordinate with the Department of Homeland Security and 
other governmental agencies to develop a strategy and a cooperative 
agreement to ensure that the Volpentest HAMMER Training and Education 
Center in Richland, WA, remains available to meet the training needs of 
Hanford cleanup workers, emergency responders, and law enforcement, 
customs, border protection, and security personnel, along with serving 
as a test bed to deploy new field technologies?

A1. Yes, DOE will cooperate with the Department of Homeland Security 
(DHS) to develop a strategy and a cooperative agreement to ensure that 
the Volpentest Hazardous Materials Management and Emergency Response 
Training Center (HAMMER) remains available to meet DHS's growing 
training needs, along with serving as a test bed to deploy new field 
technologies. DOE supports the expansion of HAMMER customer base. 
Hanford site workers continue to take advantage of this asset, and the 
training they are receiving is helping to ensure work is conducted 
safely and protective of their health and the environment. We also 
continue to support the transition of HAMMER to future program 
sponsors. We want to ensure that HAMMER, as a national asset, continues 
to serve this country's needs now and in the future, beyond the Hanford 
clean-up mission.

Question submitted by Representative Michael E. Sodrel

Q1.  As the United States invests in energy research and development, 
does the Department have in place programs to assist firms in 
preventing the exploration of this research through industrial 
espionage or other means?

A1. The Department's Office of Counterintelligence (OCI) supports a 
number of programs that are designed to identify, deter and neutralize 
attempts by foreign powers and their agents to steal classified, 
proprietary, and other sensitive information and technology related to 
energy research and development.
    One primary OCI effort to address this concern is through a very 
strong counterintelligence (CI) awareness program that addresses 
economic espionage and related risks to research and development 
activity for the DOE/NNSA population. This effort utilizes high-level 
guest speakers, awareness seminars provided by its CI Training Academy, 
and mutual support through other U.S. Intelligence Community members to 
identify potential economic espionage threats to the many DOE/NNSA 
sites and labs. The CI Training Academy provides an awareness seminar, 
``Economic Espionage: Protecting Intellectual Property,'' through 
mobile training teams for DOE/NNSA employees and contractor staff. The 
seminar is designed to increase the awareness of the threat to 
intellectual property, the vulnerabilities associated with that threat, 
the risks of scientific interaction (collaboration), and the measures 
each employee must take to protect our trade secrets.
    Individual CI offices at DOE/NNSA sites and labs provide pertinent 
information to assist employees in recognizing the potential threat of 
economic espionage. Many of these sites have identified key staff that 
deal with technology transfer and other sensitive research activities 
for specialized briefings on economic espionage and intelligence 
activity targeting our research. This subject is also addressed in 
periodic general CI awareness briefings, and other focused briefings 
and tailored presentations, which at times address specific identified 
activities. For example, during late 2004, the Oak Ridge National 
Laboratory CI Office hosted the Unit Chief of the Economic Espionage 
Unit from FBI Headquarters who tailored the message to the scientists 
and other key staff at the laboratory.
    As you are aware, an important Departmental vehicle for research 
and development is the Department's Cooperative Research and 
Development Agreement (CRADA). This important vehicle allows joint 
research between laboratories and private corporations on commercially 
viable technologies at the national laboratories, and is often 
accomplished in collaboration with scientists and researchers who are 
foreign nationals from non-Departmental facilities, some of whom are in 
foreign countries. While U.S. corporations are the preferred partners, 
foreign corporations may participate in CRADAs.
    In order to protect CRADAs, including those related to the field of 
energy, various CI policies and programs have been implemented. On 
April 9, 2004, a memorandum entitled, ``Guidance to the Field 
Concerning Support to CRADA,'' was distributed to all CI offices 
throughout the DOE complex. The CI offices were directed to take action 
to coordinate with the appropriate laboratory support elements that are 
involved with CRADAs to identify at-risk technologies, and develop CI 
support plans. The CI support plans are required to include threat 
assessments, CI awareness activities, and the conduct of briefings and 
debriefings and other pro-active investigative activities.
    DOE has issued policy and requirements on unclassified foreign 
visits and assignments which state that sensitive technology is not to 
be accessed by foreign nationals, including permanent resident aliens, 
without proper authorization. The OCI actively supports this program 
through the coordination of indices checks with the Federal Bureau of 
Investigation and the Central Intelligence Agency, and the conduct of 
various investigative activities such as briefings and debriefings.
    DOE maintains a sensitive technologies list, which is distributed 
throughout the DOE complex by OCI and is made part of its Awareness 
Program.
    OCI supports the FBI in its various investigative activities which 
are responsible for enforcing the laws pertaining to the Economic 
Espionage Act of 1996 (18 USC 1831 et seq.), and the disclosure of 
classified and sensitive technology to foreign countries or terrorist 
groups.

Questions submitted by Representative Bart Gordon

Leadership Class High-End Computing

Q1.  We all applauded the Department and Oak Ridge National 
Laboratory's progress in Leadership Class high-end computing and we 
look forward to the valuable science research results that the Cray X-1 
and Red Storm machines will produce. Can you explain how a $25 million 
cut to the Center for Computational Science at Oak Ridge will affect 
the implementation of plans for the Leadership Class machines?

A1. The $25 million budget for the Oak Ridge National Laboratory 
Leadership Class Computing effort will enable researchers to operate a 
20 teraflop Cray X1e and a 20 teraflop Cray XT3 (better known as Red 
Storm) computer as leadership class resources for open science. These 
computers will be allocated through an open process to a small number 
of teams that are positioned to deliver new science on these platforms. 
This multiple machine approach was what ORNL proposed and what won the 
competition in FY 2004. The two systems will be the largest systems of 
their type available to the open scientific community in the U.S. They 
will provide more science than one large system because some 
applications, such as plasma physics and global change, perform 
significantly better on the X1e than on the XT3 while other 
applications, such as materials science and chemistry, can deliver more 
science per dollar on the XT3.

Q2.  The Industrial Technologies program at DOE has a long history of 
supporting research and development into making some of our most valued 
core domestic industries, the same industries that are rapidly heading 
overseas. Yet, this administration continues to decrease support of 
this program at a time when it is most needed. Please explain how a 25 
percent decrease in funding for industrial technologies will affect our 
core domestic industrial sector.

A2. Industries, particularly our core domestic energy-intensive 
industries, are succeeding in their attempts to be more energy 
efficient, in part because of the past successes of this program and 
because of the obvious economic incentives they face to cut energy 
costs. Continuing activities in the Industries of the Future (Specific) 
program will focus on bringing existing projects to successful 
commercialization and evaluating opportunities for greater performance 
in FY 2006.

Q3.  Transmission Reliability R&D request is being cut by more than 40 
percent, from $15.6 million to $9.2 million. This is occurring at a 
time when the Nation's bulk power transmission is undergoing stresses 
and strains due to increased demand for electric power and a lack of 
new transmission lines.

     Many observers believe that we will not be able to build enough 
transmission capacity to meet demand and that we will have to use the 
capacity we have better and smarter. Why is the Administration cutting 
these programs now in light of these circumstances?

A3. The FY 2006 budget request for the Office of Electric Transmission 
and Distribution, which includes activities formerly conducted by the 
Office of Energy Assurance, supports those activities which the 
Administration believes will ensure electricity reliability and energy 
critical infrastructure protection.
    For instance, as a leader in the Eastern Interconnection Phasor 
Project, the Department is working in partnership with the electric 
industry to transform the way that electric grid operators monitor and 
process real-time information, to accelerate response times to problems 
in system voltage and frequency levels. In addition, the GridWorks 
program is focused on development of next generation ``hardware'' 
technologies (e.g., sensors; cables and conductors; substation and 
protective equipment) to address reliability concerns.
    The FY 2006 budget request of $95.6 million, which includes Energy 
Assurance activities merged by Congress with OETD activities in FY 
2005, is a 19.4 percent reduction to the FY 2005 enacted level for 
these programs. However, funding for Congressionally-directed projects 
in FY 2005 accounted for 43 percent of OETD's overall budget. When the 
FY 2005 level is adjusted for this, the FY 2006 request reflects an 
increase of over $25 million compared to the adjusted FY 2005 level.

Q4.  Recent studies indicate that domestic natural gas production is 
declining at a rate of nearly 30 percent per year and we're now 
importing more than 60 percent of our oil. Geologists agree that there 
is much moil and natural gas left in the United States but utilizing it 
will require unconventional recovery techniques. Yet, the major 
integrated oil companies have largely abandoned U.S. onshore production 
in favor of offshore production and production opportunities overseas. 
Today, I'm told that independent oil and gas producers produce more 
than 60 percent of the oil and about 75 percent of the natural gas sold 
in this country, but they have no ability to conduct the research 
needed to get the hard-to-find and produce hydrocarbons out of the 
ground. In light of that fact, what is the justification for your 
proposal to shut down the oil and gas research programs at this time?

A4. While it is true that the production rate of new natural gas wells 
declines about 30 percent per year, industry has been able to maintain 
domestic gas production. In fact, U.S. gas supplies increased overall 
to 19.4 Trillion cubic feet (tcf) in 2003 from 19.2 tcf in 2000. You 
are also correct that independents produce a large percentage of 
domestic oil and natural gas. Although the smallest independents have 
traditionally funded little research, other independents, the service 
companies that supply technology to the independents, and the majors 
have the financial incentive and resources to develop new ways to 
extract oil and gas from the ground more cheaply and safely.
    The Energy Information Administration (EIA) reports that the 28 
U.S. major energy companies spent $370 million on oil and gas recovery 
research and development in 2003, the latest available data. An 
analysis of industry R&D spending (1997-2000), reported by the 
Interstate Oil and Gas Compact Commission, showed that the oil and gas 
service industry spent $631 million per year on R&D. The Department 
believes that recent high oil and gas prices provide the incentive to 
substantially increased private R&D investments. After careful review 
of the oil and gas programs, it was determined that the industry has 
the capacity to pursue this research.

Clean Coal Power Initiative

Q5.  The FY 2006 budget request includes $50 million for the Clean Coal 
Power Initiative, which is the $2 billion, 10-year program the 
President announced four years ago to demonstrate clean burning coal 
technologies. What is the status of the funding for this program, and 
should the Administration have provided more than $50 million for this 
initiative to keep the program on schedule?

A5. The Fiscal Year 2006 budget supports the Department's continuing 
effort to fulfill President Bush's 10-year, $2 billion commitment to 
clean coal research, with funding for the President's Coal Research 
Initiative (CRI) of $286 million, a $13 million increase over the 2005 
enacted level. The 2006 Budget brings the total requested funding for 
clean coal research to $1.6 billion over five years, on pace to exceed 
the President's ten-year pledge by more than 50 percent.
    Within the President's Coal Research Initiative, the Clean Coal 
Power Initiative (CCPI) is a key component of the National Energy 
Policy to address the reliability and affordability of the Nation's 
electricity supply, particularly from its coal-based generation. The 
Fiscal Year 2006 Budget request includes $68 million for CCPI, $50 
million of which is for demonstration projects and $18 million for 
FutureGen, the world's first near-zero emissions coal-fueled power 
plant. The Department believes the FY 2006 request is adequate to 
maintain the overall schedule of the Clean Coal Power Initiative.
    The $50 million allocated for the cooperative, cost-shared CCPI 
program between government and industry will be devoted to continuing 
the rapid demonstration of emerging technologies in coal-based power 
generation, which should accelerate commercialization by the private 
sector.
    The CCPI's FutureGen program will establish the capability and 
feasibility of co-producing electricity and hydrogen from coal with 
essentially zero emissions, including carbon sequestration and 
gasification combined cycle, both integral components of the coal-
fueled power plant of the future. In addition to scheduled financing of 
$18 million for FutureGen in Fiscal Year 2006, the Budget also includes 
a commitment to FutureGen beyond 2006, by proposing $257 million to 
become available in 2007 to provide the federal share of FutureGen for 
several years. This sum corresponds to unexpended funds available from 
prior years' clean coal projects.

Questions submitted by Representative Eddie Bernice Johnson

Historically Black Colleges and Universities

Q1.  History has proven when it comes to budget cutting time, minority 
education programs get cut first. Since 1995, funding for minority 
education programs has dropped drastically. In 1995, funding levels for 
Historically Black Colleges and Universities (HBCUs) were at $59.1 
million or 8.4 percent of all funding for institutions of higher 
education. Since then, funding levels have substantially decreased. In 
fact, in 2004, HBCUs only received $10.8 million, only 1.4 percent of 
all institutional funding for higher education. We all agree that 
America needs a diverse work force to remain prosperous. How are you 
going to rectify this serious spending inadequacy? (see chart below)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


A1. Under my leadership, we are committed to the following initiatives 
in FY 2005: (1) to establish a goal of $33.2 million to support 
programs for Historically Black Colleges and Universities (HBCUs), 
which is $22.4 million above actual awards in FY 2004; and (2) to 
establish a corporate strategy for increasing support for HBCUs and 
other minority serving institutions, which includes developing a Broad 
Agency Announcement to encourage the participation of HBCUs in the 
Department's competitive awards, supporting internships for students at 
DOE and/or its national laboratories, encouraging faculty exchange 
programs at DOE national laboratories to enhance faculty research 
capabilities, and convening annual regional information meetings to 
inform HBCU faculty and administrators of DOE programs and funding 
opportunities.

Q2.  According to the National Academy of Sciences, significant 
reductions in oil use from a transition to hydrogen are at least one or 
two decades away. How does your budget proposal treat R&D efforts that 
are more focused on near-term results, such as research on lightweight, 
high-strength automotive materials, hybrid vehicles and advanced 
diesels? How can DOE do a better job of encouraging the adoption of 
these energy-saving technologies into the marketplace?

A2. The calculation was made by 1) analyzing geology and geophysical 
information to determine geology parameters; 2) conducting an 
engineering analysis of the exploration, development, production, and 
reclamation phases for the potential range of sources; and 3) running 
an economic analysis of 1) and 2) under projected market conditions. As 
we have stated a number of times, this estimate has been used for 
several years and does not reflect the recent sharp increases in the 
price of oil. The estimate included an assumption regarding oil prices 
in the year 2001 of $30. It assumed a 50/50 split of revenues with the 
State of Alaska, a royalty rate of 121/2 percent, and that almost all 
tracts would be available for nomination in each sale. The model used 
for the analysis was a Monte Carlo Discounted Cash Flow model. In 
addition, natural gas was assumed at the time of the analysis to be 
uneconomic and was thus ignored in the valuation.

Questions submitted by Representative Michael M. Honda

Q1.  Secretary Bodman, still looking at the Energy Efficiency and 
Renewable Energy numbers, I see that significant cuts were requested 
for Building Technologies (^12 percent) and Industrial Technologies 
(^25 percent). I know that the Vice President has said that 
conservation is a virtue but shouldn't be a part of energy policy, but 
I disagree with that sentiment. In California, where consumers were the 
victims of market manipulation by Enron, consumers only recourse was to 
use less energy, to conserve. As long as our energy consumption level 
remain high, Americans remain vulnerable to Enron-like manipulation at 
home and to OPEC internationally. And yet this budget cuts funding for 
efficiency programs, at the time when we should be making this one of 
our highest priorities. Dr. Secretary, what is the rationale for doing 
this?

A1. We have focused on our most cost-effective activities that meet the 
Administration's general R&D investment criteria (quality, relevance, 
and performance) and the additional criteria (for industry-related 
programs) that ensure that federal investment is appropriate, well-
planned, and has the potential to deliver significant public benefits.
    On buildings technologies, we have developed a great many buildings 
technologies and techniques that have not yet been adopted by builders 
or demanded by consumers. Higher energy prices may change that. 
However, until we are more successful in getting existing technologies 
adopted, we are reducing some of our new building technology 
development activities.
    As for industrial technologies, because industry is less likely to 
invest in R&D toward long-term energy-savings technologies, our 
Industrial Technologies Program is focusing on a fewer number of 
higher-risk, higher-reward technologies, and our budget reflects that. 
Fortunately, the industrial sector of the economy is already quite 
energy efficient, since it has an economic incentive and the financial 
means to reduce energy use as a component of its overall cost of 
production.

Basic Research in the Office of Science

Q2.  Secretary Bodman, I notice that within the Office of Science, the 
impact of the budget is borne primarily by grants to individual 
researchers would be far larger. Some programs see cuts as great as a 
10 percent, in order to maintain support for large user facilities. 
While I applaud the support for user facilities, are we going to be 
able to use these facilities to their full potential if we don't 
provide the funds for the researchers to use them? Dr. McQueary just 
testified that the Department of Homeland Security was going to depend 
more and more on the output of DOE funded basic researchers to feed the 
efforts of his agency, and the Department of Defense has said similar 
things. If we cut the funds for this research, are we not compromising 
our national security? If other agencies are justifying cuts by saying 
that your agency is doing the research, do you feel some obligation to 
it? Do your agencies talk to each other about this? Because it doesn't 
seem like you are all on the same wave length.

A2. The FY 2006 President's Request for the Office of Science 
represents a reduction of 1.6 percent from the FY 2005 appropriation 
when Congressional directions for FY 2005 are set aside and is 0.9 
percent above the FY 2005 President's Request. Within this budget, the 
Office of Science can and will provide world leadership in science that 
contributes so heavily to our national security. Indeed, it is this 
responsibility that has led to the priorities that are contained in the 
FY 2006 Office of Science budget request. These priorities balance 
support for individual investigators with support for forefront 
facilities, which will transform the way we do science from 
manipulating matter to discovering the deepest secrets of the universe. 
The President's FY 2006 budget propels the United States into 
leadership in a number of areas, including nanoscience and 
nanotechnology; neutron scattering for the study of materials and their 
properties; x-ray science with pulses so short that they will allow the 
study of chemical reactions as they occur; leadership-class computing 
for discoveries in all areas of science; ITER, an experiment which will 
demonstrate the feasibility of using deuterium-tritium fusion to 
produce large amounts of clean energy; climate change research; and 
more. Moreover, the Office of Science continues its leadership role in 
such research areas as condensed matter and materials sciences; 
chemistry and catalysis; biosciences and genomics; research to enable 
the coming hydrogen economy; and high-energy, nuclear, and plasma 
physics. Within this budget, we have endeavored to nurture principal 
investigators in our core research areas and to ensure that all of our 
research activities are coordinated. Basic research in the Office of 
Science supports applied research conducted by other DOE programs and 
other federal agencies.

National Ignition Facility

Q3.  Secretary Bodman, can you give us a status report on the National 
Ignition Facility (NIF)? What is a realistic timetable for the first 
attempt at ignition? What is the impact of this budget request on that 
timetable? And what do you see is the role of NIF in basic scientific 
research?

A3. The National Ignition Facility (NIF) at Lawrence Livermore National 
Laboratory (LLNL) continues to be an essential component of the 
Stockpile Stewardship Program. Consistent with the strong views of the 
Congress, we are continuing towards full commissioning of all 192 beams 
and focus on the 2010 ignition goal. To do this, however, we have had 
to accept additional risks and reduce some other inertial confinement 
fusion work at LLNL and other sites. The Fiscal Year (FY) 2006 request 
of $460.4 million for the Inertial Confinement Fusion and High Yield 
Campaign, a 14 percent reduction from FY 2005, reflects those 
reductions.
    The NIF Activation and Early Use Plan defines the experimental 
program to be executed on NIF through the demonstration of ignition. 
Due to reductions in the FY 2005 appropriations for the NIF 
Demonstration Program and changes in the FY 2006-2010 funding profile 
from that previously planned, the NIF Activation and Early Use Plan is 
being modified. NNSA will provide a revised NIF Activation and Early 
Use Plan to Congress by June 30, 2005, which will describe the 
implications of these budget changes.
    Inertial fusion ignition is one of the greatest technical 
challenges ever pursued by the Department. The demonstration of 
ignition at NIF will allow the Stockpile Stewardship Program to address 
weapon performance issues related to thermonuclear burn, while 
simultaneously advancing our understanding in many areas of basic 
science. Further, consistent with the established NIF mission, and as 
allowed by established program objectives and requirements, a portion 
of the NIF experimental opportunities will be available to the 
technical community to pursue unique research opportunities after 
ignition has been achieved. The new temperature and pressures regimes 
accessible with NIF will open up a host of new opportunities in basic 
research, ranging from laboratory astrophysics to fundamental materials 
properties. In the National Research Council's 2003 report, ``Frontiers 
in High Energy Density Physics,'' it states,

         ``. . .research opportunities in this crosscutting area of 
        physics are of the highest intellectual caliber and are fully 
        deserving of the consideration of support by the leading 
        funding agencies of the physical sciences.''

Question submitted by Representative Lincoln Davis

New Programs for SciDAC

Q1.  Secretary Bodman, you may be aware that I support the United 
States regaining leadership in high-end computing and co-sponsored the 
Department of Energy High-End Computing Revitalization Act of 2004. The 
purpose of this bill is to support the computational needs of non-
classified scientific research. I'm proud that the Oak Ridge National 
Laboratory has been selected to be the home of the new facility that 
will be the Center for Computational Sciences (CCS)--the most powerful 
supercomputer in the world.

     The facilities plan for the Office of Science ranks CCS as the #1 
domestic priority, yet the budget does not reflect a commitment to this 
priority. I understand that the total request for the Office of 
Advanced Scientific Computing Research is down $25 million, funding for 
CCS is down $42 million, but the request includes two new ``starts'' 
totaling about $21 million.

     Please explain the reasons behind starting two new programs for 
Scientific Discovery through Advanced Computing (SciDAC) teams within 
the Office of Advanced Scientific Computing Research budget while 
failing to find funds to keep high performance computing efforts on 
track at the Oak Ridge National Laboratory.

A1. The principles behind the budget decisions are to deliver the most 
science for the Nation given the funds available. The Advanced 
Scientific Computing Research (ASCR) budget includes $13 million for 
research and evaluation prototype computers and $8 million for a new 
competition for SciDAC institutes. The research and evaluation (R&E) 
prototype activity has been a part of the ASCR budget for a number of 
years. In FY 2005 the CCS will complete the evaluations that were 
funded in prior years. Therefore, we will solicit proposals for new R&E 
prototypes in FY 2006. This type of activity was strongly endorsed in 
the Federal Plan for High-End Computing, which was published by the 
Office of Science and Technology Policy last May. The new competition 
for SciDAC institutes will increase the impact of our investments in 
applied mathematics and computer science and respond directly to the 
direction in the Department of Energy High-End Computing Revitalization 
Act of 2004 to establish high end computing software development 
centers for Leadership Class Computing.

Question submitted by Representative Brian Baird

Q1.  In a recent story in the Seattle Times, you were quoted as saying 
that the Bonneville Power Administration (BPA) ``is subsidized by other 
(non-Northwest) taxpayers.'' (http://seattletimes.nwsource.com/html/
localnews/2002179458<INF>-</INF>bpa14m. html). In fact, Northwest 
ratepayers have repaid the Treasury with interest for the construction 
and operation of the system and we continue to do so. As you know, 
Northwest ratepayers made another billion dollar payment to Treasury 
this past September.

     Can you explain for me how you and others in this administration 
justify labeling BPA as being subsidized by taxpayers?

A1. The Administration has stated in the President's FY 2006 Budget 
that ``According to the Government Accountability Office (GAO), PMA 
rates are artificially low because taxpayers across the Nation have 
borne some of the PMAs' costs. Thus, the general taxpayer has helped 
subsidize the costs of PMA power purchased by electricity wholesales.''
    At the time of the GAO review, two categories of net costs to the 
federal government were identified for BPA (GAO/AIMD 97-110A). One was 
the full cost of providing Civil Service Retirement System pension 
benefits and the costs of providing post-retirement health benefits to 
current employees. The other area was identified as net financing 
costs, which GAO defined as the difference between the interest income 
received by the Federal Government on appropriated debt and the Federal 
Government's related interest expense.

Questions submitted by Representative Jim Matheson

Q1.  Are you aware that the tailings pile currently rests 10-15 feet 
above the water level of the Colorado River, a major water source for 
the millions of people who live downstream?

A1. Yes. The Department has completed extensive site characterization 
to confirm that the bottom of the contaminated tailings pile is 10 to 
15 feet above the water level of the Colorado River.

Q2.  A National Academy of Sciences report emphasized the risks posed 
by the location of the radioactive tailings next to the Colorado River, 
stating it was a ``near certainty'' that, left unchecked, the river 
would run across the Moab site at some point in the future. Do you 
agree with these conclusions and how will DOE address the NAS report's 
concerns?

A2. DOE has incorporated the National Academies of Sciences' 
conclusions into the environmental impact statement (EIS). The Final 
EIS will have a preferred alternative of disposing of the tailings pile 
and other contaminated material, primarily via rail, at the proposed 
Crescent Junction disposal site.

Q3.  Are you aware that on 26 occasions since 1914, the river has 
reached a flow level great enough to inundate the base of the tailings 
pile?

A3. The Department's understanding is that the flood that occurred in 
1984, referred to as the 100-year flood, is the only flood in which the 
flood level actually reached the toe of the tailings pile, but did not 
inundate the base of the tailings pile.

Q4.  Are you aware that a November 2003 report by DOE, which stated 
that the Colorado River would only migrate away from the tailings pile 
and would not undermine the tailings embankment, has been proven wrong?

A4. The Department of Energy (DOE) is not aware of any data that proves 
the DOE November 2003 Colorado River Migration report is incorrect.

Q5.  Are you aware that the U.S. Geological Survey (USGS) has recently 
stated that during a ``100-year flood'' the Colorado River could 
feasibly climb 25 feet up the tailings pile, the channel could deepen 
and narrow, and water could move much more swiftly through the tailings 
site? How do you intend to address USGS's findings, given the 
Department's erroneous previous conclusions?

A5. The U.S. Geological Survey report states that under the 100-year 
flood scenario, the river level would climb approximately four feet up 
the tailings pile as occurred during the 1984 flood. The report also 
indicates that during this flood event, the unprotected pile would not 
be breached because velocities would decrease as the river flows over 
its banks.

Q6.  How will DOE incorporate into the Final Environmental Impact 
Statement the USGS's findings from a February 1, 2005, Open File Report 
that a 100-year flood event could erode a very long stretch of the 
Colorado River bank on the side of the river that contains the 
tailings?

A6. The findings in the U.S. Geological Survey's (USGS) recent Colorado 
Streamflow Simulation Report are being incorporated into the final 
environmental impact statement (EIS) analysis. The Department will 
continue to work with the USGS through the finalization of the EIS to 
ensure that the Department is interpreting the USGS data correctly. The 
Final EIS will have a preferred alternative of disposing of the 
tailings pile and other contaminated material, primarily via rail, at 
the proposed Crescent Junction disposal site.

Q7.  Is DOE planning to take ``100-year floods'' conditions into 
account when making the decision about the how to remediate the Atlas 
tailings pile?

A7. Yes, the draft environmental impact statement (EIS) assesses the 
consequences of both the 100-year flood, and the probable maximum 
flood. The Department will incorporate into the Final EIS a preferred 
alternative of disposing of the tailings pile and other contaminated 
material, primarily via rail, at the proposed Crescent Junction 
disposal site.

Q8.  Given the risk of damage downstream if flooding occurs on the 
Colorado River at the Atlas site, why would DOE opt not to remove the 
tailings pile from the banks of the river?

A8. The Department is in the process of developing the final 
environmental impact statement (EIS) for the Moab uranium mill tailings 
site. The Final EIS will have a preferred alternative of disposing of 
the tailings pile and other contaminated material, primarily via rail, 
at the proposed Crescent Junction disposal site.

Q9.  Are you aware that NAS identified river erosion and migration as a 
critical issue that must be resolved before DOE makes its decision 
about how to remediate the site of the Atlas Tailings pile? How will 
the Department address the issue of river erosion with respect to the 
tailings?

A9. Yes. The Department is aware that river migration is a critical 
issue and has incorporated design elements into the draft environmental 
impact statement (EIS) to address this concern. The broad range of 
remedial action alternatives identified in the Draft EIS have been 
analyzed for impacts due to natural phenomena hazards, such as 
flooding, river migration, seismic activity, and erosion, taking into 
account the effects of mitigating measures such as a barrier wall to 
prevent river migration and riprap-covered side slopes that would 
mitigate the erosion forces of the river at flood stage. Based on the 
Draft EIS analysis and nearly 1,400 comments received, the Final EIS 
will have a preferred alternative of disposing of the tailings pile and 
other contaminated material, primarily via rail, at the proposed 
Crescent Junction disposal site.

Q10.  Has DOE considered in its analysis a report by the National 
Research Council, which concluded that flooding is a near certainty at 
the site?

A10. Yes. The draft environmental impact statement addresses flooding 
and quantifies the impacts that would result.

Q11.  Are you aware that the tailings pile is leaking ammonia, various 
metals, and radio-nuclides into the river, such that when the U.S. Fish 
and Wildlife Service did fish surveys, the caged minnows they dipped 
into the water, died instantly?

A11. The Department is aware of the existing impacts from this former 
uranium-processing site and the U.S. Fish and Wildlife Service surveys.

Q12.  Are you aware that, contrary to DOE reports, an independent study 
by University of Utah hydrologists determined that contamination from 
the Atlas tailings pile has traveled under the Colorado River, towards 
the town of Moab and the aquifer that provides drinking water to the 
community?

A12. The Department is aware of the University's study. The Department, 
with the aid of other federal organizations and several experts, has 
collected data that does not support those conclusions in the 
University of Utah's investigation. Nonetheless, based on the draft 
environmental impact statement (EIS) and nearly 1,400 comments received 
on the Draft EIS, the Final EIS will have a preferred alternative of 
disposing of the tailings pile and other contaminated material, 
primarily via rail, at the proposed Crescent Junction disposal site.

Q13.  A report by the House Government Reform Committee found that, of 
the 22 uranium tailings piles located along the Colorado River 
corridor, the Atlas tailings site was the only pile that had not been 
removed. In fact, DOE has removed the tailings piles from all Uranium 
Mill Tailings Radiation Control Act (UMTRCA) sites located within a 
flood plain, with the exception of the Atlas site. Given this history, 
why would DOE choose not to remove the tailings from their current 
site?

A13. The Department has remediated 21 of the 22 uranium mill tailings 
sites under Title I of the Uranium Mill Tailings Radiation Control Act. 
Two of the 21 sites (two at Rifle, Colorado) were located adjacent to 
the Colorado River and the tailings were removed from the floodplain. 
Of the other 19 Title I sites remediated by DOE, ten were stabilized in 
place and nine were relocated. Based on the draft environmental impact 
statement (EIS) analysis and the 1,400 comments received on the Draft 
EIS, the Final EIS will have a preferred alternative of disposing of 
the tailings pile and other contaminated material, primarily via rail, 
at the proposed Crescent Junction disposal site.

Q14.  Congress stated in the Floyd Spence Defense Authorization bill 
that ``The Secretary (of Energy) shall conduct remediation at the Moab 
site in a safe and environmentally sound manner that takes into 
consideration A) ground water restoration and B) the removal, to a site 
in the State of Utah, for permanent disposition and any necessary 
stabilization of residual radioactive material and other contaminated 
material from the Moab site and the floodplain of the Colorado River.'' 
Given Congress' intent to remove the tailings pile from its current 
location, why did DOE choose not to designate a preferred alternative 
in the Draft Environmental Impact Statement that would move the 
tailings to another location?

A14. Based on the draft environmental impact statement (EIS) analysis 
and the 1,400 comments received on the Draft EIS, the Final EIS will 
have a preferred alternative of disposing of the tailings pile and 
other contaminated material, primarily via rail, at the proposed 
Crescent Junction disposal site.

Q15.  DOE has previously stated that the legislative history of UMTRCA 
stressed the importance of avoiding remedial action that would only be 
temporarily effective. Given the probability that flooding will occur 
in at the Atlas tailings site while the uranium tailings are still 
radioactive and the fact that such an event would require further 
remediation of the tailings pile if it is left on site, why would the 
Department of Energy consider a remediation plan that leaves the 
tailings pile on site?

A15. The National Environmental Policy Act requires that all reasonable 
alternatives, including the no action alternative of leaving the pile 
in place, be analyzed. The broad range of remedial action alternatives 
identified in the draft EIS have been analyzed for impacts due to 
natural phenomena hazards, such as flooding, river migration, seismic 
activity, and erosion. Based on the draft environmental impact 
statement (EIS) analysis and the nearly 1,400 comments received on the 
Draft EIS, the Final EIS will have a preferred alternative of disposing 
the tailings pile and other contaminated material, primarily via rail, 
at the proposed Crescent Junction disposal site.

Q16.  I am concerned that short-term cost considerations are dominating 
DOE's decision on how to remediate the tailings pile. It is equally, if 
not more, important to consider the life-cycle costs of the remediation 
options over time. A NAS report found that capping the tailing pile in 
place at the Atlas tailings site would require long-term maintenance 
and further investment. Has DOE considered the life-cycle costs that 
would develop over the long-term if the decision was made not to remove 
the tailings from the site?

A16. Yes. The draft Moab Environmental Impact Statement (EIS) considers 
the life-cycle costs of all on-site, off-site, and groundwater 
alternatives, as well as cumulative impacts and risks. As reported in 
the draft EIS, the life-cycle cost for the on-site stabilization 
alternative is $249 million and the relocation alternatives cost 
estimates range from $407 million to $542 million. These cost estimates 
include long-term groundwater extraction, as well as routine 
maintenance.
    Long-term groundwater remediation is required for a period of 75 to 
80 years, regardless of the tailings pile remedial action employed.

Q17.  Congress has dedicated funding toward the remediation of the 
Atlas Tailings site in Fiscal Years 2001, 2002, 2003, 2004, and 2005. 
How much funding is DOE requesting in the Fiscal Year 2006 budget to 
initiate the tailings removal? What activities will that funding cover? 
Would additional funding enable DOE to proceed more promptly with this 
clean-up work?

A17. The FY 2006 Congressional Budget Request for the Atlas site in 
Moab, Utah, is $28.06 million. The following activities are planned: 
complete Remedial Action Plan (conceptual design); support the U.S. 
Nuclear Regulatory Commission's review and concurrence with remedial 
action plan; initiate detailed reclamation design; initiate 
construction of final groundwater corrective action system; continue 
operation/optimization of interim groundwater corrective actions to 
accelerate interim protection of threatened and endangered species; 
continue to monitor the groundwater and surface water; continue 
characterization and remediation of vicinity properties; and operate 
and maintain site including tailings dewatering system, access 
controls, health and safety, surface controls and air monitoring, and 
vegetation/habitat improvements. The Department has requested funding 
commensurate with an accelerated schedule and additional funding at 
this planning and early design phase of the project would not 
necessarily enable further acceleration.

Nuclear Weapons Testing

Q18.  During your recent testimony before the SASC, you seemed to 
indicate that nuclear weapons testing might resume sooner than has been 
previously acknowledged by DOE. Please comment or elaborate on this 
issue.

A18. I want to be clear about our plans. We have no plan to resume 
underground nuclear testing; our efforts to improve test readiness are 
a prudent hedge against the possibility of a problem arising in the 
stockpile that cannot be confirmed, or a fix certified, without a 
nuclear test. Our goal is to achieve an 18-month test readiness posture 
as directed by section 3113 of the National Defense Authorization Act 
for Fiscal Year 2004 (Public Law No. 108-136). At the February 15, 
2005, Senate Armed Services Committee hearing, I said that the DOE 
continues to be committed to that requirement of the law, and the 
budget that has been proposed by the President is consistent with that 
program.
                   Answers to Post-Hearing Questions
Responses by Arden L. Bement, Jr., Director, National Science 
        Foundation

Question submitted by Representative Michael M. Honda

Q1.  In 2002, President Bush signed into law a bill that was intended 
to double the NSF budget. Clearly, this is not reflected in the NSF's 
budget request. Dr. Marburger has testified before this committee that 
``this Administration understands that science and technology are major 
drivers of economic growth'' and presumably that is why the President 
signed the bill. But once again the President has delivered a budget 
that fails to back up the lofty rhetoric. Cutting funding for math and 
science education will hamper our nation in the very fields he claims 
are drivers of economic growth.

     How do you explain this lack of follow through, especially given 
what Dr. McQueary has said about how his agency plans to rely on 
discoveries made by scientists funded by NSF? Please don't just tell me 
that these are tight budget times. The President seems to be able to 
come up with money for more tax cuts, but not to invest in our futures.

A1. The National Science Foundation Authorization Act of 2002 (P.L. 
107-368, December 19, 2002) outlined three overarching objectives: to 
bolster the United States' lead in science and technology, to enhance 
workforce skills, and to increase innovation and competitiveness by 
expanding the focus of related policy at the regional and local levels. 
Funding authorized in this bill would have effectively doubled NSF's 
budget from $4.96 billion in FY 2002 to $9.84 billion in FY 2007.
    Recent events, however, have made this funding path unlikely in the 
near term. The President's budget, as you know, focuses on winning the 
war on terror, securing the homeland, and restoring fiscal balance. 
Amid these priorities, the Administration requests a 2.4 percent 
funding increase for NSF at a time when domestic discretionary spending 
is decreasing. Senate Report 108-353, issued by the Senate Committee on 
Appropriations (September 21, 2004), notes the significance of overall 
funding constraints:

         ``The Committee continues to be supportive of the efforts 
        achieved in the National Science Foundation Authorization Act 
        of 2002 (Public Law 107-368) and the pursuit of a doubling path 
        for NSF funding. However, due to funding constraints, the 
        Committee is not able to provide such funding at this time, but 
        will continue to pursue these efforts in the future.'' (p.135)

    Despite these constraints, the President has recognized the 
importance of the goals outlined in the 2002 Authorization. NSF's FY 
2006 Budget Request is built around four funding priorities: 1) 
strengthening core disciplinary research, 2) providing accessible 
cyberinfrastructure and world-class research facilities, 3) broadening 
participation in the science and engineering workforce, and 4) 
sustaining organizational excellence. This focus on a clear set of 
priorities will help the Nation meet new challenges and take advantage 
of promising opportunities while spurring growth and prosperity. In 
short, the FY 2006 Request seeks to maintain the science and education 
investments needed to achieve the objectives of the FY 2002 
Authorization. Although the timeline has changed, these objectives have 
not.
                   Answers to Post-Hearing Questions
Responses by Theodore W. Kassinger, Deputy Secretary, U.S. Department 
        of Commerce

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Some companies have told us that they are at a competitive 
disadvantage around the world because the other nations are choosing 
European standards over U.S. standards. The European standards-setting 
process is government-funded and government-led, while the U.S. system 
is more market-based and industry-driven. Does our system put our 
companies at a disadvantage? If so, what should we do about it?

A1. The United States is a market-driven, highly diversified economy 
and society, and our standards system encompasses and reflects this 
framework. Our decentralized, sector-based standards system, which is 
based on a strong public-private sector partnership, is diverse and 
inclusive, and supports flexible solutions. U.S. companies derive 
significant advantage from the system's flexibility and responsiveness.
    Many U.S.-developed standards are used globally. Depending on a 
specific sector's needs, preferred standards may be U.S. standards, 
those developed by the International Organization for Standardization 
or International Electrotechnical Commission (IEC), or other globally 
recognized standards, including consortia-developed standards.
    Many European Union (EU) regional standards are demand-driven as 
well, but some are developed specifically to meet European regulatory 
requirements. It is these standards, and accompanying European 
regulations, that are not only used in the growing EU market, but are 
also being promoted for use in emerging economies, which comprise some 
of the major U.S. export markets. In these markets, the EU devotes more 
resources than the United States to standards-related technical 
assistance.
    The U.S. Government, working with the private sector, can do a 
better job of promoting U.S. standards interests in our most important 
markets. Our message needs to incorporate U.S. principles of effective 
standardization, which stress that standards development be driven by 
the marketplace, stress that those standards have good technical 
content, and allow for multiple technologies. The fact that U.S. 
Government agencies rely to a great extent on private sector standards 
in their own regulatory and procurement activities should be a part of 
our message to foreign governments as well. The importance of 
developing a positive and persuasive message is especially critical in 
key emerging markets where standards regimes are still in the formative 
stage.
    The Commerce Department launched its Standards Initiative in 2003 
to ensure that the Federal Government works effectively to promote U.S. 
standards interests and to eliminate standards-related market barriers 
that undermine U.S. exports and threaten the international 
competitiveness of U.S. industry. A Departmental report--``Standards & 
Competitiveness: Coordinating for Results,'' May 2004 which can be 
found at http://ts.nist.gov/ts/htdocs/210//
trade<INF>-</INF>barriers<INF>-</INF>report.pdf--presents a broad set 
of recommendations, some of which address outreach and promotion.
    The Commerce Department is working with partner agencies on the 
Trade Promotion Coordinating Committee to build on these 
recommendations and craft a trade promotion strategy for the coming 
year that recognizes the importance of standards to the export 
competitiveness of American companies. Our strategy aims to develop an 
ambitious partnership with U.S. manufacturers and service providers, 
and the U.S. standards community, to better promote U.S. standards 
interests in our most important markets. This includes not only 
emerging, fast-growing markets such as China, but also the EU itself, 
where we are working under the framework of the U.S.-EU Regulatory 
Cooperation Roadmap to identify areas where we can coordinate to 
facilitate a barrier-free transatlantic marketplace.

Q2.  While we are generally supportive of the Administration's proposal 
to expand tsunami detection and warning capabilities to all U.S. coasts 
and territories, the National Oceanic and Atmospheric Administration's 
(NOAA) budget request cuts by nearly 50 percent (from $4.3 million to 
$2.3 million) the Tsunami Hazard Mitigation Program. This program 
provides funding for education and outreach activities as well as helps 
local communities with evacuation planning. Witnesses at our tsunami 
hearing stated that these education activities were just as important 
as the technology for detection. Why was this program cut in half when 
NOAA is requesting $9.5 million for new buoys?

A2. The President's fiscal year (FY) 2006 Budget request of $2.3 
million for the National Tsunami Hazard Mitigation Program (NTHMP) is 
the same amount as the Administration has requested in past years. In 
FY 2005, the Congress appropriated an additional $1.9 million for the 
NTHMP.
    In addition to the $2.3 million for the NTHMP requested in the 
President's FY 2006 Budget, the Administration's two-year tsunami 
warning proposal, which is not just for new buoys, allocates an 
additional $4.75 million for education and outreach, and mitigation and 
inundation mapping. NOAA's inundation mapping and modeling efforts are 
a critical component to community preparedness, providing information 
on safe evacuation routes. Also critical are NOAA's efforts in public 
education and outreach, including the TsunamiReady program. Of the 
$4.75 million allocated, $2.25 million will be spent on inundation 
mapping and modeling and $2.5 million will go towards public education 
activities. The Administration's two-year proposal also directly funds 
NOAA's operation and maintenance costs for the Deep-ocean Assessment 
and Reporting of Tsunamis (DART) buoys, and continued research and 
development for the DART systems; these activities were previously 
funded by the NTHMP. With the Administration's proposal funding 
activities formerly contained within the NTHMP line item, more of the 
$2.3 million base funding for the NTHMP can be directed towards 
education and outreach efforts. Overall, the Administration is 
increasing funding for tsunami education and outreach with the 
President's FY 2006 Budget Request.

Questions submitted by Representative Bart Gordon

Q1.  The Administration is requesting $1.05 billion for its 
Nanotechnology Initiative in FY06. Last week, I met with some small 
start-up nanotech firms who are members of the Nanotechnology Alliance. 
They said their biggest hurdle was the lack of funding to translate 
research results to proof-of-concept--crossing the so-called valley of 
death. Though they thought the U.S. was leading in most areas of basic 
nanotechnology research, they also felt that we were falling behind in 
applied research. Other countries have specific programs to fund 
applied nanotechnology research. These nanotech firms mentioned the 
Advanced Technology Program (ATP) as bridging this gap in the United 
States and said that we needed to support the ATP (or some similarly 
designed program) in order to ensure the U.S. reaps the benefits in 
terms of jobs and economic competitiveness. You propose eliminating the 
ATP. Why isn't the Administration listening to the concerns of our 
high-tech entrepreneurs?

A1. The United States has the deepest pool of private investment 
capital in the world available to entrepreneurs with credible project 
funding proposals. According to the National Venture Capital 
Association an estimated $20.9 billion was invested by venture 
capitalists in the United States in 2004. The Department appreciates 
the Committee's efforts in promoting nanotechnology. We share the 
desire to translate research results to proof-of-concept and see to it 
that our nation does not fall behind in applied research. Nevertheless, 
we believe that other National Institute of Standards and Technology 
(NIST) research and development programs have profoundly greater impact 
than the ATP, and are essential to the continued technological 
leadership of U.S.-based business, American workers, and the economy. 
In this time of budgetary constraint, the Administration believes that 
reductions must be made to certain programs so that available resources 
can be redirected towards higher priority initiatives.

Q2.  The Administration proposes a $47.5 million increase for the 
National Institute of Standards and Technology (NIST) lab programs. 
Generally, I would be pleased about this increase, but it seems to be 
based upon source budget gimmicks similar to Enron and WorldCom 
accounting. The NIST budget request does not include ATP close-out 
costs. It is my understanding that termination costs would include:

        <bullet>  $15 million for employee termination [the Office of 
        Management and Budget estimates $12 million, NIST estimates $18 
        million];

        <bullet>  $13 million of ATP funds which are transferred to the 
        NIST lab program; and

        <bullet>  $43.5 million in funding for existing ATP projects.

     Thus, ATP close out costs could be as high as $71.5 million. Why 
didn't the Administration include ATP close-out costs in its budget 
request? And had you included these close-out costs, what would have 
been the impact on the budget request?

A2. We understand your concerns with respect to ATP close-out costs, 
and we agree that an orderly shutdown of the ATP is not without 
expense, and we believe that the proposed shutdown can be accomplished 
within the proposed Department of Commerce budget. If Congress enacts 
the FY 2006 President's Budget proposal to terminate funding for ATP, 
the Department of Commerce and NIST will pursue all available means to 
address the termination cost requirements, consistent with legal 
obligations and sound management practices.

Q3.  Since 2001 we have lost 2.8 million manufacturing jobs. This past 
December alone we lost another 25,000. The Administration's FY 2004 
Manufacturing Extension Program (MEP) Impacts Report says that MEP 
increased sales by $4 billion and created over 50,000 jobs (these 
numbers reflect results from just 1/4 of the recipients, so they are 
very conservative).

Q3a.  What other federal program produces the kind of return on 
investment that MEP has demonstrated?

Q3b.  Given the performance of MEP and the economic situation in 
manufacturing, why hasn't the Administration brought forward a budget 
proposing to expand MEP?

Q3c.  How many MEP centers will end up being closed under this proposal 
and where are they located?

A3a,b,c. The Administration proposes to fund the program at $46.8 
million. With about 50 percent of the FY 2005 center grants, the 
Administration seeks to maintain a national network of centers while 
focusing funding based on centers' performance and need. The FY 2006 
Budget is not intended to reduce the number of centers.
    The President's FY 2006 Budget aims to promote economic growth by 
supporting innovation and technological advancement through investment 
in federal science and technology programs. In the FY 2006 Budget, 
total federal R&D investment is $132.3 billion, an increase of $733 
million over this year's record R&D budget and a 45 percent increase 
compared to FY 2001's $91.3 billion budget. Funding for basic research, 
the fuel for future technology development, is $26.6 billion in FY 
2006, compared to $21.3 billion in FY 2001--a 26 percent increase. 
Ninety-five percent of this spending occurs outside the Department of 
Defense. The FY 2006 Budget also includes a 12.7 percent increase for 
the laboratory programs at the National Institute of Standards and 
Technology, which provide the infrastructure necessary to promote 
innovation and enhance the productivity and competitiveness of U.S. 
manufacturers.
    The President worked with Congress to provide tax relief that has 
benefited manufacturers of all sizes and supports permanent extension 
of the research and experimentation tax credit, as well as legal, 
regulatory and other policy changes to strengthen the manufacturing 
sector.
    As recommended in the Administration's Manufacturing Report, NIST's 
Hollings Manufacturing Extension Partnership Program (HMEP) continues 
to work with the International Trade Administration (ITA) on joint 
activities in training, and cross referral between HMEP centers and 
local ITA offices. One of the strengths of the HMEP network has been 
its utility to other federal agencies; we will continue to aggressively 
pursue partnerships to leverage the network. Last year, federal 
partners provided an additional $7 million in funding to centers.
    In addition, the Administration has established a special 
interagency working group under the aegis of the National Science and 
Technology Council as a forum for developing consensus and revolving 
issues associated with manufacturing R&D policy, programs and budget 
guidance and direction. On April 8, 2004, former Secretary of Commerce 
Evans established the Secretary's Manufacturing Council to ensure that 
manufacturers of all sizes will have a voice in implementing the 
Administration's manufacturing initiative.

Q4.  The FY03 and FY04 requests for MEP were both $13 million; the FY05 
request was $39 million; now we get $46.8 million. Can you explain the 
process whereby the Administration determines the proper funding level 
for MEP?

A4. As noted above, the FY 2006 Budget request proposes to fund HMEP at 
$46.8 million. At this level, the national network of centers will be 
maintained while focusing funding based on centers' performance and 
need. The fiscal discipline required in developing this budget, as in 
other budgets, required making tough choices among competing programs. 
Those choices vary somewhat from year to year. The FY 2006 Request 
reflects the Administration's current analysis of priorities for NIST, 
while adhering to a goal of reducing the federal contribution and 
putting the program on a path to self-sustainability that will 
ultimately strengthen it. We believe that the private sector 
contributions to the centers can be sustained; therefore, we focused on 
reducing the administrative costs and grants from the FY 2005 level.
                   Answers to Post-Hearing Questions
Responses by Charles E. McQueary, Under Secretary for Science and 
        Technology, Department of Homeland Security

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  The Department of Homeland Security (DHS) Science and Technology 
Directorate (S&T) funds academic research through university centers of 
excellence and fellowships for individual students. As a rule, 
university campuses emphasize the importance of publication of research 
results. How does DHS balance the need to ensure that research 
performed at DHS centers is relevant to the most pressing homeland 
security issues with the importance of protecting information about 
vulnerabilities? Please describe DHS's official policy for each 
university center on access to sensitive or classified materials and on 
DHS pre-publication review of research results. Is this policy included 
in the contract language?

A1. DHS supports the open conduct and publication of research performed 
by the Homeland Security Centers of Excellence. The Centers are 
generally able to conduct their grant-supported research without access 
to sensitive or classified information. Where such information is 
necessary, the principal investigators are subject to the customary 
background checks and security clearances. The Department recognizes 
that open research may indeed expose vulnerabilities better left 
protected, and we are working with the Centers to develop guidelines 
that address this concern, particularly as it relates to publication 
and dissemination of information. The Office of Naval Research, which 
acts as our contracting agent in these matters, covers possible 
constraints on the policy of open publication in the grant terms and 
conditions it issues.

Q2.  Last year, DHS S&T adjusted its policies regarding how DHS S&T 
funding will be provided to the Department of Energy (DOE) 
Laboratories.

Q2a.  In fiscal year 2005 (FY05), how much funding has been provided to 
the DOE laboratories by DHS S&T? How were these projects selected as 
lab-appropriate rather than industry-appropriate? Please provide 
examples.

A2a. For Fiscal Year 2005, the Science and Technology Directorate has 
allocated approximately $182 million in funding to the DOE national 
laboratories to date.
    A consensus of the S&T Directorate's executing offices (Office of 
Research and Development, Homeland Security Advanced Research Projects 
Agency, and Systems Engineering and Development) decides whether a 
program is to be based at the National Laboratories by considering:

        a.  whether the work is inherently the Federal Government's 
        responsibility;

        b.  whether the work is required to maintain an enduring 
        national capability;

        c.  whether limited interest in or incentive for private sector 
        engagement creates a technological or knowledge gap; and

        d.  whether the work will leverage or enhance other Federal, 
        State, and local government investments.

    The research directed toward the Department's awareness goal, 
including knowledge discovery and dissemination and threat 
characterization, are examples of work that meets these criteria. Such 
research develops capabilities in the acquisition and interpretation of 
terrorist threat data with the aim of providing real-time analysis and 
information processing for policy makers, intelligence analysts, law 
enforcement officials, human and animal health care communities, and 
other decision-makers.

        <bullet>  Creation of standards and test protocols for various 
        types of equipment for use in guiding industry and evaluating 
        technologies against minimum performance requirements.

        <bullet>  Establishing, maintaining, and operating test-bed 
        facilities to assess the performance of technologies and 
        technology systems provided by various industry partners in 
        operational environments encountered by DHS users.

        <bullet>  Establishing, maintaining and operating facilities to 
        perform research on WMD forensics capabilities.

        <bullet>  Creating detailed intra- and cross-sector models to 
        simulate inter-dependencies in critical infrastructure, 
        including sensitive information captured from industrial and 
        governmental ``owners'' of the sectors. The models then support 
        decisions about where to apply technology solutions to 
        identified gaps and vulnerabilities.

Q2b.  In FY05, how much funding has been provided to the DOE 
laboratories by non-S&T units of DHS? What role does S&T play is 
selecting the DOE laboratories to perform this work? What role does S&T 
play in overseeing the projects? Please provide examples.

A2b. As of mid-March, the Information Analysis and Infrastructure 
Protection (IAIP) Directorate indicates that approximately $73 million 
is projected to be allocated to DOE national laboratories in Fiscal 
Year 2005. The funding from IAIP is for vulnerability assessments and 
risk analysis from an operational perspective. IAIP is taking advantage 
of the knowledge base of the subject matter experts resident at the 
national labs. The Bureau of Customs and Border Protection estimates 
$96 million will be allocated to the DOE national laboratories. The 
Department's other Directorates select performers based on internal 
criteria suited to their specific mission requirements and user needs. 
The Office of National Laboratories within the Science and Technology 
Directorate facilitates other Directorates' access to the national 
laboratories as appropriate.

Q2c.  The Homeland Security S&T Advisory Committee reviewed S&T's 
policy and existing interactions with the laboratories, and offered 
several recommendations going forward, including that DHS clarify its 
strategic needs from the laboratories, consolidate management and 
oversight of all DHS-funded work at the labs, and explore models for 
funding the labs that go beyond the current project-driven approach. 
What actions is DHS S&T taking in response to these recommendations?

A2c. The S&T Directorate values the Advisory Committee's 
recommendations and is actively developing a strategy to implement the 
Advisory Committee's concepts. We have commissioned a study by the 
Homeland Security Institute to develop specific criteria, metrics, and 
methods that we could use to address the Advisory Committee's 
recommendations. This study builds on the Homeland Security Institute's 
previous examination of the national laboratories' capabilities, and we 
expect the Institute to complete its study later this year.

Q3.  The recent tsunami reminded us that it is critical for every 
community to have an effective means to communicate warnings or 
information for any natural or man-made disaster to the public. It is 
our understanding that DHS received $10 million in fiscal year 2004 
(FY04) and another $10 million in FY05 to purchase National Oceanic and 
Atmospheric Administration (NOAA) Weather Radios to be placed in public 
schools across the Nation. Has any of the funding actually been used to 
purchase and deploy the radios? If not, why not? And how are you 
working with NOAA on this project?

A3. DHS is currently procuring NOAA All-Hazard radios for schools 
across the country. Following extensive coordination with NOAA, the 
Department of Education, and other DHS entities, a $500,000 pilot 
program was initiated to disseminate these radios to K-12 public 
schools in certain Urban Area Security Initiative (UASI) cities and two 
rural states. It is anticipated that these radios will arrive in 
schools before the end of this school year. After we consider lessons 
learned from the initial pilot program $1.5 million of additional alert 
and warning funds will be used, totaling $2 million for NOAA All-Hazard 
radio purchases. The remaining $18 million appropriated for alert and 
warning is being used for related efforts, such as applying satellite 
technology to emergency warning of natural or man-made disasters.
    In addition to weather-related information, DHS and NOAA now have 
an agreement for NOAA's All-Hazard broadcasts to complement the Federal 
Emergency Management Agency's (FEMA) local Emergency Alert System. This 
allows NOAA All-Hazard radios to disseminate official DHS alert and 
warning information.

Q4.  The Homeland Security Act of 2002 requires DHS to establish a 
Homeland Security Institute (HSI) to provide analytical services, 
including risk assessment and vulnerability modeling. A contractor for 
HSI was selected in April of last year. What is the funding level for 
HSI in FY04 and FY05 and the planned funding level in FY06? What tasks 
has it accomplished to date? How does S&T expect to use it going 
forward? Do other units of DHS have access to HSI's capabilities? How 
are those projects funded?

A4. The Homeland Security Institute (HSI), a Federally-Funded Research 
and Development Center (FFRDC), was established on April 26, 2004, to 
be a strategic analytic resource for DHS and provide the Department 
with the capabilities identified in Sec. 312 of the Homeland Security 
Act of 2002. The activities of the Institute are organized into core 
tasks (cross-cutting work to address strategic issues and broader, 
longer-term research needs) and analytic tasks that focus on specific 
issues or questions. Funding is provided to support both types of tasks 
consistent with the Institute's core capabilities.
    In FY 2004, HSI received $9.0 million from the S&T Directorate for 
phase-in, core, and analytic tasks. For FY 2005, the S&T Directorate 
provided $15.5 million in core and analytic task funding. Other DHS 
components, including the Border and Transportation Security 
Directorate, the U.S. Coast Guard, and the DHS Chief Information 
Officer, have access to HSI's capabilities and have provided or 
committed approximately $1.5 million for analytic task funding in FY 
2005. HSI funding for FY 2006 is in the planning stages and will be 
determined later as individual DHS elements identify their analytic 
needs. To date, the Institute completed all tasks assigned in the FY 
2004 Research Plan, is underway on the 42 tasks identified for the FY 
2005 Research Plan, and is developing (along with DHS) a set of 
research activities for possible FY 2006 funding.
    The Homeland Security Institute's core capabilities include systems 
analysis, risk-consequence-vulnerability analyses, operational and 
capability assessments, multi-faceted threat evaluations, economic and 
policy analysis, alternative investment comparisons, and simulations. 
The Institute also sponsors and analyzes outputs from meetings and 
workshops on topics such as Wide Area Biological Restoration, Rail 
Security, and Cargo Security. These workshops bring together top 
experts from the public, industry and academia, along with the Federal/
State/local government sectors, including the national laboratories, to 
address specific critical issues and develop broad-based priorities 
that can drive the DHS strategic decision processes. HSI has also been 
working with various standards committees to help foster the 
development and promote community-wide acceptance of homeland security 
related standards. HSI is also involved with charting and assessing 
homeland security capabilities at a variety of national laboratories. 
The Institute is currently funded to evaluate several operational 
systems including the assessment of urban bio-monitoring methods. These 
kinds of analyses provide an independent focus and evaluation process 
to the system assessments. HSI has also begun to work with other DHS 
components, including the Office for Domestic Preparedness, the 
Information Analysis and Infrastructure Protection Directorate and the 
Office of Program Analysis and Evaluation.

Q5.  On page 22 of your testimony, you indicate that DHS is working on 
a `` `Future Smart Container' initiative encompassing container 
security, communications, and data systems for the future.'' How much 
is DHS spending on this program in FY05? How much does it plan to spend 
in FY06? What are the priorities for container security research? 
Should we be focusing on near-term solutions or more long-range 
research?

A5. In support of the Maritime Security Policy National Security/
Homeland Security Presidential Directive (NSPD-41/HSPD-13) and the 
Maritime Transportation Security Act of 2002, specifically the 
Container Security Initiative, the S&T Directorate is developing both 
short- and long-term enhancements to container security under the 
auspices of the Cargo Security Program.
    During FY 2005 and FY 2006, the majority of our Cargo Security 
efforts are in container security. The planned container security 
investment is $10.6 million in FY 2005 and $12.0 million in FY 2006. We 
are also developing other aspects of cargo security including 
communications and data management systems.
    The longer-term priorities for cargo security research are:

        <bullet>  Assuring the integrity of container loading and 
        documentation;

        <bullet>  Reducing risk of undetected tampering in transit;

        <bullet>  Providing accurate, complete, timely, and protected 
        shipment information; and

        <bullet>  Enhancing supply chain efficiency.

    DHS is working towards a cargo security program that will utilize 
an integrated network system able to effectively and efficiently manage 
the large amounts of information that come with the use of various 
types of sensors and technologies.

Q6.  The Electronic Crimes Task Forces (ECTFs) of the Secret Service 
have proven to be effective in stopping Information Age crimes such as 
identity theft, cyber terrorism and online fraud. Is DHS S&T working 
with the Secret Service and the ECTFs on a research agenda for these 
areas?

A6. The S&T Directorate is working with the U.S. Secret Service (USSS) 
to develop requirements for research, development, testing, and 
evaluation (RDT&E) to address identity theft, cyber crimes, online 
fraud, and similar issues. Responding to needs identified by internal 
customers within the USSS, the S&T Directorate's Cyber Security RDT&E 
portfolio funded a project to develop a software tool for identifying 
certain types of Internet communications commonly used for illicit 
commerce in with stolen credit card numbers and related data. In 
addition, in a recent proposal competition that included seven 
technical topic areas, one of the topic areas solicited proposals aimed 
at technologies to defend against identity theft. Several members of 
the USSS participated in the review process for these proposals, some 
of which concerned phishing (a form of cyber-based social engineering 
that uses misrepresentation to trick users into divulging sensitive or 
personal information which is then used for identity theft or other 
fraud). Three projects aimed at preventing phishing were identified as 
meriting funding.

Q7.  The National Institute of Justice (NIJ) Center, co-located at the 
Air Force Research Laboratory Information Directorate at Rome, has had 
a tremendous record of leveraging technologies developed by the 
military and transferring these technologies to state and local law 
enforcement, particularly in the emerging area of cyber crime and cyber 
terrorism. What is DHS doing to work with the NIJ to assist State and 
local law enforcement with new and emerging technologies?

A7. The S&T Directorate's Office for Inter-operability and 
Compatibility (OIC) has partnered with NIJ on a number of initiatives, 
and their representatives serve together on a number of committees to 
help the local and State law enforcement community. Mutual efforts have 
included establishing an interagency Memorandum of Agreement to 
coordinate and collaborate on the development of a process to transfer 
technologies and equipment to emergency responder communities, creation 
of a Joint Evaluation and Testing (JET) Program for public safety 
equipment, and NIJ membership in OIC's SAFECOM Advisory Group. Through 
the SAFECOM Advisory Group, NIJ has participated in development of the 
Statewide Communications Inter-operability Planning (SCIP) Methodology, 
a strategic plan for statewide communications and inter-operability in 
Virginia, and a Public Safety Statement of Requirements for 
Communications and Inter-operability (SoR), among other efforts. State 
and local law enforcement also receive assistance with new and emerging 
technologies through the Information Analysis and Infrastructure 
Protection Directorate and the Office of State and Local Government 
Coordination and Preparedness. IAIP provides operational assistance for 
new technologies and OSLGCP supports equipment acquisition.

Q8.  On page 32 of your statement, within the ``Office of SAFETY Act 
Implementation (OSAI)'' section, you note that: ``The number of 
applications is expected to increase significantly with the 
introduction of the revised kit, implementation of the Final Rule, and 
higher visibility.'' Additionally, you note that: ``OSAI plans to 
expand its coordination of the program with pending federal, State and 
local procurements.'' Given the expectation for an increased workload 
and expanded efforts, what is the justification for a 44 percent 
decrease in the OSAI budget? What activities will be cut? What is the 
personnel level for OSAI in FY05, and what is the proposed personnel 
level for FY06?

A8. The Office of SAFETY Act Implementation was established in 2004-
2005. Non-recurring costs for the OSAI from that time include those 
associated with the development of a multi-stage process for 
implementing the governing regulation; developing and refining the 
review and approval process and for training and certifying reviewers; 
securing a proper a facility and support staff to house the OSAI in a 
manner guaranteed to protect the sensitive proprietary information; 
establishing a network of technical reviewers; and establishing a web-
based SAFETY Act application submission, review, and approval 
mechanism.
    Based on initial assumptions about the prospective number of 
applications, the Department designed the program to have the capacity 
to process up to 1,000 applications per year. However, fewer 
applications than expected were received. We expect that more Federal, 
State and local government contracting officers and industry learn of 
its benefits and we fully implement measures to make the program more 
accessible, the number of applications will increase measurably.
    Thus, although the proposed budget for FY 2006 has been reduced, no 
planned SAFETY Act activities will be cut since the infrastructure, 
application process, and vetted reviewers are now in place. The funding 
stream for FY 2005 and FY 2006 are sufficiently robust to accommodate 
significant increases in applications. We reiterate that it is our goal 
to integrate, to the maximum extent possible, SAFETY Act protections 
with appropriate public procurements--federal, State, and local. As 
procurement officials at all levels become aware of the benefits of 
integrating SAFETY Act protections into public procurements, we 
anticipate an increase in the number of full applications.
    In FY05 the staff at the Office of SAFETY Act Implementation 
included: the Director, a federal detailee, an IPA from academia, three 
SETA support contractors, and a core staff of 33 supplied by the prime 
contractor FFRDC. In addition, the OSAI has established, through a 
support arrangement with a DOD FFRDC, the capability to reach out to 
more than 400 technical reviewers that can serve on an as-needed basis 
as evaluators of SAFETY Act applications. This capacity allows the OSAI 
to ensure a strong technical and scientific basis for each SAFETY Act 
decisions and ample surge capability without maintaining an excessively 
large permanent staff. Since DHS has already paid the non-recurring 
start-up costs described in paragraph one and we have been able to 
realize labor savings through the use of consulting arrangements, we 
are comfortable in projecting a 44 percent overall decrease in 
operational cost.

Q9.  On page 59 of your statement, within the ``Office of SAFETY Act 
Implementation (OSAI)'' section, you note that: ``the S&T Directorate 
has created a partnership with federal procurement offices to introduce 
them to the program.'' Please indicate when this partnership was 
launched, list the federal procurement offices that are members of this 
partnership, and describe what this partnership has accomplished since 
its inception. Furthermore, please list the procurements that have been 
considered for SAFETY Act coverage, and those that have actually been 
given SAFETY Act coverage, as part of this partnership effort.

A9. The Department and the Office of SAFETY Act Implementation (OSAI) 
will continue to reach out proactively to inform relevant communities-
first responders; State, local, and tribal agencies; the private 
sector; the legal profession; federal agencies; procurement and 
acquisitions officers-of the benefits and processes associated with the 
SAFETY Act. We realize that there is still a learning curve and that 
additional efficiencies are possible. However, our overall goal is for 
procurement officials at the federal, State, or local levels to 
identify the potential for SAFETY Act protections and contact the 
Office of SAFETY Act Implementation prior to the public solicitation. 
OSAI has established internal procedures to flag applications submitted 
in connection with federal, State, and local procurements and expedite 
their processing. The Department is also supporting on-going 
interagency efforts to asses the need for and potential development of 
modifications to the Federal Acquisition Regulation in light of the 
SAFETY Act and Executive Order 13286. The Department will continue to 
listen to these communities for ways to better implement the Act. OSAI 
has coordinated the timing of its review of SAFETY Act applications to 
accommodate procurements by the Transportation Security Administration, 
Customs and Border Patrol, and the New York Metropolitan Transportation 
Authority.

Q10.  As the S&T Directorate operates, maintains and deploys the 
BioWatch program, please describe what, if any, liability risks you 
believe the government faces should this system fail to work and harm 
come to the public. Also, please describe what risk management systems 
are currently in place to mitigate this risk--i.e., do contractors, 
vendors, or suppliers to the program benefit from either 
indemnification or SAFETY Act coverage? If not, what is the rationale 
for this lack of coverage? Will technologies developed for the next 
generation of BioWatch equipment receive indemnification or SAFETY Act 
coverage?

A10. Government liability would be determined in accordance with the 
principle of sovereign immunity and its limited waiver in the Federal 
Tort Claims Act. However, the S&T Directorate believes it has an 
obligation to ensure that the overall BioWatch program works properly 
as a matter of public safety and public trust, regardless of liability.
    The Department is not aware of any SAFETY Act application submitted 
in connection with the BioWatch program. All providers of anti-
terrorism technology may apply for the protections afforded by the 
SAFETY Act. Participants in the BioWatch program are certainly eligible 
to apply.

Q11.  What is the status of the new DHS partnership with the Air Force 
Research Laboratory (AFRL) in Rome, NY? What progress has been made 
toward expanding DHS-AFRL collaborations in specific areas since the 
agreement was signed last August? Also, please provide information on 
the objectives, timeline, budget, and other plans related to the new 
agreement as it moves forward.

A11. AFRL has been supporting the execution of some of the S&T 
Directorate's Cyber Security portfolio activities, serving as a funding 
agent for several of the portfolio's programmatic activities. Though 
most of the funding goes out to external performers, AFRL collects 
agent fees that support AFRL activities. AFRL is serving as an agent 
for approximately $5.8 million of FY 2004 funds. The total funding 
level for FY 2005 is expected to be somewhat lower due to reductions in 
some of our program budgets. Additionally, approximately a dozen 
members of AFRL's technical staff served on the review panel for a 
broad agency announcement (BAA) recently released by the S&T 
Directorate.
    Within the S&T Directorate, the SAFECOM Program is in the process 
of developing a Statement of Work for Technical Support related to the 
Program's efforts to research and develop communications and 
information inter-operability standards important to public safety 
readiness for day-to-day operations, including counter-terrorism 
readiness. The Statement of Work would leverage AFRL's expertise in 
information technology (particularly in inter-operability, 
connectivity, information sharing, and data fusion) to perform R&D 
related to project SAFECOM. The Statement of Work is still being 
developed and is expected to be submitted for review or approval within 
the Department in FY 2005. It is anticipated that the level of 
investment that will fund R&D at AFRL will be $2-$2.5 million, although 
funds have not yet been obligated.

Questions submitted by Representative Dave G. Reichert

Q1.  Washington State is home to one of the Department of Energy's 
(DOE) premier science laboratories, the Pacific Northwest National 
Laboratory (PNNL) in Richland, WA. Although not in my district, the Lab 
supports a robust program for DHS, including your Science & Technology 
Directorate, that has important regional and national impacts. Indeed, 
as you know, PNNL has unmatched capabilities in detecting radiological 
materials.

     The President's FY 2006 budget submission announces a new 
initiative within DHS called the Domestic Nuclear Defense Organization. 
Can you explain to the Committee how this new organization will fit 
into DHS's existing structure, and how it will affect ongoing research 
efforts such as the radiological detection work conducted at PNNL?

A1. The Domestic Nuclear Detection Office (DNDO) is a jointly-staffed, 
national office charged with developing a global nuclear detection 
architecture and with implementing the domestic portion of that system. 
The system will detect and report attempts to import or transport 
nuclear devices, fissile, or radiological material intended for illicit 
use. DNDO reports directly to the Secretary of DHS.
    The Department of Energy provides staff to DNDO to coordinate work 
and ensure that the national laboratories, including PNNL, receive 
clear guidance and direction on efforts regarding the global nuclear 
detection architecture. The national laboratories have long been this 
nation's source of critical nuclear expertise. That expertise will 
continue to be vital in responding to the threat of nuclear and 
radiological attack.

Q2.  The Volpentest HAMMER Training and Education Center in Richland, 
WA and Lockheed Martin will be conducting several demonstrations of 
combined computer-based simulation and hands-on training and exercises 
for emergency responders this year.

Q2a.  Will you encourage appropriate representatives from DHS to 
observe these demonstrations and seriously consider supporting this 
combined training and exercise pilot project starting next year?

A2a. During the last year, I visited the Volpentest HAMMER Facility, 
and I will ensure that the S&T Directorate encourages representatives 
from DHS to observe these demonstrations. Information provided by these 
demonstrations could provide valuable insight to the RDT&E needed in 
the area of simulation-based training and exercise which is a major 
thrust for the S&T Directorate's Emergency Preparedness and Response 
(EP&R) RDT&E portfolio.

Q2b.  Will DHS cooperate with DOE to develop a strategy and a 
cooperative agreement to ensure that HAMMER remains available to meet 
DHS's growing training needs for emergency responders; law enforcement, 
customs, border protection, and security personnel, along with serving 
as a test bed to deploy new field technologies?

A2b. We want to thank Representative Reichert for bringing these 
capabilities of the Volpentest HAMMER Facility to our attention and we 
will ensure we take them into consideration.

Questions submitted by Representative Bart Gordon

Q1.  Dr. McQueary, with the knowledge that a cyber attack on our 
nation's government computers could have devastating consequences for 
financial networks and the economy and/or could result in the theft of 
classified documents and sensitive personal information, why is it that 
cyber security still suffers from a lack of coordination, poor 
communication and an inability to set priorities at DHS?

     What is the rationale for the requested $1.3 million cut to cyber 
security?

A1. The National Cyber Security Division in the Information Analysis 
and Infrastructure Protection (IAIP) Directorate has the lead on cyber 
security issues. DHS is following the priorities set forth in the 
National Strategy to Secure Cyberspace. S&T Directorate staff meet 
regularly with internal stakeholders in the Department's National Cyber 
Security Division and the National Communications System to understand 
operational requirements better. At an interagency level, the S&T 
Directorate's Director of Cyber Security R&D co-chairs (with the Office 
of Science and Technology Policy) the Critical Information 
Infrastructure Protection Interagency Working Group (CIIP IWG) within 
the National Science and Technology Council. The CIIP IWG is working 
with numerous representatives from other federal departments and 
agencies to develop a coordinated interagency federal plan for cyber 
security R&D.
    We believe that our investment balance among the various technical 
portfolios is appropriate. The allocation of funding resources to 
portfolios is based on a formal strategic planning process that takes 
into consideration risk (including threat, vulnerability, and 
consequence) and other strategic objectives. Cyber security R&D 
competes with other investments, and we believe its funding is 
appropriate. The Department has been highly supportive of the planning 
approach taken by the S&T Directorate and believes that this process 
results in technically sound and supportable decision making with 
regard to funding allocations.

Q2.  The S&T Directorate proposes to spend $110 million on its efforts 
to deal with the threat to commercial aircraft posed by shoulder-fired 
anti-aircraft missiles, such as Stingers. The RAND Corporation earlier 
this year calculated that installing existing technology on the 
commercial air fleet would cost an estimated $11 billion and require a 
continuing annual maintenance investment of $2.1 billion. It also 
recommended proceeding with the Department's R&D effort.

Q2a.  How does the Directorate's proposed program address the concern 
that the current technology involves annual operating costs ($2.1 
billion) equal to almost half of the current annual spending ($4.4 
billion) on ALL aspects of transportation security?

A2a. The DHS Counter-MANPADS program was established to determine the 
feasibility and economic viability of potential counter-measures 
systems on commercial aircraft including the key issue of reliability 
and how it impacts annual operating and support costs. The commercial 
airline industry is very sensitive to operating and support costs and 
advocates the lowest cost impact possible if a counter-MANPADS solution 
is implemented. The $2.1 billion annual operating cost identified by 
RAND in their report was derived from direct application of current 
military systems and therefore represents a high upper bound of the 
cost impact for the Counter-MANPADS solutions currently being developed 
and demonstrated for commercial adaptation. A number of promising 
advancements in operational and maintenance concepts could reduce the 
cost of operations. Some of these include reducing the requirements of 
Minimal Equipment List (MEL), utilizing commercial supply chain 
management and increasing the system's reliability. One of the primary 
thrusts of the DHS Counter-MANPADS program is to increase the 
reliability of these solutions to a minimum threshold of 3,000 hours, 
with an ultimate target of 4,500 hours. While these are challenging 
goals, if the objectives of the DHS Counter-MANPADS program are met, 
the annual operating costs would be significantly reduced.
    Additionally, the RAND report based its annual operating cost 
estimate on equipping 6,800 total aircraft, which includes all U.S. 
airline passenger, and cargo wide-body, narrow-body, and regional jet 
aircraft. While a decision has not yet been made whether to equip even 
a portion of the fleet, equipping a more limited number of aircraft 
(e.g., wide-body passenger aircraft) would further reduce installation 
and annual operating costs compared with RAND's estimate.
    We believe that the DHS System Program Office assumptions and 
resultant cost estimates will be a more accurate reflection of the 
current status of the program, and the potential annual operating costs 
are expected to be reported to Congress in the second quarter of FY 
2006.

Q2b.  The RAND report also recommends a ``concurrent technology 
development effort on understanding damage mechanisms and the 
likelihood of catastrophic damage to airliners from an attack.'' Are 
efforts underway within your program to address these recommendations?

A2b. The S&T Directorate supports this report's recommendation to 
examine the damage mechanisms and likelihood of catastrophic damage to 
commercial aircraft. We believe this is important information to 
include in the decision process for deployment of countermeasures on 
commercial aircraft. The DHS Counter-MANPADS System Program Office is 
working closely with the Department of Defense (DOD), the Federal 
Aviation Administration (FAA), and the National Aeronautics and Space 
Administration (NASA) to establish coordinated efforts to assess the 
vulnerability of large commercial aircraft and their associated 
infrastructure and to develop capabilities to mitigate the 
vulnerabilities identified. These efforts will include demonstration of 
new technologies that will reduce the likelihood of catastrophic damage 
regardless of threat type. The Counter-MANPADS program is designed to 
advance a countermeasures design to protect commercial aircraft from 
shoulder-launched missiles; this program is not intended to be a 
comprehensive technology development effort to understand and mitigate 
damage mechanisms.
    The specific charter of the DHS Counter-MANPADS program is to 
advance a countermeasures design that will protect commercial aircraft 
from shoulder-launched missiles. However, we understand that the types 
of information recommended in the RAND report are important for 
inclusion in the decision-making process for deployment of 
countermeasures on commercial aircraft. The DHS Counter-MANPADS System 
Program Office is working closely with the Department of Defense (DOD), 
the Federal Aviation Administration (FAA), and the National Aeronautics 
and Space Administration (NASA) to establish coordinated efforts to 
assess the vulnerability of large commercial aircraft and their 
associated infrastructure and to develop capabilities to mitigate the 
vulnerabilities identified. These efforts will include demonstration of 
new technologies that will reduce the likelihood of catastrophic damage 
regardless of threat type.

Q2c.  How significant is the false-alarm rate for current technology?

A2c. The false alarm rate of current sensor technology is an important 
consideration and its reduction is a primary objective of the current 
DHS Counter-MANPADS Program. The false alarm rate is far more critical 
for expendable-based systems because of the potential impact of 
dispensing expendable flares in a civilian environment and for the 
prevention of depleting the flares unnecessarily. The consequences of 
firing a laser (e.g., Directed InfraRed Countermeasure (DIRCM) systems) 
in response to a false alarm are less than a launched flare, but are 
not without potential impacts. One is the possibility of exposure of 
maintenance personnel to laser energy while the aircraft is on the 
ground. This can be prevented with safety interlocks and control logic 
designed for the civilian environment. Another is transmitting an 
Emergency Ground Notification (EGN) when a missile warning has been 
issued. Methods of managing an EGN during false alarms are being 
explored in Phase Two of the Counter-MANPADS program and will be 
integrated and tested during Phase Three.
    Perhaps of more concern than the false alarm rate of the sensors is 
the false notification rate of system reporting. An Emergency Ground 
Notification report by the system could potentially trigger a number of 
national, State, and local responses to a potential MANPADS event. DHS 
has established a requirement that Counter-MANPADS systems must have a 
false notification rate of fewer than one in one million flights 
(current DHS threshold). Both of the DHS Counter-MANPADS Program 
contractor teams are implementing a number of processes and algorithms 
that will filter out sensor false alarms and result in system designs 
that will meet or exceed the DHS requirement. Future technologies 
currently in development with DOD may be candidates for insertion to 
reduce false alarms further.

Q2d.  Are there ground-based detection and interception technologies 
that could be put in place, given that attacks are likely to occur in 
the vicinity of airports?

A2d. When the Directorate released its initial Counter-MANPADS Program 
solicitation in October 2003 it was open to all potential solutions, 
whether ground-based or aircraft-based. No company proposed a 
sufficiently mature ground-based solution. There are a number of 
ground-based technologies that are presently under development within 
DOD but none have been fielded or tested for use in a civilian 
environment. The Directorate is working closely with DOD to monitor 
progress in this area. Once DOD has matured ground-based technology to 
meet its own military operational requirements, the Directorate will 
investigate the applicability of this technology in a civilian 
environment.

Q2e.  What assistance are you providing to help with securing the 
perimeters of airports, keeping these weapons out of range of 
commercial aircraft?

A2e. The Transportation Security Administration (TSA) has the lead 
within DHS for airport security. TSA is working closely with the FBI, 
local law enforcement, and the respective airport authorities to assess 
and mitigate the vulnerability of commercial airports to MANPADS and 
other standoff weapons attacks. TSA has performed numerous airport 
vulnerability assessments in and around airports to identify potential 
MANPADS launch areas. During FY 2005, TSA has completed 18 MANPADS 
Vulnerability Assessments, with an additional 14 scheduled. TSA has 
also developed local MANPADS mitigation plans that include the 
emergency response activities of all affected federal, State, and local 
agencies. TSA conducts MANPADS exercises and outreach efforts to 
validate mitigation plans and enhance situational awareness and 
education for local law enforcement agencies that help protect airports 
against this threat.
    The S&T Directorate is currently charged with researching, 
developing, testing, and evaluating commercial aircraft anti-missile 
technologies. The Directorate is working with TSA, FAA, and law 
enforcement to establish the reporting requirements of the Counter-
MANPADS System so that the system will support and integrate within the 
existing and future security architecture of the Nation's airports and 
the National Airspace System. The S&T Directorate and TSA coordinate on 
overlapping issues and areas of concern where they apply to improving 
civil aviation security.

Q2f.  The RAND report recommended postponing installation of the 
current generation of these technologies. Do you agree with that 
conclusion?

A2f. The findings of the RAND Report are largely consistent with the 
reasons Congress established the DHS Counter-MANPADS program. The S&T 
Directorate's Counter-MANPADS Program is focused on migrating proven 
DOD technologies to the commercial aviation environment. Efforts to 
transition this military equipment to civilian use face several 
technical and programmatic challenges ranging from affordability and 
flight safety to aircraft structural impacts across a wide variety of 
equipment employed by the airline industry.
    The decision to install any Counter-MANPADS system in the 
commercial aircraft environment will ultimately depend on balancing 
risks with cost and performance. In order to assess performance, the 
Directorate has proposed to maintain the progress of the current 
Counter-MANPADS efforts and recommends providing the requested funding 
for FY 2006. This investment would allow building and fielding a 
limited number of additional prototypes, conducting live fire testing, 
improving system reliability and annual operating cost, and continuing 
to mature and adapt the technology for commercial application.

Q3.  The Directorate intends to expand the BioWatch program. It 
currently operates in some 30 metropolitan areas, according to the 
budget submission. How many additional regions will be covered, and how 
will they be selected?

A3. The current plan will expand coverage in the top threat cities 
rather than increase the number of cities covered. This decision was 
based on stakeholder requests for increased temporal and spatial 
coverage both indoors and outdoors in high threat areas, including 
transit facilities. In FY 2004, this architecture was deployed in pilot 
form to New York City. The expanded system will be deployed in FY 2005 
and FY 2006 and will include additional collectors and an enhanced 
laboratory capability to accommodate the resulting increases in sample 
load. Future generations of BioWatch detection technology may reduce 
both the installation and maintenance costs, facilitating a wider 
coverage area.

Q4.  The newest Scientific American has an article titled, ``If 
Smallpox Strikes Portland.'' The authors describe a computer simulation 
that looks at the spread of a biological agent through a city to study 
the most effective responses by public health authorities. They 
conclude that ``. . .time was by far the most important factor in 
limiting deaths. . .. The actual response strategy chosen made little 
difference compared with the time element.'' How does the BioWatch 
program contribute to minimizing the time between detection of a threat 
and decisions by public health authorities on the most effective 
response?

A4. Prior to BioWatch, health authorities relied on traditional 
epidemiological tools--primarily dependent on clinical signs of 
illness--to make public health response decisions. BioWatch offers a 
new early detection capability that can alert public health authorities 
to a biological terrorist attack before exposed people show clinical 
signs of illness. This allows public health authorities time to give an 
exposed population post-event prophylaxis before the onset of disease, 
thus increasing survival rates. Current RDT&E efforts are underway to 
develop sensors that significantly reduce the time between the release 
of an agent and its detection. These improvements will further reduce 
the consequences of a bioterrorism attack.

Q5.  The Biological Countermeasures program, of which BioWatch is a 
component, is one of the elements at DHS that was subjected to a 
Program Assessment Rating Tool (PART) evaluation. The PART analysis 
notes that ``. . .during the initial execution of new programs and 
development of financial processes, there have been delays in FY04 
execution. The Biological Countermeasures program inherited a variety 
of distinct funds in the FY03 transition coupled with carryover into 
FY04.'' What progress has been made in dealing with these transition 
events?

Q5a.  The Standards portfolio also received a PART evaluation in this 
budget cycle, earning only an ``adequate'' rating. This translated 
directly into a $3 million decrease in the portfolio's budget request. 
Yet from your testimony the portfolio seems to be as active and 
successful as other Directorate elements. What represents the 
distinction between an ``effective'' and ``adequate'' program?

Q5b.  The Standards portfolio's PART analysis shows the weakness in the 
portfolio to be the lack of independent evaluation of the program's 
success. Yet it states that this occurred because there hasn't been an 
independent evaluation of the portfolio because it's too new. Isn't 
this a bit punitive, even for the Office of Management and Budget?

A5a,b. The Biological Countermeasures Portfolio provided transition 
information for FY 2003 and FY 2004 in support of the PART evaluation. 
While the program is still implementing a number of activities funded 
in FY 2003 and FY 2004, the pace of expenditures is increasing 
steadily.
    PART evaluation scores are translated into qualitative ratings as 
described below:

         Rating Range: Numerical Scores from 0-100

         Effective: 85-100

         Moderately Effective: 70-84

         Adequate: 50-69

         Ineffective: 0-49

    The focus of the PART program is to encourage continued evaluation 
and improvement. The PART evaluation for the Standards Program 
identified specific areas to focus on for improvement. The S&T 
Directorate is addressing these identified areas for improvement and 
expects the next PART evaluation to improve. It should be noted that 
the PART score strongly emphasizes demonstrated progress on annual and 
long-term performance measures. Newer programs that lack such will have 
somewhat lower PART scores until they develop a track record of 
performance.
    The funding change for the Standards Program was not a result of 
the PART evaluation. Multiple factors are considered in identifying the 
recommended funding including risk, needs, and the prioritization of 
the total S&T Directorate's efforts.
    The PART evaluation is not intended to be punitive; it is intended 
to identify specific areas to focus on to achieve program improvement. 
The Standards Program did not have evaluations in place at the time of 
the PART evaluation; thus, the statement that the program did not have 
independent evaluations of its program is a correct statement. However, 
the PART evaluation also noted that the reason the Standards Program 
did not have independent evaluations in place was the fact it was a new 
program.

Q6.  The S&T Directorate will be conducting R&D on advanced detectors 
for chemical and nuclear materials. What improvements over current 
detector technology are expected to result from this program?

A6. The S&T Directorate is currently engaged in a wide variety of 
programs to provide additional capabilities for nuclear detection. The 
scope of these efforts spans from near-term product improvements that 
address immediate operational needs, to the development of next-
generation capabilities, to foundational science to enable the 
development of entirely new detection capabilities. Improvements 
expected from the overall nuclear detection R&D program include 
increased detector sensitivities, decreased scan times for higher 
detector through-put, ruggedization of equipment for unique operational 
deployments, decreased overall cost of ownership, and reduced labor 
required to operate the equipment.
    For chemical detection, the S&T Directorate is focusing its efforts 
on improving both detection performance and operational utility for 
detect-to-warn and emergency responder applications. Current chemical 
sensors tend to give false positive readings in real-world use, are 
unable to detect low vapor pressure chemicals, and require multiple 
detection systems to cover a broad range of potential chemical threats. 
The S&T Directorate's RDT&E efforts are focused on developing sensors 
with broader range (including low vapor threat agents) and lower false 
positive rates that can be integrated into a single detector. We have 
ongoing projects both to develop near-term solutions for detect-to-warn 
capabilities and for emergency responders and to provide more optimal 
solutions over the longer term.

Q7.  This committee has long been concerned about the balance between 
short- and long-term research and the tendency of agencies to focus 
resources on development at the expense of research. Your testimony 
notes that basic research is earning a higher percentage of the 
Directorate's proposed budget for FY 2006, but that is after it slipped 
backwards between FY 2004 and FY 2005.

Q7a.  What criteria do you use to evaluate whether the Directorate is 
devoting adequate resources to basic research?

A7a. The S&T Directorate has a formal risk-based strategic planning 
process (including threat, vulnerability, and consequence) that 
identifies critical areas of need for RDT&E. This process identifies 
both short- and long-term research needs that are required to meet our 
strategic objectives in support of securing the homeland.
    The S&T Directorate evaluates whether it is devoting adequate 
resources to basic research first by taking into account opportunities 
to leverage basic research conducted by others to maximize efficiency. 
The S&T Directorate then identifies the gaps in basic research that 
appear to be most relevant to the homeland security mission and 
assesses whether our applied and developmental efforts have sufficient 
basic information to facilitate RDT&E to secure the homeland. Because 
basic research programs typically have a longer timeline than applied 
and developmental programs, it is essential that the S&T Directorate 
always has a stable basic research program in areas relevant to the 
Department's and the S&T Directorate's strategic objectives.

Q7b.  How does the Directorate's priority-setting process deal with the 
tension between short- and long-term needs when making investment 
decisions?

A7b. The S&T Directorate's strategic planning process uses a risk-based 
approach (including threats, vulnerabilities, and consequences) that 
identifies critical areas of need for RDT&E. The potential impact of 
RDT&E investments is evaluated and those efforts, both short- and long-
term, that will have the greatest impact on reducing risk are pursued.
    In the two years that this Department has been in existence, the 
Science and Technology Directorate has focused its efforts on near-term 
development and deployment of technologies to improve our nation's 
ability to detect and respond to potential terrorist acts. However, we 
recognize that a sustained effort to continually add to our knowledge 
base and our resource base is necessary for future developments. Thus, 
we have invested a portion of our resources, including our university 
programs, toward these objectives. The following table indicates our 
expenditures in basic research, applied research, and development to 
date.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our expenditures in basic research are heavily weighted by our 
investments in university programs. These university programs will not 
only provide new information relevant to homeland security, but will 
also provide a workforce of people who are cognizant of the needs of 
homeland security, especially in areas of risk analysis, animal-related 
agro-terrorism, bioforensics, cyber security, disaster modeling, and 
psychological and behavioral analysis.

Q7c.  What is the likely trend in the Directorate's support for basic 
research over the next decade?

A7c. In FY 2004 and FY 2005, as well as the budget request for FY 2006, 
the allocation for basic research has been maintained at approximately 
81/2 percent of the total S&T Directorate's RDT&E budget. We plan to 
increase the allocation for basic research to over 10 percent in future 
years.

Q8.  One of the Department's first University Centers of Excellence, 
the Center for Risk and Economic Analysis of Terrorism Events at the 
University of Southern California, is receiving $12 million over three 
years ``to evaluate the risks, costs and consequences of terrorism and 
to guide economically viable investments in countermeasures,'' 
according to your testimony. It would seem that their work would be 
invaluable to you in setting priorities for the Directorate and 
evaluating the requests for support you receive from the Department or 
other agencies. What results have you received to date from our 
investment in this Center, and how are they contributing to the work of 
the Directorate's Office of Plans, Programs and Budget?

A8. The University of Southern California Homeland Security Center for 
Risk and Economic Analysis of Terrorism Events has been in existence 
for just one year. A number of significant studies and analyses are 
well underway at the Center.
    The Center and its consortium partners are developing modeling 
capabilities that cut across general threats and targets, represented 
by application areas such as electrical power, transportation and 
telecommunications. The Homeland Security Center is also developing 
tools for planning responses to emergencies in order to minimize the 
threat to human lives and reduce the economic impact in the event of an 
attack. The HS Center works closely with DHS to prioritize key research 
areas, and it also provides relevant educational programs. The grant 
allows the HS Center to pursue research and development and educational 
programs in accordance with DHS priorities. This will provide the 
Department with peer-reviewed, scientifically validated assessments and 
models and independent technical expert advice.

Q9.  You state in your testimony that ``[a]bout 60 percent of the 
Science and Technology Directorate's appropriation in FY 2005 will be 
executed directly through the private sector, with HSARPA managing 
about 40 percent of that.'' This committee has jurisdiction over 
another agency that executes much of its mission through the private 
sector. The National Aeronautics and Space Administration (NASA) has 
been prominent on the Government Accountability Office high-risk list 
for contract management problems for more than a decade. How does the 
Directorate plan to maintain the cadre of qualified program managers it 
will need to assure that its R&D efforts do not end up sharing NASA's 
problems in this area?

A9. The S&T Directorate recognizes the need for acquiring and 
maintaining a cadre of qualified program managers. The S&T 
Directorate's current program managers are senior staff with 
demonstrated program management effectiveness, not only in their work 
to date with the S&T Directorate, but also in their prior service in 
other government agencies, private industry, and academia. The S&T 
Directorate continues to recruit highly-qualified program managers and 
to support the continued development of current program managers 
through training. In addition, the S&T Directorate conducts program 
reviews to ensure that expected results are being achieved. Any 
deficiencies in program progress will be identified and addressed, 
including any deficiencies that would be attributable to program 
management. The S&T Directorate continues to place high emphasis on its 
program management responsibilities, including acquiring and 
maintaining qualified program managers.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



    Insert for the Record from Dr. Samuel W. Bodman in response to 
                    Representative Jerry F. Costello

    The following information for the record was submitted by Dr. 
Samuel W. Bodman, in response to a question asked by Representative 
Jerry F. Costello (see page 123).

    The competitive solicitation for site selection will be issued 
approximately three months after the FutureGen cooperative agreement 
with our industry partners is signed. We anticipate that site selection 
will be completed within 18 to 24 months after the signing of the 
cooperative agreement. The site selection will be a fair and open 
competitive process that would evaluate each of the proposed sites on 
its merits against a set of technical and environmental (National 
Environmental Policy Act--NEPA) criteria.

</pre></body></html>
